<html>
<title> - A REVIEW OF THE PRESIDENT'S RECOMMENDATION TO DEVELOP A NUCLEAR WASTE REPOSITORY AT YUCCA MOUNTAIN, NEVADA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 A REVIEW OF THE PRESIDENT'S RECOMMENDATION TO DEVELOP A NUCLEAR WASTE 
                  REPOSITORY AT YUCCA MOUNTAIN, NEVADA

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON ENERGY AND AIR QUALITY

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 18, 2002

                               __________

                           Serial No. 107-99

                               __________

       Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________
79-469              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida           JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania     EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         BART GORDON, Tennessee
ED WHITFIELD, Kentucky               PETER DEUTSCH, Florida
GREG GANSKE, Iowa                    BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           TOM SAWYER, Ohio
JOHN B. SHADEGG, Arizona             ALBERT R. WYNN, Maryland
CHARLES ``CHIP'' PICKERING,          GENE GREEN, Texas
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire       JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska
ERNIE FLETCHER, Kentucky

                  David V. Marventano, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Energy and Air Quality

                      JOE BARTON, Texas, Chairman

CHRISTOPHER COX, California          RICK BOUCHER, Virginia
  Vice Chairman                      RALPH M. HALL, Texas
RICHARD BURR, North Carolina         TOM SAWYER, Ohio
ED WHITFIELD, Kentucky               ALBERT R. WYNN, Maryland
GREG GANSKE, Iowa                    MICHAEL F. DOYLE, Pennsylvania
CHARLIE NORWOOD, Georgia             CHRISTOPHER JOHN, Louisiana
JOHN SHIMKUS, Illinois               HENRY A. WAXMAN, California
HEATHER WILSON, New Mexico           EDWARD J. MARKEY, Massachusetts
JOHN SHADEGG, Arizona                BART GORDON, Tennessee
CHARLES ``CHIP'' PICKERING,          BOBBY L. RUSH, Illinois
Mississippi                          KAREN McCARTHY, Missouri
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                 BILL LUTHER, Minnesota
GEORGE RADANOVICH, California        JOHN D. DINGELL, Michigan
MARY BONO, California                  (Ex Officio)
GREG WALDEN, Oregon
-- -- (Vacancy)
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Abraham, Hon. Spencer, Secretary, Department of Energy.......    32
    Berkley, Hon. Shelley, a Representative in Congress from the 
      State of Nevada............................................    22
    Chappelle, Hon. Laura, Chairwoman, Michigan Public Service 
      Commission.................................................   206
    Cohon, Jared L., Chairman, Nuclear Waste Technical Review 
      Board......................................................   189
    Colvin, Joe F., President and CEO, Nuclear Energy Institute..   210
    Dicus, Hon. Greta Joy, Commissioner, U.S. Nuclear Regulatory 
      Commission.................................................   181
    Dushaw, Jim, Director, Utility Department, International 
      Brotherhood of Electrical Workers..........................   215
    Ensign, Hon. John, a U.S. Senator from the State of Nevada...    26
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    17
    Holmstead, Hon. Jeffrey R., Assistant Administrator for Air 
      and Radiation, U.S. Environmental Protection Agency........   186
    Jones, Gary, Director, Natural Resources and Environment 
      Team, U.S. General Accounting Office.......................   194
Additional Material Submitted for the Record:
    Abraham, Hon. Spencer, Secretary, Department of Energy, 
      responses for the record...................................   273
    Cohon, Jared L., Chairman, Nuclear Waste Technical Review 
      Board, responses for the record............................   287
    Dicus, Hon. Greta Joy, Commissioner, U.S. Nuclear Regulatory 
      Commission, responses for the record.......................   281
    Holmstead, Hon. Jeffrey R., Assistant Administrator for Air 
      and Radiation, U.S. Environmental Protection Agency, 
      responses for the record...................................   291
    Jones, Gary, Director, Natural Resources and Environment 
      Team, U.S. General Accounting Office, responses for the 
      record.....................................................   284

                                 (iii)

  

 
 A REVIEW OF THE PRESIDENT'S RECOMMENDATION TO DEVELOP A NUCLEAR WASTE 
                  REPOSITORY AT YUCCA MOUNTAIN, NEVADA

                              ----------                              


                        THURSDAY, APRIL 18, 2002

                  House of Representatives,
                  Committee on Energy and Commerce,
                    Subcommittee on Energy and Air Quality,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 2123, Rayburn House Office Building, Hon. Joe Barton 
(chairman) presiding.
    Members present: Representatives Barton, Burr, Whitfield, 
Ganske, Norwood, Shimkus, Wilson, Shadegg, Pickering, Bryant, 
Buyer, Radanovich, Bono, Walden, Tauzin (ex officio), Boucher, 
Hall, Sawyer, Wynn, Doyle, Waxman, Markey, Rush, McCarthy, 
Strickland, Barrett, Luther, and Dingell (ex officio).
    Staff present: Dwight Cates, majority professional staff; 
Sue Sheridan, minority counsel; and Rick Kessler, minority 
professional staff.
    Mr. Barton. The subcommittee will come to order. As soon as 
our last members of the audience find their seat, we're going 
to begin the hearing.
    Would the gentleman of Louisiana, the full committee 
chairman, wish to go first with his opening statement?
    Chairman Tauzin. Thank you, Mr. Chairman. Let me thank you 
for holding this most important hearing. In my opinion, we're 
going to consider today one of the most important public health 
and safety issues the committee will consider this year.
    Mr. Barton. Do you have your microphone on?
    Chairman Tauzin. Yes. The development of a centralized and 
permanent geologic disposal site for the country's nuclear 
waste.
    Today, the high level nuclear waste is spread out at 77 
sites in more than 30 States and every region of the country 
and most of these waste sites are located near nuclear power 
plants where spent nuclear fuel is carefully stored. Several 
other nuclear waste sites were created due to weapons 
production activities of the DOE facilities like the Hanford 
site where liquid radioactive wastes are stored in tanks. Every 
one of these waste sites shares one common aspect, they were 
designed for temporary storage of these dangerous wastes, not 
for long-term storage.
    There are many negative risks posed by the failure to 
develop a single centralized disposal site for nuclear waste 
and currently more than 161 million Americans live within 75 
miles of a nuclear waste storage site. These waste sites are 
located near 20 major waterways which supply household water 
for more than 30 million Americans, and moreover, although 
these sites are well protected and secure, they could pose an 
attractive target, obviously, for terrorist attack.
    So for the sake of long-term public health and safety and 
our national interest and security, it is absolutely necessary 
and critical that we move to develop Yucca Mountain. The Yucca 
Mountain site is located 90 miles away from Las Vegas. It is an 
isolated site on remote Federal land at the Nevada test site, 
14 miles away from the closest residents and it is safe and it 
is secure. The waste there will be stored 1,000 feet 
underground and 500 feet above the water table. The waste will 
be placed in steel containers and the containers will be placed 
under titanium shields. Furthermore, not only is the air space 
around Yucca already restricted, but an existing security force 
at the Nevada test site will be available and will be charged 
with protecting the area. This is a comprehensive defense-in-
depth approach.
    In its January letter to Congress the Nuclear Waste 
Technical Review Board underscored this fact, stating 
``eliminating all uncertainty associated with estimates of 
repository performance would never be possible at any 
repository site. Policy makers will decide how much scientific 
uncertainty is acceptable at the time the various decisions are 
made.''
    On February 15, 2002, the President recommended on the 
advice of DOE's Secretary Spencer Abraham that Congress approve 
the Yucca Mountain site even if the State of Nevada objects as 
we know it has. Based on my review, and the understanding of 
DOE's extensive scientific work at the Yucca Mountain site, I 
am prepared to support this important policy decision as I hope 
this subcommittee and the full Committee on Energy and Commerce 
are prepared to do and to recommend the site for approval by 
the full House.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. W.J. ``Billy'' Tauzin 
follows:]

 Prepared Statement of Hon. W.J. ``Billy'' Tauzin, Chairman, Committee 
                         on Energy and Commerce

    Mr. Chairman, thank you for holding this important hearing. In my 
opinion, we will consider this morning one of the most important public 
health and safety issues the Subcommittee will consider this year--the 
development of a centralized and permanent geologic disposal site for 
the country's nuclear wastes.
    Today, high-level nuclear wastes are spread out at 77 sites in more 
than 30 states in every region of the country. Most of these waste 
sites are located near nuclear power plants, where spent nuclear fuel 
is carefully stored. Several other nuclear waste sites were created due 
to weapons production activities at DOE facilities like the Hanford 
site, where liquid radioactive wastes are stored in tanks.
    Every one of these waste sites shares one common aspect: They were 
all designed for temporary storage of these dangerous wastes--not long-
term disposal.
    There are many negative risks posed by the failure to develop a 
single centralized disposal site for nuclear wastes. Currently, more 
than 161 million Americans live within 75 miles of a nuclear waste 
storage site. These waste sites are located near 20 major waterways, 
which supply household water for more than 30 million Americans. 
Moreover, although these sites are well protected and secure, they 
could pose an attractive target for terrorist attack.
    So for the sake of long-term public health and safety, and our 
national security interests, it is absolutely critical that we move to 
develop Yucca Mountain.
    The Yucca Mountain site is located 90 miles away from Las Vegas. It 
is isolated on remote federal land at the Nevada Test Site, 14 miles 
away from the closest residence--and is safe and secure.
    The wastes will be stored 1,000 feet underground, and 500 feet 
above the water table. The wastes will be held in steel containers, and 
the containers will be placed under a titanium shield. Furthermore, not 
only is the airspace around Yucca already restricted, but an existing 
security force at the Nevada Test Site will protect the area. This is a 
comprehensive defense-in-depth approach.
    In its January letter to Congress, the Nuclear Waste Technical 
Review Board underscored this fact, stating: ``eliminating all 
uncertainty associated with estimates of repository performance would 
never be possible at any repository site. Policy-makers will decide how 
much scientific uncertainty is acceptable at the times various 
decisions are made . . .''.
    On February 15, 2002, the President recommended--on the advice of 
DOE Secretary Spencer Abraham--that Congress approve the Yucca Mountain 
site, even if the State of Nevada disapproves.
    Based on my review and understanding of DOE's extensive scientific 
work at the Yucca Mountain site, I am prepared to support this 
important policy decision. Thank you Mr. Chairman.

    Mr. Barton. Thank you, Mr. Tauzin. We would now hear from 
Mr. Sawyer with an opening statement. Oh, you want me to make 
mine first? Well, then we'll recognize the chairman for an 
opening statement.
    Today the subcommittee will review a Presidential decision 
that has long been coming, In the 1970's and the 1980's, the 
Department of Energy studied more than a dozen potential 
nuclear waste repository sites. In 1987, Congress designated 
Yucca Mountain as the single site to be studied by the 
Department of Energy for long-term geological disposal of the 
Nation's high level radioactive waste. The DOE study of that 
site has been concluded. The President has agreed with the 
Secretary of Energy's decision to recommend the site to 
Congress.
    The Nuclear Waste Policy Act has a specific process for 
making this decision and for its review by Congress and the 
State of Nevada.
    I want to welcome all of the witnesses here today and thank 
them for coming. I am particularly pleased that the Secretary 
of Energy, the Honorable Spencer Abraham of Michigan will be 
representing the Department of Energy. I know that there have 
been many demands on his time and there continue to be demands 
including many of the international energy situations of which 
we're all aware on a daily basis.
    I appreciate him being here. Of course, he's not here yet, 
but when he gets here I will appreciate him being here.
    I also want to welcome our newest member of the 
subcommittee, the Honorable Steve Buyer of Indiana. Not only is 
he here, he was here on time and that is a very good record to 
begin with.
    We also have a new vice chairman of the subcommittee, the 
Honorable John Shimkus of Illinois and he is here also. And so 
I want to welcome him with his new duties.
    I want to thank my good friend, Rick Boucher of Virginia 
who is due very shortly. He is a co-sponsor of this resolution, 
H.J. 87. I want to thank the full committee chairman, Mr. 
Tauzin, for his sponsorship; Mr. Dingell, the ranking member on 
the minority side for his help, establishing a good bipartisan 
process for the review of this important decision.
    I came to Congress in 1985. For my entire career, the 
Department of Energy has been studying the suitability of Yucca 
Mountain. I have been surprised and disappointed by the 
continual delays not related necessarily to site 
characterization, but to all the various aspects of the 
project. I have been pleased with what we have begun to hear 
finally from the scientists. I want to applaud the President 
and the Secretary of Energy for their decision and the 
employees of the Department of Energy for the comprehensive 
statement that serves as the basis of the opinion 
recommendation before us.
    We absolutely have to have a place where spent nuclear fuel 
can go and be safe for 10,000 years. I strongly believe that 
for the long-term safety and the security of the American 
people, we must consolidate nuclear waste in one well-studied, 
well-protected repository. It should not remain forever at more 
than 100 facilities scattered throughout the Nation as it is 
today.
    The Nuclear Waste Policy Act gives the Governor of the 
State where the repository is to be located, in this case, the 
Governor of the State of Nevada, a chance to object to the 
President's decision. The Governor of Nevada has exercised his 
rights under the law and objected. Foreseeing that possibility, 
the Act gives the Congress an opportunity to review the 
decision and the objection and make a nationally oriented 
decision. The Act lays out a fast track process for 
consideration of the objection as if to say that Congress knew 
then that we might be in this place that we are today.
    That's the purpose of this hearing.
    I have scheduled subcommittee consideration next Tuesday of 
H.J. Res. 87, the specific one sentence resolution called for 
in the Act that would override the veto of the Governor of 
Nevada. I expect this hearing will reaffirm my confidence in 
the suitability of Yucca Mountain and the appropriateness of 
deciding once and for all that Yucca Mountain is the site that 
the Department of Energy should attempt to license.
    I must point out that the Department still maintains the 
burden in getting Yucca Mountain ready to accept waste. It must 
submit a license application to the Nuclear Regulatory 
Commission. The NRC, an independent body, must review that 
application and determine whether it meets all of the 
protections in the law including those that have been recently 
promulgated by the Environmental Protection Agency. Action 
today does not mean that high level nuclear waste will go to 
Yucca Mountain tomorrow. It simply means that DOE is now 
allowed to take the next step in the NRC licensing process, 
that DOE can work on a transportation plan to transport the 
waste and that we can begin to move forward.
    I intend to work with the Department of Energy, the 
Environmental Protection Agency, the State of Nevada and 
interested stakeholders in making sure that as we go forward 
all interests are protected and all due process requirements 
are met.
    I want to especially thank Congressman Gibbons for his 
tremendous work on behalf of his District and his state. He has 
been a noble and honorable adversary, if that's the correct 
term and it's probably not adversary, I should say an advocate 
for his position and his state's position and we're delighted 
that you're going to be here to present your case to the 
subcommittee in a very few minutes.
    I look forward to the testimony of yourself, Congressman, 
and the other witnesses before us. With that, I'd like to 
welcome Mr. Sawyer for an opening statement.
    [The prepared statement of Hon. Joe Barton follows:]

Prepared Statement of Hon. Joe Barton, Chairman, Subcommittee on Energy 
                            and Air Quality

    Today, the Subcommittee will review a Presidential decision that 
has been a long time coming. In the 1970s and 1980s, the Department of 
Energy studied more than a dozen potential nuclear waste repository 
sites. In 1987, Congress designated Yucca Mountain as the single site 
to be studied by the Department of Energy (DOE) for long-term geologic 
disposal of the Nation's high-level radioactive waste.
    The DOE study of that site has concluded, and the President agreed 
with Secretary Abraham's decision to recommend the site to Congress. 
The Nuclear Waste Policy Act has a specific process for making this 
decision, and for its review by Congress and the State of Nevada.
    I welcome all of the witnesses here today, and thank you for 
coming. I particularly want to thank Secretary Abraham of the 
Department of Energy. I know there are many demands on his time, 
including disrupted international energy supplies, disagreements with 
the Governor of South Carolina, and floor consideration of the energy 
bill in the other body. I appreciate you being here.
    I also want to welcome the newest Member of the Subcommittee, 
Congressman Steve Buyer of Indiana. I look forward to working with him 
and know that he is very capable in dealing with energy and air quality 
issues.
    Before we begin, I want to thank my good friend Rick Boucher, the 
Subcommittee Ranking Member, for his help on this hearing and his 
cosponsorship of H.J.Res. 87. I also thank full Committee Chairman 
Tauzin and Ranking Member Dingell for helping establish a good process 
for the review of this important decision.
    I came to Congress in 1985. For all of my career, the Department of 
Energy has been studying the suitability of Yucca Mountain. I have been 
surprised by continual delays not related to site characterization, but 
I have been pleased with what I have heard from the scientists. I 
applaud the President and Secretary Abraham for their decision, and the 
employees of the Department of Energy for the comprehensive statement 
that serves as the basis of the recommendation.
    We need a place where spent nuclear fuel can go and be safe for 
10,000 years. I strongly believe that for the long-term safety and 
security of the American people, we must consolidate nuclear waste in 
one well-studied repository. It should not remain forever in more than 
one hundred facilities throughout the Nation.
    The Nuclear Waste Policy Act gives the Governor of Nevada a chance 
to object to the President's decision, and he has. Foreseeing that 
possibility, the Act also gives Congress the opportunity to review the 
decision and the objection, and make a Nationally-oriented decision. 
The Act lays out a fast-track process for consideration of the 
objection, as if to say that Congress knew then that we would be in 
exactly this place right now.
    I have scheduled subcommittee consideration next Tuesday of 
H.J.Res. 87, the specific one-sentence resolution called for in the 
Act. I expect that this hearing will reaffirm my confidence in the 
suitability of Yucca Mountain, and the appropriateness of deciding once 
and for all that Yucca Mountain is the site that DOE should try to 
license.
    I must point out that the Department of Energy maintains a burden 
in getting Yucca Mountain ready to accept waste. The DOE must submit a 
license application to the Nuclear Regulatory Commission (NRC). The 
NRC, an independent body, must review the application and determine 
whether it meets all of the protections in the law, including those 
recently promulgated by the Environmental Protection Agency (EPA).
    Action today does not mean waste gets shipped to Yucca Mountain 
tomorrow. It means that DOE can take the next step in the NRC process, 
that DOE can work on a transportation plan to continue our Nation's 
excellent record of transporting nuclear waste, and that the Federal 
Government can work with Nevada to make sure the State is ready, and 
well-compensated for, its hosting of this very necessary site.
    I look forward to the testimony of the witnesses.

    Mr. Sawyer. Thank you, Mr. Chairman. There are a lot of 
complex, technical issues involved in the designation of Yucca 
Mountain. We're going to explore some of those today. But 
ultimately, in my view, this boils down to a question of how 
many sites we want to have. I have heard our Chairman talk 
about 77 sites. I've heard of 103, 104. My staff tells me we're 
now talking about 131 sites that would be eligible for 
transportation to Yucca Mountain. It really does boil down to 
Mark Twain's advice. With a name like Tom Sawyer, I hear about 
Mark Twain every day of my life, so it's with care that I cite 
him, but he suggested that you're well served to put all your 
eggs in one basket and then watch that basket. That may well 
apply here as well as anything I can think of in terms of risk, 
danger and management of our long-term safety concerns.
    The Nuclear Waste Technical Review Board will be extremely 
helpful in that task. Since 1987, this Board of independent 
scientists has been charged with evaluating DOE's work on the 
Yucca project. In its report of January 24, the Board described 
important issues that are in need of further evaluation by DOE, 
especially the advantages of low temperature design. I would 
urge the Department to continue a rigorous scientific 
investigation of the site to resolve outstanding questions 
using scientific approaches recommended by the Board.
    I also urge the NRC, the DOT and the Department of Energy 
to step up their planning process for the transportation of 
waste. Waste shipments have had a safe record for the last 30 
years, but Yucca is a much larger project, much more complex 
involving many more routes than the government has handled to 
date. DOE estimates that over the next 40 years if this plan is 
adopted there will be between 50 and 300 transportation 
accidents of varying degrees of risk during the lifetime of 
this undertaking. There are critical decisions that have to be 
made to make the transportation of waste as safe as possible. 
Right now, armed guards for the waste are only required in 
urban centers, but that's clearly not sufficient after what we 
witnessed in September. In addition, it seems to me that 
railroad shipments of waste should be made by trains dedicated 
to that task. The waste itself is not explosive, of course, but 
we cannot afford the risk of shipping it with other materials 
and chemicals that if caught on fire could burn hotter than the 
temperature that the waste casks can withstand.
    There have been no full scale tests of the casks that the 
NRC has approved. Given the large number of shipments we can 
expect if Yucca is approved it would seem like a wise 
investment to require full scale tests of the equipment that we 
will depend upon for our safety.
    It also seems to me that population should be a significant 
factor in determining routes and methods of transportation. It 
doesn't make any difference whether you live in a rural area or 
an urban area. Lives are important wherever you are, but when 
you have dense concentrations of life around transportation 
routes, it seems to me that's a critical question.
    These are the kinds of issues to which I'll be paying 
attention if the project moves forward. Trying to design a 
repository that will last longer than human beings have been 
recording their history is an unprecedented scientific 
challenge. The fact is, we can never be absolutely certain. 
Congress will have to rely on the NRC to resolve important 
questions in coming years and license the safest repository 
possible. But right now enough is known, I believe, to move 
ahead.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Barton. I thank the gentleman and would recognize the 
gentleman from Georgia, Mr. Norwood for an opening statement.
    Mr. Norwood. Thank you very much, Mr. Chairman and I do 
appreciate this opportunity to be here today and let me start 
by commending you for your critical leadership on this issue.
    I believe that Yucca Mountain and its selection as a 
permanent waste repository for this country's spent nuclear 
fuel is probably one of the most important issues that this 
Congress can face.
    The United States has over 45,000 metric tons of spent 
nuclear fuel scattered across some 70 plus sites in this 
country and as a result of passive and ongoing commercial 
nuclear power plants alone with more spent nuclear fuel waste 
waiting on a permanent home as a result of the U.S. defense 
activities.
    Now Mr. Chairman, this issue may not be on the radar screen 
of every single American citizen, but let me assure you it is 
very important to a great many of my constituents, particularly 
those who live in Augusta and work at DOE, Savannah River site 
just across the Savannah River in Aiken, South Carolina.
    In addition, Yucca Mountain is important to the folks who 
live within my District in Burke County, Georgia, home of Plant 
Vogtle, operated by Georgia Power, which includes two separate 
reactors at approximately 1200 megawatts each.
    Congress, many years before I came here, had the foresight 
to put into motion a deliberate and meticulous plan for the 
development of a permanent repository for spent nuclear fuel 
and high level radioactive waste. This process began with a 
Nuclear Waste Policy Act of 1982 and was followed in 1987 by 
the single site characterization of Yucca Mountain.
    The Department of Energy has estimated that at roughly $6.7 
billion has already been spent on characterization and 
development activities at Yucca Mountain which much of this 
money coming from fees collected from currently operating 
commercial reactors paid into the Nuclear Waste Fund and 
Georgia ratepayers now have contributed over $460 million alone 
to this project.
    Consequently, having been to Yucca Mountain to see for 
myself, I believe leveraged dollars and extensive research have 
yielded sound science that warrants moving to the next step 
within this carefully crafted process of selecting Yucca 
Mountain as a permanent repository.
    I believe a permanent repository is tantamount to a 
coherent and comprehensive national energy policy that goal, I 
feel certain, of everyone on this committee, therefore I look 
forward to hearing more reasons from the witnesses today on why 
we should continue our course toward selecting a single 
permanent home to spent nuclear fuel in this country.
    Now I'd like to add, Mr. Chairman, that although I totally 
agree with the policy, I'm very disappointed with the delay. I 
feel strongly that you need to urge the Energy Department and 
others to let's get this job done, primarily for the sake of 
the Nation, but second for the sake of the members of this 
subcommittee. My good friend from Nevada has browbeat us to a 
considerable extent at this point. I wouldn't call him an 
adversary, but I'd call him very effective and if we can get 
this done and get Mr. Gibbons off of us it would be a big help. 
With that, I yield back.
    Mr. Barton. Well, I would point out if any of you want to 
go to a golf tournament, Congressman Norwood's got a little 
tournament has got a little tournament down in his District 
called the Masters and he tells me he's got lots of tickets for 
next year's tournament.
    Mr. Norwood. Mr. Chairman, careful here. I think you have 
to tell the truth.
    Mr. Barton. I'm not under oath at this time.
    The distinguished ranking member of the subcommittee, the 
gentleman from Virginia is recognized for an opening statement.
    Mr. Boucher. Thank you very much, Mr. Chairman. I want to 
extend a welcome to our many witnesses at the hearing today and 
a special welcome to our colleagues from Nevada, Senator Ensign 
and Representatives Shelley Berkley and Jim Gibbons. I also 
want to thank the Secretary of Energy, former Senator Spencer 
Abraham, for his time and for his participation in our hearing 
today.
    The bill which is pending before the subcommittee takes the 
next necessary step in the statutorily prescribed process for 
establishing a site for the permanent disposal of high level 
nuclear waste and I want to commend Chairman Tauzin of the full 
committee and Chairman Barton of the subcommittee for their 
diligence in taking this step. I'm a co-sponsor with them of 
the legislation which will move this process forward.
    A permanent secure site for the disposal of high level 
nuclear waste must be established. Forty-five thousand metric 
tons of waste now reside onsite at nuclear reactors in 72 
locations around the Nation. This temporary siting of spent 
fuel at reactor sites poses both a security threat and an 
environmental threat. In my view, arguments that the permanent 
disposal of waste in dry cask storage at these 72 dispersed 
sites as an alternative to the establishment of a secure, 
central permanent repository holds far less credence after 
September 11 than before. I think we really have no alternative 
to the development of a central disposal site.
    While arguments will be made that more could be learned 
about the proposed Yucca Mountain site, I would note that the 
recommendation of the Secretary of Energy that came forward in 
February of this year, that Yucca Mountain be chosen for 
permanent waste disposal is based on 20 years of scientific 
investigation of the Yucca Mountain site. The site 
characterization work required in Section 113 of the Nuclear 
Waste Policy Act has been carried out. The public hearings 
focusing on the Yucca Mountain site required in Section 114 of 
the Act have been completed and have been held. If Congress 
passes the legislation now pending before the subcommittee 
which overrides the disapproval of the President's site 
designation issued by Governor Guinn of Nevada on April 8, 
construction activities could not commence on the site until 
the Nuclear Regulatory Commission completes a full technical 
and scientific review of the site and the proposed disposal 
methods and then issues a license for construction.
    No site will ever be found to be perfect for the disposal 
of high level nuclear waste, but I'm persuaded that these 
studies and the NRC review which is still to come provides 
sufficient assurances about the appropriate nature of the Yucca 
Mountain site to justify approval of the legislation that is 
now pending before the subcommittee.
    Today's hearing provides an opportunity for the 
subcommittee to review and examine the basis for the 
Secretary's recommendation followed by the President's 
designation of the Yucca Mountain site. Those actions follow 
the consideration of the scientific findings, the national 
security concerns and the environmental consequences either of 
designating Yucca Mountain or of declining to do so.
    I look forward to the testimony today concerning those 
various matters.
    Finally, Mr. Chairman, I want to note that the Energy and 
Commerce Committee has a long tradition of addressing many of 
our Nation's most important and challenging public policy 
matters in a thoughtful and bipartisan fashion. Nowhere has 
that bipartisan cooperation been more in evidence than in our 
efforts to resolve nuclear waste disposal problems and I again 
commend the committee's leadership for moving expeditiously on 
this pending matter.
    Thank you, Mr. Chairman.
    Mr. Barton. Thank you, Congressman Boucher. At the 
beginning of the hearing, Congressman Sawyer was kind enough to 
let Chairman Tauzin and I go consecutively, so I'm going to 
give Congressman Dingell the opportunity, if he would wish, to 
go consecutively after Mr. Boucher, if the gentleman from 
Michigan would like to be recognized for an opening statement.
    Mr. Dingell. Mr. Chairman, first of all, I thank you and 
commend you for holding this hearing today to examine the basis 
for the President's recommendation of Yucca Mountain. And I 
also commend you for holding the hearing. It is a question that 
needs to be looked into by the Congress to ascertain whether, 
in fact, it's a scientifically suitable site for the 
construction of a permanent underground repository for high 
level nuclear waste.
    Many of us have been critical for the Department's slow 
pace in carrying out the job we first gave them in 1982. Under 
the 1987 amendments to the Nuclear Waste Policy Act, DOE was 
directed to narrow its search for a suitable site to Yucca 
Mountain with the goal of opening a repository in 1998, some 4 
years ago.
    Meanwhile, waste continues to be stored onsite at nuclear 
reactors long past the point when shipments to a repository 
should have begun and defense waste continues to be stored at 
unlicensed DOE defense facilities in a number of States. These 
events indicate a certain high level of danger to the public 
and to the national security. Billions of dollars of ratepayers 
monies have been expended in characterizing the site, at last 
count, according to my information, something like $11 or $12 
billion. Lawsuits continue to threaten the funds needed to move 
forward with the project.
    I wholeheartedly support the Act's original purpose of 
constructing a permanent underground repository for nuclear 
waste and I believe that Secretary Abraham's finding that Yucca 
Mountain is a scientifically suitable place is good news. It is 
important, however, to acknowledge that the vast majority of 
Members of Congress are not qualified to pass judgment on the 
specifics of the Secretary's findings on which the President's 
recommendation is based. That is why the Act requires DOE to 
obtain a license from the Nuclear Regulatory Commission, NRC, 
not the Congress.
    And it is the Commission that must determine whether or not 
the combination of the site and DOE's repository design will 
protect the public and the environment. This is a process which 
will begin in some time and it is not one which the Congress 
should at this time intrude into or to delay.
    The Act provides Nevada the right to object to the 
President's recommendation. Governor Guinn has done so. This 
requires the Congress to make a decision as to whether DOE 
should be permitted to go forward with an application to NRC. I 
believe it should. I commend the chairman for holding this 
hearing and particularly for including as witnesses, critics as 
well as supporters of DOE's findings. That will enable us to 
get the fairest picture of all of the circumstances associated 
with this matter. It is important for members to hear Nevada's 
concerns as well as those such independent entities as the 
General Accounting Office, the Nuclear Waste Technical Review 
Board, as well as the Environmental Protection Agency, again, 
to have the benefit of divergent views.
    Mr. Chairman, in dealing with the nuclear waste disposal, 
we have never found it to be easy. But over the years you have 
handled it fairly and with thoroughness. In the past years, you 
and I have labored diligently, if not necessarily successfully, 
to reform the budget rules so as to ensure that the tax payers 
and ratepayers funds collected for this project are restored 
and are fairly treated and properly expended.
    DOE acknowledges that this funding problem will begin to 
pinch by the year 2003 and it will have to be addressed sooner, 
rather than later or the repository program will grind to a 
halt. That battle is, however, for another day. I wish to thank 
you for your attention to it and remind my colleagues that the 
problem is still unresolved. I also remind them that the 
inquiry which we make today is in to a question which needs to 
be addressed to allow the licensing process to go forward and I 
would note to all that the licensing process and program will 
consider all questions associated with this matter, not just 
some narrow portion of the questions.
    I want it to be very clearly understood that this is a 
necessary part of a fair process and I will therefore 
enthusiastically support the legislation before us today.
    I also want to thank one of our witnesses, Laura Chappelle, 
the Chairman of the Michigan Public Service Commission for her 
recognition that this is an important funding issue. I thank my 
colleagues, I thank the witnesses and Mr. Chairman, I thank 
you. I yield back the balance of my time.
    Mr. Shimkus [presiding]. The gentleman yields back his time 
and we thank the ranking member. I will now recognize myself 
for 5 minutes. I too want to recognize my friend Jim Gibbons, 
and we fought many battles together. He is a forceful advocate 
for his state. He also understands that I have to be a forceful 
advocate for mine. And it's under those circumstances that no 
one in this room does not know my position and I think this is 
an important thing that we must do.
    As you all know, Illinois has quite a bit interest in this 
issue, particularly since we receive more electricity from 
nuclear energy, have more operating and closed nuclear 
facilities and have more spent nuclear fuel in temporary 
storage than any other state. So I applaud the President's 
decision to move on this and hope we can pass legislation 
quickly.
    I would like to address one specific aspect of this debate 
that tends to get a lot of attention and that is the fear of 
transporting the spent waste. The truth is concerns over 
transportation of spent waste are misguided. You can't argue 
with the fact that almost 3,000 safe shipments of used nuclear 
fuel have taken place without any release of radioactive 
material. That's right. On some 3,000 occasions, used fuel has 
traveled by truck or rail across the country, including almost 
500 in my home State of Illinois. And the reason you probably 
haven't heard about this is because not one of these shipments 
has threatened the environment or public safety. States like 
Illinois have gone to great lengths to set up a system that 
ensures safe transportation of nuclear waste through the State 
and across State lines. Even opponents of this bill will say 
that Illinois has set up a safe and reliable system for 
transporting the waste through the state. Local authorities are 
contacted and consulted. An emergency plan is in place and 
State employees track the waste as it moves through the state. 
And I would be happy to help facilitate State to State 
conversations on how it is done in Illinois.
    Transporting spent nuclear materials is safe. It has been 
proven to be safe and there is no reason to doubt that it will 
remain safe even with a large increase in shipments. And with 
that, I yield back my time and I will recognize the gentlewoman 
from the State of Missouri, Ms. McCarthy for 5 minutes.
    Ms. McCarthy. I thank you, Mr. Chairman and I'm happy to 
hear of the success of my neighboring state, Illinois. That has 
not been the case in my State of Missouri. The Energy 
Department has estimated that projected rail and truck 
shipments of nuclear waste could pass through the Kansas City 
area as often as twice a day. In past legislation, we have 
adopted language to address concerns of emergency responders 
and communities affected and given authority to Governors to 
weigh in on some of these transportation issues, but let me 
tell you that last year the first cross country shipment of 
nuclear waste traveled from South Carolina through Missouri, 
headed to an Idaho lab via the trucks and Governor Holden of 
Missouri discussed and agreed upon specific guidelines for the 
shipment of this waste with the U.S. Department of Energy. 
Despite these agreements, the Department of Energy failed to 
give a formal 7-day advance notification. The shipment went 
through the State of Missouri despite stating in its official 
notice that the waste would go through Iowa, not Missouri. A 
number of Missouri officials stated that the DOE's response to 
this dilemma was that it was simply a typo. This is 
unacceptable.
    The DOE has failed to avoid rush hour traffic in St. Louis 
and any of you who have visited that community know about the 
multiple beltways and the rush hour traffic dilemma and also 
the DOE has failed to address major public events. Recently, in 
the Kansas City area, the Royals were playing a baseball game. 
Their stadium is right on I-70 and 40,000 fans attended. Prior 
notice of special events was provided to the DOE and yet they 
failed to avoid this event when transporting a truck shipment 
of nuclear waste.
    The State of Missouri and DOE had agreed to safe parking 
areas that would be designated along the routes through 
Missouri in case of delays, accidents of bad weather or other 
concerns. However, the DOE shipped nuclear waste on trucks 
without even bothering to set up safe parking areas with the 
Missouri State officials. Safe parking areas are designed for 
truck shipments to make stops in case of emergencies in order 
to protect the public's welfare from any accidents that may 
occur and we do have incidents of storms and accidents on our 
highways that occurred during these shipments.
    Summer thunderstorms have caused numerous and serious 
problems arising on I-270 and I-70. At least once a rainstorm 
was reported during a DOE truck shipment through Missouri. The 
State of Missouri had previously advised the DOE to identify 
severe weather before sending out shipments in order to prevent 
any hazards occurring or having to halt the shipment due to 
road and weather conditions.
    Although DOE agreed to follow all these simple guidelines 
in order to assure the safety of the public, unfortunately, it 
failed to meet any of the agreements. I think the DOE needs to 
reevaluate its practices of shipping spent fuel and other high 
level radioactive waste through densely populated areas.
    I agree we must dispose of our spent nuclear fuel and it's 
critical we reduce the risk associated with this disposal as 
much as possible. We must continue to work to find the safest, 
most environmentally sound and most fiscally responsible 
solution for our constituents. The future and health of our 
community depends on this.
    I understand that language is not allowed in the measure 
before us to address these concerns, but I do urge the 
Commission to assure us that strict safety measures and the 
cooperation with State emergency response officials and 
Governors be adhered to for the safety of all concerned.
    I thank you, Mr. Chairman, and I yield back the balance of 
my time.
    Mr. Barton. I thank the gentlelady from Missouri and I'm 
sure that that typo will not occur again. It's hard to get 
Missouri out of Iowa, no matter how you type it. It just 
doesn't work, does it?
    The gentleman from Iowa, Mr. Ganske, is recognized for an 
opening statement.
    Mr. Ganske. Thanks, Mr. Chairman. A year ago, this 
committee held a hearing on nuclear energy. Much has happened 
since then, but it is still true that nationwide, nuclear power 
plants produce approximately 20 percent of the electricity 
consumed in the United States and I am still acutely aware of 
the need to establish a permanent repository for spent fuel. 
The Nuclear Waste Policy Act of 1982 required that a site be 
established no later than January 31, 1998 and still we wait.
    This has caused local facilities to build more onsite 
storage which has never been the best public policy option. The 
current goal of the Department of Energy for opening the 
permanent site is now 2010, 12 years past the original 
deadline. I believe the President made the right choice on this 
issue and that Congress should affirm his decision regarding a 
permanent storage facility and move forward with steps for its 
implementation.
    Even long-time opponents of the permanent storage site have 
come around to see the merits of the President's position. The 
Des Moines Register, on March 17 this year, ran this editorial 
with the headline, ``Move Ahead on Yucca Mountain''. This is 
after years of opposing Yucca Mountain. The Register said it 
would be short-sighted to oppose the permanent storage of 
nuclear waste, calling the risks associated with the permanent 
storage and the transfer of material overstated and saying that 
the greater danger from nuclear waste is leaving it where it is 
currently being stored.
    I quote from the Register: ``Any concerns about the safety 
of Yucca Mountain pale in comparison to the risk of letting the 
waste continue to pile up at scores of sites around the 
country.''
    Mr. Chairman, for years I have agreed with that statement. 
It is long past time to act on this issue. I yield back my 
time.
    Mr. Barton. We thank the gentleman from Iowa. We would 
welcome the gentleman from Maryland for an opening statement.
    Mr. Wynn. Thank you, Mr. Chairman, and thank you for your 
leadership on this issue. I believe it is critical that we 
resolve the issue of finding a suitable site for nuclear waste 
disposal. Currently spent nuclear fuel and high level 
radioactive waste are temporarily stored at 131 above-ground 
facilities in 39 States; 161 million Americans live within 75 
miles of these sites. One central site provides more protection 
for this material than due the existing 131 sites.
    We have spent $7 billion studying this issue over 20 years. 
American consumers have committed $18 billion since 1983 to the 
Federal Trust Fund to fund the storage of this spent fuel. We 
need to make a decision. We need to uphold the decision that 
has been recommended to us and I certainly urge us to do so as 
quickly as possible.
    Let me talk for a moment about my own State, Maryland. The 
Maryland use of nuclear energy pay a fee for disposal of 
nuclear waste. As of September, Maryland had paid a total of 
$257 million into the Nuclear Waste Fund since 1983. We are 
expecting that this fuel will be stored in a long-term 
facility. Right now, facilities store this fuel on a temporary 
basis. They are not designed for permanent storage. The Federal 
Bureau of Investigation has determined these facilities to be 
hard targets. We need to minimize this. While the fuel is safe, 
when it is producing electricity, it represents a serious 
threat if it remains at 131 sites.
    After 45 years of experience and 3,000 shipments of 
nuclear--used nuclear fuel by rail/truck, no radiation release, 
fatalities or injuries or environmental damage has occurred. I 
believe it's time to make a decision and I strongly urge the 
committee and all of my colleagues to adopt the Yucca Mountain 
site.
    I relinquish the balance of my time.
    Mr. Barton. We thank the gentleman from Maryland. We'd now 
recognize the gentleman from Kentucky, Mr. Whitfield, for an 
opening statement.
    Mr. Whitfield. Mr. Chairman, I note that we have four 
panels and about 12 witnesses and I really can't think of much 
else to say, so I'll waive my opening statement.
    Mr. Barton. That's the best opening statement we've heard 
so far.
    I would recognize the gentleman from Mississippi for 
another excellent opening statement.
    Mr. Pickering. Mr. Chairman, with that fine example, I'll 
yield back the time, but it's long past due that we solve this 
problem. Thank you for your leadership.
    Mr. Barton. We're going to recognize the gentleman from 
Arizona, the man with a heart, Mr. Shadegg, for an opening 
statement.
    Mr. Shadegg. Mr. Chairman, some of us are slow learners, so 
I won't give quite as good an opening statement as the 
preceding two.
    Mr. Barton. Somehow I guessed that.
    Mr. Shadegg. I do want to thank you for your quick action 
on House Joint Resolution 87 in both scheduling a hearing and a 
subcommittee markup. Time is, of course, of the essence and 
since Congress has by statute only 90 legislative days to 
override the veto issued by Nevada's Governor. Because we do 
have 13 witnesses I will be brief.
    Let me just note that Yucca Mountain has been under study 
as a site for permanent disposal for nuclear waste for some 24 
years. During this time we have spent, according to my numbers, 
$4 billion, over $4 billion to produce roughly 600 different 
studies of the site. Indeed, it is without a doubt, this is the 
most heavily studied piece of ground in the world. Today's 
action does not end the study process, it simply allows the 
Nuclear Regulatory Commission to begin the licensing process 
during which it will evaluate the studies done to date, as well 
as studies performed during the 4 years that the license 
process itself will take. Most importantly, it allows the 
process which has already taken significantly longer than 
planned to proceed.
    Mr. Chairman, I concur wholeheartedly. We need to move 
forward. I concur in the remarks of my colleague from Maryland. 
It is time that we conclude this process and I look forward to 
the testimony to today's witnesses.
    Mr. Barton. I thank the gentleman. Does Mr. Buyer wish to 
make a brief opening statement?
    Mr. Buyer. No.
    Mr. Barton. Okay. All those members not present will have 
the requisite number of days to put their opening statements in 
the record. Without objection, so ordered.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Heather Wilson, a Representative in Congress 
                      from the State of New Mexico

    Mr. Chairman, thank you for holding this first hearing in the 
Congress to receive testimony on the President's decision to recommend 
the Yucca Mountain site as the geologic repository for spent nuclear 
fuel and high level nuclear waste and the objections to that 
recommendation from the State of Nevada.
    Nuclear energy is a vital component of our nation's electricity 
supply; contributing over 20% of electricity generated. Its strong 
presence diversifies our nation's energy portfolio, reducing our 
dependence on foreign oil, dirty coal, and natural gas with its 
volatile prices.
    We are obligated to responsibly manage the spent nuclear fuel that 
remains in interim storage locations throughout the country. Temporary 
facilities, many near waterways and major cities, are not the solution 
for long term storage. Protection of the public's health and safety 
without harming the environment are the key issues for designing a 
system, including transportation and containment, for long term storage 
of this material. Per the National Academy of Sciences--geological 
disposal remains the only long-term solution available.
    Certainly, as with the opening of the Waste Isolation Pilot Plant 
in New Mexico, sound science must be the foundation for this decision 
to move forward in developing the Yucca Mountain repository. Science 
provides the basis for understanding the challenges faced by ensuring 
long-term safety and engineering provides the solutions based upon the 
science. The ratepayers for nuclear generated electricity and the 
federal government have invested several billion dollars in the 
scientific understanding of the repository site and design, resulting 
in the DOE issuing a positive Site Suitability Evaluation.
    Moving the spent fuel from sites around the country to the 
repository will be done by truck and rail transport in specially 
designed containers proven to withstand stringent safety tests. We have 
a 30-year record demonstrating that we can safely transport nuclear 
material in this country. In over 2700 shipments of nuclear material 
that have already occurred in this country, there have been but a 
handful of accidents with none of those releasing any radioactivity. 
The same, engineered features that protect shipping casks from 
accidents limit their vulnerability to potential terrorist strikes. 
These design features are combined with rules governing physical 
surveillance and protection during shipment.
    While New Mexico does not have any commercial nuclear power plants, 
we do have research nuclear reactors and high level waste at the 
laboratories that will require material storage in the future. I 
mentioned the Waste Isolation Pilot Plant, which is near Carlsbad, New 
Mexico. This facility went through an arduous site characterization and 
licensing process filled with scientific and political debate. Today it 
is safely receiving shipments of transuranic waste from several sites. 
New Mexico is doing its part. Mr. Chairman, the science shows that 
Yucca mountain is suitable for long-term spent nuclear fuel storage, 
experience shows that we can safely transport it, and if we don't move 
forward on this basis I'm not sure we'll ever be able to responsibly 
deal with long-term storage for used nuclear fuel.
    Thank you Mr. Chairman.
                                 ______
                                 
Prepared Statement of Hon. Ralph M. Hall, a Representative in Congress 
                        from the State of Texas

    Mr. Chairman and Members of the Committee--this is a watershed 
moment for those of us who have been a part of this siting process for 
many years. I vividly recall that the decisions on the siting process 
that this Committee and the Congress made in the enactment of the 
Nuclear Waste Policy Act of 1987 were painful ones. It was clear from 
the beginning that some state needed to be the host for the repository, 
and of course, that turned out to be Nevada.
    I believe we know enough now about the site to be confident that 
the proposed Yucca Mountain repository is safe and secure enough to 
move to the licensing process. I have the confidence that the Nuclear 
Regulatory Commission possesses the skills, talent and the wisdom to 
fairly and impartially review the Department of Energy's licensing 
application and issue a license for the project and the courage to 
reject it if it doesn't. As a regulatory agency, the NRC is better 
equipped and qualified than the Congress to evaluate the complex 
technical arguments for and against the licensing and operation of the 
repository.
    This is not perfect site. As with any geologic formation there are 
some risks that that things will not remain the same for the next 
25,000 years as they are now. The experts tell us that these risks are 
extremely low. The NRC licensing process will affirm or refute the 
DOE's conclusions about the site.
    What I do know is that even though Yucca Mountain is not entirely 
risk free, it is far, far less risky to store the fuel in a single, 
secure location than to leave it in place where it's now located at 
hundreds of sites around the country.
    I hope that Yucca Mountain proves to be that site, and I will vote 
to approve the resolution to move the project to the licensing process.
    With that, Mr. Chairman, I yield back the balance of my time.
                                 ______
                                 
  Prepared Statement of Hon. Mike Doyle, a Representative in Congress 
                     from the State of Pennsylvania

    Mr. Chairman, thank you for conveneing this hearing to examine the 
issues informing the recommendation of Yucca Mountain as the site for 
the nation's long-term repository for the disposal of radio active 
waste.
    During the Subcommittee's first hearing on nuclear energy policy 
last March and its subsequent consideration of Price Anderson, it was 
established that not only should we remain mindful of the important 
near-term and long-term role that nuclear energy plays, but we can not 
afford to be distracted from making the necessary commitments to 
ensuring its safety and longevity. I believe we made progress in 
addressing near-term concerns through the Committee's energy bill. And 
the passage of Price Anderson enables the Subcommittee to address 
perhaps the most critical of long-term concerns--the designation of 
Yucca Mountain as a repository for spent nuclear fuel and high-level 
radioactive waste.
    As we all know, Yucca Mountain has been studied for a significant 
amount of time by a wide range of scientific experts. The data produced 
from these studies is, as is evidenced by the array of testimony we 
will hear today the subject of varied interpretations. And, therefore, 
I believe it is important that we keep in mind there are disparate 
objectives and starkly different modes of assessments to be found in 
the statements we will hear today. What will be discussed during this 
hearing will not only address nuclear energy policies, the strengths of 
the Yucca site, and the NRC licensing process, but it will also point 
out the importance of reliable testing and appropriate assessment. 
Thus, in many instances the conclusions reached on the different 
aspects of the Yucca debate are at times no more significant than the 
degree to which the manner of information gathering may have 
inadvertantly contributed to a flawed conclusion.
    I think we would all agree that the more information the better and 
that obtaining information from numerous sources is also beneficial to 
producing an accurate conclusion. In this regard, it would appear that 
those who would advocate halting the entire process over proceeding to 
deal with nuclear waste are overly narrow in their approach. If we are 
to effectively address the concerns posed by nuclear waste, we must 
provide the process with adequate support and necessary oversight. DOE 
should be--and must be--responsive to the input from the Nuclear Waste 
Technical Review Board and the NRC. Only through these interactions 
will we continue to learn more and ensure the safety of Yucca Mountain.
    In Pennsylvania, nuclear power supplies 37.9 percent of its power. 
This is significant given that nationally nuclear power accounts for 20 
percent of electricity production. Since 1983, Pennsylvania consumers 
have committed well in excess of $1.4 billion into the Nuclear Waste 
Fund. As you can imagine, I have concerns about the accees to, and 
affordability of, nuclear energy. Pennsylvania also has 9 nuclear units 
at 5 sites. There is over 3,000 metric tons of nuclear fuel stored in 
the state. And according to testimony we will hear later, my 
congressional district may have waste transported through it on its way 
to Yucca. Thus, it is no surprise that I am concerned about safety 
issues and support developing new technologies. But it is my concerns 
about these nuclear energy issues that lead me to believe that moving 
forward with the process of establishing Yucca Mountain as a nuclear 
waste repository is the best option.
    Thank you Mr. Chairman
                                 ______
                                 
Prepared Statement of hon. Bobby L. Rush, a Representative in Congress 
                       from the State of Illinois

    Thank you Mr Chairman for holding today's hearing on the 
designation of Yucca Mountain as a repository for nuclear waste. I am 
hopeful that today's hearing will bring us closer to resolving an issue 
that has been before the Congress, and the scientific community for 
over 20 years.
    Despite a continuous, 13 year devotion of over 6 billion dollars in 
resources to the study of Yucca Mountain, some in the public have 
continued to raise doubts over its suitability as a repository. And 
while the fears expressed by critics are understandable, I am concerned 
that no matter how much research is conducted on the subject of Yucca 
Mountain, there will always be those who object to the movement and 
storage of nuclear waste at any facility.
    Armed with the recently released reports by the General Accounting 
Office and the Nuclear Waste Technical Review Board, opponents to Yucca 
Mountain, point to the less-than-glowing review of the research yielded 
on the suitability of the project.
    Admittedly, I too had concerns, especially over the Technical 
Review Board's less than encouraging characterization of the DOE basis 
for repository assessment as ``weak to moderate.'' However, after 
putting this relatively early pre-licensing stage into perspective, I 
have grown confident that the simple recommendation by the Department 
of Energy, that Yucca Mountain will likely be sufficient for a license 
application--is warranted.
    Still, many oppose Yucca Mountain on the basis of uncertainties in 
transport and storage. Mr. Chairman, I am convinced that short of 
waiting ten thousand years to see what happens with regard to the 
durability of the natural and engineered barriers to environmental 
contamination, there will be no guarantees. And while some individuals 
search and debate for that ten thousand year guarantee, our immediate 
problems stare us all in the face. Short of absolute inaction, nuclear 
waste must be transported somewhere. Inaction cannot be the solution.
    Mr. Chairman, while the debate rages over whether a Yucca Mountain 
repository could possibly contaminate the water table beneath the 
desert repository within the next ten thousand years--over 45 thousand 
metric tons of nuclear fuel sit in 131 facilities nationwide--none of 
which have seen a fraction of the testing and scrutiny that Yucca 
Mountain has undergone. Incidentally, these are 131 facilities which 
threaten the drinking water of 30 million Americans.
    While the debate continues to rage over whether transporting 
nuclear waste to Yucca Mountain will create moving targets for 
terrorists, there are 131 stationary targets for terror sitting in our 
back yards.
    Mr. Chairman, some would like to turn back the hands of time to a 
world without nuclear energy or waste, but we must deal with reality. 
Simply put, the door of nuclear energy has already been opened in this 
country, and around the world. And the benefits overall, have been 
tremendous. However, the potentially harmful byproduct of our cleanest 
and arguably most beneficial source of energy MUST be dealt with. And 
Mr. Chairman, I am convinced that our best chance of doing that is 
through Yucca Mountain, and the best time is now.

    Mr. Barton. We now want to go to our first panel, our 
congressional panel. We have two excellent Congresspersons, the 
gentleman from Nevada, the gentlelady from Nevada.
    Before Mr. Gibbons is recognized, I say Nevada, some of 
these folks say Nevada. Is it Nevada or Nevada?
    Mr. Gibbons. Nevada.
    Ms. Berkley. Nevada.
    Mr. Barton. Nevada. I hope all my subcommittee will take 
note of that I pronounced it correctly.
    Mr. Gibbons. I want you to know we have a Ramada Hotel, but 
it's in Nevada.
    Mr. Barton. A Ramada in Nevada. Okay. Well, the gentleman 
from Nevada is recognized for an opening statement. Try to keep 
it less than 7 minutes, if at all possible.

  STATEMENTS OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
       FROM THE STATE OF NEVADA; HON. SHELLEY BERKLEY, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEVADA; AND HON. 
      JOHN ENSIGN, A U.S. SENATOR FROM THE STATE OF NEVADA

    Mr. Gibbons. Mr. Chairman and members of the committee, I 
want to thank you greatly for allowing us to testify on this 
very important issue. The disposal of the Nation's high level 
nuclear waste has been and remains and important issue for many 
Americans. However, for the past 20 years it has been the 
single most important issue for the State of Nevada. And just 
as a historical note, Mr. Chairman, the Nuclear Waste Policy 
Act of 1982, as amended, in 1987, selected Nevada and Yucca 
Mountain as the sole site to be studied for consideration of 
nuclear repository.
    It's very important to note, Mr. Chairman, under this law 
and its subsequent amendment, a finding that the site is 
suitable to become a high level waste repository for the next 
10,000 years would require, and I repeat, would require that 
the site be determined geologically sound.
    Mr. Chairman, as a person who holds a Master of Science 
degree from the University of Nevada in geology, I'm probably 
one of the few geologists in Congress, but I can tell you 
having looked at this Yucca Mountain is not, nor will it ever 
be, geologically sound. Now whether Americans support a sole 
permanent repository for high level nuclear waste or whether 
they don't is an issue that can be debated, but nobody in this 
room can predict what the next 10,000 years will bring at Yucca 
Mountain, no matter whether we are discussing seismic activity, 
volcanic activity, meteorological activity or otherwise. 
Regardless of what the DOE's crystal ball may show, the future 
stability of Yucca Mountain is in question even by its own 
scientists.
    Mr. Chairman, the DOE has a duty to ensure the safety and 
suitability of this repository and the area surrounding Yucca 
Mountain. The Nevadans I represent deserve promises that can be 
kept by the DOE, and frankly they don't have a great deal of 
credibility in our State when it comes to being truthful with 
our citizens. Just look at the billions of dollars that have 
been spent by the DOE at Yucca Mountain. They are trying to 
spend their way into ensuring compliance with a Nuclear Waste 
Policy Act and that alone, Mr. Chairman, begs the question if 
the site is geologically sound, why so much cost on the 
engineering aspect of this project? The answer is you cannot 
spend enough money to make a mountain geologically sound.
    What will the DOE realize is that they can spend enough to 
make the man-made engineering barriers sound. The problem is 
that is not what the law requires.
    If you look at the fine print and if you look hard enough 
you'll see that the DOE has failed to prove Yucca Mountain 
geologic suitability and they have made promises that they 
cannot keep. How do I know this and how do the American people 
know this? Because once DOE started digging and actually 
studying Yucca Mountain, they realized they would have to 
change the rules in order to meet the suitability standards 
mandated by Congress in the Act. And what the DOE found out was 
this: (1) rates of water infiltration into the mountain are on 
the order of 100 times higher than previously thought; (2) 
credible studies indicate a significant presence of balsatic 
volcanism in and around Yucca Mountain; (3) with Nevada ranking 
third in the Nation in seismic activity has been determined 
that there have been nearly 700 cases of earthquake or seismic 
activity of 2.5 magnitude on the Richter Scale or more near 
Yucca Mountain since 1976. That's 700 occurrences. In fact, 
about 10 years ago, a 5.6 level earthquake occurred less than 
10 miles from Yucca Mountain and actually caused some damage to 
nearby DOE facilities. So what has been the DOE response to 
these findings, findings that even the DOE themselves 
acknowledge? They retroactively change the rules for site 
suitability. They moved the goal post.
    You see, the DOE cannot prove Yucca Mountain's capability 
of serving as a long-term high level nuclear waste repository 
that is geologically sound. Their response: adopt new rules 
permitting the Agency to rely entirely on man-made waste 
packages.
    Mr. Chairman, I ask is this what Congress intended? I don't 
think so. As Members of Congress, we have an oversight role in 
this process. We have a responsibility to reign in such 
administrative abuse. Congress wrote the law clearly to State 
that the site must be--not shall be, not will be, not should 
be, but must be geologically suitable.
    As with any legislation we debate and eventually pass in 
Congress, we have a responsibility to ensure that all of our 
laws are thoroughly and responsibility carried out. Congress 
must not allow ourselves to be motivated by carelessness, 
convenience or political expediency. Unfortunately, this is 
what the DOE has done.
    Again, the Yucca Mountain project has become focused on 
nothing more than an array of engineered waste packages, that 
just happen to be intended for burial at Yucca Mountain. This 
policy has more to do today with the man-made capabilities in 
storing this waste and far less to do with the natural geologic 
capabilities that was mandated by Congress.
    If this was the intent of Congress some 20 years ago why 
then has the DOE spent $8 billion even studying Yucca Mountain? 
Mr. Chairman, we can and should be debating the future of 
nuclear power in this Nation. As a matter of fact, I'd like to 
be part of that debate because I see nuclear power as being a 
valuable part of our overall energy portfolio in America. We 
can and should be debating a waste disposal policy in this 
Nation so long as we consider today's technological 
advancements and how these technologies can assist us in our 
disposal efforts. Instead, we're pushing headlong toward a 
policy that doesn't come close to even passing the smell test 
and it is severely outdated by today's scientific standards. 
The DOE continues to rely on several decades old science to 
push for deep geologic burial of high level nuclear waste.
    Mr. Chairman, bright, innovative minds and scientists all 
across this Nation and in fact, across the world are proving 
that there are better ways, cleaner ways and safer ways to 
dispose of high level waste. Unfortunately, the DOE offers 
nothing but a 25 year old entrenched and outdated philosophy of 
geologic burial. Here, in America, we pride ourselves on being 
a beacon of technological advancements, scientific advancements 
and medical advancements, yet we find ourselves cemented in a 
policy that offers us nothing but a policy of 30 years of 
transporting high level waste to a whole in a desert mountain 
for burial where we expect, and I repeat, we just expect it to 
remain safe to the next 10,000 years. Mr. Chairman, the State 
of Nevada, our Governor issued a notice of disapproval of the 
President's recommendation. Above all the rhetoric and the 
different reasons why many of us oppose the Yucca Mountain 
project, this committee and this Congress must ask itself 
whether the Nuclear Waste Policy Act has been followed as 
Congress intended.
    As a proponent of nuclear power and its use in this 
country, I would without hesitation take the opportunity to 
discuss with this committee some of the innovative 
technological advancements that I've had the opportunity to 
study. These advancements can provide a more reasonable, less 
costly, more expedient solution to dealing with the tens of 
thousands of metric tons of high level waste piling up at our 
nuclear power plants.
    Mr. Chairman, I want to be part of the solution and I 
believe the dangerous, costly and irresponsible path to Yucca 
Mountain does not and should not represent the best that this 
country has to offer. My only request is that the Members of 
this committee and of Congress as a whole take one last look at 
the law and ask yourself whether you think the DOE has met the 
standards mandated to them by this body.
    I trust you will realize that we as a Nation can do much 
better in solving the waste disposal problem. Mr. Chairman, and 
members of the committee, once again thank you for allowing us 
to testify. I appreciate the opportunity to present Nevada's 
case to you today.
    Thank you.
    [The prepared statement of Hon. Jim Gibbons follows:]

 Prepared Statement of Hon. Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    Mr. Chairman, thank you for allowing me to testify at this 
important hearing.
    The disposal of our nation's high-level nuclear waste is an 
important issue to many Americans. However, for the past 20 years, it 
has been the most important issue to the State of Nevada.
    As you know, the Nuclear Waste Policy Act of 1982 was amended in 
1987--selecting Yucca Mountain, Nevada, as the sole site to be studied 
for construction of a nuclear repository. Under this law and its 
subsequent amendment, a finding that the site is ``suitable'' to become 
a high-level waste repository for the next 10,000 years would require 
that the site be determined ``geologically'' sound.
    Mr. Chairman, I hold a Masters of Science Degree in Geology, and I 
must tell you, Yucca Mountain is not, nor will ever be, geologically 
sound.
    Now, whether Americans support a sole, permanent repository for 
high-level nuclear waste or not is an issue that can be debated. But 
nobody in this room can predict what the next 10,000 years will bring 
at Yucca Mountain--no matter whether we are discussing seismic 
activity, volcanic activity, meteorological activity, or otherwise.
    Regardless of what the DOE crystal ball may show, the future 
stability of Yucca Mountain is in question--even by its own scientists. 
Mr. Chairman, the DOE has a duty to ensure the safety and suitability 
of this repository and the area surrounding Yucca Mountain. The 
Nevadans I represent deserve promises that can be kept by the DOE--and 
frankly, they don't have much credibility in our State when it comes to 
being truthful with our citizens.
    Just look at the billions of dollars that have been spent by the 
DOE at Yucca Mountain. They are trying to spend their way into ensuring 
compliance with the Nuclear Waste Policy Act. That alone begs the 
question--if the site is geologically sound, why so much cost on the 
engineering aspect of this project?
    The answer is that you cannot spend enough money to make a mountain 
geologically sound. What the DOE realizes is that they can spend enough 
to make the man-made, engineering barriers sound. Problem is, that is 
not what the law requires.
    If you look hard enough, you will see that the DOE has failed to 
prove Yucca Mountain's geologic suitability, and they have made 
promises that they cannot keep.
    How do I know this--and how do the American people know this?
    Because once the DOE started digging and actually studying Yucca 
Mountain, they realized they would have to change the rules in order to 
meet the suitability standards mandated by Congress.
    What the DOE found out was this:

1) Rates of water infiltration into the mountain are on the order of 
        100 times higher than previously thought.
2) Credible studies indicate a significant presence of basaltic 
        volcanism in and around Yucca Mountain.
3) With Nevada ranking third in the nation in seismic activity, it has 
        been determined that there have been nearly 700 cases of 
        seismic activity of 2.5 magnitude or more, near Yucca Mountain, 
        since 1976.
      In fact, about 10 years ago, a 5.6 level earthquake near Little 
        Skull Mountain--less than 10 miles from Yucca Mountain--
        actually caused some damage to a nearby DOE facility.
    So what has been the DOE response to these findings--findings that 
even the DOE themselves acknowledge? They retroactively change the 
rules for site suitability. You see, the DOE cannot prove Yucca 
Mountain's capability of serving as a long-term, high-level waste 
repository that is geologically sound.
    Their response: Adopt new rules permitting the agency to rely 
entirely on man-made waste packages. Mr. Chairman, is this what 
Congress intended? I think not.
    As Members of Congress, we have an oversight role in this process--
and we have a responsibility to rein-in such administrative abuse. 
Congress wrote the law clearly to state that the site must be . . . not 
should be . . . or ought to be . . . but must be geologically suitable. 
As with any legislation we debate and eventually pass in Congress, we 
have a responsibility to ensure that all of our laws are thoroughly and 
responsibly carried out. Congress must not allow ourselves to be 
motivated by carelessness, convenience or political expediency.
    Unfortunately, this is what the DOE has done.
    Again, the Yucca Mountain project has become focused on nothing 
more than an array of engineered waste packages--that will just happen 
to buried at Yucca Mountain. This policy has more to do today with the 
man-made capabilities in storing this waste, and far less to do with 
the natural geologic capabilities--as was mandated by Congress. If this 
was the intent of Congress some 20 years ago, why have we spent nearly 
$8 billion even studying Yucca Mountain.
    Mr. Chairman, we can and should be debating the future of nuclear 
power in this nation. As a matter of fact, I would like to be a part of 
that debate because I see nuclear power as being a valuable part of our 
overall energy portfolio in America. We can, and should be debating a 
waste disposal policy in this nation . . . so long as we consider 
today's technological advancements, and how these technologies can 
assist us in our disposal efforts.
    Instead, we are pushing head-long towards a policy that doesn't 
come close to passing the ``smell-test'' and is severely out-dated by 
today's scientific standards. The DOE continues to rely on several 
decades-old science to push for deep, geologic burial of high-level 
waste. Bright, innovative minds all across this nation--and in fact the 
world, are proving that there are better ways, cleaner ways, a safer 
ways to dispose of high-level waste.
    Unfortunately, the DOE offers nothing but roadblocks.
    Here in America, we pride ourselves on being a beacon of 
technological advancements, scientific advancements, and medical 
advancements. Yet, we find ourselves cemented in a policy that offers 
us nothing but a policy of 30 years of transporting high-level nuclear 
waste to a hole in a desert mountain for burial--where we expect it to 
remain safe for the next 10,000 years.
    Mr. Chairman, the State of Nevada and our Governor issued a Notice 
of Disapproval of the President's recommendation. Above all the 
rhetoric and the different reasons why many of us oppose the Yucca 
Mountain Project, this committee and this Congress must ask itself 
whether the Nuclear Waste Policy Act has been followed . . . as 
Congress intended.
    As a proponent of nuclear power and its use in this country, I 
would, without hesitation, take the opportunity to discuss with this 
committee some of the innovative, technological advancements that I 
have had the opportunity to study. These advancements can provide us a 
more reasonable, less costly, and more expedient solution to dealing 
with the tens of thousands of metric tons of high-level nuclear waste 
piling up at our nation's nuclear power plants.
    Mr. Chairman, I want to be a part of the solution . . . but I 
believe the dangerous, costly and irresponsible path to Yucca Mountain 
does not--and should not--represent the best that this country has to 
offer. My only request is that members of this committee, and of 
Congress as whole, take one last look at the law, and ask whether you 
think the DOE has met the standards mandated to them by this body.
    I trust that, in your gut, you will realize that we as a nation can 
do much better in solving the waste-disposal problem. Thank you, Mr. 
Chairman.

    Mr. Barton. I thank the gentleman. Do you remember the old 
television commercial ``is it real or is it''----
    Mr. Gibbons. Memorex.
    Mr. Barton. Memorex. Well, I'm watching you on TV and in 
real life and of course they're watching you on the camera. 
It's a pretty close call, but I think you're better real than 
you are on TV. Or you're good both places.
    Mr. Gibbons. Thank you, Mr. Chairman. Either way I take it 
as a compliment.
    Mr. Barton. Mr. Boucher and I couldn't remember the 
commercial though.
    Mr. Gibbons. It's Memorex.
    Mr. Barton. We knew this audience would have it.
    We'd now like to hear from the gentlelady from Nevada, the 
Honorable Congresswoman Shelley Berkley for a statement and try 
to hold it to 7 minutes.

                STATEMENT OF HON. SHELLEY BERKLEY

    Ms. Berkley. I'd like to thank you, Chairman Barton and 
Ranking Member Boucher for offering me the opportunity to 
testify today. I particularly would like to thank my colleague, 
Mr. Gibbons. He's done an extraordinary job presenting our case 
and I know the people of the State of Nevada appreciate his 
efforts. As Mr. Gibbons, I may go over the allotted 7 minutes 
because I'm sure you understand how important this issue is to 
the people I represent.
    Let me begin by expressing the outrage felt throughout 
Nevada about this ill-advised project. Over 83 percent of the 
people that Mr. Gibbons and I represent vehemently oppose Yucca 
Mountain. We don't want the dump and our country doesn't need 
this dump. Yucca Mountain is not the solution to what is the 
problem of disposal of the by-product of nuclear energy, 
nuclear waste. There is a myth that the approval of Yucca 
Mountain as a high-level nuclear waste repository will somehow 
solve the problems of onsite storage. Nothing could be further 
from the truth. Yucca Mountain's former Acting Director, Lake 
Barrett, recently testified that nuclear waste will always be 
stored at or near reactor sites. The United States currently 
produces 2,000 tons of nuclear waste a year. By the time a 
repository opens somewhere between 2010 and 2016, there will be 
62,000 tons of nuclear waste stored at onsite reactors around 
the country. The maximum amount of transport per year will be 
3,000 tons. At sites where the waste is produced, there will be 
as much waste there 50 years from now as there is today.
    The claims that Yucca Mountain reduces the threat of 
terrorism by eliminating waste at the 131 sites in favor of one 
site is a lie. Yucca Mountain will not reduce the threat of 
terrorism at operating reactors. It adds one more site to 
protect.
    The real dirty secret that the DOE has tried desperately to 
ignore is the immense vulnerability of nuclear waste 
transports. Of the 33 members of this committee, the DOE plan 
calls for transport of nuclear waste through 30 of your 
Districts. According to the DOE, Ohio will have more than 
12,000 shipments with 13 of the 19 Congressional Districts 
affected.
    According to experts who have analyzed the DOE's 
transportation data, more than 123 million people live in the 
703 counties traversed by DOE's proposed highway routes and 106 
million live in counties along DOE's rail routes. DOE predicts 
that between 10 and 16 million people will live within just one 
half mile of a transportation route in the year 2035. Given the 
frequency of these shipments, even routine radiation from the 
casks given off while passing on the highway or stuck at a red 
light would be a health concern for people living and working 
in the vicinity of the transportation routes; roughly 16 
million Americans who own homes and go to schools and pray at 
houses of worship in the communities immediately alongside 
these routes.
    Of even greater concern is the threat of an accident or 
even worse, a terrorist attack. If Yucca Mountain is approved, 
there could be more than 108,000 cross country truck shipments 
of spent nuclear fuel and high level radioactive waste over the 
next 38 years. There will be between 957 and 2800 shipments per 
year over 38 years depending on whether and how much rail 
access is developed. For comparison, over the past 40 years 
there have been less than 100 shipments per year in the United 
States. A terrorist attack or accident would release 
radioactive materials from the casks that would prove 
disastrous to the environment and human health and cost 
billions of dollars to try to clean up. The DOE acknowledges in 
their environmental impact statement that we can expect 
anywhere from 50 to over 300 accidents. Additionally, two 
separate tests, one done at Sandia National Laboratory and the 
other at Aberdeen Proving Ground demonstrates that readily 
available munitions can breach a nuclear waste canister. 
Currently casks are only licensed through a combination of 
scale model testing and computer simulations. Do we really 
think it's a good policy to ship 108,000 shipments in casks 
that have never actually be tested?
    According to independent studies the risks of 
transportation could result in massive economic costs to 
communities along transportation routes. Even without an 
accident or incident, property values near routes could decline 
by 3 percent or more and in the event of an accident or 
terrorist attack, residential property values along shipping 
routes could decline between 8 percent and 34 percent, 
depending upon the severity of the accident.
    The DOE does not publicize the transportation routes or the 
transportation problems related with the project because they 
know that if members know how much waste is going to be 
transported through their Districts, we would more likely 
oppose this project.
    More significant, when our constituents find out that they 
live along the transportation routes, they will demand that we 
oppose this project. Make no mistake about it, this is our last 
chance to vote on the Yucca Mountain issue. If we learn a few 
years from now that our District is a transportation hub, our 
hands are tied. We will not be able to unring this bell.
    An honest evaluation of the Yucca Mountain project suggests 
that the rewards simply don't match the risks. Yucca does 
nothing to alleviate onsite storage problems across the country 
and creates a tremendous amount of concern for national 
security. The projected costs of this boondoggle is anywhere 
from $56 billion to $309 billion. The Nuclear Waste Fund has 
$11 billion in it. How are we going to pay for this? Raise 
taxes? Dip into the Social Security Trust Fund? And once Yucca 
Mountain is full, what do we then do? After spending hundreds 
of millions of dollars, we will be exactly in the same place we 
are today.
    A recent GAO report concluded that there are 293 unfinished 
scientific and technical studies that cannot be concluded until 
the year 2006. The Nuclear Waste Technical Review Board, a 
congressionally mandated, scientific oversight board said when 
the DOE's technical and scientific work is taken as a whole, 
the board's view is that the technical basis for the DOE's 
repository performance estimates is weak to moderate and that 
because of the gaps in data and basic understanding, the board 
has limited confidence in current performance estimates 
generated by the DOE's performance assessment model.
    As early as 1987, the Representative Mo Udall, one of the 
main architects of the original 1982 Nuclear Waste Policy Act 
said, ``the public and many of us in Congress have lost faith 
in the integrity of the process.'' That was the case in 1987 
and it remains the case today. Yucca Mountain is a political 
solution to a problem that requires real science. We should 
empower our Nation's scientific community to find real 
solutions to this serious problem and give them the resources 
and political freedom they need to discover the safest, most 
effective way of solving our nuclear dilemma.
    Nevadans were promised, we were promised that sound science 
and not politics would drive this process. Sound science, while 
293 scientific studies have not been concluded? Sound science, 
when we still can't guarantee the safe transport of nuclear 
waste? Sound science, when the canisters needed to transport 
the nuclear waste have yet to be invented?
    I ask you to joint the State of Nevada and vote to protect 
your own constituents by opposing this foolhardy proposal. 
Oppose Yucca Mountain.
    [The prepared statement of Hon. Shelley Berkley follows:]

    Prepared Statement of Hon. Shelley Berkley, a Representative in 
                   Congress from the State of Nevada

    I would like to thank Chairman Barton and Ranking Member Boucher 
for offering me the opportunity to testify today.
    Let me begin by expressing the outrage felt throughout nevada about 
this ill-advised project. Over 83% of the people I represent vehemently 
oppose Yucca Mountain. We don't want the dump, and our country does not 
need this dump. Yucca Mountain is not the solution to what is the 
problem of disposal of the bi-product of nuclear energy . . . .nuclear 
waste.
    There is a myth that the approval of Yucca Mountain as a high-level 
nuclear waste repository will solve the problems of on-site storage. 
Nothing could be further from the truth. Yucca Mountain's former acting 
director Lake Barrett recently testified that nuclear waste will always 
be stored at, or near, reactor sites. The U.S. currently produces 2,000 
tons of nuclear waste a year. By the time a repository opened 
(somewhere between 2010 and 2016) there will be 62,000 tons of nuclear 
waste stored at on-site reactors around the country. The maximum amount 
of transport per year will be 3,000 tons. At sites where waste is 
produced, there will be as much waste there 50 years from now as there 
is today.
    The claims that Yucca Mountain reduces the threat of terrorism by 
eliminating waste at 131 sites in favor of one site is completely 
untrue. Yucca Mountain will not reduce the threat of terrorism at 
operating reactors. It adds one more site to protect.
    The real dirty secret that the DOE has tried desperately to ignore 
is the immense vulnerability of nuclear waste transports. Of the 33 
members of this committee, the DOE plan calls for transport of nuclear 
waste through 30 of your districts. According to the DOE, Ohio will 
have more then 12,000 shipments, with 13 of the 19 Congressional 
districts affected. According to experts who have analyzed the DOE's 
transportation data, more than 123 million people live in the 703 
counties traversed by DOE's proposed highway routes, and 106 million 
live in counties along DOE's rail routes. DOE predicts that between 10 
and 16 million people will live within just one-half mile of a 
transportation route in 2035. Given the frequency of these shipments, 
even routine radiation from the casks, given off while passing on the 
highway, or stuck at a red light, would be a health concern for people 
living and working in the vicinity of the transportation routes--
roughly 16 millions americans who own homes, and go to school, and go 
to houses of worship in the communities immediately alongside the 
routes.
    Of even greater concern is the threat of an accident--or even 
worse, a terrorist attack. If Yucca Mountain is approved there could be 
more then 108,000 cross-country truck shipments of spent nuclear fuel 
and high-level radioactive waste over 38 years. There will be between 
957 and 2,855 shipments per year over 38 years, depending on whether 
and how much rail access is developed. For comparison, over the past 40 
years, there have been less than 100 shipments per year in the United 
States.
    A terrorist attack or accident would release radioactive materials 
from the cask that would prove disastrous to the environment and human 
health, and cost billions of dollars to try to clean up. The DOE 
acknowledges in the environmental impact statement that we can expect 
anywhere from 50 to over 300 accidents. Additionally, two separate 
tests, one done at Sandia National Laboratory and the other at Aberdeen 
Proving Grounds, demonstrate that readily available munitions can 
breach a nuclear waste canister. Currently, casks are only licensed 
through a combination of scale-model testing and computer simulations. 
Do we really think it is good policy to ship 108,500 shipments in casks 
that have never actually been tested?
    According to independent studies, the risks of transportation could 
result in massive economic costs for communities along transportation 
routes. Even without an accident or incident, property values near 
routes could decline by 3% or more. And in the event of an accident or 
terrorist attack, residential property values along shipping routes 
could decline between 8% and 34%, depending upon the severity of the 
accident.
    The DOE does not publicize the transportation routes or the 
transportation problems related with the project because they know that 
if members know how much waste is going to be transported through their 
districts, we would be more likely to oppose the project. More 
significant, when our constituents find out that they live along the 
transportation routes, they will demand that we oppose this project. 
Make no mistake about it, this is our last chance to vote on the Yucca 
Mountain issue. If we learn a few years from now that our district is a 
transportation hub, our hands are tied. We will not be able to unring 
this bell.
    An honest evaluation of the Yucca Mountain project suggests that 
the rewards simply don't match the risks. Yucca does nothing to 
alleviate the on-site storage problems across the country, and created 
a tremendous amount of concern for national security.
    The projected cost of this boondoggle is any where from $56 billion 
to $309 billion. The nuclear waste fund has $11 billion. How are we 
going to pay for this? Raise taxes? Dip into the Social Security Trust 
Fund? And once Yucca Mountain is full, what then do we do? after 
spending hundreds of billions of dollars we will still be exactly where 
we are today.
    A recent GAO report concluded that there are 293 unfinished 
scientific and technical studies that cannot be concluded until 2006. 
The Nuclear Waste Technical Review Board, a Congressionally mandated 
scientific oversight board said, ``when the DOE's technical and 
scientific work is taken as a whole, the board's view is that the 
technical basis for the DOE's repository performance estimates is weak 
to moderate.'' And that because of ``gaps in data and basic 
understanding . . . the board has limited confidence in current 
performance estimates generated by the doe's performance assessment 
model.''
    As early as 1987, Representative Morris Udall, one of the main 
architects of the original 1982 Nuclear Waste Policy Act said, ``the 
public and many of us in congress have lost all faith in the integrity 
of the process.'' That was the case in 1987, and it remains the case 
today. Yucca Mountain is a political solution to a problem that 
requires real science. We should empower our Nation's scientific 
community to find real solutions to this serious problem, and give them 
the resources and political freedom they need to discover the safest, 
most effective way of solving our nuclear dilemma.
    Nevadans were promised that sound science and not politics would 
drive this process. Sound science? While 293 scientific studies have 
not been concluded? Sound science? When we still can't guarantee the 
safe transport of nuclear waste? Sound science? When the canisters 
needed to transport the nuclear waste have yet to be invented?
    I ask you to join the State of Nevada and vote to protect your own 
constituents by opposing Yucca Mountain.

    Mr. Barton. Thank you, Congresswoman Berkley.
    We'd now like to hear from a former House Member, the 
Honorable John Ensign who is unfortunately gone to the other 
body where he is doing an excellent job representing his state, 
but you are welcome. We would ask that you give your statement 
in approximately 7 minutes. We're expecting a series of votes 
in the next 10 minutes or so. But welcome back to the House of 
Representatives.

                  STATEMENT OF HON. JOHN ENSIGN

    Mr. Ensign. Thank you, Mr. Chairman. Somebody said when I 
first went over there that the intelligence of both bodies went 
up, so--that's a House joke.
    Mr. Barton. We won't comment on that. But we don't see the 
humor of it.
    Mr. Ensign. I am pleased to be with you today and I'm going 
to summarize my full statement. Without objection, I would ask 
that it be made part of the record. And I want to summarize my 
testimony----
    Mr. Barton. Without objection, so ordered.
    Mr. Ensign. And try to appeal to you based on some common 
sense, based on if you are a person who supports nuclear power 
to make nuclear power more viable for the future, based on 
where the taxpayer have to end up holding the bag here of money 
that is going to cost to build this boondoggle in the desert 
and I also want to give you some thoughts on transportation in 
a post-9-11 era that we really do need to take a fresh look at.
    I believe that----
    Mr. Barton. If you could just spend a second, Senator, 
until we get those bells. We'll let you give your statement and 
then we will recess the hearing to go vote and then we'll come 
back with the Secretary.
    Please continue.
    Mr. Ensign. This bill, when it was originally set out by 
Congress, envisioned a geologic repository. What that meant was 
that when it was put into the ground, these canisters were put 
into the ground, over time they would deteriorate. The geology 
was then to provide the protection. Well, over time that 
geology has proven to be not so good and so DOE has had to make 
this a man-made repository. The reason that I bring that up is 
because that man-made repository has now dramatically increased 
the cost. If you look at where the costs started to where the 
cost estimates are today to where they could potentially go, 
this thing keeps adding billions and billions and billions more 
in dollars.
    For those of you have nuclear power plants or receive 
nuclear power, your ratepayers are either going to have to 
increase dramatically their rates for power to pay for Yucca 
Mountain or it's going to have to come out of general revenues. 
You have to get the money from some place because the Nuclear 
Waste Trust Fund is not going to meet the needs of the costs 
for Yucca Mountain. So for those who claim to be fiscal 
conservatives, you really need to take a look at this from a 
cost standpoint.
    The other thing, if you believe in nuclear power, one of 
the reasons nuclear power plants are not being built is because 
frankly it's very expensive to build them. Part of that is 
because of the cost of, obviously, of dealing with the waste 
issue, the uncertainty in licensing, that's certainly a factor, 
but the main issue is whether Wall Street is going to finance 
these things.
    If you believe in nuclear power and you want more nuclear 
power plants to be built, you need to look at the alternatives 
that are much cheaper than Yucca Mountain.
    If you notice, in my testimony you won't hear anything 
about Nevada. I'm going to talk about why I think it's bad for 
the country, why it's bad for your constituents. We know why 
it's bad for our constituents. We want to talk why it's bad for 
your constituents.
    The cost of doing onsite dry cask storage which most of you 
are familiar with is significantly, not even close to the cost 
of doing Yucca Mountain. And yet, according to the DOE, onsite 
dry cask storage is safe for at least 100 years, probably 
closer to 200 years. We see the problems with transportation, 
that transportation has not been studied adequately. And I 
think post-9/11 it absolutely has not been studied adequately. 
We used to think that skyscrapers were safe. We didn't think 
about a plane going into a skyscraper. Now I don't mention that 
just to scare us, but I mention it that we need to relook at 
the transportation of nuclear waste which we've heard that the 
terrorists are looking for ``dirty bombs.'' Well, these are 
potential ``dirty bombs.'' We know that the canisters can be 
breached with a TOW missile. We know that, unless they're 
surrounded by concrete, they can be breached with a TOW 
missile. Well, when you're transporting them, they can't be 
surrounded by the adequate protections that you need to protect 
them from a TOW missile, at least under current technology. I 
just bring that up to show you that we need to study the 
transportation issue more.
    The other aspect of why I think that this Yucca Mountain 
issue is bad for your constituents as well is that--and for 
America as well, is that we're going to be wasting a very 
valuable resource by burying it in the ground. I believe 
strongly that we need to look at technology to recycle this 
waste, to gain a lot of the energy because our current reactors 
are so inefficient, we need to look at modern technology on 
recycling. There's all kinds of different things out there. 
Other countries are reprocessing. We've decided not to do that. 
But there's modern recycling technology that we are currently 
investing in and we have time to do it. If dry cask storage 
onsite is good for 100 years, at least a 100 years--you guys 
are planning these bells purposely, is that the----
    Mr. Barton. We have 10 minutes.
    Mr. Ensign. Yes, I know. I remember the bells.
    Mr. Barton. Remember in the House we time the speeches, 
it's not like the Senate where you can go on forever. So about 
three more minutes.
    Mr. Ensign. Okay. The--I completely forgot where I was, but 
that's okay. It was good, wasn't it.
    Mr. Barton. Let me ask you a question. When you were in the 
House, I never saw a silk handkerchief in your coat pocket.
    Is there a dress code in the Senate?
    Mr. Ensign. You know I live with six other House Members 
and I catch this grief every night when I go home, so I'm kind 
of used to it.
    Mr. Barton. It was just a question.
    Mr. Ensign. It was just a question. The point I was making 
was about time. If we know that these onsite dry cask canisters 
are good for 100 years, what is the rush? Why do we want to 
spend $58 billion thereabouts to build Yucca Mountain? That's 
probably a minimum estimate today. Why do we want this kind of 
a boondoggle?
    Recently, you saw that South Carolina is trying to stop 
transportation of some plutonium. This is a big issue 
everywhere, stopping transportation. There is State after State 
after State is going to put up lawsuits trying to stop 
transportation. It is a political issue. It is also a terrorism 
issue. We need to look at this thing and the bottom line is we 
have time to do it.
    We are imploring you to take the time, be responsible, 
fiscally responsible, as well as other ways to do the right 
policy.
    Last, I will tell you because this was a political process, 
we know realistically we're probably not going to be able to 
win this vote in the House of Representatives. The battle is 
going to come down to, and we appreciate our colleagues and the 
great job they're doing over here trying to make our case and 
we need a strong enough vote that we can possible get over 
here, but we realize the battle ground is going to be in the 
U.S. Senate. This was done on a purely political move when it 
was stuck, Nevada got stuck with it and we're hoping that we 
win this and it may be a purely political move that we win this 
on. We've got some parliamentary tricks up our sleeve that you 
will that we will pull. That's one thing nice about the U.S. 
Senate and we plan on winning this battle this year and not 
just because we think it's bad for the State of Nevada. We 
think it's bad for the entire country to be building this 
boondoggle in the desert.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. John Ensign follows:]

 Prepared Statement of Hon. John Ensign, a U.S. Senator from the State 
                               of Nevada

                              INTRODUCTION

    Thank you, Mr. Chairman, for the opportunity to testify today on 
behalf of the people of Nevada.
    Nevada is a diverse state, with people of many races, religions and 
political persuasions. But no single issue unites Nevadans--no single 
issue transcends region, political party, or industry--like our fight 
against becoming the nation's nuclear dumping ground.
    Nevada's slogan is Battle Born. It is on our state flag. It 
reflects the firmness of purpose and the willingness to fight for what 
is right that is so much a part of the character of Nevadans. This is 
as true today as it was when our state entered the Union during the 
Civil War. And when it comes to Yucca Mountain, we intend to fight.

                                HISTORY

    From the beginning of this process, our state has been the victim 
of Washington power politics.
    The 1982 Nuclear Waste Policy Act gave the Energy Department until 
1998 to open a permanent underground geologic repository for high-level 
nuclear waste. By the late 1980s, the Energy Department had narrowed 
its search to just three western states: Nevada, Washington, and Texas. 
The DOE had not reached a scientific determination as to which location 
was most suitable, but, truth be told, science really was not the 
issue. At the time, the House Speaker was a Texan, Jim Wright, and the 
Majority Leader was from Washington--Tom Foley.
    Guess which state got picked as the dump site?
    In 1987, Congress directed the Energy Department to study a single 
site: Yucca Mountain. Even supporters of the deal conceded that Nevada 
was a victim of a raw power play. ``We've done it in a purely political 
process,'' former Washington Rep. Al Swift said at the time. ``We are 
going to give somebody some nasty stuff.''
    That ``somebody'' is the people of Nevada. They are not happy--and 
rightly so.

                               WHY YUCCA?

    Since then, successive Administrations, Democrat and Republican, 
have spent billions of dollars trying to justify this blatantly 
political decision. Having come to their predetermined conclusion, they 
commissioned all sorts of junk science to justify using a site like 
Yucca Mountain--which is obviously such a poor geologic repository, and 
thus would have been disqualified under the 1982 Act.
    Only junk science could explain the logic of storing thousands of 
tons of dangerous, radioactive waste on a earthquake fault-line. There 
are 32 known active faults at or near Yucca. In 1992, an earthquake 
that measured 5.6 on the Richter scale occurred just eight miles from 
Yucca--damaging DOE's Yucca Mountain Project office.
    There also appears to have been recent volcano activity near Yucca. 
And we now know that the rock at Yucca Mountain--which the scientists 
promised was so solid that water could not possibly reach the 
underground storage tunnel for 1,000 years--is in fact quite porous. 
Rainwater, the scientists now tell us, could reach the stored waste in 
just 50 years--about 20 times more quickly than expected.
    With all this information, DOE was in a quandary. The science they 
had depended on to justify choosing Nevada as America's nuclear dumping 
ground had come apart like a cheap suit. But instead of doing the 
honest thing--admitting their mistake and disqualifying the site--DOE 
decided to do a typically Washington thing: move the goal posts. They 
retroactively changed the site suitability rules to rely not on geology 
but instead on ``man-made'' barriers.
    In other words, they could no longer justify discarding the 
nation's nuclear refuse in Nevada on scientific and geological grounds. 
But they decided to go ahead and do it anyway.
    John Bartlett, who used to head the Yucca Mountain project, has 
said that, at this point ``the project has become simply an array of 
engineered waste packages that happen to be 1,000 feet underground.'' 
In other words, there is nothing unique about Yucca Mountain that 
requires us to dump the waste there. It could be stored anywhere. But 
the politics dictates that the people of Nevada get the short straw--so 
their children get to grow up in the warm glow of the nation's 
radioactive refuse.
    But even the man-made solutions DOE came up with are faulty. The 
U.S. General Accounting Office has criticized DOE's decision to move 
ahead with recommending the Yucca Mountain site as unfounded and 
premature. The U.S. Nuclear Regulatory Commission had advised DOE that 
there are 293 unresolved technical issues that directly impinge upon 
the suitability of the site. And the Nuclear Waste Technical Review 
Board, an independent agency, reported, `` the technical basis for 
DOE's repository design is weak to moderate at this time.''

                             TRANSPORTATION

    Aside from the safety and suitability of Yucca mountain is the 
safety of transporting the waste. The Department of Energy and the 
nuclear industry want Americans to believe that taking tens of 
thousands of tons of dangerous radioactive nuclear waste, removing it 
from reactor sites around the country, putting it on trucks and trains 
and barges, and moving it through cities and towns and waterways across 
America so it can be buried on an earthquake fault line in southern 
Nevada is a good idea.
    It's not.
    The government is trying to convince us that this project is going 
to be safe--more than safe; the government would have us believe that 
it is the key to keeping our children safe from radioactive waste 
that's going to be dangerous for 10,000 years.
    Anyone who believes the argument that this dangerous waste can be 
transported without incident only needs to look at what happened last 
July in the Baltimore tunnel, when a CSX freight train carrying 
hazardous waste derailed and set off fires that burned for five days. 
Imagine a similar incident, only the waste is radioactive.
    But forget an accident--what about a terrorist attack? In the midst 
of a global war on terrorism that could last for years, and perhaps 
decades, trucks and trains carrying radioactive fuel would be prime 
targets for terrorists. Consider this: Some 3,000 people died when 
terrorists hijacked planes and crashed them into the Pentagon and World 
Trade Towers on September 11. Hijacking or blowing up a truck of 
nuclear waste would be an easy way for terrorists to kill not just 
thousands, but tens of thousands of our citizens.
    Nuclear power plant sites are among the most secure commercial 
facilities in the country. Following the events of September 11, they 
are being made even more secure, and there are even proposals for 
military protection at these sites. Modest infrastructure improvements 
can further increase the level of protection against any conceivable 
terrorist threat.
    After building up all that security, what is the logic of removing 
spent fuel from this safe and secure storage and putting it on the 
nation's roads and railways within easy reach of terrorists? Secretary 
Abraham asserts these shipments will be ``a secret.'' They will not--
they will be extremely high profile and, because of the long duration 
of the campaign and large numbers of repetitive shipments, they will be 
easily predictable.
    And even if they were ``secret,'' let's all reflect for a moment 
about what it means to the people of the towns and communities that 
will play temporary host to this radioactive refuse. The federal 
government intends to take highly dangerous nuclear waste and bring it 
through your towns and cities, without your even knowing about it. No 
warnings to local governments. No opportunities for local communities 
to prepare safety precautions. No chance for parents to protest the 
shipment routes. An accident or terrorist incident in their backyard 
would be the first time they learned that their children were in 
proximity to radioactive waste.
    In other words, the federal government is treating every community 
in America with the same contempt as they are the people of Nevada. In 
fact, they are treating them with even greater contempt. At least they 
have had the decency to tell us that we Nevadans will be exposed to 
radioactive material--the rest of the country will just have to wait 
for disaster before they find out.

                        THE GOVERNMENT'S BIG LIE

    Not only is the government's plan dangerous for both Nevada and the 
rest of America--it also won't solve the problem.
    The government's big lie is that we Americans have a choice: to 
have one central nuclear waste storage site at Yucca Mountain or to 
have waste stored at reactor sites all around America.
    That sounds like an easy choice--except that it's not true.
    Even if, by some stroke of luck, waste is shipped across the 
country safely to Yucca Mountain, there will continue to be nuclear 
waste stored at all operating reactor sites.
    You see, even if it were possible to immediately and magically 
remove all of the existing spent fuel from commercial nuclear power 
plant locations, there would still continue to be spent fuel stored at 
each and every operating reactor in the country. That's because nuclear 
waste is highly radioactive and thermally hot and must be kept at the 
reactor sites in water-filled cooling pools for at least five years. 
The only way spent fuel storage can be eliminated from a reactor 
location is to shut down the reactor.
    The DOE only plans to transport to Yucca Mountain 1,000 metric tons 
a year more nuclear waste than our reactors produce. Plus there's going 
to be a backlog of around 62,000 tons of waste by the time Yucca opens. 
All that moving waste to Yucca will do is create one more large storage 
facility. But to do that, the cost will be tens of thousands of 
shipments of deadly radioactive waste on the nation's highways and 
railroads, day after day, month after month, that will travel 
constantly through cities and communities in 45 states--a permanent 
convoy of nuclear refuse that will never end.

                                  COST

    So Yucca Mountain isn't safe, and it doesn't solve the problem. But 
here's the kicker--it's also a multi-billion dollar boondoggle.
    To date, the U.S. government has spent about $8 billion on this 
fiasco--$4 billion evaluating sites and another $4 billion on Yucca 
Mountain itself. So admitting they were wrong would amount to an 
awfully expensive mistake.
    But not half as expensive as proceeding with this dangerous, ill-
considered and flawed storage plan. The DOE current cost estimate for 
Yucca Mountain is $58 billion--a dramatic increase from the 1998 
estimate of $46 billion and over double Yucca Mountain's projected cost 
in 1983. According to a December 2001 GAO report, we have no idea what 
it will really cost by the time it is ready to receive waste.
    When bureaucrats come up with plans that have those kinds of 
numbers attached to them, the contractors and industry-types start 
salivating--and the bureaucratic and commercial self-interests take 
over.
    Either way, the American taxpayers get the bill. If industry were 
to carry the cost, nuclear power could become much more expensive and 
ratepayers would be forced to take on that burden. If not, the 
taxpayers will be on the hook for the most expensive public works 
project in the history of our country--equal to the cost of our entire 
fleet of aircraft carriers. It's a sobering picture, either way you 
look at it.

                              ALTERNATIVES

    So if Yucca Mountain isn't the answer, what is?
    The federal government should offer to take title and liability to 
the waste stored on site at nuclear reactors, just as it did in 
Pennsylvania under the PECO settlement. The NRC has stated fuel can be 
stored safely on site for at least 100 years in dry cask storage. That 
leaves plenty of time to continue to develop new technologies at our 
national labs to reprocess the waste without producing weapons-grade 
plutonium as a byproduct. Accelerator technology and new fuels are 
promising alternatives to burying this valuable resource.
    A recent Wall Street Journal article noted that the Department of 
Energy's own scientists from Argonne National Laboratory have come up 
with a way to recycle nuclear waste called pyroprocessing. And a 
scientist from Los Alamos in New Mexico agreed that process is 
possible.
    Nuclear waste is going to be a valuable resource; we shouldn't bury 
it. Once it is buried, the opportunity will be lost forever to reduce 
its hazards through recycling. Nuclear waste is one of the most deadly 
substances known to man, and our nation needs to find a long-term 
solution that will protect the American people, our land, and our water 
from its harmful effects.

                               CONCLUSION

    Mr. Chairman, as you well know, our Founding Fathers established a 
complex set of procedures in Congress. It is not easy to take 
legislation and turn it into law. They did this with an explicit reason 
in mind--to prevent what they called the ``tyranny of the majority.'' 
There are all sorts of procedures available to us as members of the 
House and Senate that allow us to prevent a bunch of bigger states from 
getting together and ganging up on us to do something that would harm 
the interests of our constituents.
    That is what is happening today with Yucca Mountain. But with the 
help of my colleagues and the Senate Majority Leader, I am going to try 
to stop it. Yucca Mountain was originally chosen because of a political 
power play. How fitting that it could die because of one too.
    People have been asking me whether it is tough to go against my 
President and many of my colleagues on this issue. I had to fight the 
Republican leaders in the House in 1998 on this issue, and I have to 
fight the Republican leaders in the Senate right now. That doesn't 
matter. When it comes to choosing between the interests of my party and 
the interests of my state, I always will choose my state.
    I am a fourth-generation Nevadan. I know that the fighting spirit 
of our settlers has been passed on from one generation of Nevadans to 
the next. Our battle-born state was formed by facing up to difficult 
challenges. And we are up for the challenge of making sure that, when 
it comes to nuclear waste, it's not going to go in Yucca Mountain.
    Thank you.

    Mr. Barton. Thank you, Senator. All joking aside, we do 
appreciate you coming over from the other body and the good 
work that you're doing with Senator Reid to make sure that all 
the issues are put on the table.
    We're going to recess this hearing and when we reconvene in 
approximately 25 minutes, we'll have the Secretary of Energy. 
So we stand in recess.
    [Brief recess.]
    Mr. Barton. The hearing will come to order. Our audience 
will find their respective seats. Before we recessed for the 
series of votes we had heard from the Nevada delegation, both 
their Congressmen and one of two of their Senators about their 
position on the decision to locate the repository at Yucca 
Mountain.
    We're now going to hear from the Secretary of Energy, the 
Honorable Spencer Abraham, former Senator from the great State 
of Michigan and doing an outstanding job as Secretary in a very 
difficult time for energy policy.
    Mr. Secretary, we really appreciate you coming today, 
knowing that what's going on in the other body and what's going 
on internationally and what's just happened in Venezuela, 
what's happening as we speak in the Middle East, the Persian 
Gulf. We'll recognize you for such time as you may consume and 
then I'm sure we'll have a number of questions for you. So 
welcome to the subcommittee. Your statement is in the record in 
its entirety and we would recognize you to elaborate on it as 
you see fit.

  STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY, DEPARTMENT OF 
                             ENERGY

    Mr. Abraham. Thank you, Mr. Chairman. Thank you for having 
this hearing, for your interest in moving this resolution 
forward for consideration and for the work we've done together. 
I very much appreciate your support of our efforts in the 
Department of Energy and the great working relationship we have 
with the subcommittee.
    Mr. Chairman, this committee in Congress should vote to 
override Nevada's veto and allow a full and objective final 
decision on Yucca Mountain by the Nuclear Regulatory 
Commission. The history, I think, is very important to note 
today. In 1982, Congress passed the Nuclear Waste Policy Act 
and committed to take responsibility for radioactive waste 
disposal. In 1987, Congress amended that Act to direct the 
focus of the Department of Energy on consideration of the site 
at Yucca Mountain. And in 1992 the Congress adjusted the 
standards for determining site suitability. Subsequently, EPA, 
the Nuclear Regulatory Commission, and our Department, in turn, 
adjusted their regulations to conform to those policies 
outlined by Congress.
    During 24 years of research on this project, at a cost of 
about $4 billion, the Department of Energy has studied Yucca 
Mountain. Let me just put that in perspective. That's five 
times longer than it took to build the Hoover Dam. That is six 
times longer than the entire duration of the Manhattan Project. 
It's twice as long as it took to plan and complete the first 
moon landing. The science on this issue has been well studied.
    My responsibility as Secretary was to evaluate that 
research and to make some decisions. I reached two major 
conclusions in determining to recommend Yucca Mountain. First, 
that the site is suitable for the development of a repository 
based on an evaluation of the extensive body of sound science. 
That determination was my principal responsibility.
    Let me talk about that decision. In reaching it, we had to 
consider two things. First, we conducted a preclosure safety 
evaluation. Based on the extensive body of research that has 
been done, I have concluded the repository at Yucca Mountain 
can be operated safely for what's called the preclosure period, 
that's a span of 50 to 300 years. To my knowledge, virtually no 
scientific organization disputes this conclusion that during 
that preclosure period, this site can be operated safely, 
because the task is very similar in many ways to the operation 
of current nuclear facilities.
    In that period, Yucca will be a controlled, secure, 
operating environment, and it is, of course, proximate to 
Nellis Air Force Range, near its protected air space.
    Let me just focus on that 300 year period for a moment. The 
way this project will proceed is that after a decision is made, 
and if one is made to move forward with this project, and if 
the Nuclear Regulatory Commission licenses Yucca Mountain, 
after it is constructed and after it is filled, we will 
continue to monitor what is happening there for as much as 300 
years--or longer than the United States has existed, and we 
will be in a position to adjust in any ways necessary during 
that timeframe.
    And, I would just say to the committee that it's sometimes 
the case when we throw around large numbers like 10,000 years, 
the period after closure that we had to assess, that a number 
like 300 years seems small. But as I said, if one were just to 
look backward and consider the scientific progress that's been 
made since the year 1700, one gets a feel, I think, for the 
opportunities that we have as we move forward. Once the 
facility, in fact, is constructed, we can, in any way we might 
need to, perfect its performance.
    In addition to deciding whether or not the facility would 
be safe for that 50 to 300 year preclosure period, we also 
conducted extensive analysis of what we call the post-closure 
period. That is a period, as I already indicated, that ranges 
10,000 years into the future. The scientific observations 
obtained during our 24 years of research were fed into 
extremely sophisticated computer models. State-of-the-art 
approaches were taken. These models considered hundreds of 
thousands of factors and events and simulated combinations of 
factors and events.
    Let me tell you what we were required to do. We were 
required to determine whether in 10,000 years Yucca Mountain 
could meet radiation standards that would limit the exposure 
annually to people within an 18 kilometer radius of the 
mountain, limit, in terms of the groundwater, to a standard 
equivalent to drinking water standards of today; and in terms 
of radiation exposure, limit to no more than 15 millirems 
annually of radiation. To put it in perspective, and I don't 
mean here to compare elective versus unelective exposure, but a 
round-trip cross country plane trip from Washington to San 
Francisco exposes people on that aircraft to about 6 millirems. 
So our job was to determine whether or not in 10,000 years 
someone living in the vicinity of Yucca Mountain would be 
exposed to no more than 15 millirems anually. Twenty-four years 
and $4 billion later, the answer is yes.
    And let me say, Mr. Chairman, we can guarantee, based on 
our analysis, that we can protect people from being exposed to 
that level of radiation. We not only tested normal 
circumstances, but we also looked at factors that were very 
difficult to approximate but which constituted a set of 
uncertainties that we wanted to evaluate. For instance, in 
addition to determining whether or not water might seep down 
from the top of the mountain to the underground area, in which 
we would store the waste, we considered whether or not 10,000 
years from now human intrusion in the form of somebody drilling 
for oil at the top of the mountain might somehow penetrate the 
casks down at 1,000 feet below the surface and emit radiation. 
We took into consideration whether or not if a glacier, as part 
of a subsequent ice age on the planet, were to envelop the 
western United States and then recede to produce more water 
flow into the underground storage area would produce an outcome 
that would force a situation in which the radiation standard 
that we have to meet could be exceeded. And after $4 billion of 
research into these sorts of circumstances, we have accounted 
for these things and concluded that the site is suitable and 
that it will meet even those very difficult tests.
    And so I am convinced, Mr. Chairman, of the soundness of 
the scientific basis for this recommendation. I visited the 
site. I've talked to the scientists who conducted these 
experiments. I've obviously poured through a lot of documents 
that have been collected over the years and reviewed the 
results of 116 hearings that have been conducted, producing 
somewhere in the vicinity of 37,000 public comments. We have 
summarized those comments and we have responded to them.
    In addition to the fact that this project meets the 
scientific test for safety, I believe it is also quite clear 
that Yucca Mountain is important because of the national 
interest it serves. Energy security is an important national 
priority. A site designation here will encourage investment and 
continuing production of nuclear energy in this country which I 
think the committee is well aware, produces currently 
approximately 20 percent of our electricity mix. Building this 
repository will allow the nuclear energy share of the energy 
production in this country to continue. It will allow existing 
facilities to operate through their life expectancies, 
including possible license renewals. I think it also will have 
the potential to bring about investment in new facilities as 
well.
    Yucca Mountain is also important to our national security. 
The most strategic vessels in our Navy, the largest ships and 
submarines, are dependent on nuclear power for propulsion. 
Naval spent fuel is temporarily stored in Idaho. That was never 
intended to be the permanent place for the waste to be left and 
I have to say it's occurring under an agreement with the State 
that is, at best, tense. We have, of course, told people we 
would build this facility years ago, and that spent fuel will 
go to a repository. To do otherwise, will place this agreement, 
in an uncertain condition.
    The repository is important for homeland security. We 
believe that consolidating the storage of nuclear waste in an 
isolated repository, 1,000 feet below the desert is a better 
way to protect that waste from any possible vulnerability.
    It's also important that we build Yucca Mountain for 
environmental purposes. A repository is necessary to complete 
the environmental cleanup of the World War II and cold war 
defense complex which contributed to our national defense. 
Nearly 100 million gallons of liquid waste in Washington and 
South Carolina awaits solidification and ultimate disposal in a 
repository. In addition, nuclear material that currently sits 
at sites in Colorado, New York and Idaho will eventually find 
its way to the repository.
    This program is important for nonproliferation reasons as 
well. As I think the committee is well aware, our agreement to 
move forward with the disposition of weapons grade plutonium 
with Russia is, in part, dependent on the United States moving 
ahead with a program to dispose of our plutonium in an ultimate 
resting place. The MOX fuel, which would be our means of 
disposition, would eventually have to be disposed of in a 
repository. So, there are an overwhelming number of very 
compelling national interest reasons for us to move ahead.
    Now the choice is for Congress to make. Obviously, Nevada's 
decision to veto our recommendation to move ahead places this 
issue squarely before you to override that veto. I want to talk 
about what this means. An override of Nevada's veto does not 
mean that tomorrow trucks will begin moving to Nevada. What it 
means is that all of the issues that relate to whether or not 
we can safely proceed with this facility will be brought before 
the NRC for an objective and neutral decision by experts. That 
is all that we are asking for. The chance to have this 
research, which we believe is accurate, be ultimately tested by 
the authorities who are best able to make a decision during the 
licensing process.
    Failure to override, however, ends the Yucca Mountain 
project. Yet it still leaves Congress and the United States 
with the statutory responsibility for the waste, as well as 
creating the various problems in terms of energy security, 
national security, homeland security, environmental cleanup. I 
believe a decision to oppose the override is a decision clearly 
to abandon the repository program and subject the country to 
the negative consequences that I mentioned without even letting 
the neutral experts at the Nuclear Regulatory Commission decide 
whether it's, in fact, possible for us to do this. In my 
judgment, nothing that has been advanced in terms of criticism 
of the project comes close to meeting what I think would be a 
very high burden of proof that would have to be required at 
this point to simply abandon the project without subjecting it 
to a final determination by the Nuclear Regulatory Commission, 
failue to overide would leave waste stranded at 131 sites in 39 
States.
    Opposition, in my judgment, to the joint resolution, to at 
least submitting this question to the NRC, seems warranted only 
if one is convinced beyond a reasonable doubt that there is 
such overwhelming evidence that a repository at Yucca Mountain 
cannot meet the EPA and NRC standards, that it would be a waste 
of time and money to allow the Nuclear Regulatory Commission 
processes to reach a final decision. And in my judgment, there 
is overwhelming scientific support for the project and for our 
capacity to obtain a license. So I urge Congress to act 
promptly and favorably on the proposed Joint Resolution, so the 
next stage of addressing the merits of all remaining issues, by 
applying the independent expertise of the Nuclear Regulatory 
Commission, can begin.
    Mr. Chairman, I appreciate the chance to be here today and 
of course, would be glad to try to answer questions of the 
committee.
    [The prepared statement of Hon. Spencer Abraham follows:]
    Prepared Statement of Hon. Spencer Abraham, Secretary of Energy
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
appear before you today.
    On February 14, I forwarded a recommendation to the President, 
based on approximately 24 years of federal research, that Yucca 
Mountain, Nevada, is suitable for development as the nation's geologic 
repository for spent nuclear fuel and high-level radioactive wastes. 
The President officially recommended the site to Congress on February 
15, and pursuant to the Nuclear Waste Policy Act of 1982 (NWPA), the 
State of Nevada has exercised a disapproval of the President's 
recommendation. As a result, this issue is again before the Congress 
for disposition, this time for expedited consideration under the 
framework Congress established in the NWPA.
    I am encouraged that Congress is considering this Joint Resolution 
without delay, and ask that you continue your hard work to see this 
Resolution through to its final passage, so the Department may enter 
the next phase of repository development--an expert and independent 
scientific and technical examination of the safety of the site by the 
Nuclear Regulatory Commission.
    The significance of passing this Joint Resolution, thus overriding 
the State of Nevada's disapproval, hardly needs emphasis. Twenty years 
ago, Congress established in law the Federal government's 
responsibility for the disposal of spent nuclear fuel and high-level 
radioactive waste. In doing so, Congress foresaw the fundamental 
national security and energy policy considerations that weigh heavily 
in favor of proceeding with a geologic repository, and mandated that a 
repository program be based upon a thorough scientific evaluation of 
several candidate sites. In 1987, the Congress limited that evaluation 
to the site we consider today: Yucca Mountain.
    In formulating this recommendation, I first considered whether 
sound science supported a determination that the Yucca Mountain site 
was scientifically and technically suitable for the development of a 
repository. The scientific evaluation of the Yucca Mountain site had 
been conducted over a 24-year period; as part of the study, some of the 
world's best scientists examined every aspect of the natural 
processes--past, present, and future--that could affect the ability of 
a repository beneath Yucca Mountain to isolate radionuclides released 
from any spent fuel and radioactive waste disposed of there.
    The Department's scientific inquiries and modeling clearly 
demonstrate that a repository at Yucca Mountain can meet the 
Environmental Protection Agency's standards for protecting the health 
and safety of our citizens. These extremely stringent standards were 
based on the recommendations of the National Academy of Sciences. What 
they mean, in terms of the Yucca Mountain site, is that a person living 
11 miles away from the site cannot receive more annual radiation 
exposure during the 10,000-year regulatory period than a traveler 
receives today from natural sources in three round trip flights from 
Las Vegas to New York.
    In evaluating whether the repository can comply with the Agency's 
standards, our scientists employed extremely conservative assumptions 
and considered the impact of events with extremely low probability of 
occurrence, all erring on the side of public safety. For example, 
earthquakes were assumed to occur, and volcanic eruptions were 
evaluated--even though the likelihood of a volcanic event affecting the 
repository during the first 10,000 years is just one in 70 million per 
year. Even with these unlikely events analyzed into the Agency's 10,000 
year compliance period, Yucca Mountain still meets the EPA standards.
    A review of the documentation that accompanied the recommendation 
clearly reveals that the Department has carefully evaluated the extent 
to which Yucca Mountain's substantial natural geologic barriers work in 
concert with the robust engineered systems. We know that Yucca Mountain 
is in a closed hydrologic basin, a geologic feature that greatly limits 
the potential migration of radionuclides. Between the emplacement 
tunnels and the water table, which is approximately 2000 feet below the 
surface, the geology provides natural adsorption retarding any 
potential radionuclide movement. The hydrologic features at this site 
suggest that more than ninety percent of the annual rainfall runs off 
or is evaporated, meaning less than a half an inch of water travels 
beneath the surface. Our studies indicate that the vast majority of 
water samples taken from the mountain are thousands of years old.
    Even with this robust geology, our scientists again conservatively 
considered how engineered barriers 1,000 feet below the surface and 
1,000 feet above the water table might corrode by analyzing what would 
happen during an ice age, if Nevada's climate changed and rainfall 
increased dramatically. Even including these scenarios, Yucca Mountain 
still meets the EPA standards.
    After thoroughly examining the relevant scientific and technical 
materials, I have concluded that they demonstrate that the site is 
scientifically and technically suitable for construction of a 
repository. As I stated in my recommendation to the President:
        ``Irrespective of any other considerations, I could not and 
        would not recommend the Yucca Mountain site without having 
        first determined that a repository at Yucca Mountain will bring 
        together the location, natural barriers, and design elements 
        necessary to protect the health and safety of the public, 
        including those Americans living in the immediate vicinity, now 
        and into the future.''
    Having reached this conclusion, I went on to evaluate whether 
compelling national interests counseled in favor of moving forward with 
a geologic repository at Yucca Mountain, and if so, whether there were 
countervailing arguments so strong that I should nonetheless decline to 
proceed. This evaluation argued strongly in favor of proceeding, and 
certainly that there was no basis for abandoning the policy decisions 
made by the Congress in enacting the 1982 Nuclear Waste Policy Act and 
the 1987 amendments to that Act. In short, the relevant considerations 
are as follows.
    First, Yucca Mountain is critical to our national security. Today, 
over forty percent of our Navy's combatant vessels, including aircraft 
carriers and submarines, are nuclear powered. The additional 
capabilities that nuclear power brings to these platforms is essential 
to national security. To maintain operational readiness, we must assure 
disposal of spent fuel to support refueling of these vessels. We are in 
the midst of advancing the non-proliferation objectives that have been 
the welcome result of the end of the Cold War. A geologic repository is 
an integral part of our disposition plans for surplus weapons grade 
materials.
    Yucca Mountain is an important component of homeland security. More 
than 161 million people live within 75 miles of one or more nuclear 
waste sites, all of which were intended to be temporary. We believe 
that today these sites are safe, but prudence demands we consolidate 
this waste from widely dispersed, above-ground sites into a deep 
underground location that can be better protected.
    A repository is also important to our nation's energy security. 
Nuclear power provides 20 percent of the nation's electricity and emits 
no airborne pollution or greenhouse gases. The reactors we have today 
give us one of the most reliable forms of carbon-free power generation, 
free from interruptions due to international events and price 
fluctuations. This nation must develop a permanent, safe, and secure 
site for disposal of spent nuclear fuel if we are to continue to rely 
on our 103 operating commercial reactors to provide us with 
electricity.
    And a repository is important to our efforts to protect the 
environment. A repository is indispensable to implementing an 
environmentally sound disposition plan for high-level defense wastes, 
which are located in Colorado, Idaho, South Carolina, New Mexico, New 
York, Tennessee, and Washington. The Department must move forward and 
dispose of these materials, which include approximately 100 million 
gallons of high-level radioactive waste and 2,500 metric tons of 
defense production spent nuclear fuel.
    Finally, I carefully considered the primary arguments against 
locating a repository at Yucca Mountain. None of these arguments rose 
to a level that outweighs the case for going forward with the site 
designation.
    Of these, the only one I shall address in my prepared testimony is 
the concern critics of the project have raised about the 
``transportation issue.'' I wish to address this issue briefly, not 
because I believe there is any real basis for believing these concerns 
are warranted, but rather, because I believe that simply by incanting 
the words ``transportation of nuclear waste,'' opponents are hoping 
they can incite public fear, without any basis in fact, and that this 
hope has become the last refuge for opposition to the project. The 
facts, however, are these.
    First, the Nuclear Regulatory Commission, working with the 
Departments of Transportation and Energy, has overseen approximately 30 
years of safe shipment of spent nuclear fuel in this country. The 
Department and commercial nuclear industry have substantial experience 
to date--some 1.6 million miles--without any harmful radiation release. 
And the successful and extensive European experience in transporting 
this type of nuclear material corroborates our experience. The 
transportation of this material will involve approximately 175 
shipments per year, not the 2,800 that the opponents allege. It would 
also constitute 0.00006% of the annual hazardous material shipments, 
and 0.006% of the annual radioactive material shipments that occur in 
this country today.
    Second, because the site has not yet been designated, the 
Department is just beginning to formulate its preliminary thoughts 
about a transportation plan. There is an eight-year period before any 
transportation to Yucca Mountain might occur. This will afford ample 
time to implement a program that builds upon our record of safe and 
orderly transportation of nuclear materials and makes improvements to 
it where appropriate. Thus any suggestion that the Department has 
chosen any particular route or mechanism is completely fictitious. 
Those decisions have not been made, and cannot possibly start to be 
made until the site has been designated and the Department has the 
opportunity to work with affected States, local governments, and other 
entities on how to proceed.
    Third, even without a repository at Yucca Mountain, the need to 
find a place to put the spent fuel that is continuing to accumulate 
will lead to the transportation of these materials, and likely quite 
soon. On-site storage space is running out and not all utilities can 
find new adjacent land where they can put this material. Therefore, 
they will devise ad hoc off-site consolidated storage alternatives. 
Already a consortium of utilities is working on a facility that they 
have presented to the NRC. Whether or not this effort ultimately 
succeeds, it is likely that some similar effort will. Thus the 
transportation of nuclear materials is not a function of a repository 
at Yucca Mountain, but rather is a necessary consequence of the 
material that continues to accumulate at the 131 sites in 39 States 
that are running out of room for it.
    Finally, Yucca Mountain critics argue that nuclear materials in 
transit could be a terrorist target. But they are forgetting the 
obvious: spent fuel in secure transit to a permanent repository is 
certainly less susceptible to terrorist acts than spent fuel stranded 
at the temporary, stationary sites--many very close to major cities and 
waterways--where it now resides.
    Let me close with one last thought. The critics of this program 
would have Congress overturn the fundamental decisions it legislated 15 
years ago--that a single underground repository located at Yucca 
Mountain holds the greatest promise for the long-term safety and 
security for the Nation. The great body of scientific work done since 
then has confirmed the fundamental soundness of the Yucca Mountain 
site. The only issues remaining are the type that only can be resolved 
in a Nuclear Regulatory Commission licensing proceeding.
    The critics who would upend this path to resolution of the 
remaining issues have a heavy burden of proof in urging that the policy 
decision made by Congress in 1987 and the findings of the body of 
scientific work that examined Yucca Mountain both be abandoned before 
the NRC has even had the opportunity to pass on whether a repository 
can safely be sited there. Given the history and the work to date, 
their burden would be substantial even if this project were not 
critical to many important national interests. But it is. Rejection of 
the proposed resolution would leave the country with no ultimate 
destination for our spent naval fuel, no adequate path for disposing of 
our own surplus plutonium, thereby making it hard for us to press other 
countries to dispose of theirs, and no means to complete the 
environmental cleanup of our defense complex. Utilities may have to 
start planning to decommission existing nuclear reactors and figuring 
out how to replace them. Congress would still have to formulate an 
alternative in view of the statutory obligation that the Government 
dispose of commercial spent fuel that was legislated in 1982, but that 
would be no easy task.
    In short, a decision to oppose this project's going forward at this 
stage is a decision to abandon the repository program and subject the 
country to these consequences without ever letting neutral experts at 
the Nuclear Regulatory Commission decide whether that is the right 
course. Nothing the critics of this project have advanced comes close 
to meeting the burden of proof they should have to satisfy to warrant 
proceeding in this fashion. Opposition to nuclear power is not a 
sufficient ground, since we all, and the United States Government in 
particular, have an obligation to safely dispose of this waste 
regardless of any such policy view. Nor are concerns about 
transportation, for all the reasons outlined above. Rather, opposition 
to this resolution, and to submitting this question to the NRC, seems 
warranted only if one is convinced that there is such overwhelming 
evidence that a repository at Yucca Mountain cannot meet the NRC and 
EPA standards that it would be a waste of time and money to use the 
ordinary NRC processes to find out.
    Support for the proposed resolution, on the other hand, does not 
require being convinced that the Department of Energy is right in 
believing that a repository at Yucca Mountain will meet the applicable 
standards or that the NRC will decide it should be licensed--although 
in my judgment the scientific work to date provides ample basis for 
reaching that conclusion. Indeed, it doesn't even require being 
convinced that this outcome is the most likely. Rather, all that is 
required to support the resolution is to believe there is enough of a 
serious possibility that $4 billion and 24 years of scientific research 
have produced a sufficient basis for our conclusion that the site can 
be safely developed as a repository. That conclusion will then subject 
the extensive scientific basis for the President's recommendation to 
objective testing in the only official context it can be--an NRC 
licensing proceeding.
    I urge the Congress to act promptly and favorably on the proposed 
joint resolution so that the next stage of addressing the merits of all 
remaining issues, by applying the independent expertise of the Nuclear 
Regulatory Commission, can begin in earnest.

    Mr. Barton. We thank you, Mr. Secretary, before I recognize 
myself to ask questions, the Chair would ask unanimous consent 
that three different documents be put in the record. The first 
is a copy of the DOE document entitled ``Yucca Mountain Project 
Site Recommendation Material'' which includes the Secretary's 
recommendation to the President, the President's recommendation 
to the Congress. The second document is a copy of the State of 
Nevada's Formal Disapproval on Yucca Mountain which was 
submitted to the House of Representatives Speaker, Mr. Hastert, 
on April 8, 2002. The third is the written testimony of the 
Governor of Nevada, Governor Kenny Guinn, who could not be here 
today. These have been precleared by staff on the Minority 
side. Is there objection to these documents being put into the 
record? Hearing none, so ordered.
    [The material referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9469.001
    
    [GRAPHIC] [TIFF OMITTED] T9469.002
    
    [GRAPHIC] [TIFF OMITTED] T9469.003
    
    [GRAPHIC] [TIFF OMITTED] T9469.004
    
    [GRAPHIC] [TIFF OMITTED] T9469.005
    
    [GRAPHIC] [TIFF OMITTED] T9469.006
    
    [GRAPHIC] [TIFF OMITTED] T9469.007
    
    [GRAPHIC] [TIFF OMITTED] T9469.008
    
    [GRAPHIC] [TIFF OMITTED] T9469.009
    
    [GRAPHIC] [TIFF OMITTED] T9469.010
    
    [GRAPHIC] [TIFF OMITTED] T9469.011
    
    [GRAPHIC] [TIFF OMITTED] T9469.012
    
    [GRAPHIC] [TIFF OMITTED] T9469.013
    
    [GRAPHIC] [TIFF OMITTED] T9469.014
    
    [GRAPHIC] [TIFF OMITTED] T9469.015
    
    [GRAPHIC] [TIFF OMITTED] T9469.016
    
    [GRAPHIC] [TIFF OMITTED] T9469.017
    
    [GRAPHIC] [TIFF OMITTED] T9469.018
    
    [GRAPHIC] [TIFF OMITTED] T9469.019
    
    [GRAPHIC] [TIFF OMITTED] T9469.020
    
    [GRAPHIC] [TIFF OMITTED] T9469.021
    
    [GRAPHIC] [TIFF OMITTED] T9469.022
    
    [GRAPHIC] [TIFF OMITTED] T9469.023
    
    [GRAPHIC] [TIFF OMITTED] T9469.024
    
    [GRAPHIC] [TIFF OMITTED] T9469.025
    
    [GRAPHIC] [TIFF OMITTED] T9469.026
    
    [GRAPHIC] [TIFF OMITTED] T9469.027
    
    [GRAPHIC] [TIFF OMITTED] T9469.028
    
    [GRAPHIC] [TIFF OMITTED] T9469.029
    
    [GRAPHIC] [TIFF OMITTED] T9469.030
    
    [GRAPHIC] [TIFF OMITTED] T9469.031
    
    [GRAPHIC] [TIFF OMITTED] T9469.032
    
    [GRAPHIC] [TIFF OMITTED] T9469.033
    
    [GRAPHIC] [TIFF OMITTED] T9469.034
    
    [GRAPHIC] [TIFF OMITTED] T9469.035
    
    [GRAPHIC] [TIFF OMITTED] T9469.036
    
    [GRAPHIC] [TIFF OMITTED] T9469.037
    
    [GRAPHIC] [TIFF OMITTED] T9469.038
    
    [GRAPHIC] [TIFF OMITTED] T9469.039
    
    [GRAPHIC] [TIFF OMITTED] T9469.040
    
    [GRAPHIC] [TIFF OMITTED] T9469.041
    
    [GRAPHIC] [TIFF OMITTED] T9469.042
    
    [GRAPHIC] [TIFF OMITTED] T9469.043
    
    [GRAPHIC] [TIFF OMITTED] T9469.044
    
    [GRAPHIC] [TIFF OMITTED] T9469.045
    
    [GRAPHIC] [TIFF OMITTED] T9469.046
    
    [GRAPHIC] [TIFF OMITTED] T9469.047
    
    [GRAPHIC] [TIFF OMITTED] T9469.048
    
    [GRAPHIC] [TIFF OMITTED] T9469.049
    
    [GRAPHIC] [TIFF OMITTED] T9469.050
    
    [GRAPHIC] [TIFF OMITTED] T9469.051
    
    [GRAPHIC] [TIFF OMITTED] T9469.052
    
    [GRAPHIC] [TIFF OMITTED] T9469.053
    
    [GRAPHIC] [TIFF OMITTED] T9469.054
    
    [GRAPHIC] [TIFF OMITTED] T9469.055
    
    [GRAPHIC] [TIFF OMITTED] T9469.056
    
    [GRAPHIC] [TIFF OMITTED] T9469.057
    
    [GRAPHIC] [TIFF OMITTED] T9469.058
    
    [GRAPHIC] [TIFF OMITTED] T9469.059
    
    [GRAPHIC] [TIFF OMITTED] T9469.060
    
    [GRAPHIC] [TIFF OMITTED] T9469.061
    
    [GRAPHIC] [TIFF OMITTED] T9469.062
    
    [GRAPHIC] [TIFF OMITTED] T9469.063
    
    [GRAPHIC] [TIFF OMITTED] T9469.064
    
    [GRAPHIC] [TIFF OMITTED] T9469.065
    
    [GRAPHIC] [TIFF OMITTED] T9469.066
    
    [GRAPHIC] [TIFF OMITTED] T9469.067
    
    [GRAPHIC] [TIFF OMITTED] T9469.068
    
    [GRAPHIC] [TIFF OMITTED] T9469.069
    
    [GRAPHIC] [TIFF OMITTED] T9469.070
    
    [GRAPHIC] [TIFF OMITTED] T9469.071
    
    [GRAPHIC] [TIFF OMITTED] T9469.072
    
    [GRAPHIC] [TIFF OMITTED] T9469.073
    
    [GRAPHIC] [TIFF OMITTED] T9469.074
    
    [GRAPHIC] [TIFF OMITTED] T9469.075
    
    [GRAPHIC] [TIFF OMITTED] T9469.076
    
    [GRAPHIC] [TIFF OMITTED] T9469.077
    
    [GRAPHIC] [TIFF OMITTED] T9469.078
    
    [GRAPHIC] [TIFF OMITTED] T9469.079
    
    [GRAPHIC] [TIFF OMITTED] T9469.080
    
    [GRAPHIC] [TIFF OMITTED] T9469.081
    
    [GRAPHIC] [TIFF OMITTED] T9469.082
    
    [GRAPHIC] [TIFF OMITTED] T9469.083
    
    [GRAPHIC] [TIFF OMITTED] T9469.084
    
    [GRAPHIC] [TIFF OMITTED] T9469.085
    
    [GRAPHIC] [TIFF OMITTED] T9469.086
    
    [GRAPHIC] [TIFF OMITTED] T9469.087
    
    [GRAPHIC] [TIFF OMITTED] T9469.088
    
    [GRAPHIC] [TIFF OMITTED] T9469.089
    
    [GRAPHIC] [TIFF OMITTED] T9469.090
    
    [GRAPHIC] [TIFF OMITTED] T9469.091
    
    [GRAPHIC] [TIFF OMITTED] T9469.092
    
    [GRAPHIC] [TIFF OMITTED] T9469.093
    
    [GRAPHIC] [TIFF OMITTED] T9469.094
    
    [GRAPHIC] [TIFF OMITTED] T9469.095
    
    [GRAPHIC] [TIFF OMITTED] T9469.096
    
    [GRAPHIC] [TIFF OMITTED] T9469.097
    
    [GRAPHIC] [TIFF OMITTED] T9469.098
    
    [GRAPHIC] [TIFF OMITTED] T9469.099
    
    [GRAPHIC] [TIFF OMITTED] T9469.100
    
    [GRAPHIC] [TIFF OMITTED] T9469.101
    
    [GRAPHIC] [TIFF OMITTED] T9469.102
    
    [GRAPHIC] [TIFF OMITTED] T9469.103
    
    [GRAPHIC] [TIFF OMITTED] T9469.104
    
    [GRAPHIC] [TIFF OMITTED] T9469.105
    
    [GRAPHIC] [TIFF OMITTED] T9469.106
    
    [GRAPHIC] [TIFF OMITTED] T9469.107
    
    [GRAPHIC] [TIFF OMITTED] T9469.108
    
    [GRAPHIC] [TIFF OMITTED] T9469.109
    
    [GRAPHIC] [TIFF OMITTED] T9469.110
    
    [GRAPHIC] [TIFF OMITTED] T9469.111
    
    [GRAPHIC] [TIFF OMITTED] T9469.112
    
    [GRAPHIC] [TIFF OMITTED] T9469.113
    
    [GRAPHIC] [TIFF OMITTED] T9469.114
    
  Prepared Statement of Hon. Kenny C. Guinn, Governor, State of Nevada

    Honorable Mr. Chairman and members of the Committee, my name is 
Kenny C. Guinn and I am Governor of the State of Nevada. I appreciate 
the opportunity to submit written comments for the Committee's 
consideration. Due to conflicting commitments, I am unable to be 
present in person, and I apologize for that. I am disappointed, 
however, that the Committee was unable to accept Mr. Steven Molasky to 
testify for Nevada in my place. Mr. Molasky, a respected Nevada 
businessman, is a senior member of the Nevada Commission on Nuclear 
Projects and would have made a valuable contribution to your 
deliberations. I am likewise disappointed that your Committee was 
unable to accept the testimony of Mr. Robert Loux, the longstanding 
Director of Nevada's Agency for Nuclear Project, and perhaps the most 
knowledgeable Nevadan when it comes to Yucca Mountain issues.
    Nevada considers the Yucca Mountain project to be the product of 
extremely bad science, extremely bad law, and extremely bad public 
policy. Moreover, implementing this ill-conceived project will expose 
tens of millions of Americans to unnecessary nuclear transport risks. 
For that reason, we believe Congress should take no further action with 
respect to the Yucca Mountain project.
    Attached to this statement are the Notice of Disapproval and an 
accompanying Statement of Reasons I recently filed with the U.S. 
Congress pursuant to Section 116 of the Nuclear Waste Policy Act. 
Please consider the Statement of Reasons to represent my written 
testimony to the Committee. In addition, I would like to supplement 
this testimony with the following:
More on the Unsound Science of Yucca Mountain
    Yet another document, perhaps the key document, has now appeared 
from within the scientific community that excoriates the scientific 
work of the Department of Energy (DOE) in connection with Yucca 
Mountain. Numerous independent scientific reviewers have now evaluated 
the project during the past year, and all have reached the same 
conclusion: There is nowhere near enough information to certify the 
suitability of the Yucca Mountain site for high-level nuclear waste 
disposal, and the information that is available suggests the site is 
woefully unsuitable geologically.
    This latest report, however, reaches shocking new conclusions. It 
is a peer review report commissioned by DOE from the International 
Atomic Energy Agency and the Nuclear Energy Agency (IAEA) of the 
Organization for Economic Cooperation and Development (OECD). These 
agencies assembled some of the world's leading scientists to evaluate, 
over several months, the total system performance of Yucca Mountain as 
represented by DOE and its computer models. Among other things, these 
leading scientists concluded that DOE lacks sufficient information even 
to build a model to predict the suitability and hydrogeologic 
performance of the proposed repository. According to the peer review 
group, the water flow system at Yucca Mountain is ``not sufficiently 
understood to propose a conceptual model for a realistic transport 
scenario.''
    Moreover, according to the peer review group, DOE's level of 
understanding of the hydrogeology of the site is ``low, unclear, and 
insufficient to support an assessment of realistic performance.'' DOE's 
sensitivity studies in its computer models ``do not give any clues to 
the important pathways for the water in the system.'' Perhaps most 
troubling of all, in DOE's performance model of Yucca Mountain, 
``increased ignorance leads to lower expected doses, which does not 
appear to be a sensible basis for decision-making.''
    It is truly amazing to me, as an elected executive official, that 
DOE commissioned this peer review report many months ago, and then made 
a final ``site suitability'' determination to the President and the 
Congress in spite of its stunning conclusions. It shows once again, in 
my view, that politics has long prevailed over science when it comes to 
Yucca Mountain. This is another reason for Nevada to redouble its 
efforts to stop this project - government bureaucrats seem unable to 
pull the plug, even in the face of shocking independent evidence that 
the science is bad or nonexistent.
    A copy of the IAEA/NEA peer review report is attached, together 
with a brief summary of its findings.
The PECO Solution and the Myth of Proliferating Storage Sites
    It is almost certain that, even if Yucca Mountain proceeds, every 
nuclear utility in the United States will nonetheless have to build an 
interim dry storage facility for their inventories of spent nuclear 
fuel, if they have not already done so. This is because Yucca Mountain 
will not be ready to receive high-level radioactive waste until long 
after spent fuel pools at reactor sites have been filled to capacity. 
Moreover, as I have explained in my Statement of Reasons, Yucca 
Mountain will not reduce the number of storage sites across America for 
60 to 100 years, even if no new plants are built, and Yucca Mountain 
will never reduce the number of storage sites as long as nuclear 
reactors continue to be built and operated.
    Attached to this statement is a copy of the agreement DOE signed 
with PECO Energy in June 2000. As explained in my Statement of Reasons, 
the PECO deal is the safe, practical, economic alternative to a 
severely flawed Yucca Mountain project. It represents what utilities 
are planning to do, and will do anyway, in the real world. The only 
question about the PECO solution is whether it will be implemented 
using funds from the Nuclear Waste Fund, or from some alternative 
funding source. I urge the Committee to explore the PECO deal 
carefully, and to question DOE and the nuclear industry as to why it 
has recently been ignored, or even hidden from public view.
Transport Issues
    The final issue I want to bring to your attention again is the 
nuclear transportation issue. Some have accused Nevada of fear 
mongering simply for honestly and sincerely raising the many questions 
that nuclear waste shipments to Yucca Mountain pose for our nation's 
citizens. But these are extremely legitimate questions, and they 
deserve legitimate answers.
    In its Environmental Impact Statement for Yucca Mountain, DOE's own 
numbers point to as many as 108,000 high-level waste and spent nuclear 
fuel shipments to Yucca Mountain. Almost every state, and most major 
metropolitan areas, will be affected by these shipments. More than 123 
million citizens reside within one-half-mile of the proposed transport 
routes. The modes and methodologies for shipment have not yet been 
determined, much less analyzed. For example, we recently learned from 
DOE that as many as 3,000 barge shipments may be involved, traversing 
numerous port cities and harbor areas. According to DOE's own analyses, 
a single accident scenario could produce thousands of latent cancer 
fatalities and lead to many billions of dollars in cleanup costs.
    DOE has never done an analysis of the terrorism risks associated 
with mass transport to Yucca Mountain. In a recent brief filed in NRC 
license proceedings by nuclear utilities for the proposed Private Fuel 
Storage facility in Utah, the nuclear industry took the position that 
it is essentially no one's jurisdiction, other than the U.S. military, 
to evaluate terrorism risks in spent fuel transport. According to the 
utilities, this is not a proper subject for analysis by DOE, the NRC, 
the Department of Transportation, or the industry itself. In short, if 
you believe the industry, this is an area that only Congress can now 
evaluate, or direct others to evaluate. Put another way, if Congress 
does not order such an analysis to be done, none will be done. In the 
wake of September 11th, failure to perform such an analysis would 
appear unwise.
    And there is something else our experts now tell us: DOE has never 
done an evaluation of the nuclear criticality risk of a spent fuel cask 
getting struck by a state-of-the-art armor-piercing weapon. In recent 
nuclear industry advertisements and press statements, it was suggested 
that if a warhead penetrated a cask, authorities would simply dispatch 
an emergency crew to ``plug it up.'' This assumes the dose rate in the 
vicinity of the cask is not a lethal one. It assumes that the warhead 
does not essentially liquefy the contents of the cask, if it is not 
already liquid. It assumes that any inner explosion in the cask would 
not so alter the geometry of the contents that the contents would go 
critical, obliterating the cask. It assumes that the cask is not over a 
river or on a barge and will not subsequently fill with water, a 
neutron moderator. It assumes that the cask is not filled with U.S. or 
foreign research reactor spent fuel, which is usually comprised of 
highly-enriched, or weapons-grade, uranium.
    Finally, there are questions regarding the casks that will be used 
for shipping high-level waste and spent nuclear fuel to any repository. 
First of all, very few casks exist today, so the ones that would be 
used for a 38-year shipping campaign to Yucca Mountain are still in 
various stages of development. That might be acceptable if we knew they 
were going to be subjected to rigorous physical testing prior to use, 
but that is not intended. Instead, computer- and some limited scale-
model testing is the planned method of assessing cask integrity. Those 
ancient tapes we have all seen of discarded shipping casks being 
dropped from helicopters, run into cement walls and hit by trains--none 
of that is planned for the new generation of casks. No, instead we are 
being asked to believe recent industry claims that the new, not-yet-
built casks can withstand ``all but the most advanced armor-piercing 
weapons'' and a ``direct hit by a fully fueled Boeing 747.'' These wild 
claims are not based on actual testing, and we know from tests 
conducted at Sandia National Laboratories in the 1980s and by the U.S. 
Army at Aberdeen Proving Grounds as recently as 1998 that even very 
robust casks are vulnerable to attacks from small missiles. Shouldn't 
the new generation of casks be subjected to full-scale physical testing 
under a range of conceivable scenarios, including an attack by 
terrorists willing to give their own lives?
    These are but a few of the many legitimate questions that remain 
about high-level waste and spent nuclear fuel transport. As a nation, 
we deserve clear and honest answers. Industry claims and a ``trust me'' 
attitude are simply not enough.
    Thank you for your consideration.

    Mr. Barton. The Chair would recognize himself for 5 minutes 
for questions and then we'll go on to Mr. Boucher and members 
of the majority and minority side.
    Mr. Secretary, I believe you're aware that under the 
Nuclear Waste Policy Act of 1982, as amended in 1987, that the 
government of the United States was required to begin to accept 
the high level waste generated by our civilian reactors 
beginning on January 1, 1998. I'm sure you're aware of that.
    Mr. Abraham. I am.
    Mr. Barton. So in fact, if we're not to move forward with 
Yucca Mountain, the taxpayers of the United States will be 
subjected to billions and billions of dollars in claims by the 
operators of these reactors who have been waiting patiently for 
the last 4 years for us to begin to move forward on the 
repository. Is that not correct?
    Mr. Abraham. Mr. Chairman, obviously, I don't want to 
speculate as to the possible litigation liability of the 
Federal Government in the situation that you've outlined. But 
as you know already, lawsuits have been brought because we have 
already failed to meet the initial time table.
    Mr. Barton. As we move forward and hopefully we will move 
forward, if in fact, the House and the Senate override the veto 
of the Governor of Nevada, the next big issue, once we have a 
site selected is going to be a transportation plan and numerous 
Members of Congress have got serious questions about the 
ability to transport this waste. I'm going to briefly describe 
what the design criteria area and then ask you a question about 
the ability to transport the waste safely.
    Under the law, any cask that's used to transport high level 
nuclear waste has to withstand a 30-foot free fall on to an 
unyielding surface which would be equivalent to a head on crash 
of the cask at 120 miles an hour into a concrete bridge. It 
also has to be able to withstand a puncture test allowing the 
container to fall 40 inches onto a steel rod, 6 inches in 
diameter. It also has to be able to withstand 30 minutes 
exposure to a fire at 1,475 degrees Fahrenheit that engulfs the 
entire container and then that container has to be able to 
withstand submergence underwater for 8 hours. Now the 
Department of Energy has conducted tests at Sandia National 
Laboratory in New Mexico and the District of the Congresswoman 
Heather Wilson, who is a member of the subcommittee in which 
they had a flatbed truck loaded with one of these casks which 
smashed into a 700-ton concrete wall at 80 miles an hour. They 
subjected another cask to a rocket assisted broadside by 120 
ton locomotive train traveling at 80 miles an hour. They 
dropped a cask from 2,000 feet onto soil as hard as concrete. 
That must have been my backyard that they dropped it onto which 
was traveling 235 miles an hour at impact. In Great Britain, 
Great Britain's equivalent of the Department of Energy ran an 
unmanned locomotive at 100 miles an hour into a cask in front 
of 2,000 spectators. It was shown on British National 
Television. The cask survived with minimal damage. And finally, 
4 years ago, one of the proprietary producers of these casks 
shot a TOW anti-tank missile into the side of one of these 
casks, first with the cask unprotected by its proprietary 
material. That did create an indentation into the side of the 
cask, but there was no--there would have been no resultant loss 
in radiation. They then fired another anti-tank TOW missile 
into the cask with their proprietary protection and there was 
no damage done at all.
    Do you as Secretary of Energy have any doubt that once we 
work through the transportation issues about the routes and the 
locations with the various governments, that the casks 
themselves are going to be unsafe in any way to the American 
people?
    Mr. Abraham. I'm confident, Mr. Chairman, that first of 
all, we will use only casks which have been certified for these 
purposes by the Nuclear Regulatory Commission, and I'm 
confident that there will be casks to meet the tests. I would 
point out the issue of transportation is one that gets raised 
and legitimately so, but that there has been ample amount of 
evidence compiled about our capabilities to transport waste, 
including nuclear waste, both here in the United States and in 
Europe, for over 30 years without any harmful radiation effects 
or releases. In fact, in Europe, I believe the amount that's 
already been transported is approximately the total amount 
which would be transported to Yucca Mountain.
    So there is a very successful track record of doing this, 
both here and in Europe, we're confident that based on not only 
that record, but also on the work that was done in preparing 
our environmental impact statement, that we can continue that 
excellent track record into the future.
    Mr. Barton. Thank you, Mr. Secretary, my time is expired. I 
would now recognize the gentleman from Virginia, Mr. Boucher, 
for 5 minutes for questions.
    Mr. Boucher. Thank you very much, Mr. Chairman, and 
Secretary Abraham, thank you for your appearance here today and 
your very able testimony and I also want to say thank you to 
you and to your staff for the very careful and thorough work 
that your Department has done in analyzing the Yucca Mountain 
site, forwarding your Department's recommendation to the 
President.
    Mr. Barton. Would the gentleman yield, please?
    Mr. Boucher. I'll be happy to yield.
    Mr. Barton. Would you care to introduce the members of your 
staff that are here because I understand you have some of your 
senior staff with you today.
    Mr. Abraham. We have a number of them. I believe--too many 
of them, maybe.
    Mr. Barton. Well, the senior staff.
    Mr. Abraham. Let me introduce Bob Card, Undersecretary of 
Energy. Let me introduce our General Counsel, Lee Otis. Let me 
also introduce the very recently confirmed appointee Dr. 
Margaret Chu, who will lead our Civilian Radioactive Waste 
Program and will oversee this project in the future. There are 
probably a variety of others here who I should be introducing 
and to them my apologies are extended.
    Mr. Barton. Thank you.
    Mr. Boucher. Well, again, Mr. Secretary, I want to thank 
you and the individuals you've introduced and others who have 
worked with you and with them for the thorough and careful work 
that you've done.
    The critics of the Yucca Mountain decision allege that this 
decision is not based on sound science. Your review has looked 
at the scientific work that has been done during the course of 
the last 20 years and I would welcome this morning your 
response to that criticism. What about the argument that this 
project is not based on sound science?
    Mr. Abraham. Well, as I've said to the committee, this 
Department has over 24 years invested $4 billion in scientific 
research. We have researched almost anything people raised as 
concerns. As I said earlier, not only did we consider whether 
for the first 300 years we could build and operate in a 
preclosure period, but we also have investigated whether 10,000 
years from now we could meet a groundwater standard equivalent 
to the current drinking water standards and a total pathways 
radiation standard of 15 millirems per year, which is a very 
small level of exposure. We have done a variety of tests and a 
variety of total system performance assessments, both through 
computer modeling as well as actual tests inside Yucca Mountain 
itself.
    I visited the mountain. It's a very isolated place, as you 
know. I am confident that the men and women who have worked on 
the science have done their job exceedingly well. And, I would 
note that while when you have a debate like this, it's entirely 
expected that you will have people on both sides--whether it's 
the nuclear energy industry or it's the State of Nevada with 
their own experts, who would make the case either way--a 
variety of independent groups who have looked at this have 
confirmed what we've said. The International Atomic Energy 
Agency said that an adequate basis exists for supporting a 
statement of likely compliance within the regulatory period of 
10,000 years, and accordingly, for the site recommendation. The 
U.S. Geological Survey said that it believes that the 
scientific work performed to date supports a decision to 
recommend Yucca Mountain for development as a nuclear waste 
repository. The Nuclear Regulatory Commission itself has 
extended a sufficiency letter based on their assessment of the 
work done, saying that we will have met the sufficiency 
standard for a license application. I believe with strong 
conviction, as I've said already, that the science is sound and 
we can move to the next stage. But again, the next stage is 
letting the NRC's team of independent objective experts review 
the competing claims and make the final adjudication. I think 
we're confident enough to go to that stage. Those who opposed 
this wouldn't even allow the next stage to test it.
    Mr. Boucher. Thank you very much. It's also true, is it 
not, that even after construction begins on the site and waste 
is received at the site, that prior to permanent closure of the 
site there will be a period of time during which even further 
scientific learning can come forward and there will be an even 
additional opportunity to apply whatever knowledge is gained 
from that process to additional protections?
    Mr. Abraham. Absolutely. As I said, we're talking about a 
preclosure period of 50 to 300 years. If you look backward a 
similar time period that would be the year 1700. Consider the 
progress science has made in that period. If you go back just 
50 years, you're talking about the dawn of the nuclear age. So 
it's my strong belief that in that period in which we would be 
monitoring the facility in which we would obviously be making 
great advances in terms of issues that relate to safety and 
security, that the opportunities will be available to perfect 
what we already believe is a satisfactory design.
    Mr. Boucher. Mr. Secretary, we've spent now 20 years 
analyzing the Yucca Mountain site. It has taken us that long to 
get from where we started to the present day. We are now on the 
verge of approving, and I think we will approve it--legislation 
that moves this process forward with regard to Yucca Mountain. 
But let me ask you what your alternatives are in the event that 
we do not take that step, if Congress were not to pass this 
bill, if the disapproval announced by the Governor of Nevada of 
this site should stand, what alternatives then does the 
Department of Energy have for disposing of waste?
    Mr. Abraham. Well, there is no alternative. Obviously, 
Congress would be in a position, with the executive branch, to 
presumably work together to try to go back to square one and to 
make a decision as to what comes next. But the way the Nuclear 
Waste Policy Act is established sets in motion a clear set of 
decision milestones, the first of which was my decision to 
recommend to site, the second of which was the President's 
recommendation. The third step was obviously the actions that 
Nevada has taken. Now Congress has this decision before it.
    Again, I would remind the members the decision you have is 
whether or not to allow this to move to the stage at which the 
NRC's independent, neutral, objective, expert organization will 
decide whether or not the claims we've made in fact can be met. 
Failure to do this leaves us with the responsibility for the 
waste with no plan to move forward to address that 
responsibility. The potential consequences that I mentioned 
earlier are adverse in nature to our national security, 
nonproliferation programs, and the like.
    Mr. Boucher. Thank you, Mr. Chairman, we appreciate you 
being here this morning, thank you.
    Mr. Barton. The Chair will now recognize the gentleman from 
Georgia, Mr. Norwood, for 5 minutes for questions.
    Mr. Norwood. Thank you very much, Mr. Chairman and Mr. 
Secretary, thank you for being here and your staff. I think I'm 
going to be fairly brief. 1998, as you recall, DOE missed the 
statutory deadline to begin removing fuel from reactor sites 
and at that point provided a revised schedule, as you remember 
and at that point committed to start receiving fuel at Yucca 
Mountain by 2010. Do you still agree with that? Is that still a 
commitment?
    Mr. Abraham. It is, and we believe that the 2010 date can 
be met, assuming that this process moves forward.
    Mr. Norwood. Is there anything that Congress can or should 
do to help you reach that goal?
    Mr. Abraham. Well, I think that the first decision process 
obviously relates to moving ahead to the next step by 
overriding the veto of Nevada. Certainly there will be the need 
for sufficient funds to be able to finish the licensing process 
of Congress. I believe both the 01 and 02 appropriations 
process focused our resources on the science research as 
opposed to putting resources into the licensing process. It's 
one of the reasons that we now have more to do on the licensing 
side and as we move ahead, we will need to have those 
resources.
    We will also need to address, I think, some issues that 
pertain to the site itself. But, I think it would be premature 
to speculate on all of those unless we move to the next step 
nothing can happen.
    Mr. Norwood. Anything that comes to mind that we might do 
to improve on that date?
    Mr. Abraham. I think it would be very hard to move quicker 
than 2010. I wouldn't want to leave the committee under any 
misunderstandings. We think that's not an overly ambitious 
deadline. We think it's a reasonable one. It would be our 
belief that if Congress acts to override the State of Nevada's 
veto that it can be met.
    Mr. Norwood. A question earlier was what happens if, in 
fact, we don't use Yucca Mountain and I'd like to ask that 
question too. Specifically and narrowly tailored in is if we 
don't Yucca Mountain, what's going to happen or what do you 
think might happen to the Nation's overall energy supply 
situation if we don't use Yucca Mountain?
    Mr. Abraham. I think there are a couple of things that 
might occur. First, I think we will see an array of makeshift 
alternatives developed by people who currently are storing 
spent nuclear waste in temporary conditions. They're running 
out of storage space. They lack confidence in the future in 
terms of how much space they're going to have and the timeframe 
in which they will exceed whatever their limits are. We've 
already had one very recent application before the Nuclear 
Regulatory Commission in which a group of energy companies and 
the Goshute Indian tribe in the State of Utah are working 
together to build a facility on the tribal land to store waste. 
And by the way, Mr. Chairman, this goes back to the 
transportation issue you raised. I believe you'll see an array 
of ad hoc, makeshift alternatives developed in which 
transportation of waste is going to happen--not in the kind of 
coordinated programs we are recommending, but in an ad hoc 
fashion. So I think that's one thing that will happen. Another 
thing will be that it would probably affect decisions with 
respect to license extension of nuclear facilities. Existing 
facilities will reach the point where we don't have the same 
level of nuclear energy in our energy mix as we do today just 
because people will run out of storage. They'll have to either 
cease operations or not seek new license extension.
    Mr. Norwood. When's the last time you've been to Yucca 
Mountain?
    Mr. Abraham. I was there in early January.
    Mr. Norwood. I had the privilege of being there in 1996 and 
I came away impressed with a number of things: the tunnel 
digging machine, the scope of this entire thing was 
unbelievable and the amount of dollars that the taxpayers were 
spending particularly on science to try to have this right and 
I came away very impressed with the amount of dollars we were 
spending to make sure that the mountain or desert turtles would 
be all right. How are the turtles out there? Are they okay?
    Mr. Abraham. I'm not sure, but I'll take that question for 
the record.
    Mr. Norwood. My point there is, of course, that you can 
make science say anything, but it is my observation that this 
has been not only very expensive, but very complete and I don't 
think there's much else really that I could imagine that you 
might study at this point and we do need to move our material 
from around the country out there and hopefully before 210.
    Thank you, Mr. Chairman.
    Mr. Barton. Thank you, gentlemen. I had heard that most of 
the turtles had moved into Las Vegas and were dealing 
blackjack. That's what I had heard. Doing very well at it too, 
by the way.
    The gentleman from Ohio, Mr. Sawyer is recognized.
    Mr. Sawyer. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here. The question that you're dealing 
with has been a thorny one for a very long period of time.
    Let me ask you about procedure. The DOE is obligated under 
the law to once we have designated a repository site to make 
application to the NRC within 90 days. My understanding is that 
you and the NRC have drawn up a list of nearly 300 technical 
issues that confront that application process.
    Are you going to be able to meet the 90 days, first of all, 
and I'm assuming you knew the difficulty of doing that when you 
initiated this process with the Congress.
    Mr. Abraham. I think, that first of all, there's been some 
confusion as to the interpretation of that 90-day provision. I 
think it would be turning the statutory provision on its head 
to treat it as a basis for delay, for not going forward with 
the project. I think the provision's purpose was really to 
speed up repository siting and licensing by trying to urge the 
Department--once we got to a point where the President had 
acted and Congress had acted--to move ahead with the license.
    Mr. Sawyer. I'm not suggesting that. What I'm getting to is 
the point of whether or not you need more time in order to 
resolve the issues so that you don't have to do gymnastics 
around the law.
    Mr. Abraham. No, I don't think we need to go that route. 
The sufficiency letter which has been provided by the Nuclear 
Regulatory Commission is consistent with that. The NRC 
recognizes, and we agree, that most of the remaining work has 
to be done as a natural part of the licensing process. In fact, 
I think Congress was probably correct in limiting the funds 
available for pre-license or license-related activities until 
we decided we could make the decision to recommend the site. I 
think--and in fact, I know that we've actually reduced the 
number of remaining issues substantially since this past fall.
    Mr. Sawyer. The Technical Review Board made a number of 
recommendations in its report in January. Do you agree with the 
findings of the report? How do you plan to respond to the 
recommendations? I'm particularly interested in the Board's 
strong recommendation to reverse previous thought on this and 
use a low temperature storage procedure.
    Mr. Abraham. I've met with both the chairman and other 
members of the Board. We take very seriously all of the 
recommendations they make, obviously recognizing that their 
role is to be a part of this process, giving advice and counsel 
to the Department. Remember, as I said, there is this 
preclosure period in which we have plenty of time, I think, to 
further perfect what we think is the correct design. As I said, 
it's a duration potentially longer than the United States has 
been a country. Regarding some of the concerns that have been 
expressed, I would just say this. We are confident and we 
believe the tests that we have done allow us, with the present 
design and the information we have, to meet the very, very 
stringent standards of the EPA and the Nuclear Regulatory 
Commission. It is not surprising, I don't think, that 
reasonable people can differ as to the conclusions that we've 
reached far into the future: 10,000 years. But most of the 
issues, such as the one you mentioned, the storage design in 
terms of hot versus cold, are ones which we tried to factor 
into the design plan at this point, so that we have the 
flexibility to go either way. We have been, in no small measure 
at the Technical Review Board's urging, engaged in extensive 
testing and will continue to do that. We have time to make that 
ultimate decision as to what, in fact, is the preferable 
course. We've left that as an open issue, recognizing that in 
terms of the design, we can go in either direction and we do 
have to do more science research to decide which one is better, 
although I'm convinced that both would allow us to meet the 
standard. Now the question is how do we not only meet the 
standard, but what do we do to go the extra steps to do the 
best, most perfect approach.
    Mr. Sawyer. One last question, Mr. Chairman. There are all 
kinds of conflicting numbers about the numbers of shipments 
that would be involved. I've seen it range from 10 to 40,000 
and I suppose it all comes down to the size and concentration 
of shipments on a particular shipment. Have you developed 
thought on the concentration of waste that would be permitted 
on any given----
    Mr. Abraham. We have. It's our estimate, and I think that 
this number would be very accurate, that there would be less 
than one shipment per day. It's obviously part of the on-going 
process as we move through licensing, toward construction, and 
shipping to decide what is the right configuration. But, one 
shipment--less than one shipment per day is our current 
estimate--I don't mean to compare apples to oranges, but I do 
think that it's important to know that in this country 
somewhere in the vicinity of 300 million hazardous waste 
shipments per year take place. We have somewhere in the 
vicinity of 3 million shipments that involve some type of 
radiological material. We're talking about something less than 
365 shipments to the repository at this point, perhaps 
substantially less.
    Mr. Sawyer. Thank you very much. Thank you, Mr. Chairman.
    Mr. Barton. The gentleman's time has expired. We'd now 
recognize the full committee chairman, Mr. Tauzin for 5 minutes 
for questions.
    Chairman Tauzin. Thank you, Mr. Chairman. Mr. Secretary, 
thank you so much for being here to help us resolve this issue. 
Let me first point out that I'm aware, as I know the committee 
is aware, that there's been an attempt to characterize the 
Department of Energy's review of this important issue as being 
one sided. I'm reading from one report that indicated that by 
golly, you were meeting consistently with people who support 
the burial site in Nevada and not meeting with those who 
opposed it and it refers specifically, in fact you met eight 
times with Republican lawmakers who support nuclear waste 
burial in Nevada. Will you describe those meetings? I was at 
one of those. I know about them. Would you tell us what those 
meetings were about?
    Mr. Abraham. Well, the subcommittee chairman, I think, was 
at two of those that were referenced. As both of you know, we 
talked about other matters. I think there's a tendency to want 
to extrapolate substantially, but I think----
    Chairman Tauzin. Were they meetings about Yucca Mountain?
    Mr. Abraham. No, they were not.
    Chairman Tauzin. They were not. I think some of those were 
simply your courtesy visits to come meet us after you had been 
nominated----
    Mr. Abraham. That's correct.
    Chairman Tauzin. And approved as Secretary of the 
Department. Is that correct?
    Mr. Abraham. That's correct.
    Chairman Tauzin. So these courtesy meetings have now been 
blown up into Yucca Mountain meeting when they never were, were 
they?
    Mr. Abraham. I find that, as far as I can tell, any meeting 
that took place with anyone who has had at some point expressed 
support for the project is characterized as a Yucca Mountain 
meeting----
    Chairman Tauzin. Whether you talked about it or not.
    Mr. Abraham. Right.
    Chairman Tauzin. In most cases, you tell me you didn't.
    Mr. Abraham. That's correct.
    Mr. Barton. Will the gentleman yield?
    Chairman Tauzin. Yes. I'll be happy to yield.
    Mr. Barton. The toughest question I asked in the first 
courtesy meeting was whether he was a Wolverine or a Spartan.
    Chairman Tauzin. How did he handle it?
    Mr. Barton. He said he had friends on both sides.
    Chairman Tauzin. He's still a Senator, for heaven's sake.
    The other thing I want to point out was I have with me a 
copy of a letter dated September 5, 2001 from you to 
Representative Berkley in which you make it very clear that 
you're very interested in the views and comments of the 
citizens of Nevada. You set up a video conference link of the 
Las Vegas Public Hearings with locations in Carson City, Elko 
and Reno. You agreed to have the feed provided to the Senate 
recording studios so that any one of us could sit in and listen 
to those views, including Ms. Berkley. More importantly, you 
issued an invitation. I will be happy to meet with you, the 
Governor and the Members of the Nevada congressional delegation 
to hear your and their views directly.
    Did Ms. Berkley take you up on that invitation?
    Mr. Abraham. Congresswoman Berkley----
    Chairman Tauzin. Ms. Berkley, I'm sorry.
    Mr. Abraham. No, she did not. I have met twice with 
Governor Guinn, but not with any of the delegation members.
    Chairman Tauzin. Yes, but you did offer to meet with the 
delegation. Ms. Berkley was the one you directed the letter to.
    Mr. Abraham. Actually, all the members received an 
invitation.
    Chairman Tauzin. A similar letter.
    Mr. Abraham. Right.
    Chairman Tauzin. And I think you got to meet with the 
Governor, who did agree to meet with you and that's it, right?
    Mr. Abraham. Right, well, there were local elected 
officials.
    Chairman Tauzin. Isn't it kind of hard--I mean how do you 
feel when you read from Ms. Berkley's statement that the 
Administration had a pro Yucca inclination from the beginning 
and the people they met with were all pro Yucca supporters and 
they threw in a meeting with the Governor as though you 
wouldn't meet with him. That wasn't true, was it?
    Mr. Abraham. Mr. Chairman, that is not true. We offered the 
delegation the opportunity to meet, and sincerely extended that 
invitation. I actually have had meetings during the timeframe 
in which our decision was made with members of the delegation 
in which, as was the case with the meetings I had with you and 
Congressman Barton, other topics were discussed, but this topic 
was not----
    Chairman Tauzin. We can argue about whether your decision 
was a good one, whether we should vote to override the veto of 
Nevada on its substance without this kind of stuff. I mean 
mischaracterizations of the process are just not very helpful 
and I wanted to point that out. These were mischaracterizations 
of the process.
    But there is a process ongoing and I understand that one of 
the things you have yet to do is to hold hearings and I 
understand public hearings on the licensing process if we do 
overrule the State of Nevada. Is that correct?
    Mr. Abraham. Well, the licensing hearings would be part of 
the Nuclear Regulatory Commission's process.
    Chairman Tauzin. Right. And in those public hearings and in 
that process, people from Nevada, anyone can attend and those 
comments and those public hearings leading to license renewal--
there will be further attempts to make sure the site does 
indeed pass the stringent test for health and safety, is that 
correct?
    Mr. Abraham. That's right.
    Chairman Tauzin. And the public will have a chance to 
comment at those hearings, correct?
    Mr. Abraham. That is correct.
    Chairman Tauzin. I noted, as did the State of Nevada, that 
the NRC has identified 293 unresolved technical issues in the 9 
critical areas, could you give us just a brief idea of what 
those were about?
    Mr. Abraham. Most of these are confirmatory of the research 
which we've already conducted and it is our belief and the 
Nuclear Regulatory Commission's belief, these are the sorts of 
actions that are part of the licensing process, and therefore, 
they are not actions that would be predecisional in terms of 
the site recommendation. They are part of what you do as part 
of the licensing.
    Chairman Tauzin. So it's not like you haven't done your job 
at this point. Those are things that are resolved in the 
licensing----
    Mr. Abraham. The Nuclear Regulatory Commission, as I said 
earlier, already has provided us with a sufficiency letter 
saying that we have met what would be needed to move to a 
licensing stage already.
    Chairman Tauzin. In that regard, DOE has resolved some of 
those questions already, have they not?
    Mr. Abraham. I think, well, of the----
    Mr. Barton. This will be your last question.
    Mr. Abraham. Yes, I believe that some 35 to 40 already have 
been resolved in the period since that number was identified.
    Chairman Tauzin. Thank you, Mr. Chairman. Thank you for 
your courtesy.
    Mr. Barton. This will be my last chairing of a hearing so I 
just cutoff the full committee chairman, but I am going to go 
by the rules.
    The Chair would recognize the distinguished ranking member 
from Michigan, Mr. Dingell, for 5 minutes for questions.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. 
Welcome, Mr. Secretary.
    Mr. Abraham. Congressman.
    Mr. Dingell. Mr. Secretary, we've got a great deal of fuss 
going on about this process. I'd like to try in the brief time 
I have available today to try to lay this out so that we can 
all understand what we're looking at here.
    First of all, we spent about $12 billion characterizing the 
site up to this time, is that correct?
    Mr. Abraham. I don't know if it's $12 billion, I think it's 
closer to the $4 billion range.
    Mr. Dingell. It's close. I'll not argue with you if you 
come in with a larger or lower number.
    The next thing is you have at this time completed your 
statutory responsibilities under the legislation to define 
whether it's safe enough to proceed to the next step. Is that 
correct?
    Mr. Abraham. That's correct.
    Mr. Dingell. This is a part of an orderly and ordinary 
congressional process, is it not?
    Mr. Abraham. Yes, it is.
    Mr. Dingell. So now having said that, there are now other 
steps which have to be taken also by you before you can submit 
the matter to NRC for the completion of the then licensing 
process which starts then at the NRC at the time you submitted 
it to the NRC, is that correct?
    Mr. Abraham. That's correct.
    Mr. Dingell. Now approximately how long will it be before 
you are going to be able to submit that to the NRC?
    Mr. Abraham. We believe that, assuming congressional action 
to override the veto occurred, that timeframe would probably be 
into the later part of the year 2004.
    Mr. Dingell. So we have between now and 2004 to continue 
scrutiny of this site to make sure that we're ready then to 
move to the licensing process, is that right?
    Mr. Abraham. Well, I believe that obviously some decision 
could be made in the interim. I think Congress' next action is 
to allow us to go to that next stage to prepare the license and 
submit it.
    Mr. Dingell. So you will then prepare that license and will 
submit that license----
    Mr. Abraham. The application, right.
    Mr. Dingell. Now what do you have to do between now and the 
time that you prepare the license and submit it to NRC?
    Mr. Abraham. Basically, we would be in a license 
application development process. It would be to address issues 
that would, and I would prefer to submit for the record the 
specific----
    [The following was received for the record:]

    License Application Development Process Work required 
between now and submittal of the Yucca Mountain License 
Application for a Construction Authorization includes the 
following:
    The Department must provide a license application to the 
Nuclear Regulatory Commission (NRC) that will enable NRC to 
assess whether the proposed repository design within the Yucca 
Mountain geological setting can perform safely during the pre-
closure and post-closure periods and whether the repository can 
meet NRC performance objectives. To accomplish this, we plan to 
close out our key technical issue (KTI) agreements, update our 
technical documentation, prepare a license application, and 
develop the necessary license review and documentation 
infrastructure. For example, the Department will implement a 
licensing support network to facilitate electronic review and 
docketing as required by 10 CFR 2. We expect this system to be 
operational in June 2004.
    We will refine and conduct another iteration of the total 
system performance assessment for the license application. This 
will include refining our models and incorporating new 
scientific data that will further enhance our understanding of 
long-term repository performance.

    Mr. Dingell. I think that would be fine. But you will be 
addressing a number, including questions which have been raised 
this morning, is that not so?
    Mr. Abraham. Among others. Some of these issues that we've 
talked about, in terms of the unresolved issues which are 
``closed pending'' are not ground breaking, new areas. They 
will be finalized so that the preliminary work will be 
completed.
    Mr. Dingell. Now Mr. Secretary, if the Congress votes your 
request to us down today, that stops the whole process?
    Mr. Abraham. Absolutely.
    Mr. Dingell. We've then wasted $12 billion. We've got to 
proceed forward with some new mechanism for storing this 
nuclear waste. Is that not so?
    Mr. Abraham. At that point, there would be no statutory 
process in place whatsoever. I suppose that Congress would have 
to then work with the executive branch to consider new 
legislation, new mechanisms for addressing the nuclear waste 
issue. As I said earlier, the responsibility for the waste does 
not expire if Congress fails to override. That responsibility 
stays with the Federal Government.
    Mr. Dingell. I want to come to that because what you're 
telling us if you're going to have a hell of a mess on your 
hands and the country is.
    Now having said this what is the process that occurs in 
connection with the licensing undertaking? At that time you 
have to file a petition for a license before the NRC, is that 
right?
    Mr. Abraham. Right.
    Mr. Dingell. You have to comply with all of the laws and 
you have to see to it that you've submitted an application 
which assures that all the requirements of the statute are met 
and also that there is safety for the public, protection for 
the environment, compliance with all of your environmental and 
all of your applicable environmental and other statutory 
requirements.
    Mr. Abraham. Right, as you know, Congressman, the licensing 
process is very open. I believe it was referenced already that 
public comment and public participation of interested parties 
and others will occur. It's a process involving public hearings 
and discussions, so that all of these concerns that we've had 
presented about issues of safety and so on will be open for 
further discussion.
    Mr. Dingell. Now you've just made a very important point. 
Open process and the NRC then goes in to all of these 
questions, is that not correct?
    Mr. Abraham. Correct.
    Mr. Dingell. And they can impose whatever conditions that 
they feel are necessary to protect the public interest at that 
time, can they not?
    Mr. Abraham. They would have that option, of course.
    Mr. Dingell. And----
    Mr. Barton. This will have to be gentleman's last question.
    Mr. Dingell. I'm sorry?
    Mr. Barton. This will have to be the gentleman's last 
question.
    Mr. Dingell. Okay. Then why in the name of common sense are 
we sitting there other than voting for the bill and getting it 
moving forward so that the open process at NRC can be 
considered in a suitable and proper fashion?
    Mr. Abraham. Well, as I said in my opening statement, I 
think there's an overwhelming burden on those who oppose this 
at this stage to make the case that we shouldn't allow this 
open process conducted by an independent agency with expertise 
to do exactly the analysis that needs to be conducted. I think 
unless a member was convinced that there was no possibility, 
and convinced at very high level of burden or beyond a 
reasonable doubt, than the NRC would not approve this license, 
unless you have reached that conclusion, it would be 
inappropriate to vote no.
    Mr. Dingell. So the NRC will ultimately make, after an open 
process, a full decision on what it is that's going to happen 
on this matter and this is just a step or a way station on the 
travel to that particular point.
    Mr. Abraham. Correct. The choice is----
    Mr. Dingell. All questions will be considered in connection 
with----
    Mr. Abraham. I just want to state that we are strongly 
convinced, and I am convinced, beyond doubt that we will 
succeed in that process. So it's not a situation where it's 
simply a jump ball. However, you have correctly stated that the 
next step, if we move ahead, is to have a new independent 
analysis take place. Failing to move ahead ends the project, 
and ends literally an entire process here with no alternatives 
available, but with the Federal Government retaining the 
responsibilities that it assumed when it passed the Nuclear 
Waste Policy Act in 1982.
    Mr. Barton. The gentleman's time----
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Barton. The gentleman's time is expired. The Chair 
would recognize the vice chairman, Mr. Shimkus for 5 minutes 
for questions.
    Mr. Shimkus. Thank you, Mr. Chairman and welcome, Mr. 
Secretary. We do have the responsibility for the nuclear waste 
today, is that correct?
    Mr. Abraham. Yes, the Federal Government assumed that 
through the passage of the Nuclear Waste Policy Act of 1982.
    Mr. Shimkus. Illinois' energy portfolio is approximately 40 
percent nuclear, 40 percent coal and 20 percent natural gas 
and/or some renewables.
    When the temporary storage sites at the nuclear facilities 
are full, what are the options for those nuclear generating 
facilities?
    Mr. Abraham. Well, as I indicated before, I think the 
options primarily focus on either ceasing operations and thus, 
producing no additional waste or finding an alternative 
location for waste storage, which as I indicated already is 
being investigated by companies who are working on an ad hoc 
basis rather than through the approach we're proposing, perhaps 
because they have a lack of confidence or perhaps because they 
want to have an alternative in case Congress doesn't act.
    Mr. Shimkus. And what is the status, we don't have to be 
particular, but in general, most of the nuclear generating 
facilities, how much storage site availability left do they 
have before they close?
    Mr. Abraham. I can't say. I can provide you----
    [The following was received for the record:]

    The general status varies with each facility. Currently, 16 
sites have dry storage and another 28 are projected to need dry 
storage by 2010. However, on-site storage can encounter 
challenges such as space limitations and state restrictions. 
For example, Minnesota has enacted a law restricting the amount 
of spent nuclear fuel that can be placed in dry storage at the 
Xcel Energy's Prairie Island nuclear plant. Without changes to 
the law, or other alternatives, Prairie Island will have 
sufficient storage capacity to operate only through 2007. 
Current efforts by Private Fuel Storage LLC (a consortium of 
eight utilities including Xcel Energy) to establish a private 
spent fuel storage facility in Utah reflect concerns by nuclear 
power generators that developing on-site storage can be 
increasingly difficult and could potentially jeopardize 
continued operation of their facilities.

    Mr. Shimkus. If I may, we do have some in Wisconsin that in 
a year or do will be full and will have to make the decision.
    Mr. Abraham. I think it's in Minnesota, but I think there's 
another one very close to having no alternatives. Part of the 
challenge is that some facilities are in areas where they've 
got a lot of extra space and are in a position to seek and 
obtain whatever permits they need and the resources to build 
additional facilities. Others are constrained.
    Mr. Shimkus. This whole debate should not just be a micro 
issue of Yucca Mountain, but also we should include it in the 
whole national energy debate. One of the concerns is if this 
resolution fails is that nuclear generating facilities have to 
go offline. If that's the case for a State like Illinois, if 40 
percent of the power that we generate is nuclear, what would 
that do to our national energy policy and the pocketbook 
issues, what would it do to the price for the individual 
consumers?
    Mr. Abraham. Well, obviously, it has an immediate effect of 
requiring areas in which nuclear energy is a substantial 
provider of electricity to either build new alternative forms 
of electricity generation or find other mechanisms to purchase 
electricity. That would obviously create a supply/demand 
problem for the ratepayers in those areas.
    Mr. Shimkus. I would also like to follow up, I have my good 
friend from the State of Missouri, Karen McCarthy, who although 
we're on opposite sides of both States, she's on the western 
side of the State of Missouri, I'm on the southwestern side of 
the State of Illinois, we do have a couple of things in common. 
One is Interstate 70 and I have a great respect for her 
concerns. The questions that she's raised have not seemed to be 
a problem in the State of Illinois and we have a very good 
record of our relationship with the movement of high level 
nuclear waste. And I would also request, respectfully, that we 
work together so that she has as much confidence in the moving 
of nuclear waste that I do through the State of Illinois and I 
do know that the Governor of the State of Missouri actually 
changed his tune somewhat against the movement of nuclear waste 
when the nuclear reactor that services the University of 
Missouri at Columbia had an onsite storage problem that was 
going to require that medical reactor to close down. Then it 
was then in the State of Missouri's best interest to work with 
you all to move the nuclear waste and without any incident. Is 
that correct?
    Mr. Abraham. We have worked, and under very clear 
guidelines, with the Governor of any State in which there is 
going to be transportation. It's a very clearly structured 
approach. I just would re-emphasize that we have a variety of 
safeguards in place: from escorts, to satellite monitoring of 
the movement, of shipments to prior work with the States and 
their first responder teams. Each step of the process is, I 
think, adequately safeguarded.
    Clearly, as we move ahead with this, additional 
consideration will be given to perfect transportation even 
more. Ultimately, transportation routes must be approved by the 
NRC. So, I think that there are plenty of safeguards. I know 
that the congresswoman raised some questions. We have some 
disagreement on the interpretation of what has happened and 
why. But, we will provide to anybody who's interested what I 
think is a satisfactory resolution, addressing those concerns.
    Mr. Shimkus. Thank you and thank you for your time. Mr. 
Chairman, I yield back.
    Mr. Barton. I thank the gentleman from Illinois. We would 
now recognize the other distinguished gentleman from Illinois, 
Mr. Rush for 5 minutes for questions.
    Mr. Rush. Thank you, Mr. Chairman and Mr. Secretary, again, 
I also join with my other colleagues in welcoming you here to 
this hearing.
    Mr. Secretary, there seems to be a lot of fear mongering 
going on, particularly among the opponents of this piece of 
legislation and fear is a strong motivator to either act or not 
to act and in most cases to act, I'm somewhat intrigued by your 
comments a little earlier as it relates to the ad hoc efforts 
of some parties as it relates to making alternative plans and 
taking alternative steps in the event that this legislation 
fails.
    Can you expound upon it more so?
    Mr. Abraham. Sure. I don't mean to be prejudgmental about 
those alternatives, or how they will work out. I'm not saying 
people won't try to do things as safely as they can or won't 
get the proper licenses and permits. But, my point was that if 
people think that by not going forward with Yucca Mountain all 
the waste is going to stay put where it's at, in perpetuity, in 
temporary facilities above ground, and in many instances, at 
sites where long-term storage was never contemplated, they're 
wrong. That isn't going to be the end of the story. As I said a 
moment ago, it's going to mean that people will engage in their 
own self-help approach. That undoubtedly means, and it has 
already taken the form of, people seeking to find new 
alternative locations where they can store waste, either 
temporarily or permanently, but probably temporarily. That 
means it's going to start moving. It's going to be moving under 
the ownership or under the management of individual companies 
or entities, who have been put together to take this waste. 
This will presumably be profitable for those who agree to 
storage. So it doesn't mean, in other words, that there will be 
no transportation. There will be transportation. The question 
is do we want to do it in a coordinated national plan, or do we 
want it to take place on an ad hoc basis, with Company A and 
Indian Tribe B, or do we want to do it in a more coordinated 
national plan? I think the appropriate coordinated and safer 
approach is preferable.
    Mr. Rush. With that in mind, recently Governor Ridge 
basically gave a pretty enlightening response to a question 
that he received about homeland security and the Yucca Mountain 
program which included the transportation of material to Yucca 
Mountain.
    Can you give us a little bit of your--the characterization 
of your interaction with Governor Ridge and his program and can 
you elaborate a little bit about homeland security issues as it 
relates to this program and can you also give us some kind of a 
glimpse into the effect of the homeland security issues as it 
relates to the ad hoc pursuit of these individual companies?
    Mr. Abraham. I would start by saying that at the request of 
the Office of Homeland Security, we provided, at the time we 
made the initial recommendation, extensive briefings to them as 
to what the plan was. Governor Ridge, having governed a State 
that has nuclear energy, already knows a lot about these 
issues. I think they've concluded that to the extent we can 
move a substantial amount, ultimately thousands of metric tons 
of waste, into one underground secured location next to an Air 
Force base in the middle of nowhere. We can better protect that 
waste. I don't want to suggest at all that we believe the 
current storage situations are insecure. But, we also have to 
think about the future, and I think prudence demands that we 
would move in a direction where we could protect more waste in 
a more effective, centralized fashion.
    In a similar sense, I think it's the case that Congress and 
others have questioned how well private entities engaged in 
running nuclear reactors are doing. We think, according to 
everything I've seen from the Nuclear Regulatory Commission, 
they're doing a good job. But, the more places that emerge 
because of this ad hoc approach in which waste is stored, the 
more challenges will be presented.
    We also have a number of places where former nuclear 
facilities have been decommissioned, but the waste is still 
there. We also have to worry about the protection of waste in 
those places. For example, up in the northern part of my State 
of Michigan, the Big Rock facility is no longer operating as a 
nuclear reactor, but the waste is still there from its past 
operation. The idea--and it's right, is to move the fuel away 
from Lake Michigan.
    The idea is that we could remove that waste and permanently 
store it in Yucca Mountain and no longer have to worry about 
security at that decommissioned facility. Big is pretty remote 
and is not necessarily something you want to be worrying about 
decades from now. Also, the waste that's stored at DOE 
facilities would be much more safely stored if we could move it 
to Yucca Mountain. Those are the considerations which we've 
taken.
    Mr. Barton. The gentleman's time has expired. The Chair 
would recognize the distinguished gentleman from Iowa, Mr. 
Ganske for 5 minutes for questions.
    Mr. Ganske. Thank you, Mr. Secretary, for being here today. 
In my opening statement I quoted from a Des Moines Register 
editorial of March 17 which was in favor of the Yucca Mountain 
repository. This was noteworthy because this represented an 180 
degree shift from the Register's earlier position. A few weeks 
later another editorial was written and let me just read some 
of it.
    ``We forgot to mention something in a recent editorial 
about the proposed nuclear waste storage site at Yucca 
Mountain. We failed to point out that the editorial represented 
a change in position for the Register. Previous editorials in 
the Register opposed the nuclear repository at Yucca Mountain 
and urged that waste continue to be kept in temporary storage 
at the 130 or so nuclear power plants around the country. In 
the most recent editorial on March 17, we urged the government 
to move ahead with establishing the single repository. Our 
position changed because circumstances changed. First, the U.S. 
Department of Energy after many years of study, finally came 
out with a definitive recommendation for storing nuclear waste 
underground at Yucca Mountain. The Department offered 
satisfactory answers to all of the objections to the site. 
Second, the September 11 attacks suddenly made it seem far less 
wise to have radioactive material scattered at 130 above-ground 
sites near population centers, rather than at one highly secure 
underground site in the desert.''
    Now for years I've been talking to editorial boards around 
my State about this issue and advocating for Yucca Mountain. 
It's fair to say that I listen and learn as well as the 
editorial boards, but I thought it was noteworthy that at the 
end of this article, the editor said ``not only do we change 
positions occasionally, we're sometimes even open to 
persuasion.'' I think that's something that is noteworthy.
    My question to you is this, I have a sense of my District 
and my State and where they stand on this. We have a nuclear 
power plant very close to Cedar Rapids. What is your sense 
about where people stand in your travels around the country on 
this issue? Has there been a change in attitudes by other 
editorial boards, or by the public on this? I know that you're 
looking at making this decision based on science, or whether 
it's a safe place or not, but I'm curious as to what your sense 
is of where the country is standing on this issue.
    Mr. Abraham. Congressman, I haven't done any polling. I 
guess my view is that the national interests were so compelling 
that any member, I think, can go to their district and make an 
overwhelming strong case for moving forward, because, moving 
forward is important for our national security and our energy 
security reasons. It's important for homeland security reasons. 
It's important for environmental reasons. If you can make a 
case for anything based on all four of those pillars, I think 
it's a pretty hard case to refute. Again, had we done sort of a 
cursory study of this, rather than 24 years and $4 billion 
worth of study, if we confined our study to a small number of 
factors rather than the extraordinarily broad range of 
considerations and possibilities that might happen in 10,000 
years, then maybe you could refute the arguments we've made. I 
don't know the answer to the polling question, but I think the 
arguments for moving forward are ones that are going to cause 
people who study this at all to agree with our conclusion.
    Mr. Ganske. Do you sense a change, though, in wanting to 
get this done in a satisfactory method sooner rather than later 
because of September 11 due to the fact that people are more 
concerned about attacks?
    Mr. Abraham. Clearly, there have been editorials since that 
date that have been focused on those kinds of concerns and 
probably on ones that might not have happened but for the 
events of that day. I think the American public expects us to 
look at the security issues and take immediate action rather 
than postponement. One of the things which I take very 
seriously in my job is that when it's time to make a decision, 
we've got to make it and this is one decision that had been 
obviously delayed for a long period of time. There's no 
question that you could continue research on this. The science 
research could continue potentially for 5 more Congresses or 10 
more Congresses. But to me, we've reached the point where we 
have sufficient scientific support to move ahead and I was 
able, based on that scientific support, to conclude the time 
had come to stop and make that decision. Now we can move 
forward to perfect the research as I outlined here today.
    Mr. Barton. The gentleman's time has expired.
    Mr. Ganske. Thank you.
    Mr. Barton. I would announce to the committee that we're 
expecting a series of two votes in the next 10 minutes. There's 
an outside chance that we can get all members present a chance 
to ask their questions and then let the Secretary go and not 
have to have him come back after our votes, if we act 
expeditiously.
    The Chair would recognize the gentleman from Pennsylvania, 
Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and in the interest of 
time so that we can accommodate that, I'll try to be brief and 
not use my 5 minutes.
    Mr. Secretary, thank you very much for coming here today. I 
just want to very quickly piggyback on a question that my good 
friend Chairman Barton had talked about with regards to the 
transport of waste and he talked a little bit about the safety 
factors, but I want to jump ahead to post-NRC licensing. I know 
that you continue to work on the transport issue, but what's 
the Department doing to fashion a plan for determining who will 
be afforded the first opportunities to actually move their 
waste to the repository? I know you're well aware of some of 
the capacity constraints faced by many operators such that the 
storage issue can fundamentally alter daily operations. What 
kind of procedures do you envision to ensure that the transport 
of waste occurs in a timely and responsible manner?
    Mr. Abraham. I think we have contractual issues that come 
into play here. After the Congress acts, the Department could 
then begin negotiating agreements with different companies. 
Those contracts are obviously a basis on which a timing of 
transportation decisions will be made. Obviously, we will take 
into account emergency constraint problems as that's 
appropriate, but I don't think we're at a point yet to give a 
blueprint for how we would factor those kinds of 
considerations. Obviously, we've had our focus primarily on the 
issues that relate to the science.
    Mr. Doyle. So those determinations haven't been made yet.
    Mr. Abraham. Not final.
    Mr. Doyle. But obviously will.
    Mr. Abraham. We are governed by agreements that have been 
reached. But now we can move ahead, Congress and the Department 
can move ahead. Then the target was 1998 and so agreements were 
entered into consistent with that.
    Mr. Doyle. Thank you. Mr. Chairman, many of my other 
questions have already been answered so in the interest of 
time, I'll yield back.
    Mr. Barton. We thank the gentleman from Pennsylvania. I 
would recognize the gentleman from Kentucky, Mr. Whitfield for 
5 minutes.
    Mr. Whitfield. Thank you very much. Mr. Secretary, we're 
delighted that you're here today and appreciate your taking 
time to visit with us on this important issue. I think it's 
been made quite clear that most of us believe that this 
override will pass the House relatively easy and the real 
difficulty will probably be in the Senate. Senator Ensign 
testified this morning on the first panel and he raised some 
issues in my mind that I would like to just discuss with you 
briefly.
    One, how many other countries are there around the world 
that have a repository for the long-term storage of high level 
nuclear waste?
    Mr. Abraham. This would be the first of this type.
    Mr. Whitfield. This would be the first?
    Mr. Abraham. Yes. Although it's in discussion, obviously, 
and frankly, much of the world, I think is actually looking at 
whether we decide to go down this route. I think it could have 
implications for other decisions.
    Mr. Whitfield. And it's my understanding that in Europe 
they do reprocessing of high level waste. Is that correct?
    Mr. Abraham. Right.
    Mr. Whitfield. Although I don't know the details of it, 
it's also my understanding that the U.S. sort of moved away 
from reprocessing during President Carter's Administration. Is 
that correct?
    Mr. Abraham. During that timeframe, the focus on 
reprocessing as an option has been reduced.
    Mr. Whitfield. And could you provide a synopsis of why the 
decision was made to move away from reprocessing?
    Mr. Abraham. I think that at that time and it's my 
impression that in the debates since that have focused on 
reprocessing, concern about issues that relate to proliferation 
were a principal reason for the policy. I think the decision 
was made by Congress, obviously, in 1982 that a preferable 
alternative is the deep underground storage approach which 
we've taken. I would note that reprocessing does not end the 
storage issue. There still is a byproduct that has to be stored 
permanently somewhere. While it could substantially reduced 
amounts, it does not eliminate the question of permanent long-
term storage. It also raises the question of where, how much, 
how expensive, who pays and so on. Reprocessing is not, in my 
judgment, an option that would dispense with all that we have 
done. Given the challenges of siting and permitting and going 
forward, leaving aside other issues, I don't see it as a viable 
alternative, nor is it one that can permanently address the 
issue of waste.
    Mr. Secretary, thank you very much.
    Mr. Barton. I thank the gentleman from Kentucky. The 
gentleman from Texas, Mr. Hall is recognized for 5 minutes.
    Mr. Hall. Mr. Chairman, thank you, and Mr. Secretary, and 
your backup group. I thank you for what you're doing. I want to 
be practical. I remember back when we passed the Nuclear Waste 
Policy Act in 1987 that it was a painful one to pass because it 
was clear from the beginning some State needed to be the host 
of the repository. It was clear from the testimony we had then 
and it's been borne out that that State would be Nevada. All of 
us have high regard for those that represent that State and 
they've done a good job. They've done a bruising job of it. And 
we're friends. And it's not easy to cast a vote we're about to 
cast now. But we just have to pull our hat down over our ears 
and call them like we see them and I think that's what we're 
going to do.
    Let's get some things out of the way though that have been 
bothering me and maybe you've answered them and I've not been 
here, but I want to accentuate them one more time. The people 
of my State have paid more than $334 million into the Nuclear 
Waste Fund with the understanding that the Federal Government 
would meet its obligation to dispose of the spent nuclear fuel. 
Now I think you've probably answered that for Dr. Norwood and I 
think Mr. Dingell alluded to it too as to what your intentions 
are and I'm satisfied with that. When we get down to the 
shipping of the radioactive waste, that's going to be the next 
battlefield and if they can't defeat where the waste is going 
to be stored. It's got to get there somehow. I've heard a lot 
of scare tactics about how you're going to be shipping 
radioactive waste around the clock every day of the week 
through the main streets of every town in America and I think 
someone said there would be 100,000 shipments. I live in 
Rockwell, a small town outside of Dallas and a Dallas guy used 
to come out there all the time looking for frog legs. He liked 
to gig frogs and this old farmer said, ``come out to my tank, I 
got hundreds of frogs out there.'' The guy came out there and 
killed every frog there, gigged them all, but there weren't but 
five, they just sounded like a hundred. Don't you think that's 
the story that kind of illustrates all the complaints? I don't 
mean I want to gig anybody that doesn't agree with us on this, 
but it's a thought.
    Can you tell me, as close as you can, how many shipments 
DOE is going to make each year, if the repository is licensed? 
Have the routes have already been determined?
    Mr. Abraham. The projections are that the total number of 
shipments each year would be less than one per day, although 
the routes have not been finalized.
    Mr. Hall. And I'd like to put this in the record, Mr. 
Chairman, if I might. These are the site storing nuclear spent 
fuel, high level radioactive waste and/or surplus plutonium 
destined for geologic----
    Mr. Barton. Without objection, so ordered.
    Mr. Hall. I'd like to have that into the record to show 
that for all of those here that vote, they're voting to get rid 
of this stuff out of their own State and this shows how many 
sites are in each state. We have five in Texas. I think there 
are five in Massachusetts. There are twice that many, in 
Illinois, of any other State, so that's why we're here and 
that's why we need to listen to testimony like yours. I plan to 
vote aye and I hope everybody else uses the same common sense 
that I'm going to use.
[GRAPHIC] [TIFF OMITTED] T9469.166

    Mr. Barton. Will the gentleman yield back the balance of 
his time?
    The Chair would recognize the gentleman from North Carolina 
for 5 minutes.
    Mr. Burr. I'm a little intimidated to go after Ralph, but 
I'll try to.
    Mr. Secretary, welcome and I'll try not to gig you. Since 
I've been here I have heard Yucca Mountain described as a 
repository, a depository and a suppository.
    I think that explains it, it's a different meaning to 
everybody. But I just want to--I think I'm last, so I want to 
try to recap facts relative to this site and DOE's 
participation.
    Is there any misunderstanding whether the Federal 
Government has made a commitment to the consolidated storage of 
nuclear waste?
    Mr. Abraham. The Federal Government has clearly made a 
commitment to accept responsibility for the waste. The Congress 
obviously has decided that the course of action to pursue is 
the one in which we would characterize and determine whether 
this specific site, which Congress chose among many that were 
initially examined, could be safely used for that purpose. So 
whether or not we go ahead here, Congress retains 
responsibilities for the waste that is generated around the 
country.
    Mr. Burr. Is there any doubt in the minds of the Department 
of Energy whether there has been sufficient science to suggest 
that this is the right course of action?
    Mr. Abraham. I have concluded--and I've studied this at 
some length--that we have done more than sufficient research to 
move to the next step. We have, in fact, as I said earlier, 
tested not just whether or not this was something that could 
meet the very stringent standards that we've been asked to meet 
for the next foreseeable period during which we would build and 
monitor the site, but into the future; the 10,000-year period 
as well.
    Mr. Burr. Is there any additional science that you think 
needs to be done or have we done it all?
    Mr. Abraham. I believe we have done sufficient science to 
be able to make the recommendation and to build the repository 
in a fashion that can safely meet the standards that have been 
set forth.
    I believe it is also appropriate for us to seek to perfect, 
even further, how we would design the repository, how we would 
design the storage methods and so on because I think our goal 
should be to come as close as we can to perfection. Time will 
allow us, because of new advances, to improve on what we 
already think can be done to meet a very stringent standard.
    Mr. Burr. Some suggest that we're not under a sense of 
urgency relative to moving nuclear waste from the interim sites 
that they're currently at spread across this country. Is there 
any nuclear plant that you can think of that built their 
interim storage pad with the intent of having it 100 years as 
Senator Ensign suggested it could withstand?
    Mr. Abraham. I am not aware that anybody anticipated that. 
The interesting thing about some of those contentions is that 
people are saying that without any significant research we can 
say just as a matter of course that a 100 years from now it 
will be safe where it's at, but with $4 billion of research, we 
still need more study and more research to move to a licensing 
phase of this repository. To me that's not a very consistent 
approach. I think that it would be really off the track to just 
simply reach those kinds of conclusions about existing storage 
when we haven't come close to conducting the kind of scrutiny 
that the Yucca Mountain repository has been subjected to. It 
may or may not stand up. I don't know.
    Mr. Burr. The likelihood is 10 years ago none of these 
sites would have thought they still would have had storage 
onsite, that we would have already been in a permanent 
facility.
    Mr. Abraham. That's why we already have evidence of people 
seeking alternative procedures to maintaining the storage on 
their existing facilities. I mentioned already the Goshute 
Indian Nation which is in the process of working with energy 
companies to build a storage facility on their reservation land 
in Utah. That, I think, is what we would quickly see develop if 
we don't move forward here.
    Mr. Burr. Well, I think it's important that we understand, 
everybody understands, we have a commitment. You feel the 
science is sufficient to make the recommendation and there is a 
sense of urgency that we move forward and not rely on the 
current storage methods for the foreseeable future. I'm 
confident that this committee will do the right thing and I 
thank you for your testimony.
    Mr. Barton. The gentleman's time has expired. The Chair 
would recognize Mr. Markey for 5 minutes. We're going to 
continue the hearing to give every member present an 
opportunity to question the Secretary, but the Secretary has a 
1 p.m. appointment that he cannot fail to appear at, so Mr. 
Shimkus is going to chair the rest of the hearing and then 
we'll--for this witness, and as soon as we finish with Mr. 
Markey, adjourn until approximately 1 to 1:15.
    Mr. Markey. Mr. Secretary, you've got a tough job. I was on 
the committee in 1982 and 1987. I was here when this committee 
eliminated New Hampshire, Louisiana, Texas and Washington State 
because their politicians did not want it there. So that left 
us with one site, this committee picked Yucca Mountain, so if 
there are no other options, this committee decided there would 
be no other options. It picked Yucca Mountain in the Reagan 
Administration and insisted upon it.
    So now we've reached this situation where there are many 
unresolved environmental questions in a site which Congress 
picks, a congressional expert is an expert only compared to 
other congressman, not compared to real experts, so as a result 
there are many unresolved scientific questions.
    Now you said there are no harmful radiation releases in the 
last 50 years, 3,000 shipments, but there have been 72 
accidents that have occurred. Now there's going to be 3,000 
shipments in the first 2 years, once this Act goes into place. 
So my question is this, since the transportation security 
division of DOE which transports nuclear weapons fails about 85 
percent of their security tests, if we can't ensure that 
nuclear weapons are safe from attack as they're being 
transported, how can we sure that nuclear waste is safe as it 
moves through hundreds and hundreds of communities with al 
Qaeda vowing to make ``dirty bombs'' from nuclear materials 
which will harm American people, what gives you confidence that 
that 85 percent failure rate for nuclear weapons----
    Mr. Abraham. First of all, I'd be glad to, on another 
occasion, discuss the security of the nuclear weapons complex 
and transportation. I would not want to get into those 
discussions in an open forum because I think there's some 
information which would require clearance. But, let me just say 
this. The presumption in your question is that somehow or 
another if al Qaeda or any other terrorist organization were 
intent on doing something to nuclear waste, they would wait 10 
years until it is moving secretly under very stringent security 
conditions and then try to figure out which box car out of 
hundreds of box cars or which truck out of hundreds of trucks 
it's in when they already know where it is today at 131 sites 
that are stationary. I think, very honestly, even at those 131 
sites nuclear waste is secure. But, it is certainly a stretch 
to argue that somehow it is less secure when it's moving under 
the conditions I've mentioned.
    Mr. Markey. If I may reclaim my time. I disagree with you. 
I think these materials are much more vulnerable in trucks, on 
trains than they are secure inside a nuclear power plant 
facility. So I totally disagree with you. I think these mobile 
Chernobyls out on the highways, byways and railways of our 
country are much more vulnerable and it's not a short distance 
from box cutters to box cars. It's a long distance getting 
inside a nuclear power plant facility. I disagree with you.
    Next question. NRC has said there are 293 technical issues 
that must be resolved before DOE submits its license 
application. Do you intend to submit the license application to 
NRC in 90 days as is required by law?
    Mr. Abraham. As I answered earlier, first of all, the NRC 
has not only identified, working with us, those remaining 
issues, which by the way have been reduced since that number 
was publicly indicated, but they have provided a sufficiency 
letter which indicates that they believe we have established 
sufficient basis to move forward to the licensing process, 
notwithstanding the fact that those ``closed pending'' issues 
remain to be resolved. They are the normal sorts of things, we 
believe, that would be resolved in the licensing process.
    Mr. Markey. Do you intend on submitting the application 
before resolving the hundreds of----
    Mr. Abraham. No, we will be resolving them in the period of 
time ahead. We would expect, as I testified before, to submit 
the application formally probably in the end of the year 2004.
    Mr. Markey. Will it be before or after all environmental 
questions from the NRC are answered?
    Mr. Abraham. We will address those which are appropriate in 
a licensing application and then after that, of course----
    Mr. Markey. No, will you answer all of the environmental 
questions the NRC raises before you submit the license?
    Mr. Abraham. We will answer all those that are appropriate 
to a licensing application.
    Mr. Markey. So the answer is no, you are not going to 
answer all of the----
    Mr. Abraham. I don't know that there are any that won't be 
answered.
    Mr. Markey. You're saying that you are going to decide 
which Nuclear Regulatory Commission safety questions you're 
going to answer and you're going to determine which ones you're 
going to answer. Is that correct?
    Mr. Abraham. The fact is that we will submit an appropriate 
license----
    Mr. Markey. I understand that. Will you answer all of the 
safety and health and environmental issues which the Nuclear 
Regulatory Commission asks you to resolve before you submit an 
application?
    Mr. Abraham. We will answer all of those that are 
appropriate----
    Mr. Markey. I appreciate that. That's what we're afraid of.
    Mr. Abraham. No, it's not. I think, Congressman, that 
you're standing the procedure on its head. I mean there is no 
requirement, nor would there be legitimately one in which we 
would address every issue that's part of the licensing, open 
licensing process unless we want to deny the public an 
opportunity to participate in the licensing process that we 
would answer every single contention before we engaged in that 
open process. Now if you want a closed process that doesn't 
include the public, we could go down that route. Our choice is 
to make it a more public approach. And that's what we intend to 
do.
    Mr. Markey. Well, I don't think that's what I'm hearing 
from you.
    Mr. Abraham. All right, let me just calm your concerns. We 
will answer all questions.
    Mr. Markey. Excellent answer. Now the next one I want to 
make is I think we should be abundantly clear to the American 
public that spent fuel needs 5 years to cool down as it sits 
next to nuclear power plants, so that every American who lives 
near a nuclear power plant who things that all of the nuclear 
waste is going to be removed from their nuclear power plants 
and they won't have it outside their plants any more should 
know that for 5 years after all spent fuel is created, it has 
to sit next to the plant. So as long as nuclear power plants 
are in operation, all of those plants are going to have, for at 
least 5 years, spent fuel sitting next to them, is that true?
    Mr. Abraham. Yes.
    Mr. Markey. Yes. So this is not going to be any permanent 
solution. There is going to be an on-going risk in communities 
that the nuclear waste----
    Mr. Abraham. I would note, though, in just one final 
comment, that we already have a number of facilities that are 
no longer in operation where spent fuel is sitting now and 
could be moved as we close down those facilities. Failing to go 
ahead with this process----
    Mr. Markey. Are you bumping them up in the priority list so 
they handled first?
    Mr. Abraham. We will make a decision later.
    Mr. Markey. So you're creating a problem and you can't 
solve it, but you're not----
    Mr. Shimkus [presiding]. The gentleman's time has more than 
expired. Thank you. Because of my great admiration for my 
friend of Massachusetts, I do not want you to miss your vote on 
the floor, so be expeditious and move rapidly and with that, 
Mr. Secretary, we want to thank you for coming.
    Mr. Abraham. Thank you.
    Mr. Shimkus. We're going to recess the hearing until 1 
o'clock p.m.
    [Brief recess.]
    Mr. Barton. If the subcommittee will come to order. As soon 
as we get our third panel assembled, we'll reconvene the 
hearing. We have our Commissioner here and we have Ms. Jones 
here and Dr. Cohon here. Mr. Holmstead. And here he comes, 
looking very serious.
    The subcommittee will come back to order. We're now going 
to hear from Panel III. We have the Commissioner of the Nuclear 
Regulatory Commission, the Honorable Greta Dicus. We have the 
Chairman of the Nuclear Waste Technical Review Board, Dr. 
Cohon. We have the Assistant Administrative for Air and 
Radiation for the United States Environmental Protection 
Agency, the Honorable Jeffrey Holmstead. And we have the 
Director of the Natural Resources Environment Team at the U.S. 
General Accounting Office, Ms. Gary Jones.
    The Chair is going to recognize Congressman Doyle to make 
an introduction and then we'll hear from our panel.
    Mr. Doyle. Mr. Chairman, thank you very much for allowing 
me the opportunity to introduce Dr. Jared Cohon. Since becoming 
a member of this subcommittee, I've had the pleasure of 
introducing a number of distinguished individuals from 
Pennsylvania, specifically from the Pittsburgh to my colleagues 
and in that regard, I want to compliment the chairman for 
recognizing the region's highly skilled individuals from 
academia, the research community and industry who are concerned 
about energy issues and are actively involved in shaping 
solutions and developing new opportunities.
    Dr. Cohon was appointed to the U.S. Nuclear Waste Technical 
Review Board in 1995 and was appointed chairman in 1997. Dr. 
Cohon is President of Carnegie Mellon University and I've had 
the pleasure of knowing Dr. Cohon in this capacity since 1997. 
Dr. Cohon, who is a registered professional engineer has more 
than 25 years of teaching experience, is widely published and 
has been recognized with numerous prestigious engineering 
awards and Mr. Chairman, I am proud to report that most 
recently he was named Pittsburgher of the year, a very 
prestigious award in our part of the country.
    Mr. Barton. Is that Pittsburgh, Texas?
    Mr. Doyle. That's Pittsburgh, Pennsylvania. That's with an 
H on the end.
    Mr. Barton. If it's Pittsburg, Texas, that would be 
something. I think that's in Congressman Hall's district.
    Mr. Doyle. His research interest focused on multi-objective 
programming, a technique for decisionmaking in situations with 
multiple conflicting objectives. He's also focused on water 
resource planning and management in the United States, South 
America and Asia and on energy facilities siting including 
nuclear waste shipping and storage. He began his teaching 
career at Johns Hopkins and went on to become Dean of Yale 
University's School of Forestry and Environmental Studies. But 
I'm most pleased that he currently serves as President of 
Carnegie Mellon. He is a shining star in the Pittsburgh Region 
and I'm proud to call him my friend. Mr. Chairman, it's my 
pleasure to introduce Dr. Jared Cohon.
    Mr. Barton. It's an excellent introduction and Dr. Cohon, 
we're delighted to have you before the subcommittee.
    Mr. Cohon. Thank you, Mr. Chairman, and thank you, 
Congressman Doyle. Do I have any time left?
    Mr. Barton. Well, we won't take that time away from you. My 
guess is he's going to ask you to do something back in 
Pittsburgh.
    Mr. Cohon. That was a very generous introduction and much 
appreciated, thank you very much.
    Mr. Barton. We're going to start with the Chairman of the 
Nuclear Regulatory Commission. There is a small protocol. We're 
going to go with Commissioner Dicus and then the Assistant 
Secretary for Air and Radiation, I've probably got that wrong. 
Assistant Administration for Air and Radiation, Mr. Holmstead, 
and then you, Dr. Cohon, and then you, Ms. Jones. Commissioner 
Dicus, you're welcome, your statement is int he record. We 
recognize you to elaborate on it for 7 minutes.

STATEMENTS OF HON. GRETA JOY DICUS, COMMISSIONER, U.S. NUCLEAR 
  REGULATORY COMMISSION; HON. JEFFREY R. HOLMSTEAD, ASSISTANT 
    ADMINISTRATOR FOR AIR AND RADIATION, U.S. ENVIRONMENTAL 
  PROTECTION AGENCY; JARED L. COHON, CHAIRMAN, NUCLEAR WASTE 
   TECHNICAL REVIEW BOARD; AND GARY JONES, DIRECTOR, NATURAL 
 RESOURCES AND ENVIRONMENT TEAM, U.S. GENERAL ACCOUNTING OFFICE

    Ms. Dicus. Thank you, Mr. Chairman, and certainly members 
of the subcommittee. Dr. Richard Meserve, the Chairman of the 
NRC is on travel on a previous commitment. He sends his regrets 
he is not here. In his absence he designated me as Acting 
Chairman, so I'm very pleased to join you to testify on behalf 
of the Nuclear Regulatory Commission concerning the NRC's 
regulatory oversight role in the U.S. program for management 
and disposal of high level radioactive waste and spent nuclear 
fuel. If the President's recommendation becomes a final 
decision, several important steps must be taken before the 
Commission can decide whether or not to authorize construction 
of a potential repository at Yucca Mountain.
    First, DOE must submit a high quality application. Second, 
our staff at the NRC must conduct an independent safety review 
and issue a safety evaluation report. And third, we must 
conduct a full and fair public hearing on the DOE application. 
Only after these steps are complete will the NRC be in a 
position to determine based on all of the information before 
us, whether the DOE's license application complies with our 
regulations.
    Last November, the NRC promulgated the Health and Safety 
Regulations that will guide any licensing decision on Yucca 
Mountain. As directed by Congress, our regulations are 
consistent with the dose-based environmental standards that 
have been established by the EPA. In forwarding his 
recommendation to the President, Secretary Abraham included the 
Commission's preliminary comments on DOE's examination of Yucca 
Mountain. In offering these comments, the NRC drew no 
conclusions about the suitability of Yucca Mountain site. 
Rather, we commented on whether sufficient information will 
exist to begin a potential licensing review if DOE submits an 
application.
    The DOE and the NRC have reached and documented numerous 
agreements regarding additional information and have discussed 
the quality of information that will be needed for a licensing 
review should that happen. In addition, NRC provided comments 
to DOE on the final environmental impact statement that was 
forwarded to the President.
    The NRC staff recently published a draft of the review plan 
for public comment. As our preparation for possible licensing 
progresses, NRC will continue to conduct public, technical 
exchanges between members of the NRC and DOE technical staffs 
and with the NRC's Advisory Committee on Nuclear Waste.
    Federal regulation of spent fuel transportation safety is 
shared by the U.S. Department of Transportation, the DOT and 
the NRC. DOT regulates the transport of all hazardous materials 
including spent fuel and has established regulations for 
shippers and carriers regarding radiological controls, hazard 
communication, training and other aspects. For its part, the 
NRC establishes design standards for the cask used to transport 
license spent fuel and we review and certify cask designs prior 
to their use. Further, cask design, fabrication, use and 
maintenance activities must be conducted under an NRC approved 
quality assurance program. NRC also conduct an inspection and 
enforcement program and reviews and approves physical security 
plans for spent fuel shipments.
    The Nuclear Waste Policy Act requires DOE to utilize NRC 
certified casks for spent fuel shipments to a repository; 
follow NRC's advanced notification requirements; and to provide 
emergency response training along shipments routes. The NRC 
believes the safety protection provided by the current 
transportation regulatory system is well established. 
Nonetheless, we continually examine the transportation safety 
program. For example, over two years ago, the NRC began the 
package performance study to study cask performance under 
severe impact and fire accident conditions. The study plan 
calls for full-scale testing of a cask to confirm computer 
models of cask response to severe accident conditions. The NRC 
is also supporting several other studies that I did discuss in 
my full statement.
    The NRC plans to utilize the results of these studies as 
input into its rather comprehensive review of security in light 
of the events of September 11 and Mr. Chairman, that completes 
my statement. At the appropriate time, I'd be pleased to, of 
course, answer questions.
    [The prepared statement of Greta Joy Dicus follows:]
Prepared Statement of Hon. Greta J. Dicus, Commissioner, United States 
                     Nuclear Regulatory Commission
    Mr. Chairman, members of the Subcommittee, I am pleased to join you 
to testify on behalf of the Nuclear Regulatory Commission (NRC) 
concerning the NRC's regulatory oversight role in the U.S. program for 
management and disposal of high-level radioactive waste and spent 
nuclear fuel.
    The Commission believes that a permanent geologic repository can 
provide the appropriate means for the United States to manage spent 
nuclear fuel and other high-level radioactive waste in a safe manner. 
We also believe that public health and safety, the environment, and the 
common defense and security can be protected by deep underground 
disposal of these wastes. However, the Commission takes no position on 
whether such a repository should be located at Yucca Mountain, Nevada. 
Our views on that question must be shaped by the results of the 
Congressionally mandated licensing process.
    As you know, Congress provided in the Nuclear Waste Policy Act of 
1982 (NWPA) and the Energy Policy Act of 1992 that the NRC would serve 
as an independent regulator to ensure that any repository adequately 
protects the public health and safety and the environment. I am pleased 
to state that the NRC has consistently met the obligations established 
by these Acts. We are now in the midst of preparations for an important 
transition--from the pre-licensing role defined for NRC in statute, to 
the role of regulator and licensing authority--if a decision is made to 
authorize the Department of Energy (DOE) to submit a license 
application for Yucca Mountain.
                     the president's recommendation
    As you know, just weeks ago, President Bush accepted the Secretary 
of Energy's recommendation that the Yucca Mountain site be developed as 
a potential repository for the disposal of high-level nuclear wastes 
and spent nuclear fuel. Also, on April 8th, Governor Kenny Guinn of 
Nevada provided the Congress with the State's ``Notice of Disapproval 
of the Proposed Yucca Mountain Project.'' The President's 
recommendation will become a final decision if, within 90 calendar days 
of continuous session, Congress approves a resolution of siting 
approval. If the President's recommendation becomes a final decision, 
it represents a determination that DOE may apply to the NRC for a 
construction authorization. If that is the case, several important 
steps must be taken before the Commission can decide whether to 
authorize construction of a potential repository at Yucca Mountain. 
First, DOE must submit a high-quality application. Second, our staff at 
the NRC must conduct an independent safety review and issue a safety 
evaluation report. Third, we must conduct a full and fair public 
hearing on the DOE application. Only after these steps are complete, 
will NRC be in a position to determine whether the DOE's license 
application complies with NRC regulations. Our decision will be based 
on the information before us at that time.
    The Nuclear Waste Policy Act provides that it is NRC's 
responsibility to establish licensing criteria for a potential 
repository, to provide our preliminary views on the sufficiency of 
certain DOE information collected during site characterization, and to 
comment, along with other federal agencies, on the Environmental Impact 
Statement prepared by DOE for Yucca Mountain. It is also the 
Commission's obligation to be prepared to make a fair, informed, and 
timely licensing decision, if the Congress should approve the 
President's recommendation. I will discuss each of these activities in 
turn.

                        THE REGULATORY FRAMEWORK

    Under the Energy Policy Act of 1992, the Environmental Protection 
Agency (EPA) was given the responsibility for establishing dose-based 
environmental standards for Yucca Mountain. Congress directed EPA to 
base these standards on the recommendations of the National Academy of 
Sciences. The NRC was directed to modify its regulations to be 
consistent with final EPA standards within one year of their issuance. 
Because of the short period given to NRC to issue final implementing 
regulations, the Commission initiated its own rulemaking in parallel 
with that of the EPA.
    Immediately upon publishing our proposed regulations at 10 C.F.R. 
Part 63 for public comment in February 1999, our staff embarked on a 
series of public meetings to encourage involvement by members of the 
public in Nevada. From these meetings, together with written 
submittals, we received more than 1000 comments on our proposed 
criteria. The Commission carefully considered and analyzed these 
comments, and last November promulgated the health and safety 
regulations that will guide any licensing decision on Yucca Mountain. 
Our regulations are consistent with the health and safety standards 
established by the EPA. We are confident that any repository that can 
be shown by DOE to comply with these demanding standards and 
regulations will protect the people living near the proposed repository 
today and in the future.

                    DOE'S COLLECTION OF INFORMATION

    In forwarding his recommendation to the President, Secretary 
Abraham included the Commission's preliminary comments on DOE's 
examination of Yucca Mountain. As required by the NWPA, our comments 
addressed ``. . . the extent to which the at-depth site 
characterization analysis and waste form proposal . . . seem to be 
sufficient for inclusion in [a license application to the NRC].'' 42 
U.S.C. Sec. 10134(a)(1)(E). In offering these comments, the NRC drew no 
conclusions about the suitability of the Yucca Mountain site. Rather, 
we commented on whether sufficient information will exist to begin a 
potential licensing review, if the President's recommendation becomes a 
final decision and if DOE submits an application. To evaluate the 
adequacy of DOE's information for this purpose, the NRC staff reviewed 
all major program documents for Yucca Mountain, as well as the 
available supporting technical documents. Our staff's reviews of DOE's 
program documents and technical material were performed over many years 
of extensive pre-licensing interactions with DOE staff and various 
stakeholders, including the State of Nevada, Indian Tribes, affected 
units of local government, representatives of the nuclear industry, and 
interested members of the public.
    Based on our technical reviews and pre-licensing interactions, we 
believe that sufficient information can be available at the time of a 
license application. The DOE and NRC have reached and documented 
numerous agreements regarding additional information that will be 
needed for a licensing review. Approximately two-thirds of these 
agreements call for DOE to document the bases for assumptions or 
conclusions. The remainder oblige DOE to perform specific tests or 
analyses, to document prior tests or studies, or to provide other 
information. As DOE completes the actions necessary to fulfill these 
agreements, NRC will review the results promptly and notify DOE of our 
findings. Based on these agreements, we are confident that DOE can 
assemble the information necessary for an application that NRC can 
accept for review.
    It is important to note that NRC is as concerned about the quality 
of documentation supporting the recommendation of the Yucca Mountain 
site as about the quantity of information. Over the course of our pre-
licensing interactions we have discussed with DOE the need to verify 
the quality of the documents it has generated to support the site 
recommendation. We are aware that DOE performed extensive reviews of 
this documentation, including dedicated reviews to determine the root 
causes of any errors. We acknowledge DOE's intention to qualify all 
data, software, and models fully if they are to be used to support a 
license application. Quality management continues to be a challenging 
program area for DOE, one which the NRC staff routinely monitors.

                DOE'S FINAL ENVIRONMENT IMPACT STATEMENT

    As required by the NWPA, Secretary Abraham included a final 
Environmental Impact Statement (EIS) with his recommendation to the 
President along with the comments agencies on the final EIS, including 
those of NRC. Our comments were developed on the basis of reviews of 
DOE's draft EIS for Yucca Mountain, the supplement to the draft EIS and 
the final EIS. Like the sufficiency comments I discussed earlier, our 
reviews were supported and informed by extensive pre-licensing 
interactions with DOE, the State of Nevada, Indian Tribes, affected 
units of local government, representatives of the nuclear industry, and 
interested members of the public.
    As a result of our reviews, we believe that the final EIS contains 
sufficient information about the environmental impacts of the proposed 
action to provide a foundation for a site recommendation. The analyses 
provided in the EIS appear to bound appropriately the range of 
environmental impacts. We expect that DOE's commitment to refine the 
repository design and define transportation modes and routes will allow 
for more precise estimates of impacts and possibly result in future 
revisions to the National Environmental Policy Act analyses. We expect 
that any such additional reviews will be completed in support of a 
license application. If the President's recommendation becomes a final 
decision, NRC will, of course, continue interactions with DOE and other 
interested stakeholders, to resolve outstanding technical and 
environmental issues, as needed.

                     NRC PREPARATIONS FOR LICENSING

    As part of our overall pre-licensing strategy, our staff has 
applied the experience gained in the reviews of DOE documents and pre-
licensing interactions to the preparation of a Yucca Mountain review 
plan that will eventually guide the NRC's review of any license 
application. The NRC staff recently published a draft of the review 
plan for public comment. As our preparation for possible licensing 
progresses, NRC will continue to conduct public technical exchanges 
between members of the NRC and DOE technical staffs and with NRC's 
Advisory Committee on Nuclear Waste.
    In addition, our Atomic Safety and Licensing Board Panel has begun 
to evaluate hearing-related aspects, including location, and the 
development of the automation tools necessary to meet the time 
restrictions imposed by the Nuclear Waste Policy Act. These activities 
include development of an electronic hearing docket to expedite a 
possible hearing and completion of an Internet-based Licensing Support 
Network (LSN) that will provide access to all the key documents. Noting 
delays in entering key licensing documents due to security concerns 
after the events of September 11, it is important that DOE, which is 
the stakeholder with the most documents, enters its documents into the 
system as soon as possible. The NRC staff also is working to provide 
guidance to DOE on developing an electronic High Level Waste repository 
license application.

            SAFETY AND SECURITY OF SPENT FUEL TRANSPORTATION

    Federal regulation of spent fuel transportation safety is shared by 
the U.S. Department of Transportation (DOT) and the NRC. DOT regulates 
the transport of all hazardous materials, including spent fuel, and has 
established regulations for shippers and carriers regarding 
radiological controls, hazard communication, training, and other 
aspects. For its part, NRC establishes design standards for the casks 
used to transport licensed spent fuel, and reviews and certifies cask 
designs prior to their use. Further, cask design, fabrication, use and 
maintenance activities must be conducted under an NRC-approved Quality 
Assurance program.
    NRC also conducts an inspection and enforcement program, and 
reviews and approves physical security plans for spent fuel shipments. 
These plans provide information on how shippers and carriers comply 
with NRC spent fuel shipment protection requirements, including advance 
notification of each shipment to Governors, the establishment of 
redundant communication capability with the shipment vehicle, the 
arrangement of law enforcement contacts along the route, and provision 
of shipment escorts.
    The Nuclear Waste Policy Act requires DOE to utilize NRC-certified 
casks for spent fuel shipments to a repository, follow NRC's advance 
notification requirements, and to provide emergency response training 
along shipment routes. NRC has reviewed and certified a number of 
package designs intended to be used for transport of spent fuel to a 
repository, and has additional designs under review.
    The NRC believes the safety protection provided by the current 
transportation regulatory system is well established. Nonetheless, we 
continually examine the transportation safety program. In FY 2000, NRC 
reevaluated its generic assessment of spent fuel transportation risks 
to account for the fuel, cask and shipment characteristics likely to be 
encountered in future repository shipping campaigns. Over two years 
ago, NRC began the Package Performance Study to study cask performance 
under severe impact and fire accident conditions. The study plan calls 
for full-scale testing of a cask to confirm computer models of cask 
response to severe accident conditions. NRC is also supporting a study 
by the National Academies' Board on Radioactive Waste Management that 
will examine radioactive material transportation, with a primary focus 
on spent fuel transport safety. As a part of its evaluation, the NRC 
staff is analyzing appropriate national transportation accidents, such 
as the 2001 train accident in Baltimore, Maryland, to determine if 
lessons learned from that event should be included in our 
transportation requirements or analyses. Finally, NRC is sponsoring a 
study to update its evaluation of cask response to acts of sabotage. 
NRC plans to utilize the results of these studies as input into its 
comprehensive review of security in light of the events of September 
11. These studies should be available at the time possible licensing is 
being considered.

                               CONCLUSION

    The Commission believes that deep geologic disposal is appropriate 
for high-level radioactive wastes and spent nuclear fuel. We take no 
position, however, on whether the site recommendation for a Yucca 
Mountain repository should be approved. Our role is to put in place a 
licensing system that will ensure adequate protection of public health 
and safety and the environment and to review and evaluate any license 
application submitted, to ensure its compliance with regulatory 
requirements. As I believe this statement makes clear, we take that 
obligation very seriously.
    I will be pleased to answer any questions you may have.

    Mr. Barton. Thank you, Commissioner.
    We'd now like to hear from Assistant Secretary Holmstead 
for 7 minutes.

             STATEMENT OF HON. JEFFREY R. HOLMSTEAD

    Mr. Holmstead. Thank you, Mr. Chairman. I don't think I'll 
need my full 7 minutes. As you indicated, I'm Jeffrey Holmstead 
and I currently serve as the Assistant Administrator for Air 
and Radiation at the U.S. Environmental Protection Agency and I 
am very pleased to be here today to discuss EPA's role in 
setting radiation protection standards for the proposed 
repository at Yucca Mountain. I appreciate this opportunity to 
discuss EPA's responsibilities related to this important 
national project.
    EPA's role and responsibilities in the Federal Government's 
establishment of a repository for spent nuclear fuel and high 
level radioactive waste are described generally in the Nuclear 
Waste Policy Act and more specifically for the Yucca Mountain 
site in the Energy Policy Act of 1992. These statutes assign 
EPA the task of developing public health and environmental 
radiation protection standards for the repository. As you've 
already heard earlier today, the same statutes assign other 
roles and responsibilities to other government agencies and 
departments.
    EPA issued its final standards for the Yucca Mountain 
repository on June 13 of last year. These standards, I should 
point out, were developed through extensive consultation with 
DOE, NRC, the Office of Science and Technology Policy and were 
the subject of significant public comment.
    As you've heard, DOE must address these standards in its 
license application and NRC may issue a license for the 
proposed repository only if it determines that DOE has shown 
that the repository will comply with all the provisions of the 
EPA standards. EPA believes that disposal in compliance with 
EPA's stringent standards will be protective of public health 
and the environment.
    Under EPA standards, DOE must demonstrate compliance with 
three separate provisions. First, an individual protection 
standard; second, a human intrusion standard; and third, 
standards that are specifically intended to protect groundwater 
as a natural resource. The individual protection standard is 
the core element of EPA's regulation. It is the most basic 
measure of how well the repository will operate.
    To meet this standard, DOE must demonstrate that the 
reasonably maximally exposed individual or the RMEI, as we call 
it, will not receive an annual dose of radiation about 15 
millirem from all exposure pathways combined. The RMEI is a 
typical individual whose location and lifestyle would place him 
or her among the most highly exposed members of the population. 
Although NAS recommended using something called a critical 
group approach, it has also agreed that EPA's approach was 
``broadly consistent with its recommendation.''
    We strongly believe that this approach is preferable to 
hypothesizing unrealistic scenarios to protect those whose 
lifestyles may lead to unusually high exposures and that this 
approach is consistent with NAS' recommendation to use 
``cautious, but reasonable assumptions.''
    The human intrusion standard accounts for the possibility 
that future, human activity could compromise the integrity of 
the repository and cause releases of radioactive material. NAS 
found that there is no credible means of predicting whether, 
when or how often such an intrusion might occur at Yucca 
Mountain, so analyzing a simple event to determine how well the 
repository responds would be appropriate according to the NAS.
    In accordance with this recommendation, EPA's human 
intrusion standards require DOE to meet the same RMEI standard 
as in the individual protection analysis.
    Finally, EPA adopted a separate groundwater protection 
standard because it is long standing agency policy to protect 
groundwater as a natural resource, particularly where that 
resource is either a significant current resource or likely 
future source of drinking water. This is particularly important 
in arid regions such as southern Nevada where groundwater is 
scarce and precious and cleaning up the aquifer would be 
challenging and costly. Therefore, EPA's standards for Yucca 
Mountain require DOE to meet very stringent groundwater limits 
that are consistent with EPA's radiation standards for drinking 
water.
    Although EPA's statutory role was complete with the 
issuance of its final standards, it continues to be involved in 
many of the on-going activities. First of course, EPA is 
defending its standard in court against challenges brought by 
several parties. EPA has also reviewed and provided comment on 
NRC's licensing requirements for the Yucca Mountain repository, 
DOE's site evaluation guidelines and DOE's draft, supplemental 
and final environmental impact statements. EPA is currently 
reviewing NRC's draft Yucca Mountain review plan and we also 
plan to comment throughout the licensing process as 
appropriate.
    EPA also expects to review DOE's plant for transportation, 
even though the selection of transportation modes and routes is 
DOE's responsibility.
    Finally, EPA continues to receive and respond to questions 
from the public, not only about EPA standards, but on the other 
repository-related activities that I've mentioned before.
    Thank you again for the opportunity to appear today before 
the subcommittee to present EPA's views. This concludes my 
statement and I would also be happy to address any questions 
you may have at the appropriate time.
    [The prepared statement of Hon. Jeffrey R. Holmstead 
follows:]

 Prepared Statement of Jeffrey Holmstead, Assistant Administrator for 
        Air and Radiation, U.S. Environmental Protection Agency

    Mr. Chairman and Members of the Subcommittee: Good morning. My name 
is Jeffrey Holmstead and I currently serve as the Assistant 
Administrator for Air and Radiation at the U.S. Environmental 
Protection Agency (EPA). I am pleased to be here today to discuss EPA's 
role in setting public health and environmental radiation protection 
standards for the proposed spent nuclear fuel and high-level 
radioactive waste repository at Yucca Mountain, Nevada. I appreciate 
this opportunity to discuss EPA's responsibilities related to this 
important national project.

                              INTRODUCTION

    EPA's roles and responsibilities in the federal government's 
establishment of a repository for spent nuclear fuel and high-level 
radioactive waste are described generally in the Nuclear Waste Policy 
Act, and more specifically for the Yucca Mountain site in the Energy 
Policy Act of 1992. These statutes assign EPA the task of developing 
public health and environmental radiation protection standards for the 
repository. These same statutes assign other roles and responsibilities 
to other governmental entities. The Department of Energy (DOE) has the 
responsibility to determine whether the site is suitable for a 
repository; The Nuclear Regulatory Commission (NRC) has the 
responsibility to review DOE's application for a license for the 
repository; and Congress has the responsibility for final approval or 
denial of DOE's suitability recommendation. EPA issued its final 
standards for the Yucca Mountain repository on June 13, 2001 (40 CFR 
197). These standards were developed through extensive consultation 
with DOE, NRC, the Office of Science and Technology Policy, and were 
the subject of significant public comment. DOE must address these 
standards in its license application. NRC may issue a license only if 
it determines that DOE demonstrates a reasonable expectation that the 
repository will comply with all provisions of the EPA standards. EPA 
believes that disposal in compliance with the EPA standards will be 
fully protective of public health and the environment. In fact, EPA's 
standards are both implementable and among the most stringent in the 
world.

                               NAS REPORT

    The Energy Policy Act of 1992 also directed EPA to contract with 
the National Academy of Sciences to provide findings and 
recommendations on reasonable public health and safety standards for 
establishing a repository for spent nuclear fuel and high-level 
radioactive waste. NAS issued its report in 1995. I will refer to the 
NAS report as I discuss the EPA standards further. NAS has provided 
formal comments to EPA stating that our standards for Yucca Mountain 
are generally consistent with the NAS recommendations.

                       OVERVIEW OF EPA STANDARDS

    Under EPA's standards, DOE must demonstrate a reasonable 
expectation of compliance with three separate provisions: an 
individual-protection standard, a human intrusion standard, and 
standards that are specifically intended to protect ground water as a 
natural resource.
    The Individual Protection Standard is the core element of EPA's 
regulation. It is the most basic measure of how well the repository 
will operate. To meet this standard, DOE must demonstrate a reasonable 
expectation that the ``Reasonably Maximally Exposed Individual,'' or 
RMEI, will not incur an annual dose of radiation above 15 millirem, 
from all exposure pathways combined. The RMEI is a typical individual 
whose location and lifestyle would place him among the most highly, but 
not necessarily the highest, exposed members of the population. 
(Although NAS recommended using a ``critical group'' approach, it 
agreed that EPA's approach was ``broadly consistent'' with its 
recommendation.) EPA's view is that, by meeting the standard for the 
RMEI, public health and safety, including the health and safety of 
those living in the immediate vicinity of Yucca Mountain, will be 
protected now and for future generations. This approach is preferable 
to postulating unrealistic scenarios to protect hypothetical 
individuals for whom lifestyles could be constructed that might lead to 
unusually high exposures, and thus is consistent with the NAS 
recommendation to use ``cautious, but reasonable'' assumptions.
    The Human Intrusion Standard accounts for the possibility that 
future human activity could compromise the integrity of the repository 
and cause releases of radioactive material. NAS found that there is no 
credible means of predicting whether, when, or how often such an 
intrusion might occur at Yucca Mountain, so analyzing a simple event to 
determine how well the repository responds would be appropriate. In 
accordance with the NAS recommendation, EPA's Human Intrusion Standards 
requires DOE to meet the same RMEI standard as in the individual-
protection analysis.
    EPA adopted separate ground-water protection standards because it 
is long-standing Agency policy to protect ground water as a natural 
resource, especially when that resource is a source of drinking water. 
EPA believes that ground water should be protected to ensure that the 
Nation's drinking water resources do not present adverse health risks 
and are preserved for present and future generations. This is 
particularly important in arid regions, such as southern Nevada, where 
ground water is precious, and cleaning up the aquifer would be 
challenging and costly. Therefore, EPA's standards require DOE to 
demonstrate that ground water will not be radioactively contaminated 
above certain standards, which are consistent with EPA's radiation 
standards for drinking water.
    To determine the location where the three basic provisions of EPA's 
disposal standards must be met, EPA's standards set the point of 
compliance south of the repository at the Nevada Test Site boundary, 
about 18 kilometers (11 miles) from the repository. EPA used regional 
ground water flow patterns, current population patterns, and near-term 
local plans, to identify this location and to calculate potential 
exposure scenarios. EPA's standards apply at the location outside this 
boundary where radionuclide concentrations in ground water could be 
highest.
    DOE must demonstrate compliance with each of these provisions for a 
period of not less than 10,000 years after disposal. In addition, EPA's 
standard requires that DOE include analyses showing the performance of 
the repository after 10,000 years in its Environmental Impact 
Statement, so that the public will have the full record before it.
    Finally, although DOE must demonstrate compliance with these 
standards to the NRC, EPA recognizes that absolute proof in the 
conventional sense will be impossible to attain for analyses extending 
ten thousand years into the future. Therefore, EPA requires that DOE 
demonstrate a ``reasonable expectation'' that the standards will be 
met. This standard should not be construed as requiring a less rigorous 
or scientific process. It is simply a recognition that there will 
inevitably be significant uncertainties in projecting the performance 
of natural and engineered systems over very long time periods, and that 
these uncertainties must be understood and managed accordingly.

              EPA'S ROLE NOW THAT THE STANDARD IS COMPLETE

    Although EPA's statutory role was complete with the issuance of its 
final standards, it continues to be involved in many of the ongoing 
activities of other agencies. First, EPA is defending its standard in 
court against challenges brought by several parties. EPA has also 
reviewed and provided comment on NRC's licensing requirements for the 
Yucca Mountain repository, DOE's site evaluation guidelines, and DOE's 
Draft, Supplemental, and Final Environmental Impact Statements. EPA is 
currently reviewing NRC's draft Yucca Mountain Review Plan, and plans 
to comment as appropriate. EPA also expects to review DOE's evolving 
plans for transportation, though the selection of transportation modes 
and routes is DOE's responsibility. Finally, EPA continues to receive 
and respond to questions from the public, not only on EPA's standards, 
but on the other repository-related activities listed above.
    Thank you again for the opportunity to appear today before the 
Subcommittee to present the EPA's views. This concludes my prepared 
statement. I would be happy to address any questions that you may have.

    Mr. Barton. Thank you, sir.
    Now we're going to hear from Dr. Cohon and we'll give you 2 
minutes since the introduction took about 5.
    You're recognized for 7 minutes.

                   STATEMENT OF JARED L. COHON

    Mr. Cohon. Thank you, Mr. Chairman, and I apologize for 
being over eager before and my thanks again to Congressman 
Doyle for that wonderful introduction.
    Mr. Chairman, with your permission I would like my full 
statement to be included in the record and I will summarize.
    Mr. Barton. Without--I should have said that. All the 
written statements are in the record in their entirety without 
objection.
    Mr. Cohon. Thank you very much. Congress created the 
Nuclear Waste Technical Review Board in the 1987 Act which 
amended the Nuclear Waste Policy Act. In that Act, in creating 
the Board, the law provides that our members will be appointed 
by the President based on a list provided by the National 
Academy of Sciences. As you heard from Congressman Doyle, I 
also serve as President of a major university in Pittsburgh. 
All of our members, similarly, are engaged in other professions 
and serve on this Board in a part-time capacity.
    Mr. Chairman, with your indulgence because some of my 
colleagues from the Board are with us today, I'd like to tell 
you their names and ask them just to rise and we'll be very 
brief.
    Mr. Barton. We'd be honored to recognize them.
    Mr. Cohon. Thank you. Daniel Bullen. Dan, would you stand?
    Mr. Barton. He's standing. Let the record show, he's 
standing.
    Mr. Cohon. Dr. Bullen is a professor at Iowa State 
University.
    Paul Craig, Dr. Craig is Professor Emeritus at University 
of California-Davis.
    Debra Knopman is a Senior Scientist at the RAND 
Corporation, a former scientist at U.S. Geological Survey.
    We're also assisted by a wonderful staff and I'd like to 
introduce Bill Barnard, the Executive Director. Bill, if you'd 
stand.
    Mr. Barton. He's making a face behind your back.
    Mr. Cohon. Well, I'd like them all to stand so that we can 
at least acknowledge them.
    Mr. Barton. They all did stand and they're very welcome in 
the hearing.
    Mr. Cohon. Thank you very much, Mr. Chairman. Mr. Chairman, 
our Board was created specifically to provide on-going advice 
to Congress and the Secretary, especially with regard to the 
scientific and technical aspects of the Yucca Mountain project. 
Indeed, this is just what the Board has done since its creation 
in 1987.
    As part of that on-going advice and on-going study of the 
Yucca Mountain project, we submitted a letter to the Secretary 
and to Congress on January 24 providing our comments on the 
Secretary's recommendation for Yucca Mountain.
    We reviewed in great detail the various aspects of that 
project. Overall, taken as a whole, we found that the technical 
basis for the DOE's repository performance estimates is weak to 
moderate at this time. We pointed out in that letter and I will 
point out now the Board has made and makes no judgment on 
whether the site should be recommended or approved. We 
recognize that that is a judgment for policymakers who quite 
appropriately have to factor into their decision policy 
considerations that are beyond the technical and scientific 
issues that the Board deals with.
    A key aspect of that decisionmaking is the degree of 
uncertainty, technical uncertainty Congress and other 
policymakers are prepared to accept.
    DOE's estimates of the performance of the Yucca Mountain 
repository are based primarily on a complicated model called 
the Total System Performance Assessment or TSPA for short. This 
is a method the Board endorses. It's a very good method. It's 
especially useful because it takes a systems view of the 
problem, that is, it looks at the entire repository system, not 
just one part of it and we think that is appropriate.
    While at this point no individual technical or scientific 
factor has been identified that would automatically eliminate 
Yucca Mountain from consideration, uncertainties due to gaps in 
data and basic understanding result in the Board having limited 
confidence in current performance estimates that are the 
products of the DOE TSPA model.
    We believe, as a Board, that confidence in performance 
estimates can be increased and we lay out in our letter report 
several specific things that we recommend DOE continue to 
pursue specifically to increase confidence. We recommend 
continued scientific study, specifically to create a better 
basic understanding of Yucca Mountain as a system, not just as 
a modeling exercise, not just to show compliance, but basic 
understanding of the system. We point out that high 
temperatures in the base case repository design increase 
uncertainties in estimates of the performance of the repository 
and therefore decrease confidence in the performance of the 
waste package materials, in particular.
    Considering a low temperature design is something we 
recommend that DOE do. And it may, they might find that it 
reduces uncertainties and it would be worth pursuing.
    We've also recommended several other things that we think 
DOE can and should pursue to reduce uncertainties and increase 
confidence. We've indicated before that it's very important 
that uncertainties be identified, appropriately quantified and 
appropriately communicated to all of those who need that 
information; that DOE seek other supporting material other than 
TSPA as a way to make their case at Yucca Mountain is likely to 
work as predicted; and that defense-in-depth, the idea that if 
one part fails, one part of the system fails, another part 
won't, these arguments need to be further developed.
    These and other activities, we believe, would increase 
confidence in DOE's estimates of the performance of a Yucca 
Mountain repository.
    As we pointed out in the past and I want to emphasize now, 
it is not possible, ever, to reduce all of the technical 
uncertainty at Yucca Mountain or at any other proposed 
repository site. It is the policymaker's role, your role, to 
decide how much uncertainty is acceptable at the time that you 
make your decision.
    Thank you, Mr. Chairman. I'd be happy to respond to 
questions at the appropriate time.
    [The prepared statement of Jared L. Cohon follows:]

  Prepared Statement of Jared L. Cohon, Chairman, U.S. Nuclear Waste 
                         Technical Review Board

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Jared Cohon, Chairman of the Nuclear Waste Technical Review Board. All 
members of the Board are appointed by the President and serve on a 
part-time basis. In my case, I also am president of Carnegie Mellon 
University in Pittsburgh, Pennsylvania.
    I am pleased to be here today to present the Board's technical and 
scientific evaluation of the Department of Energy's work related to the 
recommendation of a site at Yucca Mountain, Nevada, as the location of 
a permanent repository for spent nuclear fuel and high-level 
radioactive waste. The Board hopes that the Subcommittee and other 
policy-makers will find its technical and scientific evaluation useful 
as you consider the various issues that will affect a decision on 
whether to proceed with repository development. With your permission, 
Mr. Chairman, I will summarize the Board's findings, and I request that 
my full statement and the Board's January 24, 2002, letter report to 
Congress and the Secretary be included in the hearing record.
    As you know, Mr. Chairman, Congress created the Board in the 1987 
amendments to the Nuclear Waste Policy Act. Congress charged the Board 
with performing an ongoing independent evaluation of the technical and 
scientific validity of activities undertaken by the Secretary of Energy 
related to disposing of spent nuclear fuel and high-level radioactive 
waste. The Board also reviews the DOE's activities related to 
transporting and packaging such waste. Since the Board was established, 
its primary focus has been the DOE's efforts to characterize a site at 
Yucca Mountain in Nevada to determine its suitability as the location 
of a potential repository.
    Early last year, Secretary of Energy Spencer Abraham indicated that 
he would make a decision at the end of 2001 on whether to recommend the 
Yucca Mountain site for repository development. As the Secretary's 
decision approached, the Board decided it was important to comment to 
the Secretary and Congress, within the context of the Board's ongoing 
evaluation of the technical and scientific validity of DOE activities, 
on the DOE's work related to a site recommendation. So, in November 
2001, the Board met to review comprehensively the DOE's efforts in this 
area. In December 2001, the Board sent a letter to the Secretary 
indicating that the Board would provide its comments within a few 
weeks. The Board conveyed those comments in a letter, which included 
attachments with supporting details, that was sent to Congress and the 
Secretary on January 24, 2002.
    I will now summarize the Board's review procedures and the results 
of the Board's evaluation.
    The Board's evaluation represents the collective judgment of its 
members and was based on the following:

<bullet> The results of the Board's ongoing review of the DOE's Yucca 
        Mountain technical and scientific investigations since the 
        Board's inception
<bullet> An evaluation of the DOE's work on the natural and engineered 
        components of the proposed repository system, using a list of 
        technical questions identified by the Board
<bullet> A comprehensive Board review of draft and final documents 
        supplied by the DOE through mid-November 2001
<bullet> Field observations by Board members at Yucca Mountain and 
        related sites.
    To focus its review, the Board considered the following 10 
questions for components of the repository system and for the 
disruptive-event scenarios:

1. Do the models used to generate input to the total system performance 
        assessment (TSPA) and the representations of processes and 
        linkages or relationships among processes within TSPA have a 
        sound basis?
2. Have uncertainties and conservatisms in the analyses been 
        identified, quantified, and described accurately and 
        meaningfully?
3. Have sufficient data and observations been gathered using 
        appropriate methodologies?
4. Have assumptions and expert judgments, including bounding estimates, 
        been documented and justified?
5. Have model predictions been verified or tested?
6. Have available data that could challenge prevailing interpretations 
        been collected and evaluated?
7. Have alternative conceptual models and model abstractions been 
        evaluated, and have the bases for accepting preferred models 
        been documented?
8. Are the bases for extrapolating data over long times or distances 
        scientifically valid?
9. Can the repository and waste package designs be implemented so that 
        the engineered and natural barriers perform as expected?
10. To the extent practical, have other lines of evidence, derived 
        independently of performance assessments, been used to evaluate 
        confidence in model estimates?
    In evaluating the DOE's work related to individual natural and 
engineered components of the proposed repository system, the Board 
found varying degrees of strength and weakness. For example, the Board 
considers the DOE's estimates of the probabilities of volcanic events 
and earthquakes at Yucca Mountain strengths, while the lack of data 
related to corrosion of materials proposed for the waste packages under 
conditions that would likely be present in the repository and the very 
short experience with these materials are considered weaknesses.
    This kind of variability is not surprising, given that the Yucca 
Mountain project is a complex, and in many respects, a first-of-a-kind 
undertaking. An important conclusion in the Board's letter is that when 
the DOE's technical and scientific work is taken as a whole, the 
Board's view is that the technical basis for the DOE's repository 
performance estimates is weak to moderate at this time.
    The Board made no judgment in its January 24 letter on the question 
of whether the Yucca Mountain site should be recommended or approved 
for repository development. Those judgments, which involve a number of 
public-policy considerations as well as an assessment of how much 
technical certainty is necessary at various decision points, go beyond 
the Board's congressionally established mandate.
    Let me explain in a little more detail, Mr. Chairman, the bases for 
the Board's conclusion on performance estimates. The DOE uses a 
complex, integrated performance assessment model to project repository 
system performance. Performance assessment is a useful tool because it 
assesses how well the repository system as a whole, not just the site 
or the engineered components, might perform. However, gaps in data and 
basic understanding cause important uncertainties in the concepts and 
assumptions on which the DOE's performance estimates are now based. 
Therefore, while no individual technical or scientific factor has been 
identified that would automatically eliminate Yucca Mountain from 
consideration at this point, the Board has limited confidence in 
current performance estimates generated by the DOE's performance 
assessment model. As I will discuss in just a moment, the Board 
believes that confidence in the DOE's projections of repository 
performance can be increased.
    But first let me clarify the comment I just made on the current 
state of knowledge of technical and scientific factors that could 
potentially eliminate Yucca Mountain from consideration. The Board 
considers the very precise statement in its letter that at this point, 
no individual technical or scientific factor has been identified that 
would automatically eliminate Yucca Mountain from consideration a 
necessary condition for a discussion of site suitability to take place. 
But this threshold condition, by itself, is not necessarily sufficient 
for a definitive determination of site suitability.
    How can confidence in the DOE's performance estimates be increased? 
As noted in the Board's letter, the Board believes that a fundamental 
understanding of the potential behavior of a proposed repository system 
is very important. Therefore, if policy-makers decide to approve the 
Yucca Mountain site, the Board strongly recommends that, in addition to 
demonstrating regulatory compliance, the DOE continue a vigorous, well-
integrated scientific investigation to increase its fundamental 
understanding of the potential behavior of the repository system. 
Increased understanding could show that components of the repository 
system perform better than or not as well as the DOE's performance 
assessment model now projects. In either case, making performance 
projections more realistic and characterizing the full range of 
uncertainty could increase confidence in the DOE's performance 
estimates.
    The DOE's estimates of repository performance currently rely 
heavily on engineered components of the repository system, making 
corrosion of the waste package very important. As the Board has 
mentioned in many of its previous reports and letters over the last 11 
years, we believe that high temperatures in the DOE's base-case 
repository design increase uncertainties and decrease confidence in the 
performance of waste package materials. It is possible that confidence 
in waste package and repository performance could increase if the DOE 
adopts a low-temperature repository design. However, the Board 
continues to believe that the DOE should complete a full and objective 
comparison of high- and low-temperature repository designs before it 
selects a final repository design concept.
    Over the last several years, the Board has made several other 
recommendations that could increase confidence in the DOE's projections 
of repository performance. For example, the Board recommended that the 
DOE identify, quantify, and communicate clearly the extent of the 
uncertainty associated with its performance estimates. The Board also 
recommended that the DOE use other lines of evidence and argument to 
supplement the results of its performance assessment. Moreover, the DOE 
could strengthen its arguments about how multiple barriers in its 
proposed repository system provide ``defense-in-depth'' (or 
redundancy). Although the DOE has made progress in each of these areas, 
more work is needed.
    Other actions that might be considered if policy-makers approve the 
Yucca Mountain site include systematically integrating new data and 
analyses produced by ongoing scientific and engineering investigations; 
monitoring repository performance before, during, and after waste 
emplacement; developing a strategy for modifying or stopping repository 
development if potentially significant unforeseen circumstances are 
encountered; and continuing external review of the DOE's technical and 
scientific activities.
    Mr. Chairman, eliminating all uncertainty associated with estimates 
of repository performance would never be possible at any repository 
site. Policy-makers will decide how much scientific uncertainty is 
acceptable at the time various decisions are made on site 
recommendation or repository development. The Board hopes that the 
information provided in this testimony and in its letter report to 
Congress and the Secretary will be useful to policy-makers faced with 
making these important decisions.
    Not surprisingly, Mr. Chairman, people have drawn from the Board's 
January 24 letter the points that support their case. The Board is 
concerned, however, that lifting individual statements from the letter 
and using them without context can be confusing for policy-makers and 
the public. Therefore, we urge those charged with making decisions 
about Yucca Mountain to consider the full text of our 3-page letter.
    Thank you very much, Mr. Chairman. I will be happy to respond to 
questions.

    Mr. Barton. Thank you, Dr. Cohon.
    We'd now like to hear from Ms. Gary Jones with the Natural 
Resources Environment Team at the GAO. Your statement is in the 
record in its entirety and we recognize you for 7 minutes to 
elaborate on it.

                     STATEMENT OF GARY JONES

    Ms. Jones. Thank you, Mr. Chairman. We're pleased to be 
here today to discuss DOE's project to develop a nuclear waste 
repository at Yucca Mountain, Nevada. This afternoon, I would 
like to focus on three points. First, DOE is not prepared to 
submit an acceptable license application to NRC within the 
statutory limits that would take effect if the site were 
approved. Second, DOE is unlikely to achieve its goal of 
opening a repository by 2010; and third, DOE needs to 
reestablish a cost and schedule baseline for the project and 
use the baseline as one of the major tools to manage the 
project.
    The President's recommendation of Yucca Mountain site to 
the Congress on February 15 triggered specific statutory 
timeframes for the next step in the repository project. On 
April 8, Nevada disapproved the site, so the Congress has 90 
days in continuous session to enact legislation overriding the 
state's disapproval. If the Congress enacts such legislation, 
the Nuclear Waste Policy Act requires DOE to then submit a 
license application to NRC within 90 days. Thus, the process 
gives DOE about 5 to 8 months from the date of the President's 
recommendation to submit the license application. However, in a 
September 2001 detailed reassessment of the work required to 
submit a license application that would be acceptable to NRC, 
DOE's managing contractor concluded that DOE would not be in a 
position to submit the application to NRC until January 2006 or 
about 4 years from now. This is because DOE has entered into 
293 agreements with NRC for DOE to collect more scientific data 
and/or improve it's technical assessment of the data in 
preparation for a license application that NRC would accept. 
These agreements generally relate to uncertainties about three 
aspects of long-term performance of the proposed repository. 
One, the expected lifetime of engineered barriers, particularly 
the waste containers; two, the physical properties of the Yucca 
Mountain site; and three, the supporting information for the 
mathematical models used to evaluate the performance of the 
plan repository at the site.
    Minimizing uncertainties about the waste containers is 
especially critical because DOE's estimates that the repository 
system's performance depends heavily on the waste containers in 
addition to the natural features of the site.
    According to NRC, as of March 4, 2002, DOE had 
satisfactorily completed work on 38 of these agreements and 
could resolve another 22 by September 30 of this year. DOE is 
also continuing to address technical issues raised by the 
Board. As Dr. Cohon noted, the Board has consistently raised 
issues and concerns over DOE's understanding of the expected 
lifetime of the waste containers, the significance of the 
uncertainties involved in the modeling of the scientific data 
and the need for an evaluation and comparison of a repository 
design having a higher temperature with a design having a lower 
temperature. The Board continues to reiterate these concerns. 
For example, its most recent report on January 24, concluded 
that when DOE's technical and scientific work is taken as a 
whole, the technical basis for DOE's repository performance 
estimates is ``weak to moderate'' at this time. The Board added 
that gaps in data and basic understanding cause important 
uncertainties in the concepts and assumptions on which DOE's 
performance estimates are now based, providing the Board with 
limited confidence in current performance estimates generated 
by DOE's performance assessment model.
    The September 2001 contractor reassessment of the technical 
work agreed to with NRC also impacts the goal of opening 
repository by 2010. Based on that reassessment, a license 
application would not be ready until 2006. According to program 
estimates, 7 years would then be needed until the facility was 
operational, 3 years to obtain a license and four to construct 
a facility. This would extend the operating date until about 
2013. However, even 2013 may be questionable. A repository at 
Yucca Mountain would be a first of a kind facility, meaning 
that any schedule projections may be optimistic. The 
contractor's reassessment said that the proposed schedule to 
reach license application did not include any cost or schedule 
contingencies. Further, a contractor hired by DOE to 
independently review the estimated costs and schedule for the 
nuclear waste program reported that the 4-year construction 
period was too optimistic and recommended that the construction 
phase be extended by a year and a half.
    Finally, in its August 2001 report on alternative means for 
financing and managing the program, DOE stated that unless the 
program's funding is increased, the budget might become the 
determining factor whether DOE will be able to accept waste in 
2010.
    Because of the uncertainty of opening the Yucca Mountain 
repository in 2010, DOE is examining alternative approaches 
that would permit it to meet that date, such as storing waste 
on the surface until the capacity to move waste into the 
repository has been increased. This would be a modular approach 
where relatively modest size initial surface facilities to 
handle waste could be expanded later to handle larger volumes 
of waste.
    DOE currently does not have a reliable estimate of when and 
at what cost a license application can be submitted, including 
the late 2004 date in its fiscal year 2003 budget request that 
the Secretary mentioned this morning. It also does not have a 
date when a repository can be opened because DOE stopped using 
its cost and schedule baselines to manage the site 
investigation in 1997. At least three extensions for the 
license application date have been proposed and used by DOE in 
program documents, but none of these proposals have been 
approved as required, nor was the baseline updated to reflect 
these changes.
    Further, DOE has accepted only the fiscal year 2002 portion 
of the baseline Bechtel proposed in its September 2001 
reassessment and then directed them to prepare a plan for 
submitting a license application to NRC by December 2004. The 
contractor has submitted such a plan and it is under review 
within DOE.
    DOE needs to reestablish a baseline for the repository 
program that accounts for the outstanding technical work needed 
to prepare an acceptable license application and the estimated 
schedule and cost to achieve this milestone. In conjunction, 
DOE needs to use the baseline as a tool for managing the 
program in accordance with the Department's policies and 
procedures for managing major projects.
    Therefore, our December 2001 report on the Yucca Mountain 
project recommended that the Secretary of Energy reestablish 
the baseline to the submission of a license application and 
follow the Department's management requirements including a 
formal procedure for changing program milestones. DOE is in the 
process of establishing a new baseline which should be 
completed according to them by the end of September 2002.
    Thank you, Mr. Chairman.
    [The prepared statement of Gary Jones follows:]

   Prepared Statement of Gary Jones, Director, Natural Resources and 
          Environment, United States General Accounting Office

    Mr. Chairman and Members of the Subcommittee: We are pleased to be 
here today to discuss the Department of Energy's (DOE) project to 
develop a nuclear waste repository. As required by law, DOE has been 
investigating a site at Yucca Mountain, Nevada, to determine its 
suitability for disposing of highly radioactive wastes in a mined 
geologic repository. On February 14, 2002, the secretary of energy 
recommended to the president approval of this site for the development 
of a nuclear waste repository. The next day, the president recommended 
approval of the site to the Congress. The president's recommendation 
began a statutory review process for the approval or disapproval of the 
site, including action by the state of Nevada, the Congress, DOE, and 
the Nuclear Regulatory Commission (NRC) within specified time frames. 
If the site is approved, DOE must apply to NRC for authorization (a 
license) to construct a repository. If the site is not approved for a 
license application, or if NRC denies a license to construct a 
repository, the administration and the Congress will have to consider 
other options for the long-term management of existing and future 
nuclear wastes.
    Our testimony, which is based on our recent report on the Yucca 
Mountain Repository Project,<SUP>1</SUP> addresses (1) DOE's readiness 
to submit a license application within the statutory time frame, (2) 
the extent to which DOE can meet its goal of opening a repository at 
Yucca Mountain in 2010, and (3) the extent to which DOE is managing the 
project consistent with applicable departmental procedures.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Nuclear Waste: Technical, 
Schedule, and Cost Uncertainties of the Yucca Mountain Repository 
Project, GAO02191 (Washington, D.C.: Dec. 21, 2001).
---------------------------------------------------------------------------
                                SUMMARY

    DOE is not prepared to submit an acceptable license application to 
NRC within the statutory limits that would take effect if the site is 
approved. The president's recommendation of the Yucca Mountain site to 
the Congress triggered specific statutory time frames for the next 
steps in the repository project. Nevada, which had 60 days from 
February 15 to disapprove the site, did so on April 8. The Congress now 
has 90 days (of continuous session) from that date in which to enact 
legislation overriding the state's disapproval. If the Congress enacts 
such legislation, the Nuclear Waste Policy Act requires DOE to then 
submit a license application to NRC within 90 days of the effective 
date of the legislation. Thus, the process gives DOE about 5 to 8 
months from the date of the president's recommendation to submit the 
license application. However, in a September 2001 detailed reassessment 
of the work required to submit a license application that would be 
acceptable to NRC, DOE's managing contractor concluded that DOE would 
not be in a position to submit the application to NRC until January 
2006, or about 4 years from now. Moreover, while a site recommendation 
and a license application are separate processes, essentially the same 
data are needed for both. Waiting until DOE was closer to having the 
additional information needed to support an acceptable license 
application would have put DOE in a better position to submit the 
application within the time frames set out in the law, and to respond 
to questions and challenges that may emanate from the statutory review 
process subsequent to the president's recommendation.
    DOE is unlikely to achieve its goal of opening a repository at 
Yucca Mountain by 2010. On the basis of DOE's managing contractor's 
September 2001 reassessment, sufficient time would not be available for 
DOE to obtain a license from NRC and construct enough of the repository 
to open it in 2010. Another key factor is whether DOE will be able to 
obtain the increases in annual funding that would be required to open 
the repository by 2010. Because of the uncertainty of meeting the 2010 
goal, DOE is exploring alternative approaches, such as developing 
surface facilities for storing waste at the site until sufficient 
underground disposal facilities can be constructed. Had DOE elected to 
defer a site recommendation until it was closer to having an acceptable 
license application, it could have ensured that the site recommendation 
was based on the approach to developing a repository that it intends to 
follow. This would have enabled DOE to develop an estimated schedule to 
design and build the preferred approach and to estimate its cost, 
including the annual funding requirements, as part of the information 
on which to make a site recommendation.
    DOE currently does not have a reliable estimate of when, and at 
what cost, a license application can be submitted or a repository can 
be opened because DOE stopped using its cost and schedule baselines to 
manage the site investigation in 1997. DOE needs to reestablish a 
baseline for the repository program that accounts for the outstanding 
technical work needed to prepare an acceptable license application and 
the estimated schedule and cost to achieve this milestone. In 
conjunction, DOE needs to use the baseline as a tool for managing the 
program, in accordance with the department's policies and procedures 
for managing major projects. Therefore, our December 2001 report 
recommended that the secretary of energy reestablish the baseline 
through the submission of a license application and follow the 
department's management requirements, including a formal procedure for 
changing program milestones. According to DOE, it is currently in the 
process of establishing a new baseline for the nuclear waste program.

                               BACKGROUND

    Recognizing the critical need to address the issue of nuclear waste 
disposal, the Congress enacted the Nuclear Waste Policy Act of 1982 to 
establish a comprehensive policy and program for the safe, permanent 
disposal of commercial spent fuel and other highly radioactive wastes 
in one or more mined geologic repositories. The act created the Office 
of Civilian Radioactive Waste Management within DOE to manage its 
nuclear waste program. Amendments to the act in 1987 directed DOE to 
investigate only the Yucca Mountain site.
    The Nuclear Waste Policy Act also set out important and 
complementary roles for other federal agencies:

<bullet> The Environmental Protection Agency (EPA) was required to 
        establish health and safety standards for the disposal of 
        wastes in repositories. EPA issued standards for the Yucca 
        Mountain site in June 2001 that require a high probability of 
        safety for at least 10,000 years.<SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ The Energy Policy Act of 1992 required EPA to establish 
specific health and safety standards for a repository at Yucca 
Mountain.
---------------------------------------------------------------------------
<bullet> NRC is responsible for licensing and regulating repositories 
        to ensure their compliance with EPA's standards. One 
        prerequisite to the secretary's recommendation was obtaining 
        NRC's preliminary comments on the sufficiency of DOE's site 
        investigation for the purpose of a license application. NRC 
        provided these comments on November 13, 2001. If the site is 
        approved, then NRC, upon accepting a license application from 
        DOE, has 3 to 4 years to review the application and decide 
        whether to issue a license to construct, and then to operate, a 
        repository at the site.<SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ The acceptance of a license application is not the same as 
approving an application. A decision to approve or disapprove any 
application would be made by NRC following extensive review and 
testing.
---------------------------------------------------------------------------
<bullet> The Nuclear Waste Technical Review Board (the board) reviews 
        the technical and scientific validity of DOE's activities 
        associated with investigating the site and packaging and 
        transporting wastes. The board must report its findings and 
        recommendations to the Congress and the secretary of energy at 
        least twice each year, but DOE is not required to implement 
        these recommendations.
    DOE has designated the nuclear waste program, including the site 
investigation, as a ``major'' program that is subject to senior 
management's attention and to its agencywide guidelines for managing 
such programs and projects. The guidelines require the development of a 
cost and schedule baseline, a system for managing changes to the 
baseline, and independent cost and schedule reviews. DOE is using a 
management contractor to carry out the work on the program. The 
contractor develops and maintains the baseline, but senior DOE managers 
must approve significant changes to cost or schedule estimates. In 
February 2001, DOE hired Bechtel SAIC Company, LLC (Bechtel), to manage 
the program and required the contractor to reassess the remaining 
technical work and the estimated schedule and cost to complete this 
work.
   DOE WILL NOT BE READY TO SUBMIT A LICENSE APPLICATION WITHIN THE 
                          STATUTORY TIME FRAME

    1DOE is not prepared to submit an acceptable license application to 
NRC within the statutory limits that would take effect if the site is 
approved. Specifically, DOE has entered into 293 agreements with NRC to 
gather and/or analyze additional technical information in preparation 
for a license application that NRC would accept. DOE is also continuing 
to address technical issues raised by the board. In September 2001, 
Bechtel concluded, after reassessing the remaining technical work, that 
DOE would not be ready to submit an acceptable license application to 
NRC until January 2006. DOE did not accept the 2006 date. Instead, it 
directed the contractor to prepare a new plan for submitting a license 
application to NRC by December 2004. DOE's current plan is that, by the 
end of September 2002, Bechtel will develop, and DOE will review and 
approve, a new technical, cost, and schedule baseline for submitting a 
license application to NRC in December 2004.
    Moreover, while a site recommendation and a license application are 
separate processes, DOE will need to use essentially the same data for 
both.<SUP>4</SUP> Also, the act states that the president's 
recommendation to the Congress is that he considers the site qualified 
for an application to NRC for a license. The president's recommendation 
also triggers an express statutory time frame that requires DOE to 
submit a license application to NRC within about 5 to 8 months.
---------------------------------------------------------------------------
    \4\ See General Guidelines for the Recommendation of Sites for 
Nuclear Waste Repositories; Yucca Mountain Site Suitability Guidelines 
(preamble), 66 Fed. Reg. 57298, 57322 (Nov. 14, 2001).
---------------------------------------------------------------------------
            DOE LACKS INFORMATION FOR A LICENSE APPLICATION

    The 293 agreements that DOE and NRC have negotiated address areas 
of study within the program where NRC's staff has determined that DOE 
needs to collect more scientific data and/or improve its technical 
assessment of the data. According to NRC, as of March 2002, DOE had 
satisfactorily completed work on 38 of these agreements and could 
resolve another 22 agreements by September 30 of this year. These 293 
agreements generally relate to repository: (1) the expected lifetime of 
engineered barriers, particularly the waste containers; (2) the 
physical properties of the Yucca Mountain site; and (3) the supporting 
information for the mathematical models used to evaluate the 
performance of the planned repository at the site.
    The uncertainties related to engineered barriers revolve around the 
longevity of the waste containers that would be used to isolate the 
wastes. DOE currently expects that these containers would isolate the 
wastes from the environment for more than 10,000 years. Minimizing 
uncertainties about the container materials and the predicted 
performance of the waste containers over this long time period is 
especially critical because DOE's estimates of the repository system's 
performance depend heavily on the waste containers, in addition to the 
natural features of the site, to meet NRC's licensing regulations and 
EPA's health and safety standards.
    The uncertainties related to the physical characteristics of the 
site center on how the combination of heat, water, and chemical 
processes caused by the presence of nuclear waste in the repository 
would affect the flow of water through the repository.
    The NRC staff's concerns about DOE's mathematical models for 
assessing the performance of the repository primarily relate to 
validating the models; that is, presenting information to provide 
confidence that the models are valid for their intended use and 
verifying the information used in the models. Performance assessment is 
an analytical method that relies on computers to operate mathematical 
models to assess the performance of the repository against EPA's health 
and safety standards, NRC's licensing regulations, and DOE's guidelines 
for determining if the Yucca Mountain site is suitable for a 
repository. DOE uses the data collected during site characterization 
activities to model how a repository's natural and engineered features 
would perform at the site.
    According to DOE, the additional technical work surrounding the 293 
agreements with NRC's staff is an insignificant addition to the 
extensive amount of technical work already completed--including some 
600 papers cited in one of its recently published reports and a 
substantial body of published analytic literature. DOE does not expect 
the results of the additional work to change its current performance 
assessment of a repository at Yucca Mountain.
    From NRC's perspective, however, the agreements provided the basis 
for it to give DOE its preliminary comments on the sufficiency of DOE's 
investigation of the Yucca Mountain site for inclusion in a future 
license application. In a November 13, 2001, letter to the under 
secretary of energy, the Chairman of the NRC commented that
        ``[a]lthough significant additional work is needed prior to the 
        submission of a possible license application, we believe that 
        agreements reached between DOE and NRC staff regarding the 
        collection of additional information provide the basis for 
        concluding that development of an acceptable license 
        application is achievable.''
    The board has also consistently raised issues and concerns over 
DOE's understanding of the expected lifetime of the waste containers, 
the significance of the uncertainties involved in the modeling of the 
scientific data, and the need for an evaluation and comparison of a 
repository design having a higher temperature with a design having a 
lower temperature. The board continues to reiterate these concerns in 
its reports. For example, in its most recent report to the Congress and 
the secretary of energy, issued on January 24, 2002, the board 
concluded that, when DOE's technical and scientific work is taken as a 
whole, the technical basis for DOE's repository performance estimates 
is ``weak to moderate'' at this time. The board added that gaps in data 
and basic understanding cause important uncertainties in the concepts 
and assumptions on which DOE's performance estimates are now based; 
providing the board with limited confidence in current performance 
estimates generated by DOE performance assessment model.
    As recently as May 2001, DOE projected that it could submit a 
license application to NRC in 2003. It now appears, however, that DOE 
may not complete all of the additional technical work that it has 
agreed to do to prepare an acceptable license application until January 
2006. In September 2001, Bechtel completed, at DOE's direction, a 
detailed reassessment in an effort to reestablish a cost and schedule 
baseline. Bechtel estimated that DOE could complete the outstanding 
technical work agreed to with NRC and submit a license application in 
January 2006. This date, according to the contractor, was due to the 
cumulative effect of funding reductions in recent years that had 
produced a ``. . . growing bow wave of incomplete work that is being 
pushed into the future.'' Moreover, the contractor's report said, the 
proposed schedule did not include any cost and schedule contingencies. 
The contractor's estimate was based on guidance from DOE that, in part, 
directed the contractor to assume annual funding for the nuclear waste 
program of $410 million in fiscal year 2002, $455 million in fiscal 
year 2003, and $465 million in fiscal year 2004 and 
thereafter.<SUP>5</SUP> DOE did not accept this estimate because, 
according to program officials, the estimate would extend the date for 
submitting a license application too far into the future. Instead, DOE 
accepted only the fiscal year 2002 portion of Bechtel's detailed work 
plan and directed the contractor to prepare a new plan for submitting a 
license application to NRC by December 2004.
---------------------------------------------------------------------------
    \5\ DOE's budget request for fiscal year 2003 is about $527 
million, or $72 million more than assumed in Bechtel's reassessment. 
The preliminary amounts for fiscal years 2004 and 2005 are $538 million 
and $550 million, respectively.
---------------------------------------------------------------------------
 ESSENTIALLY THE SAME INFORMATION IS NEEDED FOR A SITE RECOMMENDATION 
                       AND A LICENSE APPLICATION

    Under the Nuclear Waste Policy Act, DOE's site characterization 
activities are to provide information necessary to evaluate the Yucca 
Mountain site's suitability for submitting a license application to NRC 
for placing a repository at the site. In implementing the act, DOE's 
guidelines provide that the site will be suitable as a waste repository 
if the site is likely to meet the radiation protection standards that 
NRC would use to reach a licensing decision on the proposed repository. 
Thus, as stated in the preamble (introduction) to DOE's guidelines, DOE 
expects to use essentially the same data for the site recommendation 
and the license application.
    In addition, the act specifies that, having received a site 
recommendation from the secretary, the president shall submit a 
recommendation of the site to the Congress if the president considers 
the site qualified for a license application. Under the process laid 
out in the Nuclear Waste Policy Act, once the secretary makes a site 
recommendation, there is no time limit under which the president must 
act on the secretary's recommendation. However, when the president 
recommended, on February 15, that the Congress approve the site, 
specific statutory time frames were triggered for the next steps in the 
process. Figure 1 shows the approximate statutory time needed between a 
site recommendation and submission of a license application and the 
additional time needed for DOE to meet the conditions for an acceptable 
license application. The figure assumes that the Congress overrides the 
state's disapproval of April 8, 2002. As shown in the figure, Nevada 
had 60 days--until April 16--to disapprove the site. The Congress now 
has 90 days (of continuous session) from that date in which to enact 
legislation overriding the state's disapproval. If the Congress 
overrides the state's disapproval and the site designation takes 
effect, the next step is for the secretary to submit a license 
application to NRC within 90 days after the site designation is 
effective. In total, these statutory time frames provide about 150 to 
240 days, or about 5 to 8 months, from the time the president makes a 
recommendation to DOE's submittal of a license application. On the 
basis of Bechtel's September 2001 program reassessment, however, DOE 
would not be ready to submit a license application to NRC until January 
2006.

[GRAPHIC] [TIFF OMITTED] T9469.167

        DOE IS UNLIKELY TO OPEN A REPOSITORY IN 2010 AS PLANNED

    DOE states that it may be able to open a repository at 
Yucca Mountain in 2010. The department has based this 
expectation on submitting an acceptable license application to 
NRC in 2003, receiving NRC's authorization to construct a 
repository in 2006, and constructing essential surface and 
underground facilities by 2010. However, Bechtel, in its 
September 2001 proposal for reestablishing technical, schedule, 
and cost baselines for the program, concluded that January 2006 
is a more realistic date for submitting a license application. 
Because of uncertainty over when DOE may be able to open the 
repository, the department is exploring alternatives that might 
still permit it to begin accepting commercial spent fuel in 
2010.

EXTENSION OF LICENSE APPLICATION DWILL LIKELY POSTPONE 2010 REPOSITORY 
                                  GOAL

    An extension of the license application date to 2006 would 
almost certainly preclude DOE from achieving its long-standing 
goal of opening a repository in 2010. According to DOE's May 
2001 report on the program's estimated cost, after submitting a 
license application in 2003, DOE estimates that it could 
receive an authorization to construct the repository in 2006 
and complete the construction of enough surface and underground 
facilities to open the repository in 2010, or 7 years after 
submitting the license application. This 7-year estimate from 
submittal of the license application to the initial 
construction and operation of the repository assumes that NRC 
would grant an authorization to construct the facility in 3 
years, followed by 4 years of construction. Assuming these same 
estimates of time, submitting a license application in January 
2006 would extend the opening date for the repository until 
about 2013.
    Furthermore, opening the repository in 2013 may be 
questionable for several reasons. First, a repository at Yucca 
Mountain would be a first-of-a-kind facility, meaning that any 
schedule projections may be optimistic. DOE has deferred its 
original target date for opening a repository from 1998 to 2003 
to 2010. Second, although the Nuclear Waste Policy Act states 
that NRC has 3 years to decide on a construction license, a 
fourth year may be added if NRC certifies that it is necessary. 
Third, the 4-year construction time period that DOE's current 
schedule allows may be too short. For example, a contractor 
hired by DOE to independently review the estimated costs and 
schedule for the nuclear waste program reported that the 4-year 
construction period was too optimistic and recommended that the 
construction phase be extended by a year-and-a-
half.<SUP>6</SUP> Bechtel anticipates a 5-year period of 
construction between the receipt of a construction 
authorization from NRC and the opening of the repository. A 4-
year licensing period followed by 5 years of initial 
construction could extend the repository opening until about 
2015.
---------------------------------------------------------------------------
    \6\ U.S. Department of Energy, Independent Cost Estimate Review of 
the Civilian Radioactive Waste Management Program, 2001 Total System 
Life Cycle Cost (Washington, D.C.: Jan. 2001).
---------------------------------------------------------------------------
    Finally, these simple projections do not account for any 
other factors that could adversely affect this 7- to 9-year 
schedule for licensing, constructing, and opening the 
repository. Annual appropriations for the program in recent 
years have been less than $400 million. In contrast, according 
to DOE, it needs between $750 million and $1.5 billion in 
annual appropriations during most of the 7- to 9-year licensing 
and construction period in order to open the repository on that 
schedule. In its August 2001 report on alternative means for 
financing and managing the program, DOE stated that unless the 
program's funding is increased, the budget might become the 
``determining factor'' whether DOE will be able to accept 
wastes in 2010.<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ U.S. Department of Energy, Alternative Means of Financing and 
Managing the Civilian Radioactive Waste Management Program, DOE/RW-0546 
(Washington, D.C.: Aug. 2001).
---------------------------------------------------------------------------
    In part, DOE's desire to meet the 2010 goal is linked to 
the court decisions that DOE--under the Nuclear Waste Policy 
Act and as implemented by DOE's contracts with owners of 
commercial spent fuel--is obligated to begin accepting spent 
fuel from contract holders not later than January 31, 1998, or 
be held liable for damages. Courts are currently assessing the 
amount of damages that DOE must pay to holders of spent fuel 
disposal contracts. Estimates of potential damages for the 
estimated 12-year delay from 1998 to 2010 range widely from the 
department's estimate of about $2 billion to $3 billion to the 
nuclear industry's estimate of at least 50 billion. The damage 
estimates are based, in part, on the expectation that DOE would 
begin accepting spent fuel from contract holders in 2010. The 
actual damages could be higher or lower, depending on when DOE 
begins accepting spent fuel.

       DOE IS REVIEWING ALTERNATIVE WAYS TO ACCEPT WASTES IN 2010

    Because of the uncertainty of achieving the 2010 goal for 
opening the Yucca Mountain repository, DOE is examining 
alternative approaches that would permit it to meet the goal. 
For example, in a May 2001 report, DOE examined approaches that 
might permit it to begin accepting wastes at the repository 
site in 2010 while spreading out the construction of repository 
facilities over a longer time period. The report recommended 
storing wastes on the surface until the capacity to move wastes 
into the repository has been increased. Relatively modest-sized 
initial surface facilities to handle wastes could be expanded 
later to handle larger volumes of waste. Such an approach, 
according to the report, would permit partial construction and 
limited waste emplacement in the repository, at lower than 
earlier estimated annual costs, in advance of the more costly 
construction of the facility as originally planned. Also, by 
implementing a modular approach, DOE would be capable of 
accepting wastes at the repository earlier than if it 
constructed the repository described in the documents that the 
secretary used to support a site recommendation.
    DOE has also contracted with the National Research Council 
to provide recommendations on design and operating strategies 
for developing a geologic repository in stages, which is to 
include reviewing DOE's modular approach. The council is 
addressing such issues as the (1) technical, policy, and 
societal objectives and risks for developing a staged 
repository; (2) effects of developing a staged repository on 
the safety and security of the facility and the effects on the 
cost and public acceptance of such a facility; and (3) 
strategies for developing a staged system, including the 
design, construction, operation, and closing of such a 
facility. In March 2002, the council published an interim 
report on the study in which it address a conceptual framework 
for a generic repository program. The Council plans to issue a 
final report this fall, in which it intends to provide specific 
suggestions for incorporating additional elements of staged 
repository development into DOE's repository program.

 DOE'S CURRENT LICENSE APPLICATION MILESTONE DATE IS NOT SUPPORTED BY 
                         THE PROGRAM'S BASELINE

    As of December 2001, DOE expected to submit the application 
to NRC in 2003.<SUP>8</SUP> This date reflects a delay in the 
license application milestone date last approved by DOE in 
March 1997 that targeted March 2002 for submitting a license 
application. The 2003 date was not formally approved by DOE's 
senior managers or incorporated into the program's cost and 
schedule baseline, as required by the management procedures 
that were in effect for the program. At least three extensions 
for the license application date have been proposed and used by 
DOE in program documents, but none of these proposals have been 
approved as required. As a result, DOE does not have a baseline 
estimate of the program's schedule and cost--including the late 
2004 date in its fiscal year 2003 budget request--that is based 
on all the work that it expects to complete through the 
submission of a license application.
---------------------------------------------------------------------------
    \8\ DOE's 2003 budget request states that DOE now expects to submit 
the license application between October and December 2004.
---------------------------------------------------------------------------
    DOE's guidance for managing major programs and projects 
requires, among other things, that senior managers establish a 
baseline for managing the program or project. The baseline 
describes the program's mission--in this case, the safe 
disposal of highly radioactive waste in a geologic repository--
and the expected technical requirements, schedule, and cost to 
complete the program. Procedures for controlling changes to an 
approved baseline are designed to ensure that program managers 
consider the expected effects of adding, deleting, or modifying 
technical work, as well as the effects of unanticipated events, 
such as funding shortfalls, on the project's mission and 
baseline. In this way, alternative courses of action can be 
assessed on the basis of each action's potential effect on the 
baseline. DOE's procedures for managing the nuclear waste 
program require that program managers revise the baseline, as 
appropriate, to reflect any significant changes to the program.
    After March 1997, according to DOE officials, they did not 
always follow these control procedures to account for proposed 
changes to the program's baseline, including the changes 
proposed to extend the date for license application. According 
to these same officials, they stopped following the control 
procedures because the secretary of energy did not approve 
proposed extensions to the license application milestone. As a 
result, the official baseline did not accurately reflect the 
program's cost and schedule to complete the remaining work 
necessary to submit a license application.
    In November 1999, the Yucca Mountain site investigation 
office proposed extending the license application milestone 
date by 10 months, from March to December 2002, to compensate 
for a $57.8 million drop in funding for fiscal year 2000. A 
proposed extension in the license application milestone 
required the approval of both the director of the nuclear waste 
program and the secretary of energy. Neither of these officials 
approved this proposed change nor was the baseline revised to 
reflect this change even though the director subsequently began 
reporting the December 2002 date in quarterly performance 
reports to the deputy secretary of energy. The site 
investigation office subsequently proposed two other extensions 
of the license application milestone, neither of which was 
approved by the program's director or the secretary of energy 
or incorporated into the baseline for the program. 
Nevertheless, DOE began to use the proposed, but unapproved, 
milestone dates in both internal and external reports and 
communications, such as in congressional testimony delivered in 
May 2001.
    Because senior managers did not approve these proposed 
changes for incorporation into the baseline for the program, 
program managers did not adjust the program's cost and schedule 
baseline. By not accounting for these and other changes to the 
program's technical work, milestone dates, and estimated costs 
in the program's baseline since March 1997, DOE has not had 
baseline estimates of all of the technical work that it 
expected to complete through submission of a license 
application and the estimated schedule and cost to complete 
this work. This condition includes the cost and schedule 
information contained in DOE's budget request for fiscal year 
2003.
    When DOE hired Bechtel to manage the nuclear waste program, 
one of the contractor's first assignments was to document the 
remaining technical work that had to be completed to support 
the submission of a license application to NRC and to estimate 
the time and cost to complete this work. The contractor's 
revised, unofficial baseline for the program shows that it will 
take until January 2006 to complete essential technical work 
and submit an acceptable license application. Also, DOE had 
estimated that completing the remaining technical work would 
add about $1.4 billion to the cumulative cost of the program, 
bringing the total cost of the Yucca Mountain project's portion 
of the nuclear waste program to $5.5 billion.<SUP>9</SUP> As 
noted earlier, DOE accepted only the fiscal year 2002 portion 
of the proposed baseline and then directed the contractor to 
prepare a plan for submitting a license application to NRC by 
December 2004.
---------------------------------------------------------------------------
    \9\ DOE estimated that the program cost $4.1 billion, on the basis 
of year-of-expenditure dollars from the program's inception in 1983 
through March 2002. The $5.5 billion estimate for the license 
application is based on year-of-expenditure dollars from 1983 through 
January 2006.
---------------------------------------------------------------------------
    Because of these management weaknesses, we recommended in 
our December 2001 report that the secretary of energy 
reestablish the baseline through the submission of a license 
application and follow the department's management 
requirements, including a formal procedure for changing program 
milestones. According to DOE, it is currently in the process of 
establishing a new baseline for the nuclear waste program.
    Mr. Chairman, this concludes our prepared statement. We 
would be happy to respond to any questions that you or members 
of the subcommittee may have.

    Mr. Barton. Thank you, Ms. Jones.
    The Chair would recognize himself for 5 minutes for 
questions.
    There's another great Pennsylvanian who made the statement 
back in the late 1700's, I believe, that only one thing is 
certain in life and that's death and taxes. I think that was 
Benjamin Franklin. Now I may be wrong about that, but I'm going 
to attribute it to him and Poor Richard's Almanack.
    Dr. Cohon, you're another great Pennsylvanian and you're 
here on behalf of the Nuclear Technical Review Board, your 
testimony is replete with illusions to uncertainty. In your 
mind, is the Yucca Mountain site so uncertain that we should 
stop consideration of it?
    Mr. Cohon. Well, Mr. Chairman, that's not a determination 
that Congress asked our Board to make. Rather, we see our role 
as making sure that the scientific and technical basis on which 
DOE has made its recommendation and on which you make your 
judgment is as strong as possible and to evaluate that 
technical basis for you.
    As to whether or not the uncertainty is too great or not, 
that truly is a policy matter and we defer to you on that.
    Mr. Barton. Well, you're the president of a great 
engineering institution. I'm a registered professional engineer 
in the great State of Texas. I remember statistical analysis 
and what we call the normal bell curve and reasonable risk and 
acceptable risk and probability regression analysis.
    Do you think that the risk in the Yucca Mountain site as 
currently configured is within the ranges of acceptable risk 
for policymakers to consider?
    Mr. Cohon. Well, clearly, the Chairman of the Nuclear Waste 
Technical Review Board is no match for the chairman of this 
subcommittee.
    Mr. Barton. Oh now.
    Mr. Cohon. In terms of trying to find the right spot. 
Having said what I did in response to your first question about 
the inherent policy nature of this issue, I will acknowledge 
that it certainly has a technical component as well. It is both 
a policy matter and a technical matter. The Board is on record 
as conveying its view that overall the scientific and technical 
basis is weak to moderate and that there is substantial 
uncertainty associated with the estimates of performance.
    We've also indicated in our three page letter with long 
attachments several things that we believe are very important 
for DOE to continue to pursue in order to reduce that 
uncertainty. Our Board overall feels that its confidence in the 
technical basis would be moderate to high if all of those 
recommendations in that letter were completely followed and put 
into place.
    Mr. Barton. Well, I'll accept that. I mean there's an 
uncertainty when I hop on a plane to Texas, here hopefully in 
about an hour and a half that it may fall out of the sky or a 
terrorist may highjack or the pilot may decide he wants to go 
to Cuba, but the probability is that that plane is going to 
take off and 3 hours later land safely in Houston, Texas. I'll 
hop in a car and drive at a reasonable rate of speed to College 
Station, Texas where I'll be given an award tonight by the 
Engineering Department at Texas A&M.
    Mr. Cohon. Congratulations.
    Mr. Barton. Thank you. I just wanted to put that in, you 
know.
    Ms. Jones, you've talked quite a bit about time tables and 
license application periods and things of this sort. Would it 
not be common sense on behalf of the Congress if, in fact, we 
vote to override the Governor in Nevada's veto, we do have this 
90-day statutory requirement to submit an application and I 
believe that Congressman Markey has some questions about that 
to the Secretary when I was not in attendance. But wouldn't it 
be common sense if we do decide that Yucca Mountain is suitable 
by overriding the Governor's veto that we give the Department 
sufficient time to submit a complete application to the Nuclear 
Regulatory Commission? If you were a Congressman, would you cut 
them off if they don't get the application in its totality in 
in the 90-day period?
    Ms. Jones. I think that was the point of our comment in our 
report in December, Mr. Barton, that we did feel that the 
Department needed additional time to finish some of these 
technical issues before they submitted the license application.
    Mr. Barton. But we want them to right, rather than on time.
    Ms. Jones. Absolutely, yes sir.
    Mr. Barton. It pains me to say that, but our good friends 
at the EPA are in noncompliance with several parts of the Clean 
Air Act 10 years later, but we want them to be right too, 
rather than to comply in a technical sense.
    On our next panel we have a witness who has said either in 
the written testimony or in public comments that the Department 
of Energy's and I quote ``underhanded decisions cannot mask the 
fact that this site is not suitable as the GAO, IG and Nuclear 
Waste Technical Review Board have made clear.''
    Now, Ms. Jones on behalf of the GAO, admittedly you're not 
the top dog at the GAO, but you're the best we have here today 
and you're doing a good job. Has the GAO said that the Yucca 
Mountain site is not suitable?
    Ms. Jones. No sir. We have not.
    Mr. Barton. Okay, and Dr. Cohon, you are the top dog of the 
Nuclear Waste Technical Review Board, has your Board said on 
the record that the Yucca Mountain site is not suitable?
    Mr. Cohon. No sir.
    Mr. Barton. Okay. My time has expired. I recognize the 
gentleman from Pennsylvania.
    Mr. Doyle. Thank you, Mr. Chairman. Dr. Cohon, I'll not put 
you on the same spot that my Chairman did being from the 
District where the doctor resides, but I do want to ask some 
follow-up questions.
    Dr. Cohon, we know that your Board has been charged with 
the technical and scientific review on DOE's efforts to 
characterize the site at Yucca Mountain and now that that site 
has been recommended, what do you see as the future role of the 
Board?
    Mr. Cohon. We believe and I believe and I speak for the 
whole Board here that the Board has a very important continuing 
role to play as this program proceeds if it does proceed, if 
Congress indeed overrides Nevada's veto. And we see three 
particular roles that we have to play. One is continuing to 
provide the kind of scientific and technical review that we 
have of DOE's continuing scientific research which we strongly 
recommend should proceed. And all of that contributing to 
increased confidence in the estimates about the Yucca Mountain 
performance.
    A second dimension of this is that again if the site 
proceeds, there will be by necessity be a performance 
confirmation plan worked out between DOE and NRC. This is 
another thing that requires, would benefit from the kind of 
technical and scientific review that our Board provides.
    And finally, I'll point out that our Board was charged by 
Congress of looking at the nuclear waste management system 
overall, not just the repository at Yucca Mountain. As DOE 
turns to transportation and packaging and management and 
storage issues, our Board will surely increase its activities 
in that area as well.
    Mr. Doyle. Thanks, Dr. Cohon. Also, we know that your Board 
has been providing a great deal of information about the 
process that you've used to evaluate DOE's technical and 
scientific work, but I'm curious to hear more about the 
methodology. How did you determine the final list of 11 
disruptive event scenarios and the 10 subsequent lines of 
questioning and as you reached your conclusions, were these 
areas of assessment prioritized or weighted in some way? Was 
the weak or moderate or strong rubric the only one used for 
your evaluation?
    Mr. Cohon. Thank you. It's a very good question and one 
that's rather involved, but I'll give you the short version. 
The eleven areas and ten questions were a product of--it's fair 
to say 15 years of study by our Board. It was sort of the 
natural conclusion of all that we've done over the years 
reacting and reviewing what DOE has done. So it was a product, 
really of the collective review by the Board Members and the 
staff to try and understand what the key issues were, and very 
much consistent with the way DOE had defined key issues in the 
past as well, but it came from the Board. It wasn't delivered 
to us or given to us.
    In general, our conclusions, that is trying to evaluate how 
a particular factor stood against those 10 years, that was done 
by considering the entire written record that DOE has produced 
that's thousands of pages of reports, the public meetings we 
have at which DOE and others come to testify and where we can 
ask questions; and our own discussion and review using the 
technical backgrounds that we bring to the Board.
    And it was that overall that led us to those conclusions.
    To your question with regard to weighting, no, we did not 
attempt to weight. We took each of the critical factors and 
judged how they stood against the questions we posed and then 
overall came to this overall assessment of where we thought the 
technical basis was.
    Mr. Doyle. Thank you very much. Thank you for your 
testimony today.
    Mr. Chairman, I yield back.
    Mr. Barton. Seeing no other members present, we'll give all 
members the requisite number of days to submit written 
questions to this Panel. We do thank you for your attendance. 
If we weren't in the process of finishing up today and heading 
out of town, I would ask a second round, but especially to the 
Nuclear Technical Review Board, we appreciate your good work 
and to Commissioner Dicus, we wish you Godspeed in the work 
that's ahead of you in looking at the application process as is 
presented to you and your Commissioners.
    This Panel is relieved and we will ask our fourth and last 
Panel to come forward.
    If everyone could find their seat. We have the Honorable 
Laura Chappelle who is the Chairwoman of the Michigan Public 
Service Commission. She is testifying on behalf of the National 
Association of Regulatory Utility Commissioners or NARUC. We 
have Mr. Joe Colvin who is the President of the Nuclear Energy 
Institute. We have Mr. Jim Dushaw who is the Director of the 
Utility Department of the International Brotherhood of 
Electrical Workers. And we do not yet have Ms. Joan Claybrook 
who is the President of Public Citizen. Is there a 
representative of Ms. Claybrook's in the audience? Do you know 
where she might be? Is she on her way. Okay, we're going to go 
ahead and begin to let the other three testifiers testify and 
when she appears, we'll encourage her to come to the witness 
desk.
    Welcome, lady and gentlemen. Your testimony is in the 
record in its entirety. We'll give each of you 7 minutes to 
elaborate on it and we'll start with Chairwoman Chappelle.

STATEMENTS OF HON. LAURA CHAPPELLE, CHAIRWOMAN, MICHIGAN PUBLIC 
 SERVICE COMMISSION; JOE F. COLVIN, PRESIDENT AND CEO, NUCLEAR 
ENERGY INSTITUTE; AND JIM DUSHAW, DIRECTOR, UTILITY DEPARTMENT, 
        INTERNATIONAL BROTHERHOOD OF ELECTRICAL WORKERS

    Ms. Chappelle. Thank you, Mr. Chairman. It's an honor to be 
here today. I appreciate the committee letting me come forward 
on behalf of the National Association of Regulatory Utility 
Commissions, commonly known as NARUC, the State of Michigan and 
the Michigan Public Service Commission.
    I have submitted a written statement this afternoon and I 
kindly request that that be included in today's record. I will 
attempt to keep my comments brief. We certainly have heard lots 
of testimony today regarding Yucca Mountain and I do just want 
to highlight NARUC and the State of Michigan's thoughts and 
position on this very important topic.
    First, we want to reiterate that NARUC, the State of 
Michigan and the Public Service Commission strongly support the 
President's decision to approve the site at Yucca Mountain for 
this geologic repository. Over at the Michigan Public Service 
Commission we have been working on this issue in one form or 
another for about 19 years. Prior Chairman of the Michigan 
Public Service Commission have been before Congress to testify 
in support of finding a permanent repository and I am proud to 
continue in that position today.
    We further encourage Congress to vote in support of 
Chairman Barton's resolution allowing DOE to submit its license 
application to NRC to begin the construction phase of Yucca 
Mountain.
    Very quickly, first as Secretary Abraham has stated, the 
analysis clearly shows that the repository at Yucca Mountain 
can be designed, built, operated, monitored and eventually 
sealed by meeting all statutory and regulatory requirements to 
protect the public health and the environment. While the 
scientific research about Yucca Mountain will certainly 
continue enough is known at this point to support the site 
designation today and to move the process forward.
    We've heard a lot today about the transportation of the 
nuclear material. Certainly we've been hearing a lot about that 
through various forums. We're starting to hear that issue in 
Michigan. I was just out the other day when somebody found out 
I was coming before Congress and they started asking how are we 
going to ensure the safe transportation of this material when 
we are surrounded by Great Lakes? So certainly this is a very 
important issue.
    We reiterate those comments that have been made that the 
Nation does have an excellent safety record of transportation 
of nuclear materials over the past 30 years and certainly the 
State of Michigan like very many other States, I agree, we do 
both license and make sure that we are diligent in various 
forms of transportation of other hazardous waste materials.
    The State of Michigan and the other States involved through 
NARUC will certainly want and expect to work very closely with 
all various Federal agencies in determining the most 
appropriate and safe transportation routes.
    Let me turn quickly to say obviously unless the Federal 
Government finds a way to dispose of spent nuclear fuel, some 
nuclear plants will need to shut down if they are unable to 
meet their license requirements to store used fool in pool or 
dry storage.
    In Michigan, we do have one operating nuclear plant. We 
actually have three plants. One such plant, their pool storage 
has already been exceeded. They have extended their storage on 
a bluff overlooking Lake Michigan. I would submit that although 
that's a secure site, it's not the best site to store this 
nuclear material above a bluff over Lake Michigan.
    Most importantly, NARUC represents ratepayers in 41 States 
who have in good faith paid over $17 billion into the Nuclear 
Waste Fund including interest and have little to show for it. 
Worse, they have also had to pay utilities and have had to bear 
additional onsite waste storage expenses because the 1998 date 
to begin removing the fuel was missed. In my State of Michigan 
alone, ratepayers have paid over $430 million into the Fund and 
it's very difficult to explain to ratepayers that we have at 
least another 8 years before they begin to see a return on 
their investment.
    Finally, I just want to note that there has been some 
discussion about a possible settlement to use money to store 
waste material again in temporary above-ground locations. I 
would submit this is not an appropriate settlement. It is not 
an appropriate answer to this very important issue.
    I'd just close with recognizing Ranking Member Dingell's 
comment that what you have before you today is a necessary part 
of a fair progress and I echo Congressman Norwood's call to get 
this job done.
    Thank you very much.
    [The prepared statement of Hon. Laura Chappelle follows:]

  Prepared Statement of Hon. Laura Chappelle, National Association of 
                    Regulatory Utility Commissioners

    Mr. Chairman and Members of the Subcommittee: Good Morning. My name 
is Laura Chappelle. I am the Chairman of the Michigan Public Service 
Commission. I am here today on behalf of the National Association of 
Regulatory Utility Commissioners, commonly known as NARUC, and the 
Michigan Public Service Commission. I greatly appreciate the 
opportunity to appear before the Subcommittee on Energy and Air Quality 
and I respectfully request that NARUC's written statement be included 
in today's hearing record as if fully read.
    NARUC is a quasi-governmental, nonprofit organization founded in 
1889. Its membership includes the State public utility commissions for 
all States and territories. NARUC's mission is to serve the public 
interest by improving the quality and effectiveness of public utility 
regulation. NARUC's members regulate the retail rates and services of 
electric, gas, water and telephone utilities. Each State Commission and 
my Commission have the obligation under State law to ensure the 
establishment and maintenance of such energy utility services as may be 
required by the public convenience and necessity, and to ensure that 
such services are provided at rates and conditions that are just, 
reasonable and nondiscriminatory for all consumers.
    NARUC has had a direct stakeholder interest in the civilian 
radioactive waste management program ever since the Nuclear Waste 
Policy Act of 1982 (NWPA) established that the federal government is 
responsible for safe, permanent disposal of high-level radioactive 
waste and spent nuclear fuel from commercial nuclear reactors, as well 
as making certain that the utilities pay their share of these disposal 
costs. The primary reason for NARUC's interest is that the fees paid by 
nuclear utilities to the Nuclear Waste Fund (NWF) are passed along to 
ratepayers through their electric bills. We would submit that passing 
the costs of the NWF on to the ratepayers has been the only aspect of 
the NWPA to begin on schedule.
    We strongly support the President's decision to approve the site at 
Yucca Mountain for the geologic repository. It is a historic milestone 
for this troubled program and it is legally and scientifically sound.
    I say ``troubled'' because, as the Subcommittee members know well, 
there have been a series of technical, political, legal and financial 
hurdles that have had the cumulative effect of delay to the point 
where, even under the most optimistic schedule, nuclear waste will not 
begin to be emplaced in the repository until 2010--twelve years after 
the mandate set in the NWPA.
    The Department of Energy (DOE) has spent over four billion dollars 
studying the site at Yucca Mountain for suitability for repository use, 
in what I have heard described as the most studied piece of real estate 
on earth. On behalf of NARUC and the State of Michigan, we praise the 
dedication and professionalism of the inter-disciplinary public and 
private sector team of scientists who have worked on this unprecedented 
venture and upon whose analytic investigations the President can rely 
upon with confidence.
    The science is right. Analyses by the DOE team show that a 
repository at Yucca Mountain can be designed, built, operated, 
monitored and eventually sealed while meeting all statutory and 
regulatory requirements to protect public health and the environment. 
Principle among those requirements is the radiation standards 
established by the Environmental Protection Agency. While the 
scientific research about Yucca Mountain continues, more than enough is 
known at this point to support the site designation today.
    The time is right. Yucca Mountain is the right place. While we can 
never have perfect information, it is hard to imagine a better site. We 
know there are questions that remain to be addressed to the fullest 
extent required to support a license approval by the Nuclear Regulatory 
Commission, but extensive findings support the President's decision to 
advance toward that next step. Secretary of Energy Abraham put it in 
the right context in his site recommendation when he observed that 
Yucca Mountain has been studied for a longer amount of time than it 
took to plan and complete the moon landing. Let us move on.
    First and foremost, let us continue to focus on sound scientific 
facts surrounding the site designation, not the fear campaign being 
conducted in particular, on the subject of nuclear waste 
transportation. It ignores the excellent safety record of 
transportation of nuclear materials over the past 30 years. Each of 
those shipments, and all future shipments to Yucca Mountain, are and 
will be carefully planned and conducted under NRC, as well as other 
federal and State agency regulatory oversight. The public is largely 
unaware of that record, however, and is often predisposed to believe 
the worst about anything nuclear. The public may not realize, that 
despite claims of ``100,000 shipments through 43 States and many large 
cities over 40 years,'' DOE has yet to choose either the mode (truck or 
rail) of shipments or any of the routes. In the Final Environmental 
Impact Statement for Yucca Mountain, DOE states a ``preference for the 
mostly rail scenario,'' which would involve more like 11,000 shipments 
over 24 years. If the ``mostly truck'' alternative is more feasible, it 
would involve 53,300 shipments over the same period. We join others in 
urging that DOE consult with federal, State, tribal and local 
governments--as DOE has said it will--to coordinate these important 
decisions so that all will be prepared to ensure that the past safety 
record is sustained or exceeded. DOE is working today with the 
transuranic shipments to the Waste Isolation Pilot Plant (WIPP) in New 
Mexico and we believe that States and local governments, with the 
assistance to public safety officials provided for in Section 180 of 
the NWPA, can be prepared so that waste can be safely moved to Yucca 
Mountain.
    In Michigan, we have been preparing for the eventual shipment of 
spent nuclear fuel from the plant sites for a number of years, and we 
believe that this material can be safely shipped, beginning tomorrow, 
if the opportunity arose.
    The Secretary of Energy's Site Recommendation to the President is 
compelling. While NARUC did not join the flurry of press releases that 
were unleashed the day the report was out, because we chose to read the 
recommendation first, we did issue a release praising the 
recommendation and the President's acceptance of it the following 
Monday. The Secretary carefully examined the statutory and regulatory 
requirements and summarized the analyses, derived from a plethora of 
supporting technical documents. As a result of this exhaustive 
examination of the data, the Secretary presented the conclusion that 
the scientific basis exists to meet the requirements. Additionally, he 
developed and added the five ``compelling national interests'' that are 
found in the recommendation. It is often lost in the discussions of 
this subject, for example, that a geologic repository would still be 
needed for defense-related materials even if there never were nuclear 
power plants. Secretary Abraham is to be commended for the diligence 
with which he applied his own evaluation of the site qualifications and 
need, including addressing the arguments against recommending the site.
    We support the President's decision to accept the recommendation. 
He is aware of the likely criticism and expected reactions from those 
who either oppose anything to do with nuclear energy or the actions 
taken by Congress in 1987 to designate a single site to examine for 
suitability. In our opinion, President Bush has the sound science basis 
to support the decision he has made.
    I would like to return to what I mentioned at the outset of my 
remarks. NARUC and its members have a direct interest in the disposal 
of spent fuel from commercial power plants for two reasons:

1. Unless the government finds a way to dispose of spent nuclear fuel, 
        some nuclear plants may need to shut down if they are unable to 
        meet their license requirements to store used fuel in pool or 
        dry storage. That will have heavy financial, environmental or 
        energy supply consequences--probably all three. And it likely 
        rules out any utility being willing to invest in a new nuclear 
        plant.
2. Most importantly, we represent ratepayers in 41 States who have, in 
        good faith, paid over $19 billion into the Nuclear Waste Fund 
        (including interest) and have little to show for it. The $19 
        billion consists of $17 billion that has been paid by the 
        utilities into Federal Nuclear Waste Fund, and a little more 
        than $2 billion in debt to the Fund that some utilities have 
        elected to hold until a future date. Under any circumstances, 
        the utility ratepayers that are represented by NARUC's members 
        have paid the fees required to pay for this program. Worse, 
        they have also had to pay utilities that had to bear additional 
        on-site waste storage expenses when DOE missed the 1998 date to 
        begin removing the fuel. In my State of Michigan, ratepayers 
        have paid over $430 million into the Fund and I have to explain 
        to them that it will be at least another eight years before 
        they see any return on that investment. In fact, among the 
        States, we often ask, ``Why, after DOE failed to meet its 
        contracted 1998 deadline, are we still paying that fee?''
    Therefore, it is a matter of equity to those who are paying for 
this program that we move forward to the next step. Let the technical 
and legal experts of the Nuclear Regulatory Commission make the 
decision that really counts, whether to issue a construction license 
for the repository. That is the role the NWPA assigns to the 
independent Commission which bears the mission to protect the public 
health, safety, and the environment for all nuclear activities in this 
country, in a rigorous and adjudicative public process.
    The equity is pretty simple. When you make an obligation, you honor 
it or you face the consequences. Since the Nuclear Waste Policy Act set 
the policy that the disposal of the Nation's high-level radioactive 
waste must be the Federal Government's responsibility, the utilities 
can hardly switch to another removal agent. Similarly, the electric 
utility ratepayers or consumers have upheld their part of the deal. The 
money has been paid to the utilities to pay the Federal Government to 
pay for the program. Given the sound scientific basis for the Secretary 
and President's decisions to recommend the site, it is now time for the 
U.S. Congress to do the right thing, honor its commitment and move this 
program to the next step of the license application process.
    A final issue I would like to address is the so-called ``PECO 
Alternative.'' In his notice of disapproval for the repository, Nevada 
Governor Kenny Guinn asserts that there is a ``viable alternative to 
Yucca Mountain'' by which he refers to the example of a settlement 
agreement reached between PECO Energy and the Department of Energy 
(DOE) over expenses already incurred by PECO at its Peach Bottom 
Nuclear Plant. Those expenses have already been incurred and were due 
solely to DOE's failure to meet the NWPA mandate to begin accepting 
commercial spent nuclear fuel in 1998 and as contractually bound with 
PECO. Governor Guinn has misinterpreted the stopgap measure to recover 
costs of waste acceptance delay as a substitute for geologic disposal. 
In short the ``PECO Alternative'' is not an alternative at all.
    The Nuclear Waste Policy Act sets national policy for geologic 
disposal as the permanent solution for all high-level radioactive waste 
disposal. It does not allow for temporary on-site storage costs to be 
paid from the Nuclear Waste Fund, which is why several utilities are 
suing DOE over the Peach Bottom settlement. The settlement agreement 
basically allows the utility to forgo required payments to the Nuclear 
Waste Fund up until the amount agreed in the settlement. This has the 
effect of diverting NWF payments that are intended for permanent 
disposal to cover on-site storage costs that are due solely to the 
government's ongoing failure to begin waste acceptance. If all 
utilities were to enter into similar settlements, there would be no 
revenue flowing to the NWF and the repository could never be built. 
Moreover, for those plants already shut down there are no payments to 
credit against the storage costs.
    Leaving spent fuel at current commercial and government storage 
sites indefinitely is not the solution to the waste disposal problem 
that the NWPA contemplated, over twenty years ago, by geologic disposal 
at a suitable site. The PECO settlement does not provide for geologic 
disposal nor has the Peach Bottom site or any of the other 71 reactor 
locations been studied for suitability for indefinite storage. The 
Yucca Mountain Environmental Impact Statement did a comparison of 
leaving nuclear waste at 77 commercial and government sites for the 
same 10,000 year period of isolation from the human environment as the 
geologic repository and found that two variations of the ``No Action'' 
approach were either going to cost $5 trillion dollars or have 
intolerable human and environmental consequences, depending on what 
assumptions were made about regulatory compliance for the sites once 
the reactors reach the end of their productive operating lives. There 
is no need for Congress to ``explore'' the PECO approach: the 
Environmental Impact Statement has already done that and the financial 
or environmental consequences are simply unacceptable.
    In conclusion, NARUC has been frustrated in the past with all the 
delays, but we are encouraged that the President has recommended that 
the program move forward and we urge the Congress to enable that.
    Thank you for this opportunity to present our views. We would like 
to come back at a future point to lend our support to the goal that the 
Subcommittee tried to achieve through H.R. 4 last year, to reform the 
Nuclear Waste Fund so it is fully available for its intended purpose. 
Without such reform the repository may never be built, even if 
approved.

    Mr. Shimkus [presiding]. Thank you very much also.
    And now we'll recognize Mr. Joe Colvin from the Nuclear 
Energy Institute, President and CEO. Welcome. You have 5 
minutes for your statement and your full statement is in the 
record.

                   STATEMENT OF JOE F. COLVIN

    Mr. Colvin. Thank you, Mr. Chairman. And good afternoon. I 
had to change my good morning to good afternoon, but we're 
glad----
    Mr. Shimkus. It's pretty normal around here.
    Mr. Colvin. Pretty normal and we appreciate the opportunity 
to testify. As you may well recognize I represent the over 275 
companies that are involved in the nuclear energy industry both 
in the United States and internationally, including all the 
companies that operate our Nation's 103 nuclear power plants.
    With the Secretary's recommendation and the President's 
decision, we have really moved to an important milestone in our 
Nation that will now take after two decades or over two decades 
of scientific study, move this process from the decision of 
suitability into the licensing phase and toward ultimately 
solving our Nation's, one of our Nation's most oppressing 
environmental and energy security issues.
    I think the important point too that we have discussed 
today overall is that the science necessary to make the 
decision on suitability is complete. There's been some 
discussion about that. I think it's been interesting that the 
discussion from the Nuclear Waste Technical Review Board and 
Chairman Barton in that context and I don't intend to get into 
that per se, but the issue here is not, in my view, whether 
Congress has the role to determine whether the uncertainties, 
the technical uncertainties are sufficient for suitability or 
not, that is the decision that was made by the Department of 
Energy and in fact, by virtue of the Nuclear Waste Technical 
Review Board, they made in their statement, in fact, that at no 
point there is no individual technical or scientific factor 
that has been identified that would, in fact, prevent the site 
from moving forward from the standpoint of suitability.
    I think that's an important distinction we need to 
recognize and now it's up to Congress to take this, the next 
step and move us into the licensing phase where we will, in 
fact, finalize the design of the repository and try to 
eliminate the uncertainties that exist and move forward to 
these processes.
    I think as has been indicated, these are important issues 
from the standpoint of our energy security, national security 
and environment, but I need to recognize, Mr. Chairman, that 
electricity consumers in the United States in 1 out of 5 homes 
and businesses have paid for the government to, in fact, deal 
with this issue and to manage this. We have committed over $18 
billion with interest to the Federal Government to deal with 
this issue. They expect a solution and deserve a solution to 
this issue.
    Mr. Chairman, we fully support the efforts of the DOE and 
of the President to move forward on this issue. Thank you very 
much for the opportunity to testify today.
    [The prepared statement of Joe F. Colvin follows:]

  Prepared Statement of Joe F. Colvin, President and Chief Executive 
                   Officer, Nuclear Energy Institute

    Chairman Barton, ranking member Boucher and distinguished members 
of the subcommittee, I am Joe Colvin, president and chief executive 
officer of the Nuclear Energy Institute. I am pleased to have this 
opportunity to testify regarding the President's recommendation of the 
Yucca Mountain, Nev., site as our nation's repository for used fuel 
rods from commercial nuclear power plants and high-level radioactive 
waste from our country's defense programs.
    NEI coordinates public policy on issues affecting the nuclear 
energy industry, including the management of used nuclear fuel from 103 
commercial nuclear power plants that produce electricity for one of 
every five homes and businesses in the United States. The Institute 
represents nearly 275 companies, including every U.S. company licensed 
to operate a commercial nuclear reactor, industry suppliers, fuel 
fabrication facilities, architectural and engineering firms, organized 
labor, law firms, radiopharmaceutical companies, research laboratories, 
universities and international nuclear organizations.
    The nuclear energy industry strongly supports the decision by 
President George Bush that Yucca Mountain be further developed as a 
disposal facility to manage used nuclear fuel and other high-level 
radioactive waste.
    The industry appreciates this opportunity to provide its 
perspective on this important program. Building a specially designed 
repository at Yucca Mountain will begin the process of moving used 
nuclear fuel and high-level radioactive waste now stored at 131 
sites(including Department of Energy facilities, university reactors, 
defense sites and commercial nuclear plants(to one safe and secure 
facility under a remote Nevada desert ridge.
    Used fuel is safely stored at nuclear power plant sites, either in 
steel-lined, concrete vaults filled with water or in steel or steel-
reinforced concrete casks or bunkers with steel inner canisters. 
Although the Nuclear Regulatory Commission (NRC) determined that used 
fuel could be stored safely at plant sites for 100 years, scientific 
consensus supports disposal in a specially designed underground 
repository. The Nuclear Waste Policy Act of 1982 codified this 
longstanding federal policy, and the 1987 amendments to the law 
required the Energy Department to study Yucca Mountain solely as a 
specially designed underground repository.
    Nonetheless, more than four years ago, the federal government 
defaulted on its obligation--under the law and in contracts between 
utilities and DOE--to begin moving used fuel from the nation's nuclear 
power plants. Because of the government's default, electricity 
consumers still are paying for additional on-site storage over and 
above the $18 billion already committed to the federal repository 
program. DOE's delay in managing the federal nuclear fuel program has 
forced nuclear power companies to store more used fuel than expected 
for longer than originally intended. By the end of 2006, about 60 
reactors will run out of their original storage space, and by the end 
of 2010, 78 reactors will have exhausted their original storage 
capacity. Companies that have not added on-site storage capacity by 
those dates would have to do so at that point.
    As a result of the Energy Department's default on its January 31, 
1998, obligation to begin moving used nuclear fuel from nuclear power 
plants, electricity consumers will have to pay an additional $5 billion 
to $7 billion for used fuel management, assuming the repository is 
available in 2010(and much more if repository operation does not begin 
by 2010. Nuclear power plant owners are suing the federal government in 
the U.S. Federal Claims Court due to DOE's failure to meet the 1998 
obligation. The court has reaffirmed the federal government's 
obligation and the lead cases are in the damages phase. The Department 
of Energy must move forward with the Yucca Mountain project, under the 
current schedule, to meet its legal commitment to consumers to begin 
receiving used nuclear fuel at a federal disposal facility and to limit 
the federal liability for missing the 1998 deadline to a minimum.
    Nevada's April 8 notice of disapproval of the President's Yucca 
Mountain recommendation brings the federal government to the next step 
in the deliberative process established in the Nuclear Waste Policy 
Act. It is now up to the Congress to approve Yucca Mountain and advance 
the program from the study phase to the license application phase. The 
nuclear energy industry calls on Congress to fulfill its responsibility 
to advance the national interest and approve the site.
    Approval of a repository at Yucca Mountain is key for U.S. energy 
security, our national security, future growth of our economy and 
nuclear energy, and absolutely essential for environmental protection.

        SCIENTIFIC BASIS SUPPORTS YUCCA MOUNTAIN RECOMMENDATION

    Deep geologic disposal, like the proposed repository at Yucca 
Mountain, has been identified by the world's leading scientists as the 
best way to isolate radioactive byproducts while protecting public 
safety and the environment for thousands of years. Twenty years of 
world-class study by hundreds of expert scientists and engineers(36 
million hours in all(have produced an indisputable body of evidence 
supporting the designation of Yucca Mountain as a repository site.
    The scientific evaluation of Yucca Mountain is unmatched by any 
other comparable endeavor in the United States. Teams of the world's 
best scientists examined every aspect of the natural environment at 
Yucca Mountain--including collecting and examining more than 75,000 
feet of core rock and 18,000 geologic and water samples, mapping and 
modeling various features of the mountain, and conducting an array of 
scientific experiments in six and one-half miles of tunnels in an 
underground laboratory. One of those experiments is the largest known 
test in history to simulate heat effects of a repository on the rock at 
Yucca Mountain.
    Scientists have used this vast collection of data to develop 
computer simulations of the natural features, events and processes that 
exist at Yucca Mountain. They also have used these models to forecast 
how the facility will perform hundreds and thousands of years from 
today. In addition to the natural systems that would protect the public 
and the environment, a series of man-made safety features--including 
corrosion-resistant alloy containers that will hold the reactor fuel 
rods--will be incorporated in the repository design to further protect 
public safety and the environment. Numerous oversight groups have 
thoroughly reviewed the results of DOE's scientific studies, including 
the NRC, the Nuclear Waste Technical Review Board, the University of 
Nevada system, as well as international groups. These scientific 
studies also have been subject to extensive scientific peer review.
    In Secretary Abraham's recommendation to the President, he said: 
``The first consideration in my decision was whether the Yucca Mountain 
site will safeguard the health and safety of the people, in Nevada and 
across the country, and will be effective in containing at minimum risk 
the material it is designed to hold. Substantial evidence shows that it 
will.''
    A broad spectrum of experts, including the International Atomic 
Energy Agency and Lawrence Berkeley National Laboratory, agree that 
there is scientific information to support the President's 
recommendation of Yucca Mountain as a safe repository site.
    The Nuclear Waste Technical Review Board, a scientific advisory 
panel to the U.S. Congress, reported to Congress in a January 24 letter 
that research at Yucca Mountain indicates that ``no individual 
technical or scientific factor has been identified that would 
automatically eliminate Yucca Mountain from consideration as the site 
of a permanent repository.'' Although pointing out issues where further 
DOE attention should be focused, the NWTRB said that there is no reason 
that the Yucca Mountain program should not move forward. The 
outstanding issues identified by the NWTRB will be resolved during the 
DOE licensing process with the Nuclear Regulatory Commission. In fact, 
several of these issues already have been resolved to NRC's 
satisfaction.
    We urge Congress to join the scientific community and a far-
reaching group of bipartisan governors, state legislators and local 
officials across the nation who have endorsed the Yucca Mountain 
repository program.
    Despite the comprehensive record of science, some opponents of this 
project continue to call for additional study. Their claims are thinly 
veiled attempts to delay this important national facility. The 
President's recommendation is consistent with the National Academy of 
Sciences' conclusion in 1990 that a deep geologic repository is ``the 
best option for disposal of high-level radioactive waste.'' There is no 
need for additional study on the mode of disposal, or the Yucca 
Mountain site in particular, in advance of the site selection.

        SCIENTIFIC ANALYSIS CONTINUES DURING NRC LICENSING PHASE

    I want to clarify an important point regarding Yucca Mountain. The 
site approval process is a first, but necessary, step that starts the 
formal design and safety evaluation process for a repository at Yucca 
Mountain. Scientific evidence supports the approval of the Yucca 
Mountain site for an underground repository, where used nuclear fuel 
can be securely managed. After congressional approval of the 
President's decision, DOE will continue a multi-year scientific process 
through an extensive licensing review process and, if the license is 
approved, operation of the facility. The NRC, through its exacting 
licensing process, must ensure that the repository meets stringent 
regulatory requirements to protect public safety and the environment. 
This independent licensing review process will require the resolution 
of outstanding scientific issues identified in the siting process.
    No repository construction can proceed at Yucca Mountain without 
first being licensed by the NRC. If new scientific issues arise in the 
process of the licensing review or operation of the repository, they 
must be resolved or DOE cannot continue. The nuclear energy industry, 
as a stakeholder in the Yucca Mountain project, will participate in 
this program with safety as our foremost consideration--just as it is 
with operation of the nation's nuclear power plants.
    Although some 600 scientific and technical reports have been 
completed on Yucca Mountain over the course of the Reagan, Bush, 
Clinton and current administrations, scientific research will continue. 
This ensures that the best scientific insight will continue to be 
provided in combination with cutting edge engineering and the natural 
features of Yucca Mountain to protect public safety and the 
environment.
    The U.S. General Accounting Office issued a report last December 
reviewing the Yucca Mountain project. Instead of investigating the site 
using scientific reports assembled in the course of 20 years of study, 
the GAO relied extensively on conversations with DOE's contractor about 
the project schedule and budget. Remarks by this contractor regarding 
the licensing schedule for the repository have since been retracted.
    The GAO report stated that there are 293 technical items that DOE 
should resolve with the NRC before a site recommendation could be made. 
This reflects a fundamental lack of understanding by the GAO about the 
repository siting process. Neither the law nor the NRC licensing 
process requires that these items be resolved before a site 
recommendation can be made. Rather, regulations require that any 
scientific issues related to assuring protection of public health and 
safety be resolved during the NRC licensing process and DOE has plans 
to do so. This requirement has been satisfied.
    The NRC stated that it ``believes that sufficient ``analysis and 
waste form proposal information, although not available now, will be 
available at the time of a potential license application such that 
development of an acceptable license application is achievable.''

     ELECTRICITY CONSUMERS DESERVE RETURN ON $18 BILLION INVESTMENT

    Mr. Chairman, the time to move forward with licensing and building 
a repository has never been more appropriate. The Department of Energy 
has spent more than $7 billion on scientific and engineering studies 
that demonstrate that the site is suitable for disposal of used nuclear 
fuel and that the site is ready to proceed to the license phase. It is 
important to note that the Yucca Mountain project is funded largely by 
a tax on the millions of consumers who benefit from the use of nuclear 
energy. Last year, nuclear power plants generated a record 767 billion 
kilowatt-hours of electricity. The tax for the Yucca Mountain program 
collected by the U.S. Treasury totaled more than $728 million. Since 
1983, more than $18 billion, including interest, has been committed by 
consumers solely for DOE's used nuclear fuel management program.
    The federal Nuclear Waste Fund has a balance of more than $10 
billion because consumer payments into the fund have far exceeded 
appropriations by Congress for this important environmental program for 
decades. For example, consumers committed well over $500 million more 
for the Yucca Mountain program in 2001 than was spent on the project. 
The industry greatly appreciates the Energy and Commerce Committee's 
and this subcommittee's commitment to consumer fairness embodied in 
your efforts to take the Nuclear Waste Fund ``off budget'' in last 
year's energy policy legislation.
    Yet, delays in the repository program can no longer be tolerated. 
Although the federal government was to start accepting used nuclear 
fuel on January 31, 1998, no fuel has been moved to a federal fuel 
management facility, and DOE projects that no fuel will start moving 
until 2010 at the earliest.
    The Energy Department's delays have resulted in dual payments by 
electricity consumers for used nuclear fuel management(one to fund the 
Yucca Mountain project and a second to pay for additional temporary 
storage at nuclear plants because of DOE's default. Operation of a 
federal repository at Yucca Mountain would begin the process of 
removing used fuel rods from commercial nuclear power plants and the 
radioactive byproducts from the nation's defense facilities in 39 
states--where it was never intended to be stored for the long term. 
Electricity consumers deserve a solution to this issue that is based on 
sound science and that protects public safety and the environment.

                               CONCLUSION

    The federal government must continue on schedule with its program 
to site, license, and build a used nuclear fuel repository to provide 
the nation with continued energy security, environmental protection, 
economic growth and national security. Used nuclear fuel and 
radioactive defense waste is safely stored at nuclear power plants in 
39 states, but the federal government has a legal obligation to 
consolidate this material at a central location where it can be 
efficiently managed for the long term.
    A repository 1,000 feet below the surface of Yucca Mountain is the 
safest and most secure place for the permanent disposal of used nuclear 
fuel from commercial reactors and high-level radioactive byproducts 
from our U.S. defense programs. The vast scientific record supports the 
site designation, and domestic energy security, environmental 
protection and national security considerations should compel Congress 
to support the President's recommendation and provide the funding 
needed to proceed with licensing and construction of a specially 
designed repository at Yucca Mountain.
    There is broad support for congressional approval of the Yucca 
Mountain repository from a myriad of groups, including: African-
American Environmentalist Association; American Public Power 
Association; Council for Citizens Against Government Waste; Covering 
Your Assets Coalition; Edison Electric Institute; Frontiers of Freedom; 
Hispanic Business Roundtable; International Brotherhood of Electrical 
Workers; The Latino Coalition; National Association of Manufacturers; 
National Association of Neighborhoods; National Black Chamber of 
Commerce; Nuclear Energy Institute; 60 Plus Association, Inc.; The 
Seniors Coalition; United Seniors Association, Inc.; U.S. Chamber of 
Commerce; U.S. Hispanic Chamber of Commerce; and Utility Workers Union 
of America.
    In the press, editorial pages by a margin of 7 to 1 support the 
Yucca Mountain project, including: Albuquerque Journal; Chicago Sun-
Times; Chicago Tribune; Cleveland Plain Dealer; The (Allentown, Pa.) 
Morning Call; The New York Times; Tennessean; The Wall Street Journal; 
The Washington Times; and Wilmington (N.C.) Morning Star.
    In his letter forwarding the Yucca Mountain site recommendation to 
the President, Energy Secretary Abraham said, ``First, and most 
important, I have considered whether sound science supports the 
determination that the Yucca Mountain site is scientifically and 
technically suitable for the development of a repository. I am 
convinced that it does.''
    Mr. Chairman and distinguished members of this subcommittee, 
scientists and policymakers alike are convinced that the Yucca Mountain 
site is scientifically and technically suitable to be the nation's 
repository for used nuclear fuel from nuclear power plants and high-
level radioactive waste from Defense Department programs. It is 
imperative that Congress support continued timely progress toward 
development of a national repository at Yucca Mountain.
    A repository is imperative for our energy security, given that 
nuclear energy provides 20 percent of all U.S. electricity and is the 
largest emission-free source of electricity.
    A repository is imperative for our national security because about 
40 percent of our Navy's most essential vessels, such as aircraft 
carriers and submarines, are nuclear-powered ships.
    A repository is imperative for future growth of our economy and 
nuclear energy, which is the only large source of electricity that is 
readily expandable and does not produce greenhouse gasses or other 
harmful emissions.
    A repository is imperative for environmental protection, 
particularly at facilities in Colorado, Idaho, New Mexico, New York, 
South Carolina and Tennessee where defense waste is stored, and in 
Maine, Connecticut, Oregon, Illinois, California and other states where 
sites with decommissioned reactors cannot be returned to greenfield 
status without a repository to accept used fuel rods stored at those 
plants.
    And, a repository is imperative to promote U.S. non-proliferation 
objectives by providing a disposal facility for surplus weapons grade 
plutonium.
    Mr. Chairman, an editorial in the March 9 New York Times 
summarizes, I believe, the prevailing notion held by many regarding 
Yucca Mountain. The Times said, ``It is time to determine, once and for 
all, whether Yucca Mountain is a suitable disposal site, or whether the 
nation will need to look elsewhere--The Nuclear Regulatory Commission, 
the chief guardian of the public's health, has ruled that enough 
information will be available to support a licensing application. The 
reason to proceed now is that it will force all parties to come up with 
final answers to a problem that has been allowed to fester too long.''
    After 20 years of scientific and engineering study and billions of 
dollars from consumers used to fund this research, a large, 
indisputable body of research results supports the President's 
decision.
    Thank you

    Mr. Shimkus. Thank you and thank you for being clear and 
concise.
    We'd now like to recognize Mr. Dushaw of the Utility 
Department of the International Brotherhood of Electrical 
Workers. We appreciate your attendance and your full statement 
is in the record and you can begin.

                     STATEMENT OF JIM DUSHAW

    Mr. Dushaw. Well, thank you, Mr. Chairman. On behalf of our 
International President, Ed Hill and IBEW members, especially 
those who are working in the commercial nuclear power industry, 
thanks for the opportunity to present our views here on the 
Yucca Mountain repository. We've heard a lot about that today 
so I won't repeat, hopefully, some of the information you've 
already had.
    The IBEW is a labor union with approximately 780,000 
members including many workers at nuclear facilities. Of the 
70,000 union jobs within the nuclear industry the IBEW 
represents 15,000 full-time workers at 74 nuclear stations and 
thousands more IBEW members rotate through the nuclear plants 
with refueling outages and maintenance. The IBEW's history with 
the nuclear industry goes back to the test reactor at 
Shippingport, Pennsylvania, around the corner from Carnegie 
Mellon University, I might say.
    So we say without reservation that this is an industry with 
a proven record of exceptional safety and it's among the safest 
industrial work environments in the United States. The 
commercial nuclear industry is a source of high quality, safe, 
well paying jobs for tens of thousands of IBEW members and many 
others as well. Does it follow then as a set up that our union 
is biased in favor of sustaining nuclear power? Absolutely. But 
that's not the exclusive reason for our support for moving 
forward with the development of Yucca Mountain.
    IBEW members want common sense to be heard on this issue. 
We applaud President Bush's decision to move forward with the 
development of a spent fuel repository at Yucca Mountain and 
urge Congress to approve the President's decision over the 
State of Nevada's objection.
    We support the President's decision on several counts, most 
importantly, the IBEW has at least since the late 1970's had 
consecutive resolutions at our international conventions that 
went to expediting the establishment of a Federal repository 
for nuclear waste and accountability of the Federal Government 
for it's responsibilities.
    We engage in energy policy issues often and we do so from 
many perspectives. The development of public policy with 
respect to energy, environmental protections and the well-being 
of the Nation now and in the future is of great concern to the 
IBEW. Our Union's view is that there's a compelling need for 
the Nation to develop in a thoughtful, accelerated and safe 
fashion all domestic energy resources including nuclear in 
order to fuel economic growth, provide jobs for a growing 
population, protect our environment and ensure energy and 
security.
    For all these reasons the Nation can now ill afford 
indecisive outcomes on vital energy issues in such threatening 
times that have come upon us. We are satisfied, of course, to 
leave the technical discussion of Yucca Mountain of which it's 
overflowing to the experts as we heard in the earlier panel.
    The IBEW has confidence that the President of the United 
States has made a fully informed decision on the scientific 
merits of approving the Energy Secretary's recommendation of 
Yucca Mountain. We believe that in the range of alternative 
solutions, none compare well with the Yucca Mountain plan which 
intends to place fuel and nuclear waste with the potential for 
any harm and any access to it is tightly controlled.
    Well, if plants start closing down due to a lack of spent 
fuel storage place, jobs will disappear, consumers for no 
compelling reason will lose the real contender for low cost 
electricity in this newly competitive electric supply industry. 
It is clear the Nation needs to have a place to put the used 
nuclear fuel to ensure continued operation of our nuclear power 
plants.
    Of course, we know how much money has been spent and how 
long this has been studied. We need not repeat that. It clearly 
makes sense that used nuclear fuel should be stored at one 
centralized storage facility. Fuel is currently stored at more 
than 130, remember that, 130 long-term storage facilities in 39 
States. As we heard earlier, there is no show stopper with 
respect to the DOE recommendation.
    Mr. Chairman, I'd like to skip on and say yesterday I 
received a letter or became aware of a letter from our local 
union, IBEW Local Union 357 in Las Vegas, Nevada. I would like 
to read the punch line on that letter, skipping through the 
testimony. It's new, but we presented a copy of this to 
committee staff this morning and it will be sent to all 
Representatives and Senators.
    From Local 357 in Las Vegas this is ``no one wants a waste 
site, but everyone expects electricity. No one wants a chlorine 
plant next door, but everyone wants safe drinking water. No one 
wants a tank farm nearby, but we all drive cars. Today, we will 
light our homes, sip water and drive the kids to soccer games 
in well placed confidence. However, none of this would be 
possible without the basic infrastructure that supports our 
society. Nuclear power at Yucca Mountain are important parts of 
this continuum which we simply must depend on. Speaking as 
electricians, Nevadans and Americans, we believe that an 
aggressively managed repository at Yucca Mountain can make a 
meaningful and safe contribution to our country.''
    Many of our members just aren't saying this, they're living 
it because they work there.
    Mr. Chairman, the IBEW submits that this issue is a 
challenge to the Nation's will and determination to preserve 
and further develop all safe energy options. Thank you.
    [The prepared statement of James L. Dushaw follows:]

 Prepared Statement of James L. Dushaw, Director, Utility Department, 
      International Brotherhood of Electrical Workers<SUP>'</SUP>

    My name is Jim Dushaw and I am the Utility Department Director for 
the International Brotherhood of Electrical Workers, the IBEW.
    Mr. Chairman, on behalf of IBEW President Ed Hill, and IBEW 
members, especially worker members who are associated with the 
commercial nuclear power industry, thank you for the opportunity to 
present our views on the Yucca Mountain nuclear waste repository issue.
    The IBEW is a labor union with approximately 780,000 members, 
including many workers at nuclear facilities. Of the 70,000 union jobs 
within the nuclear industry, the IBEW represents 15,000 full-time 
workers at 74 nuclear stations. Thousands more IBEW members rotate 
through the plants with the contractor work force as needed for 
maintenance and refueling outages. With a history of work in the 
commercial nuclear industry dating back to the 1950s, and the test 
reactor at Shippingport, Pennsylvania, IBEW nuclear workers can say 
without reservation that this is an industry with a proven record of 
exceptional safety. It is among the safest industrial work environments 
in the United States.
    The commercial nuclear industry is a source of high quality, safe, 
well-paying jobs for tens of thousands of IBEW members and many others 
as well. Does it follow then that our union is biased in favor of 
sustaining nuclear power? Yes, but that is not the exclusive reason for 
the IBEW's support for moving forward with development at Yucca 
Mountain.
    I am not an engineer, physicist, geologist, nor do I profess to 
have any special technical knowledge relevant to the Yucca Mountain 
issue. However, IBEW members want common sense to be heard on this 
issue. We applaud the President's decision to move forward with 
development of a spent fuel repository at Yucca Mountain, and urge 
Congress to approve the President's decision over the state of Nevada's 
objection.
    We support the President's decision on several counts; most 
importantly, the IBEW has, at least since the late 1970s, adopted 
formal resolutions during several consecutive IBEW International 
Conventions, the union's highest governing body, that deal particularly 
with the need for ``expediting'' the establishment of a federal 
repository for nuclear waste. A similar resolution was passed without 
exception by delegates to the 36th IBEW International Convention 
September 12, 2001.
    Mr. Chairman, the IBEW is by name and fact an organization 
associated with the energy industry. We are also consumers, 
environmentalists and working folks. We engage in energy policy issues 
often, and we do so from many perspectives. The development of public 
policy with respect to energy, environmental protections, and the well-
being of the nation now and for the future, is of great concern for 
IBEW members.
    The IBEW view is that there is a compelling need for the nation to 
develop in a thoughtful, but accelerated and safe fashion, all domestic 
energy resources, including nuclear, in order to fuel economic growth, 
provide jobs for a growing population, protect our environment, assure 
energy and, therefore, economic security. For all of these reasons, the 
nation can ill afford indecisive outcomes on vital energy issues in 
such threatening times as have come upon us.
    We are satisfied to leave the technical discussion, of which the 
Yucca Mountain debate is overflowing, to the qualified experts. The 
IBEW has confidence that the President of the United States has made a 
fully informed decision on the scientific merits in approving the 
Energy Secretary's recommendation of Yucca Mountain as a permanent 
nuclear waste storage site. We believe that in the range of alternative 
solutions, none compare well with the Yucca Mountain plan, which 
intends to place spent fuel and nuclear waste where the potential for 
any harm and any access is tightly controlled and monitored.
    If plants start closing down due to a lack of spent fuel storage 
space, jobs will disappear, and consumers, for no compelling reason, 
lose a real contender for low-cost electricity in the newly competitive 
electric supply industry. If even one plant is forced to shut down 
because of a lack of spent fuel storage space, hundreds, possibly 
thousands, of jobs will be irretrievably lost. Forcing higher than 
necessary costs on plant operation with on-site storage makes no sense, 
as consumers suffer the consequences.
    It is clear the nation needs to have a place to put the used 
nuclear fuel to ensure continued operation of our nuclear power plants. 
Scientists have been studying Yucca Mountain for more than a decade. 
This mountain is the most extensively defined piece of property in the 
world. DOE's viability assessment shows that based upon the scientific 
studies of Yucca Mountain, there are no ``showstoppers'' to continuing 
development of this urgently needed facility. We are now twelve years 
behind the goal Congress set forth in the Nuclear Waste Policy Act.
    It clearly makes sense that used nuclear fuel should be stored at 
one centralized storage facility. Fuel is currently stored at more than 
130 long-term storage facilities in 39 states. According to the DOE 
Environmental Impact Statement of 1999, there is significantly more 
protection for the American public and the environment if we have one 
central federal repository. We should not pass this problem onto our 
children and grandchildren, especially since science has proven that we 
can safely transport and store the fuel at Yucca Mountain.
    It is a fact that the spent nuclear fuel can be transported safely. 
Our existing laws and regulations provide for the safe loading, 
packaging, transportation and unloading of all kinds of nuclear 
materials today. There is no reason to believe that the continued 
transportation of radioactive materials will be any less safe. Union 
workers are justifiably proud of their safety record in transporting 
radioactive cargo--both by rail and by truck.
    The federal government has a legal obligation to manage and dispose 
of the used fuel created by the nation's electric utilities. For twenty 
years, consumers of electricity, including union workers, have paid 
more than $17 billion into a federal trust fund to pay for the disposal 
of used nuclear fuel. Only about six billion of these dollars have been 
spent on the Yucca Mountain project. Congress should move expeditiously 
to see that the federal government lives up to its lawful 
responsibility and begins managing the used nuclear fuel as promised.
    Science shows that Yucca Mountain is a suitable repository for the 
used nuclear fuel. In addition, we have proven that we can transport 
radioactive cargos without harming American citizens or the 
environment. It just makes sense that we continue forward with Yucca 
Mountain as the repository for our nation's used nuclear fuel. There's 
much more than jobs at stake here. The IBEW submits that this issue is 
a challenge to the nation's will and determination to preserve and 
further develop all safe energy options.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T9469.115
    
    Mr. Shimkus. Thank you and I ask unanimous consent that 
that letter be included into the statement and I will turn to 
the chairman of the subcommittee.
    I will state that Ms. Claybrook is not in attendance yet, 
but she's already submitted her full statement for the record 
and then I'll turn to the chairman of the full committee.
    [The prepared statement of Joan Claybrook follows:]
    Prepared Statement of Joan Claybrook, President, Public Citizen
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify on the president's February 14th recommendation 
that a nuclear waste repository be developed at Yucca Mountain, Nevada. 
I am President of Public Citizen, a national non-profit public interest 
organization with 150,000 members nationwide. Public Citizen works to 
protect citizens and the environment from the dangers posed by nuclear 
power and advocates for safe, affordable, and sustainable energy 
policies.
    In the coming months, Congress will face an unprecedented decision 
about whether to support or override the Governor of Nevada's Notice of 
Disapproval to prevent establishing a Yucca Mountain repository for 
70,000 metric tons of high-level radioactive waste from commercial 
nuclear power plants and Department of Energy (DOE) weapons activities.
    Public Citizen urges the Committee to decisively reject Energy 
Secretary Spencer Abraham's unscientific site recommendation, support 
the Notice of Disapproval and stop the Yucca Mountain Project, in order 
to protect public health and safety. The DOE has a long record of 
investing in wasteful ventures and white elephants at a cost of tens of 
billions of dollars to the U.S. taxpayer. No private business could 
survive operating with such a string of misjudgments and failures. It 
is time for the Congress to insert a dose of reality and pull the plug 
on the hazardous Yucca Mountain venture. Just look at the DOE's 
mishandling of military nuclear waste projects, some of which were 
highlighted by 60 Minutes on Sunday, March 17, 2002 (transcript 
attached). Yucca Mountain is poised to become another contaminated DOE 
site if the repository proposal moves forward.

                         THE SITE IS UNSUITABLE

    After fifteen years of site characterization studies at a cost 
exceeding $5 billion, DOE scientists have been unable to demonstrate 
that a repository at Yucca Mountain could effectively isolate high-
level nuclear waste throughout the quarter million years it remains 
dangerously radioactive. Having originally instructed the DOE to assess 
the suitability of the site for a geologic repository, Congress should 
now consider this question answered in the negative, and terminate 
repository activities at Yucca Mountain.
    The geology of the site is ill-suited to the task of containment. 
Yucca Mountain is a ridge of porous volcanic tuff, highly fractured as 
a result of seismic activity. Thirty-three earthquake faults are known 
to exist within and adjacent to the Yucca Mountain site, with 
additional fault lines expected to develop over time. The proposed 
repository would lie about 1,000 feet above a freshwater aquifer, which 
currently provides the only source of drinking water for area residents 
in Amargosa Valley, Nevada, and parts of Inyo County, California. If 
radioactivity from the proposed repository reaches the aquifer below, 
it not only will contaminate this important source of drinking water, 
which is in short supply, but also will provide a pathway for 
potentially dangerous levels of radioactivity to reach the accessible 
environment.
    Although the climate at Yucca Mountain is generally dry, evidence 
points to relatively rapid movement of water through the rock. Elevated 
levels of the tracer isotope Chlorine-36 found in the DOE's test tunnel 
at Yucca Mountain indicate that water traveled from surface- to 
repository-level (about 1,000 feet) in 50 years or faster. The original 
siting guidelines (10 CFR 960) would have disqualified the Yucca 
Mountain site on the basis of water flow time alone.
    To prevent the site from being disqualified, the government changed 
the rules. The DOE inappropriately rewrote the repository siting 
guidelines in November 2001 to accommodate the deficiencies in the 
Yucca Mountain site. The revised guidelines (10 CFR 963) are a 
dangerous departure from the concept of geologic containment and offer 
an inadequate basis for site recommendation. The new performance-based 
siting guidelines permit a reliance on ``engineered barriers'' in an 
attempt to mask the many problems that should disqualify the Yucca 
Mountain site. DOE's repository design proposals rely more than 99% on 
engineered barriers for containment. The geology of Yucca Mountain 
contributes less than 1%.<SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Nevada Nuclear Waste Project Office analysis of DOE 
presentation to Nuclear Waste Technical Review Board, 1/25/99.
---------------------------------------------------------------------------
    Given the difficulties in accurately predicting, on the basis of 
very limited experience, the performance of engineered barriers over 
tens of thousands of years, coupled with the inadequacies of the 
``natural barriers'' at Yucca Mountain, it is only a question of when--
not if--the proposed repository's isolation systems would fail.
    High-level nuclear waste is intensely radioactive and very long-
lived. It is one of the most hazardous substances ever created. The 
waste's dangerous radioactivity will outlast any engineered barriers 
employed at Yucca Mountain. The Environmental Protection Agency's (EPA) 
site-specific radiation protection standards for Yucca Mountain (40 CFR 
197) arbitrarily established a 10,000-year limit on containment 
requirements at the repository, which has been subsequently adopted by 
the DOE in its siting guidelines and the Nuclear Regulatory Commission 
(NRC) in its Yucca Mountain licensing rule.
    Yet high-level nuclear waste will remain dangerously radioactive 
for much longer. For example, Plutonium-239, which accounts for 
approximately 1-4% of high-level nuclear waste by weight, has a half-
life of 24,400 years and remains dangerously radioactive for close to a 
quarter-million years. If DOE's optimistic predictions are correct and 
the underground nuclear waste storage containers at Yucca Mountain do 
not begin failing from corrosion for 40,000 years, peak radiation dose 
rates from the proposed repository are expected 100,000-200,000 years 
into the future--outside EPA's inadequate regulatory timeframe.
    The EPA's radiation standards (40 CFR 197) also establish a lower 
level of environmental protection for Yucca Mountain than the generic 
rule applicable elsewhere, by expanding the unregulated zone to 18 
kilometers from the repository boundary. This site-specific rule allows 
the DOE to rely on dilution and dispersion in groundwater, rather than 
containment of radioactivity, and as such sets an inadequate benchmark 
for performance assessment evaluations. Public Citizen, together with 
the Natural Resources Defense Council and other environmental and 
public interest organizations, filed a lawsuit last June challenging 
these aspects of the EPA rule.
    But even projections of the proposed repository's compliance with 
this inadequate standard are inconclusive. The Nuclear Waste Technical 
Review Board <SUP>2</SUP> advised Congress on January 24, 2002, that 
``the technical basis for the DOE's repository performance estimates is 
weak to moderate.'' Also, a December 2001 report by the General 
Accounting Office highlighted 293 unresolved technical issues, 
identified by the Nuclear Regulatory Commission, that require further 
study and analysis.<SUP>3</SUP> As the GAO report suggests, Secretary 
Abraham's site recommendation is premature at best.
---------------------------------------------------------------------------
    \2\ The presidential-appointed Nuclear Waste Technical Review Board 
is an independent agency of the U.S. Government. The Board provides 
independent scientific and technical oversight of the civilian high-
level radioactive waste management program.
    \3\ Nuclear Waste: Technical, Cost and Schedule Uncertainties of 
the Yucca Mountain Project (December 2001).
---------------------------------------------------------------------------
     THE RISKS OF NUCLEAR WASTE TRANSPORTATION CANNOT BE JUSTIFIED

    Intrinsic to any assessment of Yucca Mountain's suitability as a 
national nuclear waste repository is the feasibility of transporting 
waste to the site. Yet the DOE has consistently downplayed the 
transportation impacts of the Yucca Mountain proposal. Secretary 
Abraham's site recommendation does not detail a specific plan for 
transporting waste from the 77 nuclear power plants and DOE weapons 
sites across the country where it's currently stored to Nevada. Basic 
decisions about the mode of transportation (truck, train, or barge) and 
routes have not yet been made.
    The maps of potential Yucca Mountain transport routes, included in 
the project's final Environmental Impact Statement, indicate that tens 
of thousands of high-level radioactive waste shipments would likely 
pass through 44 states and the District of Columbia en route to Yucca 
Mountain. Recognizing the explosive nature of route designations, the 
DOE refuses to announce a specific proposal for transporting nuclear 
waste until after Yucca Mountain is licensed. But based on the 
Environmental Impact Statement, I have attached a list of members of 
this committee through whose districts high-level nuclear waste likely 
will be transported in route to Yucca Mountain We urge the full 
committee not to vote on the Yucca Mountain Project until DOE reveals 
precisely which routes would be used for nuclear waste transportation.
    Transporting nuclear waste is inherently dangerous because it 
increases the likelihood of radioactive release and introduces this 
risk to densely populated areas where the emergency response/public 
health infrastructure may lack the capacity to respond effectively to a 
nuclear emergency. The Department of Transportation (DOT) recorded 
453,000 crashes involving large trucks in 1999, the most recent year 
for which statistics are available, including 8,857 hazardous materials 
shipments.<SUP>4</SUP> Over the same period, the Federal Railroad 
Administration reported 2,768 train crashes.<SUP>5</SUP> According to 
RailWatch analysis of accident reports, a train carrying hazardous 
materials in the U.S. runs off the tracks, spills some of its load, and 
forces an evacuation about once every two weeks.<SUP>6</SUP>
---------------------------------------------------------------------------
    \4\ Large Truck Crash Facts, 1999, Analysis Division, Federal Motor 
Carrier Safety Administration, U.S. Department of Transportation (April 
2001).
    \5\ Federal Railroad Administration Office of Safety, http://
safetydata.fra.dot.gov/officeofsafety/, viewed 3/16/02.
    \6\ Why Is There a Train Accident Every 90 Minutes? RailWatch 
(revised March 1999).
---------------------------------------------------------------------------
    Since the dawn of the Nuclear Age, approximately 3,000 shipments of 
high-level nuclear waste have traveled on U.S. roads and rails. This 
number would be exceeded within the first two years of shipments to the 
proposed Yucca Mountain repository. While the nuclear industry 
frequently refers to an accident-free shipping history, a 1996 analysis 
of DOE accident reports <SUP>7</SUP> documents 72 ``incidents'' since 
1949 involving nuclear waste shipments, including four involving 
``accidental radioactive material contamination beyond the vehicle,'' 
four with radiation contamination confined to the vehicle, 49 of 
accidental container surface contamination, 13 traffic accidents with 
no release or contamination, and 2 incidents with no description. 
Extrapolating on the basis of this past history and considering, 
statistically, general traffic crash rates along probable nuclear waste 
transportation routes, crashes involving Yucca Mountain shipments are 
certain to occur if the repository program moves forward.
---------------------------------------------------------------------------
    \7\ Reported Incidents Involving Spent Nuclear Fuel Shipments, 1949 
to Present, Nevada Nuclear Waste Project Office (1996).
---------------------------------------------------------------------------
    Given the statistical certainty of crashes involving Yucca Mountain 
nuclear waste shipments, the DOE and nuclear industry safety assurances 
rest upon the robustness of shipping containers, or ``casks,'' and 
their ability to contain radioactivity even in the event of a crash. 
However, we are concerned that in the event of a severe crash, casks 
may not perform as expected. DOE accident analyses fail to consider the 
statistical likelihood of manufacturing and human error and its impact 
on cask performance. Also, NRC license requirements for high-level 
radioactive waste transport casks rely on computer modeling. Amazingly, 
currently licensed casks have never had full-scale, dynamic tests. 
Limited dynamic tests in the 1970s were performed on now-obsolete casks 
and have not been repeated. In those tests, cask valves and shielding 
failed during extended fire tests.
    Furthermore, the NRC's performance requirements for nuclear waste 
casks (10 CFR 71.73), established in the 1970s, are outdated and 
dangerously underestimate the conditions of today's worst-case accident 
scenario:

<bullet> The drop test requires casks to withstand a fall from 30 feet 
        onto an unyielding surface, which simulates a crash at 30 miles 
        per hour. Yet no regulations are in place to limit to 30 mph 
        the speed at which nuclear waste shipments can travel. This 
        test condition could easily be exceeded, if, for instance, a 
        cask traveling at regular highway speeds (now 65-75 miles per 
        hour) crashed into oncoming traffic or a virtually unyielding 
        structure such as a bridge abutment.
<bullet> The burn test requires casks to withstand an engulfing fire at 
        1475 degrees Fahrenheit for 30 minutes. Other materials 
        routinely transported on our roads and rails could spark a 
        hotter fire (diesel burns at 1850 degrees) and could 
        potentially burn for longer than half an hour. Last summer's 
        fire in Baltimore's Howard Street train tunnel--which the DOE 
        has identified as a potential Yucca Mountain shipment route--
        burned for more than 3 days and likely reached temperatures of 
        at least 1500 degrees. If a nuclear waste cask had been on the 
        train involved in that accident, its containment would have 
        been breached, exposing 345,493 people in the area to radiation 
        and costing at least $13.7 billion dollars to clean 
        up.<SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Radiological Consequences Of Severe Rail Accident Involving 
Spent Nuclear Fuel Shipments To Yucca Mountain: Hypothetical Baltimore 
Rail Tunnel Fire Involving SNF, Radioactive Waste Management Associates 
(September 2001).
---------------------------------------------------------------------------
<bullet> The puncture test requires casks to withstand a free-fall from 
        40 inches onto an 8 inch-long spike. A train derailment or a 
        truck crash on a bridge could result in a fall from much higher 
        than 40 inches and potentially result in puncture damage to the 
        cask's shielding.
<bullet> The same cask is required to withstand submersion in 3 feet of 
        water, and a separate test requires an undamaged cask to 
        withstand submersion in 200 meters of water (656 feet) for 1 
        hour. If a crash involving a nuclear waste shipment occurred on 
        a bridge or barge, a damaged cask could be submerged in depths 
        greater than 3 feet. Furthermore, given the weight of nuclear 
        waste transport casks, it is not reasonable to assume that a 
        submerged cask could be rescued within one hour. Licensed truck 
        casks weigh 24-27 tons, loaded, and train casks can weigh up to 
        125 tons, loaded. In the case of a barge transport accident, if 
        a crane capable of lifting such a massive load out of the ocean 
        were not immediately available, water pressure over longer 
        periods could result in cask failure and radiation release.
    The prospect of transporting high-level nuclear waste across the 
country through major population centers also poses a security risk, 
particularly in the current context of heightened national security 
concerns. Immediately following the September 11th terrorist attacks, 
at least 10 people were arrested on charges of possessing fraudulent 
permits for transporting radioactive and hazardous materials.
    Regulatory requirements are also inadequate to protect against the 
risk of terrorist attacks. Although the Nuclear Regulatory Commission 
does not require transportation casks to be tested against this 
vulnerability, tests and studies have demonstrated that an anti-tank 
weapon could easily penetrate a nuclear waste transportation cask and 
result in a potentially catastrophic release of radiation. In a 1998 
demonstration at Aberdeen Proving Ground, a TOW anti-tank missile shot 
at a Castor V-21 storage cask blew a hole through the wall of the cask. 
Analysis by the state of Nevada indicates that a successful terrorist 
attack on a GA-4 truck cask using a common military demolition device 
could cause 300 to 1,800 latent cancer fatalities, assuming 90% 
penetration by a single blast. Full perforation of the cask, likely to 
occur in an attack involving a state-of-the art anti-tank weapon such 
as the TOW missile, could cause 3,000 to 18,000 latent cancer 
fatalities. Cleanup and recovery costs would exceed $17 
billion.<SUP>9</SUP>
---------------------------------------------------------------------------
    \9\ ``Potential Consequences of a Successful Sabotage Attack on a 
Spent Fuel Shipping Container: An Analysis of the Yucca Mountain EIS 
Treatment of Sabotage,'' Radioactive Waste Managemet Associates, April 
2002.
---------------------------------------------------------------------------
    Yet just last month, on March 11, 2002, CIA national intelligence 
officer Robert Walpole told the Senate Government Affairs Committee 
that while the chance that a missile with a nuclear, chemical, or 
biological warhead will be used against U.S. forces or interests is 
greater today than during most of the Cold War, the agency's analysts 
believe there is an even greater threat that such a weapon will be 
delivered by truck, ship or airplane ``because non-missile delivery 
means are less costly, easier to acquire, more reliable and 
accurate''.<SUP>10</SUP>
---------------------------------------------------------------------------
    \10\ The Boston Globe March 12, 2002 and The Milwaukee Journal 
Sentinel March 12, 2002 quoting the Associated Press.
---------------------------------------------------------------------------
    On September 11, 2001, and again in October when U.S. forces 
entered Afghanistan, Secretary Abraham suspended all nuclear shipments 
because of the security risks they pose. Yet his Yucca Mountain site 
recommendation, issued only 5 months later, failed to acknowledge or 
address this security concern in relation to the tens of thousands of 
nuclear shipments that would be launched by the Yucca Mountain Project.
    The unintentional and non-accident risk of nuclear waste 
transportation is also a concern. NRC regulations allow nuclear waste 
shipping casks to emit 10 millirem of radiation--the equivalent of a 
chest X-ray--per hour from a distance of 6.5 feet. The cumulative 
impact of routine radiation exposure from Yucca Mountain nuclear waste 
shipments on other motorists (maximized in gridlock traffic scenarios) 
and people who live or work along transport routes has not been 
adequately examined.
    The multiple risks associated with transporting large volumes of 
nuclear waste over long distances to an unsuitably sited repository in 
Nevada simply cannot be justified. Since a repository at Yucca Mountain 
necessarily involves an unprecedented program of nuclear 
transportation, we urge the Committee to fully consider the impact of 
the many transportation dangers in its evaluation of the Yucca Mountain 
Site Recommendation.

            THE INTEGRITY OF THE PROCESS HAS BEEN UNDERMINED

    The dramatically flawed process railroading the Yucca Mountain 
Project toward approval undermines the credibility of Secretary 
Abraham's site recommendation. The downgrading of environmental 
regulations (EPA's more lenient site-specific radiation protection 
standards and DOE's revised siting guidelines that prevent Yucca 
Mountain from being disqualified) has set a dangerous precedent of 
sacrificing public health and environmental safety to nuclear industry 
interests. And yet even these underhanded decisions cannot mask the 
fact that this site is not suitable, as the GAO, IG, and Nuclear Waste 
Technical Review Board have made clear.
    A Public Citizen report released April 1, 2002, indicates that 
nuclear industry interests may have directly biased Secretary Abraham's 
site recommendation. The report is attached. According to our research, 
the nuclear industry contributed $82,728 to Secretary Abraham's failed 
bid for re-election during the 2000 election cycle, and in 2000 alone, 
top nuclear contributors to his campaign spent more than $25 million--
nearly half a million dollars each week--on lobbying efforts that 
included support for the repository proposal. Public Citizen, in 
January 2002, requested that Secretary Abraham recuse himself from 
Yucca Mountain site recommendation activities, based on the precedent 
of Attorney General John Ashcroft recusing himself from the Justice 
Department's Enron investigations because the failed energy trading 
company had contributed $75,000 to his election campaign. Our letter to 
Secretary Abraham is attached. We have received a legalistic response 
that doesn't deal with the issue of the appearance of impropriety.
    As another indication of pro-industry bias in the Yucca Mountain 
Project, a November 2001 report by the DOE Inspector General disclosed 
that the law firm Winston & Strawn was simultaneously employed as 
counsel to the DOE, working on the Yucca Mountain Project, and 
registered as a member of and lobbyist for the Nuclear Energy Institute 
between 1992 and 2001. The executive summary of this report is 
attached. The DOE, as a federal agency, is supposed to be objective and 
unbiased in its evaluations of the repository proposal and to uphold 
the same standards of integrity for its contractors. Yet it hired a 
member of the Nuclear Energy Institute, the lobbying arm of the nuclear 
industry that specifically advocates in favor of the proposed nuclear 
waste repository at Yucca Mountain, which would serve the narrow 
financial interests of its nuclear industry members. The involvement of 
Winston & Strawn lawyers in both shaping the DOE's Yucca Mountain 
activities and advising and lobbying on behalf of the Nuclear Energy 
Institute on nuclear waste legislation undermines the integrity of the 
recent site recommendation. After this conflict was publicly disclosed, 
Winston & Strawn resigned from the Yucca Mountain Project. But even in 
the wake of this scandal, but the firm's work was not withdrawn.
    The same Inspector General report notes that TRW, Inc., hired by 
the DOE as the managing and operations contractor for the Yucca 
Mountain Project until February 2001, was simultaneously engaged in 
lobbying activities on nuclear waste storage issues. TRW was 
additionally implicated in December 2000 as the author of a memo 
attached to a leaked overview of the DOE Yucca Mountain Site 
Recommendation Considerations Report (later released as the Preliminary 
Site Suitability Evaluation and the Science and Engineering Report). 
The memo indicated that the overview was intended to help supporters of 
the Yucca Mountain Project express their support for a favorable site 
recommendation and that ``the technical suitability of the site is less 
of a concern to Congress than the broader issue of whether the nuclear 
waste problem can be solved at an affordable price in both financial 
and political terms.''
    Clearly, the DOE has failed to exercise necessary and proper 
oversight of its contractors, resulting in an obvious pro-industry bias 
in the agency's site characterization and site recommendation 
activities. In January, Public Citizen joined 232 public interest and 
environmental groups calling on Congress to suspend consideration of 
the Yucca Mountain Project pending a thorough review of the causes and 
consequences of contractor conflict of interest in the DOE's site 
characterization and site recommendation activities. This letter is 
attached. The public cannot--and lawmakers ought not--have confidence 
in Secretary Abraham's site recommendation, which has arisen out of 
such a conflicted and compromised process.

                               CONCLUSION

    The 1957 National Research Council report, commissioned by the 
Atomic Energy Commission and which marked the beginning of this 
government's continuing process to identify ``disposal'' options for 
high-level nuclear waste, stated in its summary, ``Unlike the disposal 
of any other type of waste, the hazard related to radioactive waste is 
so great that no element of doubt should be allowed to exist regarding 
safety.'' <SUP>11</SUP> Numerous unresolved technical, environmental, 
and policy issues plague the Yucca Mountain Project. To approve the 
repository proposal would directly threaten the health and safety of 
current and future residents of Nevada and more than 50 million people 
who live along likely nuclear waste transportation routes. Furthermore, 
the failed Yucca Mountain Project serves as a distraction from the 
serious policy examination and scientific study that is needed to more 
appropriately address the increasingly urgent issue of high-level 
nuclear waste management.
---------------------------------------------------------------------------
    \11\ 8. The Disposal of Radioactive Waste on Land, National 
Research Council (1957).
---------------------------------------------------------------------------
    We recommend that:

<bullet> the Committee uphold Nevada's anticipated Notice of 
        Disapproval of the Yucca Mountain Project and reject any siting 
        approval resolution;
<bullet> the Committee hold additional hearings in all major cities 
        along nuclear waste transportation routes identified in the 
        final Environmental Impact Statement for the Yucca Mountain 
        Project to give the public a voice in this decision;
<bullet> Congress and its Committees maintain vigorous legislative 
        oversight of the nuclear waste transportation program that 
        accompanies any repository proposal; and
<bullet> Congress initiate a complete review of the civilian nuclear 
        waste management program.

        [GRAPHIC] [TIFF OMITTED] T9469.116
        
        [GRAPHIC] [TIFF OMITTED] T9469.117
        
        [GRAPHIC] [TIFF OMITTED] T9469.118
        
        [GRAPHIC] [TIFF OMITTED] T9469.119
        
        [GRAPHIC] [TIFF OMITTED] T9469.120
        
        [GRAPHIC] [TIFF OMITTED] T9469.121
        
        [GRAPHIC] [TIFF OMITTED] T9469.122
        
        [GRAPHIC] [TIFF OMITTED] T9469.123
        
        [GRAPHIC] [TIFF OMITTED] T9469.124
        
        [GRAPHIC] [TIFF OMITTED] T9469.125
        
        [GRAPHIC] [TIFF OMITTED] T9469.126
        
        [GRAPHIC] [TIFF OMITTED] T9469.127
        
        [GRAPHIC] [TIFF OMITTED] T9469.128
        
        [GRAPHIC] [TIFF OMITTED] T9469.129
        
        [GRAPHIC] [TIFF OMITTED] T9469.130
        
        [GRAPHIC] [TIFF OMITTED] T9469.131
        
        [GRAPHIC] [TIFF OMITTED] T9469.132
        
        [GRAPHIC] [TIFF OMITTED] T9469.133
        
        [GRAPHIC] [TIFF OMITTED] T9469.134
        
        [GRAPHIC] [TIFF OMITTED] T9469.135
        
        [GRAPHIC] [TIFF OMITTED] T9469.136
        
        [GRAPHIC] [TIFF OMITTED] T9469.137
        
        [GRAPHIC] [TIFF OMITTED] T9469.138
        
        [GRAPHIC] [TIFF OMITTED] T9469.139
        
        [GRAPHIC] [TIFF OMITTED] T9469.140
        
        [GRAPHIC] [TIFF OMITTED] T9469.141
        
        [GRAPHIC] [TIFF OMITTED] T9469.142
        
        [GRAPHIC] [TIFF OMITTED] T9469.143
        
        [GRAPHIC] [TIFF OMITTED] T9469.144
        
        [GRAPHIC] [TIFF OMITTED] T9469.145
        
        [GRAPHIC] [TIFF OMITTED] T9469.146
        
        [GRAPHIC] [TIFF OMITTED] T9469.147
        
        [GRAPHIC] [TIFF OMITTED] T9469.148
        
        [GRAPHIC] [TIFF OMITTED] T9469.149
        
        [GRAPHIC] [TIFF OMITTED] T9469.150
        
        [GRAPHIC] [TIFF OMITTED] T9469.151
        
        [GRAPHIC] [TIFF OMITTED] T9469.152
        
        [GRAPHIC] [TIFF OMITTED] T9469.153
        
        [GRAPHIC] [TIFF OMITTED] T9469.154
        
        [GRAPHIC] [TIFF OMITTED] T9469.155
        
        [GRAPHIC] [TIFF OMITTED] T9469.156
        
        [GRAPHIC] [TIFF OMITTED] T9469.157
        
        [GRAPHIC] [TIFF OMITTED] T9469.158
        
        [GRAPHIC] [TIFF OMITTED] T9469.159
        
        [GRAPHIC] [TIFF OMITTED] T9469.160
        
        [GRAPHIC] [TIFF OMITTED] T9469.161
        
    Mr. Barton. Thank you. Mr. Colvin, if for some reason we 
were to not override the Governor of Nevada's veto, what would 
be the practical impact on that on the nuclear power industry 
in this country?
    Mr. Colvin. Mr. Chairman, I think it's a very complex issue 
to look at from the standpoint of our electricity supply, but 
we're in a time of renaissance in nuclear energy. It's a time 
that we're moving to deregulate and make our electricity supply 
more competitive in the United States and to look for energy 
sources that, in fact, preserve and protect the environment. 
And nuclear energy is an important part of our Nation's energy 
mix, both for now and the future. If we, in fact, cannot 
resolve this issue in the United States and I think it will not 
only have a negative impact on our industry and on our future 
investment into this technology and our benefits that society 
will derive from that, but will have a similar effect in other 
countries in the world. The U.S. is the leader in this 
technology. We have been from the beginning. We created the 
commercial part of the industry that is used around the world 
and the world looks to the U.S. for continuing leadership and 
is very, very supportive of us moving forward.
    I think we need to look at this in a very important fashion 
and I commend this committee and I commend the leadership for 
taking this issue on and dealing with it in the context of our 
national energy security and our national security, in general.
    Mr. Barton. Is it not reasonable that if you make the 
assumption that we begin to generate electricity in commercial 
nuclear reactors in the 1950's, and if we override the veto and 
if the Department of Energy submits a suitable application and 
if the Nuclear Regulatory Commission approves it, that would 
mean somewhere around the year on a permanent basis probably 
2015 to 2020 we would actually begin to store the waste in a 
centralized location, that's approximately 70 years. Isn't that 
a reasonable time for policymakers and engineers of the 
greatest engineering and economic society the world has ever 
known to come to some solution on this issue?
    Mr. Colvin. Absolutely, Mr. Chairman, without exception.
    Mr. Barton. Now Ms. Chappelle, you're here on behalf of the 
NARUC Commissioners. I am certain that if and when we certify 
Yucca Mountain as a site, the transportation issue of moving 
the waste from the existing decentralized locations to the one 
central repository are going to take a fair amount of your 
contemporaries' time. Do you have confidence that the various 
Federal agencies will work with the State PUCs and regulatory 
agencies to develop transportation routes and systems and time 
tables that will protect the public that you represent?
    Ms. Chappelle. We do, Chairman, and I think again on behalf 
of States, because all of the various States are quite unique, 
I think the States are going to play a crucial role in the 
transportation issue and I do think that they will be 
aggressive and I have no doubts that we will work hand in hand 
with the Federal Government to again determine the most 
appropriate safe routes for the transportation.
    Mr. Barton. Mr. Chairman, I don't have any other questions 
at this time.
    Mr. Shimkus. And I thank the chairman and I'll just ask a 
few follow-up questions.
    Mr. Colvin, on the whole transportation debate, it does 
make common sense that the fact that we have transported over 
3,000 shipments safely that we will work in conjunction with 
our States to make sure that all their requests, except for 
those that are meant to stop any passage of transportation 
would be met. Do you think that's safe to say?
    Mr. Colvin. Yes sir, Mr. Chairman. And quite honestly, if 
you look at the transportation, the United States, the Congress 
and our regulatory agencies, in fact, have put in place a 
tremendous set of regulations that are in place today to 
protect the public from transportation issues dealing with 
hazardous materials including radioactive materials. And those, 
in fact, have been the foundation, if you may, for the type of 
protection and rigor that we've had in the transportation to 
date. So as we move forward to look at the Yucca Mountain issue 
and we look forward to going through the licensing process, 
there may be issues arise, perhaps issues that have been 
identified post-9/11 that will, in fact, be evaluated and be 
dealt with in the context of the regulatory bodies that exist. 
And NRC clearly will, in fact, deal with those issues and if 
there's a need to make adjustments to that they will be made. 
They cannot go forward without those being made. So your 
assertion is completely correct, Mr. Chairman. Thank you.
    Mr. Shimkus. Thank you, and I want to follow up and Ms. 
Chappelle, you may have mentioned this in your opening 
statement and I apologize if I was in another meeting, but Big 
Rock Point on the banks of Lake Michigan, there was discussion 
earlier in this hearing in reference to the 5-year timeframe of 
once you use spent nuclear fuel to have to sit. But that's not 
an issue for Big Rock Point, is it?
    Ms. Chappelle. I defer to the exact mechanisms of how they 
are storing that.
    Mr. Shimkus. But the fact is Big Rock Point is a closed 
facility.
    Ms. Chappelle. It is, it is.
    Mr. Shimkus. So if they're not producing electricity, then 
that 5-year wait period is not an issue.
    Ms. Chappelle. Sure.
    Mr. Shimkus. So to make a blanket statement that we're not 
going to reduce the number of sites around the country by 
moving it is not a correct statement?
    Ms. Chappelle. Agreed, absolutely. And I would just also 
reiterate the comments that even though that's a closed 
facility, even though it is in a temporary secured site, again, 
that is still now a site that will need security, that will 
need to be observed and further secured, so the fact that it's 
closed and not operating and the fuel is spent does not take it 
out of the equation of using due diligence to find a permanent 
repository.
    Mr. Shimkus. Mr. Colvin?
    Mr. Colvin. Mr. Chairman, if I might just add to that. 
There was quite a bit of confusion in the earlier interchange 
with questions on this issue. If I might just clarify that. 
When we first take fuel out of the reactor, we put it into the 
spent fuel pool which is in effect a swimming pool that's 
inside the power plant and we let it cool for a period of about 
5 years before we then can transfer it either--the intent was 
to keep it in the pool for a period of time and then transfer 
it to the ultimate repository. That was the agreement that we 
reached with the government under the Atoms for Peace Program 
and into the Nuclear Waste Policy Act, as amended.
    So the issue today is that many of the plants have been 
running out of space in the spent fuel pool as originally 
designed and in fact, by 2010, about 78 of the 103 units in the 
U.S. will have run out of that capacity. So even with the 
program moving forward with a date of 2010, the companies have 
had to, in fact, deal with this in alternate means that is 
typically a dry cask storage process which has been an 
additional cost to both the consumer and to the company, above 
that which we initially anticipated.
    Mr. Shimkus. Thank you and I want to ask my final question 
to Mr. Dushaw on the whole national energy debate, job 
creation, low cost power needs. Moving forward, is it safe to 
say it's a net plus for an energy policy, economic development 
and growth and job creation?
    Mr. Dushaw. A net plus would be passage of the energy 
policy.
    Mr. Shimkus. And moving this----
    Mr. Dushaw. Absolutely, keeping nuclear alive is an 
absolute for the United States at this point in time and to 
keep nuclear alive, we need to have Yucca Mountain or an 
alternative answer which does not appear to be in the offing.
    Mr. Shimkus. Great. I will make one pass over to the 
minority side. We don't make expect any members to follow up 
and with that I appreciate your patience, I appreciate you all 
waiting until the afternoon and changing your statements to 
reflect that.
    Mr. Barton. Will the Chair yield briefly?
    Mr. Shimkus. Sorry, Mr. Chairman.
    Mr. Barton. I just want to announce that we will have a 
mark-up of this resolution next Tuesday afternoon, I think at 4 
p.m., but--4:30, all subcommittee members should be aware that 
the series of votes is going to begin on the floor at 6 so we'd 
like to convene at 4:30 for opening statements and if we have a 
quorum, we'll move to markup. If not, we'll recess until after 
the votes on the floor and then come back and mark the bill up.
    Mr. Shimkus. And I'm correct to say no amendments will be--
--
    Mr. Barton. The rules of the law do not allow amendments to 
be in order on this particular resolution.
    Mr. Shimkus. And with that information I call this hearing 
to adjournment.
    [Whereupon, at 2:08 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]

Responses for the Record of Hon. Spencer Abraham, Secretary, Department 
                               of Energy

                   QUESTIONS FROM CONGRESSMAN MARKEY

Security of Nuclear Waste Shipments
    Q1. After September 11, you halted all shipments of nuclear waste 
because of the security risks they pose. President Bush just warned on 
April 17, 2002 that he expects Al Qaeda to try to strike the U.S. 
again. Can you point to the sections of the site recommendation that 
address the additional consideration DOE has given since September 11th 
to the possibility that terrorists might attempt to attack a nuclear 
waste shipment? What new security measures do you expect to take as a 
result of the events of September 11th?
    A1. Additional consideration to possible sabotage scenarios as a 
result of the events of September 11, 2001, was given in the site 
recommendation documents. In the Final Environmental Impact Statement 
(EIS), Section 4.1.8.3 addresses sabotage at the repository, and 
Section 6.2.4.2.3 addresses the impacts of acts of sabotage for 
transportation. Appendix J of the EIS, Section 2.4.3.1, contains a 
post-September 11 analysis of radiological impacts related to sabotage. 
In the Comment-Response Document for the EIS, Section 7.4.1 addresses 
sabotage at the repository, and Section 8.10.1 addresses sabotage for 
transportation. In both the Site Recommendation Comment Summary 
Document and the Supplemental Site Recommendation Comment Summary 
Document, Sections 4.6.3 address sabotage at the repository, and 
Sections 4.8.7 address sabotage for transportation. In the 
``Recommendation by the Secretary of Energy Regarding the Suitability 
of the Yucca Mountain Site for a Repository Under the Nuclear Waste 
Policy Act of 1982,'' Section 8.6 (Assisting Anti-Terrorism at Home) 
addresses the events of September 11.
    As a result of the events of September 11, 2001, the Nuclear 
Regulatory Commission (NRC), DOE, and other agencies are conducting a 
comprehensive security review that will include reexamining the 
protections built into our physical security and safeguards systems. If 
the results of this reexamination indicate enhancements are needed, the 
Department will modify its methods and systems as appropriate.
    Q2. Are shipments of high-level waste undertaken with the same 
levels of security as shipments of nuclear weapons or weapons-grade 
materials?
    A2. No. The Department and NRC have established a graded regulatory 
approach for physical protection of nuclear material shipments. The 
requirements for strategic special nuclear materials (e.g., weapons-
grade) are more stringent, because they are more attractive for theft 
than irradiated reactor fuel.
    The Department, NRC, and other agencies review their security 
requirements periodically to assess their adequacy and effectiveness. A 
comprehensive review has been ongoing as a result of the attacks on 
September 11. DOE will comply with all regulations applicable to the 
Office of Civilian Radioactive Waste Management (OCRWM) program.
    Q3. Have force-on-force security exercises been conducted on 
shipments of high level nuclear waste? If so, what were the results? If 
not, why not, since these materials could be used to construct and 
detonate dirty bombs?
    A3. The Department routinely conducts force-on-force security 
exercises on strategically significant nuclear materials (e.g., 
weapons-grade). Although DOE has not conducted force-on-force exercises 
for shipments of high-level wastes, it will continue to evaluate 
security needs for various shipments. In transporting high-level waste 
to a geologic repository, DOE will comply with any NRC physical 
protection requirements, including those concerning force-on-force 
security exercises.
Nuclear Waste Shipments
    Q4. Your testimony states that there has never been a harmful 
radiation release associated with the shipment of nuclear waste. There 
have been an estimated 3,000 shipments of high-level nuclear waste in 
the past 50 years or so.
    A. Isn't it true that this number would be exceeded within the 
first two years of shipments to the proposed Yucca Mountain repository?
    B. Is it true that according to DOE's accident reports, there have 
been 72 ``incidents'' involving nuclear waste shipments since 1949? Is 
it true that four of these accidents involved ``accidental radioactive 
material contamination beyond the vehicle,'' four with radiation 
contamination confined to the vehicle, 49 of accidental container 
surface contamination, 13 traffic accidents with no release or 
contamination, and 2 incidents with no description?
    A4. A. In the EIS for Yucca Mountain, DOE has stated its preference 
for mostly-rail transport of nuclear waste to Yucca Mountain. Under the 
mostly-rail scenario, DOE estimates about 175 shipments to Yucca 
Mountain per year over the 24 year shipping period.
    B. As you cited, there have been 72 reported incidents involving 
nuclear waste shipments since 1949. In all the above reported 
incidents, there was never an injury as a result of the radioactive 
nature of the cargo.
Security of Nuclear Waste Shipments
    Q5. The Transportation Security Division at DOE transports nuclear 
weapons and weapons-grade material from site to site within the DOE 
complex. It is my understanding that this group failed six out of seven 
force-on-force security simulations in December 1998.
    A. If the shipments of nuclear weapons fail the security tests, how 
can we be assured that all of the many thousands of shipments of 
nuclear waste will be safe from terrorist attack?
    B. Do you agree that in event of a real and successful terrorist 
attack on a shipment of high level nuclear waste, a suicidal and 
knowledgeable group of terrorists could quickly assemble and detonate a 
dirty bomb? If not, why not?
    C. Are shipments of high level nuclear waste secure against armor 
piercing incendiary rounds? If so, how has this been verified? If not, 
why not, since a June 1999 General Accounting Office report entitled 
``Weaponry: Availability of Military .50 Caliber Ammunition'' concluded 
that more than 100,000 rounds of Pentagon-surplus armor-piercing 
incendiary rounds have been sold on the civilian market?
    D. I have been told of two separate tests, one done at Sandia 
National Laboratory, and one at Aberdeen Proving Grounds, that 
experimentally demonstrated that readily available munitions can breach 
a nuclear waste canister. Will you require whatever canisters are 
ultimately chosen to be capable of withstanding attacks using readily 
available munitions? If not, how will you assure that the nuclear waste 
canisters won't be successfully attacked, at great risk to the 
surrounding communities?
    A5. A. In December 1998, the Office of Transportation Safeguards 
(OTS) (previously the Transportation Safeguards Division) conducted 
computer simulations, not force-on-force exercises. Force-on-force 
validation exercises were conducted in 1999, 2000, and 2001 and 
indicate that OTS is operating at ``Low Risk.'' The objective of many 
security tests is to evaluate the effectiveness of plans and 
procedures. Many tests are designed to specifically identify 
vulnerabilities in security measures, which will result in a more 
effective security.
    The Department conducts such exercises to learn about the strengths 
and weaknesses of its physical security systems and measures for safe 
transportation of strategic material. Therefore, these tests will 
actually benefit the security and safeguards of nuclear materials.
    For current spent fuel shipments, NRC has imposed a security 
advisory that requires armed escorts to accompany the shipment. NRC is 
evaluating that advisory and is considering moving it to a regulation. 
Current shipments of spent fuel to DOE sites are following the NRC 
advisory. For shipments to a repository, NRC sets stringent physical 
security and safeguards requirements. NRC reviews its security 
regulations periodically to assess their adequacy and effectiveness. A 
comprehensive review has been ongoing as a result of the September 11 
attacks. DOE will comply with any additional security requirements that 
are identified by NRC's review. With shipments not anticipated for at 
least eight years, DOE has time to fully analyze and prepare for any 
changing threat environment.
    B. The spent nuclear fuel is transported in heavy, robust casks 
that are designed to contain their contents under severe accident 
conditions. The weight of the casks, the robust metal shielding that 
protects the spent nuclear fuel, and the high radiation field of 
unprotected spent nuclear fuel all would inhibit the process of 
obtaining spent nuclear fuel and assembling a dirty bomb. Further, 
because the spent nuclear fuel itself is not explosive, it would have 
to be incorporated with a conventional explosive. Thus, even if a 
terrorist attack were successful in diverting spent nuclear fuel, law 
enforcement agencies would have adequate time to respond due to the 
difficulty in assembling a ``dirty bomb'' made of spent nuclear fuel.
    C. Yes, shipments of high-level nuclear waste are secure against 
armor-piercing incendiary rounds. According to Army Field Manual FM 23-
65, an M8 .50 caliber armor-piercing incendiary round is for use 
against ``lightly armored vehicles.'' Data from field manuals suggest 
that this ammunition should not penetrate the thick walls of a 
transportation cask. Additionally, because the cask content material is 
not flammable, the incendiary part of the munition is not effective 
even were it to penetrate the cask body.
    D. Casks are designed and built to prevent release of their 
contents in all but the most severe attacks or accidents. 
Transportation casks are already capable of withstanding attacks from 
``readily available'' ammunition.
    Tests of transportation casks for assault from ``not readily 
available munitions'' (e.g., anti-tank weapons) have been conducted to 
determine their robustness. In the case of an attack by a military 
anti-tank weapon, tests and analyses conducted at Sandia National 
Laboratories show that only a very small fraction of the radioactive 
material would be released to the environment if the shield wall of a 
spent fuel transportation cask were penetrated by a military anti-tank 
weapon. Such a scenario has been analyzed in the Final EIS.
    In the case of attack using a simulated tube launched, optically 
tracked, wire guided (TOW) missile, a test performed at the Aberdeen 
Proving Grounds is often cited. It is important to recognize that the 
test at Aberdeen was not indicative of testing for NRC-licensed 
transportation casks. First, the Aberdeen demonstration used a storage 
cask, not a transportation cask. Second, the explosive device was 
attached to the side of the storage cask, not fired at it. Third, the 
storage cask was made of a material, nodular cast iron, which NRC has 
steadfastly refused to certify for transportation casks for many years. 
The American Society of Mechanical Engineers also has refused to 
approve this material as suitable for containment structures in spent 
fuel shipping casks.
    Q6. It is my understanding that as part of the DOE's transportation 
plans there might be as many as 3000 barge shipments of nuclear waste, 
into major ports throughout the Northeast, and other sites throughout 
the country. Why does the DOE plan on using barge shipment? How does 
the DOE plan on doing this safely without risking a terrorist attack?
    A6. DOE has stated a preference for mostly-rail transport. The EIS 
assumes that sites being served by a railroad would use rail and that 
the 24 sites that do not have rail service, but that can handle large 
rail casks, would move the casks to the nearest rail facility using 
heavy-haul trucks. Of the 24 sites that do not have rail service, 17 
are on navigable waterways, so the EIS also contains a sensitivity 
analysis to understand the impacts if all 17 of these sites shipped 
casks to nearby rail facilities via barge instead of heavy-haul truck.
    As evaluated in this sensitivity analysis, there could be up to 
1,575 barge shipments during the 24 years of shipments to a Yucca 
Mountain repository.
    The sensitivity analysis for this limited use of barge in no way 
commits the OCRWM to using barge transport, nor does it indicate any 
current intention to do so, but was included to ensure that the Final 
EIS contained all reasonably foreseeable actions. Although OCRWM has 
expressed a preference for the use of rail for shipping, detailed 
decisions such as how to move casks from the 24 sites without rail 
access have not been made. These decisions would reflect agreements 
reached between OCRWM and the utilities and consultations with 
stakeholders, including representatives of States, tribes and local 
communities. In any event, because there would be limited use of barges 
over short distances, the likelihood of an accident would be small. In 
addition, because shipping casks are designed to withstand severe 
transportation accidents, an accident severe enough to release 
radioactive materials into a waterway is not reasonably foreseeable.
    The safety of barge shipments, including consideration of sabotage, 
is addressed through requirements of the U.S. Coast Guard and NRC. In 
current barge or water shipments, the Coast Guard provides an exclusion 
zone, which prevents other ships from entering a space around a ship or 
barge. The Coast Guard has enforcement authority and can arrest or use 
force to prevent other ships from encroaching on that exclusion zone. 
Because of the attacks on September 11, 2001, Government agencies are 
reexamining the protections built into physical security and safeguards 
systems. The Department will meet requirements that result from this 
reexamination.
GAO Report
    Q1. If Congress over-rides Nevada's disapproval of Yucca Mountain, 
DOE is required to submit a license application to the NRC within 90 
days of the site recommendation becoming effective. You stated during 
the hearing that you would resolve all of the technical issues prior to 
submitting a license application.
    A. Will DOE be prepared to submit a license application to the NRC 
for Yucca Mountain within the next several months?
    B. If so, how, since the NRC has indicated that 293 complex 
technical issues must be resolved before it would be able to accept a 
license application?
    C. Is it DOE's intention to submit a incomplete license application 
that cannot be accepted by the NRC, or is it your intention to submit 
the application once you have resolved all 293 of the outstanding 
technical issues?
    D. Bechtel has indicated that at least 10 of the 293 technical 
issues will not even be resolved by 2004. Will you wait until all of 
the 293 technical issues are resolved prior to submitting the license 
application to the NRC?
    A1. A. Our current plans call for filing a license application at 
the end of 2004, assuming that Congress acts to override the State of 
Nevada's notice of disapproval this summer. This schedule was presented 
in my comprehensive statement that accompanied my February 14, 2002, 
recommendation to the President and in my Fiscal Year 2003 budget 
submittal to Congress.
    B. Many have misrepresented these ``complex technical issues.'' I 
am happy to clarify them for you. NRC's November 2001 Sufficiency 
Letter, required by section 114(a)(1)(E) of the Nuclear Waste Policy 
Act, stated that, based on agreements and interactions with DOE, it 
believes that ``sufficient at-depth site characterization analysis and 
waste form proposal information, although not now available, will be 
available at the time of a potential license application such that 
development of an acceptable license application is achievable.'' NRC 
reached this conclusion through extensive consultation and review of 
our scientific and technical work.
    This interaction identified nine ``key technical issues'' that we 
agreed to address by the time of license application. To address these 
nine issues, 293 technical agreements were made with NRC. These 
agreements are largely documentation and data confirmation that will be 
submitted to NRC within the next two years.
    C. Much progress has been made to address these issues. When my 
recommendation was sent to the President, my staff completed one-third 
of the necessary work to fulfill these agreements, and closed 23 
agreements. Today, just two months later, 21 additional agreements have 
been documented as closed. We have submitted the information to close 
an additional 10 agreements. By the end of this fiscal year, 58 
agreements will be closed. We will continue working with NRC to close 
the remaining agreements and expect to submit a license application 
that will be accepted by NRC.
    D. The 10 agreements that we expect to remain open involve efforts 
to monitor performance and to obtain additional scientific and 
technical data. NRC has agreed to our disposition plan for this work.
    Q2. According to the GAO report, DOE stopped using the cost and 
schedule baseline for Yucca Mountain in 1997. For example, when the FY 
2000 appropriation for Yucca Mountain was $57.8 million less than the 
request, DOE did not adjust the baseline costs and schedule, but 
instead deferred some planned technical work.
    A. Isn't it typical for DOE to require program managers to alter 
the baseline for a large project when it substantially changes? If so, 
why haven't you done so for this project?
    B. When will the baseline costs and schedule been adjusted to 
reflect shortfalls in the expected appropriations levels and other 
unexpected changes?
    C. What would the new schedule for submitting the license 
application have been if the baseline had been changed appropriately?
    D. If you don't adjust the baseline to reflect major changes, how 
can you know when you will be ready to submit the license application? 
Are you just planning on submitting whatever you have completed at the 
time your original baseline estimated you'd be ready, even if that 
baseline no longer applies?
    E. My understanding is that because of the uncertainties in the 
baseline, cost estimates for Yucca Mountain range from $54 billion to a 
high of hundreds of billions if you factor in costs such as 
transportation and security factors. How can you provide Congress with 
an accurate cost estimate if you don't make the necessary changes in 
the baseline?
    A2. A. The Program has not had substantial changes. Since 1989, we 
have forecasted a 2010 date for waste acceptance at a repository at 
Yucca Mountain. The Director of OCRWM submits quarterly project 
performance reports to the Office of the Secretary that measure 
performance against the original baseline. These quarterly reports 
describe congressional and other external impacts on cost and schedule 
performance including forecasts of both schedule slips and cost 
overruns. Since 1997 these quarterly project performance reports have 
accurately forecasted cost and schedule for the site recommendation 
decision and license application submittal.
    B. We are awaiting Congress' decision on overriding the State's 
disapproval. If a decision to proceed is made, I expect a revised 
baseline for the Civilian Radioactive Waste Management Program to be 
completed in early FY 2003.
    C. When a projected milestone completion date slips, it is common 
practice to report a variance against the previously forecast milestone 
date prior to revising the baseline. The Program has been reporting 
variance against the baseline on a quarterly basis. The current 
forecast milestone completion date is not affected by the procedural 
step of revising the baseline. The Program will revise the baseline for 
the Yucca Mountain repository design and licensing phase once a 
decision to proceed is made by Congress.
    D. As stated above, the Director of OCRWM submits quarterly project 
performance reports to the Office of the Secretary that measure 
performance against the original baseline. These quarterly reports 
describe congressional and other external impacts on cost and schedule 
performance including forecasts of both schedule slips and cost 
overruns. Since 1997 these quarterly project performance reports have 
accurately forecasted site recommendation and license application cost 
and schedules.
    E. The current Analysis of the Total System Life Cycle Cost, 
published in May 2001 (Document #DOE/RW-0533), presents a $57.5 billion 
cost estimate for the Civilian Radioactive Waste Management Program. 
This estimate includes repository, waste acceptance, storage and 
transportation, program integration, and institutional costs over the 
life of the Civilian Radioactive Waste Management Program from 
inception in 1983, site recommendation in 2002, through repository 
construction and start of operations by 2010, to decommissioning in 
2119.
    Q3. According to the GAO report, NRC's Advisory Committee on 
nuclear waste has raised concerns about the models that DOE is using to 
predict how water and radionuclides might travel through the repository 
and therefore how quickly radioactivity would be released to the 
environment. The Advisory Committee believes that DOE has used 
inconsistent assumptions and assumptions that are not supported by 
experimental evidence.
    A. Do you plan to redo these models to correct the problems prior 
to submitting a license application to the NRC? If not, why not, since 
the rate at which radioactivity is released into the environment is 
central to whether the Yucca Mountain site can be operated in a manner 
that is consistent with protecting public health and the environment?
    B. How long will it take to develop accurate models?
    A3. A. In its November 2001 letter, NRC stated that existing work 
and work that is planned to be completed would be sufficient for 
inclusion with a license application. We do not agree with the 
assertion that there is a problem that needs to be corrected. The 
process models used by the Yucca Mountain Project to predict water 
movement and radionuclide transport employ a mixture of conservative 
and realistic (i.e., supported by experimental data) assumptions. As 
additional information and experimental data becomes available, DOE 
plans to incorporate these refinements into the models for the Total 
System Performance Assessment (TSPA) for the License Application (LA). 
The TSPA-LA will provide a range of predicted responses that will cover 
the range of expected system behavior.
    B. As indicated above, we do not agree that the models are 
inaccurate. Additional data inputs and model refinements to the updated 
TSPA-LA will be completed in the Spring of 2003. The final TSPA-LA 
shall be included with the LA scheduled for submittal in December 2004.
Nuclear Waste Technical Review Board Reports
    Q1. You recommended Yucca Mountain to the President on January 
10th. The Nuclear Waste Technical Review Board (NWTRB) submitted its 
comments on the DOE's scientific and technical work on January 24th.
    A. Isn't it true that the NWTRB told DOE it was nearly ready to 
submit its comments on December 11, 2001?
    B. Why did you make your recommendation prior to receiving the 
NWTRB's comments? Weren't the independent scientific advisory board's 
comments important to consider prior to recommending the Yucca Mountain 
site?
    A1. A. Yes. In a December 11, 2001, letter, the NWTRB informed DOE 
that comments would be submitted within a few weeks. Those comments 
were received on January 24, 2002.
    B. In fact, the Secretarial decision to recommend the site was 
provided to the President on February 14, 2002. In their letter of 
January 24, 2002, the NWTRB recognized ``The Board makes no judgment on 
the question of whether the Yucca Mountain site should be recommended 
or approved for repository development. Those judgments, which involve 
a number of public policy considerations as well as an assessment of 
how much technical certainty is necessary at various decision points, 
go beyond the Board's congressionally established mandate.''
    Q2. In your testimony you state that the DOE's scientific inquiries 
and modeling clearly demonstrates that a repository at Yucca Mountain 
can meet the EPA radiological exposure standards. However the January 
24th report of the NWTRB notes that the DOE has not published updated 
calculations of radiological doses based on the recent travel time 
estimates in the Technical Update Impact Letter report.
    A. Have these calculations been done?
    B. If so, why haven't they been published? Have they been 
independently reviewed? By whom?
    C. If not, when will they be completed? Without these calculations, 
how can we know that Yucca Mountain can meet the EPA standard?
    A2. A-B. Updated calculations of the expected impact of 
radiological dose will be included in the License Application-Total 
System Performance Assessment.
    C. The travel time calculations presented in the Technical Update 
Letter Report indicate that refinements to the transport model result 
in longer travel times. As a result, Yucca Mountain would still meet 
the EPA standard because longer travel times delay and reduce the 
expected radionuclide dose due to an increased potential for matrix 
diffusion and sorption. Consequently, performance of the calculations 
would result in a decreased dose, not an increase, and so confidence in 
the ability of the site to still meet the EPA standard would not be 
compromised. Updated dose calculations will be part of our preparation 
for submittal of a license application to NRC and these calculations 
will include refinements to the transport model.
    Q3. You have expressed great confidence in the ability of the 
canisters to contain the radioactive waste over long periods of time. 
Peak temperatures in the repository could reach 350 degrees but, as the 
NWTRB report notes, DOE has essentially no data on canister corrosion 
for temperatures above 275 degrees. Why have these studies not been 
undertaken prior to recommendation? Isn't it true that without this 
data we really have no idea how the engineered barriers will perform in 
the repository?
    A3. The Yucca Mountain Project has conducted extensive testing and 
modeling of these waste packages and engineered barriers and has a 
strong technical basis for understanding their behavior. DOE has 
conducted corrosion tests on both spent fuel and waste package 
containment barrier materials at relevant temperatures. Peak 
temperatures in the repository will occur in the spent nuclear fuel 
rods contained within the waste packages. We have used temperature 
limits for waste disposal system design so that the spent fuel rod 
cladding cannot exceed 350  deg.C to maintain cladding integrity. For 
the reference Site Recommendation waste disposal system design, peak 
spent fuel rod cladding temperatures are expected to be about 285  
deg.C. A much lower peak temperature of 180  deg.C is expected in the 
waste package containment barriers that surrounds the spent fuel 
assemblies. This peak temperature of 180  deg.C is the relevant value 
for the waste package containment barrier surface.
    Consistent with these anticipated peak temperatures, we have 
conducted corrosion performance tests on spent fuel specimens, 
including the cladding, at temperatures from 175  deg.C to 325  deg.C. 
In addition, we have conducted corrosion tests on waste package 
containment barrier materials at temperatures under which corrosion is 
most likely (60  deg.C to 120  deg.C). At temperatures above 120  
deg.C, a significant amount of corrosion is not expected because liquid 
phase water is not anticipated. Even for conditions where salts would 
facilitate the formation of water on the waste package surface, this 
would most likely occur below 120  deg.C. We are continuing short-term 
and long-term corrosion tests to improve our understanding and decrease 
uncertainties about how the engineered barriers will perform in the 
repository.
    Q4. In your testimony, you state that the geology of Yucca Mountain 
provides natural adsorption, retarding any potential radionuclide 
movement. But a 1999 study at the Nevada Test Site by scientists from 
Lawrence Livermore National Laboratory has shown that plutonium can 
migrate in a short amount of time (50 years or less) and a 2001 study 
from Los Alamos National Laboratory has shown that the zeolite minerals 
adsorb only a few of the radioactive elements and that these are the 
elements with the shortest half-lives. In light of these studies, how 
can you be sure that the radionuclides will be contained in the 
geological barriers?
    A4. The results reported by the Lawrence Livermore scientists 
regarding the detection of plutonium at the Nevada Test Site must be 
considered in their proper context. The study deals with the detection 
of plutonium in association with colloids following sampling of 
groundwater down-gradient from a large nuclear weapons test detonated 
``beneath the water table.'' However, the portion of the down-gradient 
distance that can be attributed to the effects of ``prompt injection'' 
is unknown.
    It was never expected that all radionuclides would adsorb on 
minerals at Yucca Mountain. However, the natural system would indeed 
provide potential retardation through adsorption for many radionuclide 
species.
    The Project has considered the potential effects discussed above 
and addressed the impact of colloid-facilitated transport through its 
unsaturated zone and saturated zone transport modeling. The results 
indicate that, even when conservative assumptions (i.e., those tending 
to promote the most rapid transport) are applied, the site still 
performs satisfactorily and the EPA radiological dose standard can be 
met.

                  QUESTION FROM CONGRESSMAN ED MARKEY

General Question
    1. A November 2001 report by the DOE Inspector General reported 
that Winston and Strawn was simultaneously employed as counsel to the 
DOE working on the Yucca Mountain project, and as a lobbyist working 
for the Nuclear Energy Institute. Winston and Strawn has since resigned 
from their DOE role due to the obvious conflict-of-interest. What have 
you done to independently verify the work Winston and Strawn did for 
DOE on Yucca Mountain?
    A1. In its report, the Office of Inspector General did not reach 
any final conclusion as to whether Winston and Strawn's representation 
of the Nuclear Energy Institute constituted a conflict-of-interest. 
Moreover, the report did not find any indication that Winston and 
Strawn's activities for, or relationships with, the Nuclear Energy 
Institute caused it to compromise the contract on the Yucca Mountain 
Project or in any way influenced the legal advice it provided to the 
DOE. As the inquiry report states: ``Department officials did not 
identify to the Office of Inspector General any evidence of 
compromise'' and in fact ``stated that Winston and Strawn had urged the 
Department to be more thorough than it had been concerning the Yucca 
Mountain Project.'' On November 29, 2001, there was a mutual agreement 
between the DOE and Winston and Strawn to discontinue the contract.
    DOE does not believe that the information developed during the 
period of time of Winston and Strawn's services is suspect or should be 
discarded as potentially biased. The scientific and technical 
activities associated with the characterization of the Yucca Mountain 
site were performed by leading scientific and technical experts in 
their respective fields, including numerous representatives of national 
laboratories and the U.S. Geological Survey. These activities and the 
results thereof were reviewed by numerous independent oversight 
agencies and peer groups, including the Nuclear Waste Technical Review 
Board and the Nuclear Regulatory Commission (NRC), and were made 
available for public review and comment during the site recommendation 
consideration process.
    Winston and Strawn had a limited and indirect involvement in the 
entire site recommendation process. Key factors in the site 
recommendation decision involved scientific and technical judgments, 
not legal interpretations. In any event, the Department's Office of 
General Counsel supervised Winston and Strawn's work for the Department 
very closely and would, I am confident, have detected any effort to 
misrepresent the law had it occurred.

                 QUESTIONS FROM CONGRESSMAN RADANOVICH

Nuclear Waste Shipments
    Q1. Can you explain how the number of sites at which nuclear waste 
is stored will be reduced from 131 to 1 with the opening of Yucca 
Mountain, and under what time-frame this might happen?
    A1. It has never been the intent that 131 sites would be 
eliminated. Rather, the question is whether these commercial and DOE 
sites should continue storing spent nuclear fuel (SNF) on site, even 
after operations cease, thus providing no benefit while continuing to 
be burdened with storing waste near our population centers and 
waterways.
    For commercial power reactors, all spent nuclear fuel (SNF) cannot 
be removed from the site until all reactors on that site are shut down. 
At the present time, there are 10 such sites from which SNF removal can 
begin shortly after the opening of Yucca Mountain. As additional 
reactors reach the end of their operating lives and are shut down, the 
operation of Yucca Mountain will allow the SNF to be removed from those 
sites as well. Substantial amounts of SNF would also be removed from 
operating reactors, allowing continued safe operations while limiting 
the need for on-site dry storage.
    Similarly, SNF and high-level waste (HLW) would be removed from DOE 
sites such as Savannah River, the Idaho National Environmental and 
Engineering Laboratory, and Hanford for consolidation at Yucca 
Mountain, reducing costs for operation and maintenance and allowing 
cleanup to be completed at those sites. Disposition of some DOE SNF and 
HLW could begin soon after Yucca Mountain is scheduled to open, and 
DOE's current plans are to disposition all DOE SNF and HLW to a 
geologic repository by 2040. DOE is continuing to look at ways to 
expedite this schedule. Operation of Yucca Mountain would provide a 
destination for the SNF generated through beneficial operation of the 
numerous research and isotope production reactors in the United States 
and final removal of SNF after final reactor shutdown, allowing those 
sites to be shut down.
Nuclear Waste Storage
    Q2. If we assume that DOE's most optimistic predictions are 
realized (and that it transports 4,000 tons to Yucca Mountain by 2014 
and 3,000 tons a year thereafter), it will be 2038 when Yucca Mountain 
is filled to capacity. Do you agree that, using DOE's own projections, 
the amount of waste left at nuclear power plants around the country in 
2038--when Yucca Mountain is filled to capacity--will be almost 
identical to the amount currently stored at those locations?
    A2. The Nuclear Waste Policy Act currently limits the licensable 
capacity of Yucca Mountain to 70,000 MTU. However, the actual physical 
capacity of the mountain is believed to be considerably larger than 
this statutory limit.
    We provided our projection of 105,000 MTU of civilian spent fuel by 
2038 in the Final Environmental Impact Statement (EIS) for the Yucca 
Mountain repository. This is how others have derived how an amount 
equivalent to the 45,000 MTU present today would still be stored on 
site in 2038. However, these simplistic analogies ignore the reality 
that would exist without a repository at Yucca Mountain. The entire 
inventory of 105,000 MTU would be stored at these sites, and many of 
these sites would have been permanently shut down by that point in 
time.
Rail Transportation
    Q3. According to the Federal Railroad Administration, there were 
176 train accidents last year in my state of California alone. This is 
an alarming number. We have a struggling industry that is starving for 
revenue to maintain its trains and tracks. At the same time, we want to 
increase by thousands the number of freight trains, carrying high-level 
radioactive waste, throughout the country. This is an important 
contradiction. Mr. Secretary, DOE's Environmental Impact Statements 
predicts that there will be 10 additional train accidents carrying 
spent fuel. Does the EIS statement assume that current problems with 
train infrastructure will be resolved?
    A3. Our Final EIS estimated that there could be eight train 
accidents over a 24-year shipping campaign using the mostly rail option 
preferred by DOE. Over a 24-year shipping campaign for the mostly rail 
option, there would be approximately one rail shipment every other day.
    In calculating the likelihood of accidents under a mostly rail 
scenario, we incorporate data on railway safety from the Federal 
Railroad Administration (FRA). The FRA is the agency responsible for 
enforcing Federally mandated safety standards for ensuring railroad 
safety throughout the Nation. According to FRA, the U.S. rail system 
experienced an accident rate of less than 4.2 accidents per million 
train miles in 2001.
    The FRA establishes safety standards concerning the design, 
maintenance and inspection of our Nation's rail track. The FRA reviews 
the railroads' inspection records on both a routine, random, and 
programmed basis to ensure the integrity and effectiveness of the 
railroads' own inspection program. DOE expects that its accident 
experience with rail operations will be at least as good as that 
experienced in commercial rail service under the FRA's standards and 
enforcement.
                                 ______
                                 
 Responses for the Record of Hon. Greta Joy Dicus, Commissioner, U.S. 
                     Nuclear Regulatory Commission

                   QUESTIONS BY HON. EDWARD J. MARKEY

    Question 1. How long, and at what temperature, can a transportation 
cask withstand exposure to fire before it fails? Has this been 
determined experimentally? If not, why not?
    (A) The Baltimore Tunnel fire that occurred last summer burned for 
more than 3 days and reached temperatures of 1500 degrees. Do you plan 
on conducting experiments that subject casks to hotter and longer 
burning fires before certifying them? If not, why not?
    Answer. NRC requires that all Type B radioactive materials 
transportation packages, such as those used to transport spent nuclear 
fuel, be evaluated for a fully engulfing fire accident with an average 
flame temperature of no less that 1475 deg.F (800 deg.C) for a period 
of no less than 30 minutes (10 CFR 71.73). Transportation casks must be 
subjected to an open pool fire test or analyzed for a fire event 
meeting the aforementioned criteria. Casks must maintain shielding and 
criticality control functions throughout the fire event and post-fire 
cool down. The basis for these requirements is a postulated 
transportation accident. While an analysis or experiment has not been 
performed to determine precisely when and at what temperature a 
transportation canister would fail, analyses have been undertaken to 
examine spent fuel cask behavior in severe fire environments resulting 
from transportation accidents.
    The NRC has evaluated the Baltimore tunnel fire to see whether 
changes to these requirements are needed. Based on media reports on the 
Baltimore tunnel fire, and information provided by the National 
Transportation Safety Board (NTSB), the fire in the tunnel was fueled 
by a derailed tanker car carrying liquid tripropylene (car #52). When 
fire fighters were able to enter the tunnel, approximately 12 hours 
after the fire started, they observed that the tripropylene tanker car 
was no longer burning. This indicates that the most severe portion of 
the fire in the tunnel could not have lasted more than 12 hours.
    In addition, the fire in the tunnel was most likely oxygen starved, 
due to the fact that the tunnel is poorly ventilated. This means that 
the fire did not have enough oxygen to burn efficiently. Therefore, the 
fire in the tunnel most likely burned longer and at a lower temperature 
than a well ventilated (open air) fire would have. For a comparable 
(open air) pool fire of 27 feet in diameter (the tunnel is 32 feet 
wide), the amount of tripropylene in the tanker car (28,800 gallons) 
would have burned for approximately 6\1/4\ hours, achieving a maximum 
temperature in the range of 1475 deg.-1830 deg.F.
    The time-to-failure of a spent fuel transportation cask due to a 
fire exposure is heavily dependent on the temperature of the fire 
exposure and whether the fire is fully engulfing or not. The 
information that the staff has received on the Baltimore tunnel fire 
has provided a time (duration) of fire exposure, but has not provided 
the maximum temperature, temperature distribution, or how the 
temperature changed with time. The staff is currently pursuing an 
analysis to determine the temperatures in the Baltimore tunnel fire.
    A preliminary analysis by the staff has sought to bound the 
Baltimore tunnel fire by assuming a uniform temperature of 1500 deg.F. 
The spent fuel transportation cask used in the analysis is an NRC 
approved cask design that utilizes a welded stainless steel canister. 
The analysis assumed that the cask was immersed in a 1500 deg.F fully 
engulfing fire for 12 hours, followed by a 20 hour cool-down period, 
and determined the maximum temperatures of the cask and fuel. Based on 
the maximum canister temperatures (which occurred during the cool-down 
period following the fire), the staff calculated the maximum stresses 
in the canister. The calculated stresses were below the failure limits 
for the stainless steel canister. The staff concluded that the analyzed 
transportation cask would have survived a 12 hour, 1500 deg.F fully 
engulfing fire with no failure of the canister and no release of 
radioactive material. The staff will continue to investigate cask 
performance under severe accident conditions, and will determine 
whether a time-to-failure analysis is necessary.
    Question 2. Are shipments of high level nuclear waste secure 
against armor piercing incendiary rounds? If so, how has this been 
verified? If not, why not, since a June 1999 General Accounting Office 
report entitled, ``Weaponry: Availability of Military .50 Caliber 
Ammunition'' concluded that more than 100,000 rounds of Pentagon-
surplus armor-piercing incendiary rounds have been sold on the civilian 
market?
    Answer. Various types of weapons that would produce damage much 
larger than expected from .50 caliber ammunition have been evaluated by 
NRC and DOE. The specific types of weapons and the results are 
considered sensitive information. These experiments demonstrated that 
military-type weapons that might possibly be available to a terrorist 
could produce a small hole in a single side wall of the cask such that 
a small fraction of the contained fuel might be released in a 
respirable form. The calculation indicated that this would be a 
relatively small release and that it would not result in any early 
fatalities. The consequences of such release would roughly parallel a 
severe transportation accident involving spent fuel.
    The extensive security measures required by the NRC minimize the 
likelihood of sabotage events. First, the NRC currently has in place a 
set of regulatory requirements specifically for the physical protection 
of irradiated reactor spent nuclear fuel in transit (10 CFR 73.37). 
These regulations specify security requirements to protect these 
shipments. The NRC maintains a threat assessment capability that 
includes close and ongoing contacts with the Federal law enforcement 
and intelligence agencies. In addition, since the events of September 
11, 2001, the NRC has issued several advisories to augment physical 
protection measures such as a need for armed guards throughout a 
shipment, not just in populated areas. The Commission is currently 
preparing Orders that will place these requirements in our normal 
regulatory framework.
    Question 3. A test conducted at Sandia National Laboratory, and 
another conducted at Aberdeen Proving Grounds, experimentally 
demonstrated that readily available munitions can breach a nuclear 
waste canister. Will you require whatever canisters are ultimately 
chosen to be capable of withstanding attacks using readily available 
munitions? If not, how will you assure that the nuclear waste canisters 
won't be successfully attacked, at great risk to the surrounding 
communities?
    Answer. Readily available munitions do not breach nuclear waste 
canisters. Anti-tank munitions of the type needed to breach a canister 
are not widely available. Nonetheless, as discussed previously, 
canisters have been tested against these types of weapons and the 
consequences were not severe.
    Following the events of September 11, the NRC has recognized the 
need to re-examine basic assumptions underlying the current NRC 
security and safeguards programs. The NRC Chairman, with full agreement 
of the Commission, has directed the staff to undertake a thorough 
review of these programs. As the NRC completes these reviews, we will 
consider whether changes to our regulations are needed.
    Physical protection consistent with NRC requirements for spent 
nuclear fuel in transit serves to minimize the possibilities for 
radiological sabotage. The Commission will supplement or revise its 
requirements, as warranted.
    Question 4. The drop test used to test whether the casks can 
survive a crash reportedly use a crash speed of 35 miles per hour. Will 
you repeat these tests at speeds of 65-70 miles per hour, the speed at 
which the trucks are likely to drive, prior to licensing?
    Answer. NRC requires that casks be designed to survive a sequence 
of tests including a 9-meter (30-foot) free drop onto an unyielding 
surface in the most damaging orientation. The speed of a falling object 
after a 30-foot free fall from rest is 30 miles per hour. In an impact 
with an unyielding surface, essentially all of the impact energy is 
transferred to the cask, which maximizes the cask damage. In contrast, 
during real transportation collision accidents, much of the energy of 
the impact is not transferred to the cask, but absorbed by the vehicle 
and the impacted object. The free drop test, therefore, results in 
damage that would be expected in a vehicle crash at a much higher 
speed. NRC believes these tests do not need to be repeated at higher 
speeds because earlier studies have encompassed an extremely high 
fraction (over 99%) of realistic accident scenarios involving vehicle 
impacts.
    Question 5. The puncture test used to certify casks reportedly 
tests a 40 inch drop of a cask onto a spike. Wouldn't a cask that, for 
example, fell off a bridge, be expected to drop further than 40 inches? 
Will you be testing a more realistic scenario before certifying any 
cask design, and if not, why not?
    Answer. The hypothetical accident test sequence defined in NRC 
regulations (10 CFR Part 71) includes a 1-meter (40-inch) drop onto a 
15 centimeter (6-inch) diameter puncture bar. This test is conducted 
for a cask design after the analysis of the results of dropping the 
same cask design, 9-meters (30-feet) onto an unyielding surface. The 
free drop and puncture tests must be performed in sequence and must 
consider the most damaging drop orientation. In addition the puncture 
test is designed to compound the damage from the drop test. Risk and 
accident analyses support NRC's conclusion that the regulatory test 
sequence for spent fuel casks encompass an extremely high fraction 
(over 99%) of realistic accident scenarios involving vehicle impacts.
    Question 6. If Congress over-rides the state of Nevada's 
disapproval of Yucca Mountain as the permanent waste repository, DOE is 
required to submit a license application to the NRC within a few months 
of the site recommendation becoming effective. In your testimony, you 
state that it must be a ``high-quality application.'' NRC has indicated 
that 293 complex technical issues must be resolved before it would be 
able to accept a license application, and the GAO report said that it 
would be years before this could be completed.
    Would NRC accept a license application that was incomplete?
    Answer. If the license application lacked information needed to 
begin a licensing review, we would regard the application as incomplete 
and would not accept and docket it. However, based on our interactions 
with the Department of Energy (DOE), it is our understanding that DOE 
has no intention of submitting an application which we would regard as 
incomplete.
    Question 6. If Congress over-rides the state of Nevada's 
disapproval of Yucca Mountain as the permanent waste repository, DOE is 
required to submit a license application to the NRC within a few months 
of the site recommendation becoming effective. In your testimony, you 
state that it must be a ``high-quality application.'' NRC has indicated 
that 293 complex technical issues must be resolved before it would be 
able to accept a license application, and the GAO report said that it 
would be years before this could be completed.
    Would NRC act upon a license application that was incomplete?
    Answer. As noted in response to the prior question, we would regard 
an application that lacked necessary information as incomplete and 
would not accept and docket it.
    Question 6. If Congress over-rides the state of Nevada's 
disapproval of Yucca Mountain as the permanent waste repository, DOE is 
required to submit a license application to the NRC within a few months 
of the site recommendation becoming effective. In your testimony, you 
state that it must be a ``high-quality application.'' NRC has indicated 
that 293 complex technical issues must be resolved before it would be 
able to accept a license application, and the GAO report said that it 
would be years before this could be completed.
    For the unresolved technical issues for which the NRC and DOE have 
agreed about what information still needs to be submitted, would the 
NRC ever act upon a license application that did not include that 
information, even if that information was not going to be available 
until after 2004?
    Answer. The Department of Energy (DOE) will need to provide enough 
information on the agreements for the Nuclear Regulatory Commission 
(NRC) to be able to commence a licensing review. For example, portions 
of a few agreements concern long-term studies related to performance 
confirmation, and as such, we expect that DOE will continue to collect 
certain information supporting these agreements for some time after 
license application, should an application be filed. In these cases, 
initial test results, together with DOE's plans, procedures and 
schedules for the longer-term collection and review of such 
confirmatory information should suffice for us to begin a meaningful 
review and analysis of the license application. We expect that, in 
addition to the information included in the potential license 
application, DOE would continue to provide additional confirmatory 
information before NRC reaches a licensing decision.
    Question 7. The Nuclear Waste Policy Act, as amended, allows the 
NRC 3 to 4 years in which to decide whether to license the repository 
after receiving the license application from DOE. If DOE submits an 
incomplete license application, how much longer than the 3 or 4 years 
allotted do you think it will take the NRC to complete its work?
    Answer. The procedural regulations that govern submission of a 
license application for a potential high-level waste repository are 
contained in Subpart J (Procedures Applicable to Proceedings for the 
Issuance of Licenses for the Receipt of High-Level Radioactive Waste at 
a Geologic Repository) in 10 CFR Part 2. The 3-4 year schedule outlined 
in 10 CFR Part 2, Appendix D (Schedule for the Proceeding on 
Application for a License to Receive and Possess High-Level Radioactive 
Waste at a Geologic Repository Operations Area), would not start until 
the NRC's Director of Nuclear Material Safety and Safeguards determines 
that the application is complete and acceptable for docketing.
    Based on our technical reviews and pre-licensing interactions, we 
believe that sufficient information can be provided at the time of a 
license application. The Department of Energy (DOE) and Nuclear 
Regulatory Commission (NRC) have reached and documented numerous 
agreements regarding the submission of additional information. Based on 
these agreements, DOE has committed to assemble the information 
necessary for an application that NRC can accept for review.

                  QUESTIONS BY HON. GEORGE RADANOVICH

    Question 1. Under the Nuclear Waste Policy Act, the DOE shall file 
its license application with the NRC within 90 calendar days after the 
selection of the Yucca Mountain site (assuming Congress were to 
override Governor Guinn). Are you aware that DOE has now acknowledged 
that it will not be able to file a license application until at least 
December 2004? Do you believe that NRC may legally accept an 
application after expiration of the 90 days and must this application 
be complete, or may it be a partial application?
    Answer. As noted above, the Nuclear Regulatory Commission (NRC) is 
aware that the Department of Energy (DOE) does not plan to submit a 
license application for a high-level waste repository until December 
2004.
    The Nuclear Waste Policy Act (NWPA) does not prohibit the NRC from 
considering an application after expiration of the 90 days. The NWPA 
states that in Sec. 114(d) the Commission ``shall consider an 
application for a construction authorization for all or part of a 
repository in accordance with the laws applicable to such 
applications.''
    Question 2. You stated in your testimony that DOE must complete 
actions necessary to fulfill a large number of agreements with NRC for 
scientific work as well as back up information for prior assumptions. 
Will NRC require all of these agreements to be fulfilled prior to the 
submission of a license application by DOE?
    Answer. No. The Department of Energy (DOE), however, will need to 
provide enough information on all the agreements for the Nuclear 
Regulatory Commission (NRC) to commence a licensing review. Portions of 
a few agreements concern longer-term studies related to performance 
confirmation, and as such, we expect that DOE will continue to collect 
certain information supporting these agreements for some time after 
submitting the license application. In these cases, initial test 
results, together with DOE's plans, procedures and schedules for the 
long-term collection and review of such confirmatory information should 
be sufficient for us to begin a review of the license application. We 
expect that, in addition to the information included in the potential 
license application, DOE would continue to provide additional 
confirmatory information before NRC reaches a licensing decision.
                                 ______
                                 
Responses for the Record of Gary L. Jones, Director, Natural Resources 
            and Environment. U.S. General Accounting Office

                 QUESTIONS FROM CONGRESSMAN ED MARKEY:

    Question 1. Your report states that it will take until 2006 for DOE 
to be able to submit an acceptable license application to the NRC. 
DOE's response is that it will submit a ``shell'' NRC license 
application, filling in the missing information in the years to come.
    A. Do you believe that submitting a ``shell'' application that is 
missing hundreds of technical details that relate directly to whether 
the repository can be safely constructed is legal under the Nuclear 
Waste Policy Act?
    Response: The Nuclear Waste Policy Act of 1982, as amended, sets 
out the timing of DOE's submission of a license application to the 
Nuclear Regulatory Commission (NRC), but does not specify the 
information that must be included. NRC has issued regulations 
establishing the requirements for a license application for the Yucca 
Mountain site, including a detailed list of the information that must 
be included in the application. The regulations state that information 
to be provided to NRC by a license applicant must be ``complete and 
accurate in all material respects'' and ``must be as complete as 
possible in light of the information that is reasonably available at 
the time of docketing.'' In this regard, NRC commented on November 13, 
2001, on its expectations for a license application. In its preliminary 
comments to DOE, NRC stated that, although significant additional work 
is needed prior to the submission of a possible license application, 
the 293 agreements reached between DOE and NRC staff regarding the 
collection of additional information and analysis provided the basis 
for concluding that development of an acceptable license application is 
achievable. When DOE submits the license application, it will be up to 
NRC to determine whether the application is acceptable under the 
Nuclear Waste Policy Act and NRC's regulations.
    B. Do you believe that it will be possible for NRC to consider such 
an application, or are the unresolved issues just too fundamental?
    Response: If the Congress approves the Yucca Mountain site for a 
repository license application this summer, DOE would then have 90 days 
to submit a license application to NRC. However, on the basis of NRC's 
comments, discussed above, it does not appear that DOE could provide an 
application that would be acceptable to NRC in that time frame. By the 
end of September, for example, NRC's staff expects that only about 60 
of the 293 agreements with DOE on additional information needed for an 
acceptable license application may be complete. DOE recognizes that it 
would not be ready to submit an acceptable license application by the 
end of this year. In fact, DOE and its management contractor for the 
repository program--Bechtel SAIC Company, LLC--are attempting to 
develop a new baseline for the repository project that would result in 
submission of a license application in December 2004. According to the 
contractor's draft baseline proposal, and assuming adequate funding, 
DOE would complete the work required for all but 10 of the 293 
agreements by that time. DOE is reviewing, but has not approved, the 
contractor's latest proposal. Under this scenario, it would be up to 
NRC to determine if the license application is sufficiently complete 
for NRC's acceptance and initiation of its formal review of the license 
application.
    Question 2. Testimony that has been submitted by the Nuclear Energy 
Institute states that there is a ``fundamental lack of understanding by 
the GAO about the repository siting process'' because GAO reported that 
there are 293 technical issues that DOE should resolve prior to making 
a site recommendation. However, my understanding is that GAO did not 
say that a site recommendation could not be made without resolution of 
those 293 issues, but that a license application could not be 
submitted. Can you please clarify this matter for me?
    Response: In our December 2001 report, we recommended that the 
Secretary of Energy consider (1) deferring a site recommendation for 
the Yucca Mountain site until DOE could meet the express statutory time 
frames that are triggered by a site recommendation by the President to 
the Congress and (2) including the results of DOE's ongoing technical 
work for NRC and the results of analyses of alternative approaches to 
the proposed repository in the Secretary's comprehensive statement of 
the basis for a site recommendation. Although we explicitly recognized 
that a site recommendation to the president was within the Secretary's 
discretion, we also concluded that such a recommendation at that time 
might be premature because of statutory timing requirements, the work 
remaining to be completed for an acceptable license application, and 
the relationship between the information required to support a site 
recommendation and a license application. Specifically, once the 
President, on the basis of the Secretary's recommendation and 
comprehensive statement, finds the Yucca Mountain site qualified for a 
license application and recommends the site to the Congress, the 
Nuclear Waste Policy Act requires DOE to submit a license application 
to NRC within about 5 to 8 months (assuming final approval of the 
site). DOE was not, and is not, in a position to meet that statutory 
timing requirement. Also, DOE was gathering and analyzing technical 
information required to satisfy 293 agreements with NRC. Completion of 
this work, according to NRC, was essential for it to accept a future 
license application from DOE. Finally, while a site recommendation to 
the president and a license application to NRC are separate processes, 
under the Nuclear Waste Policy Act and DOE's guidelines for determining 
if the Yucca Mountain site is suitable for a repository, DOE will need 
to use essentially the same data for both processes.

             QUESTIONS FROM CONGRESSMAN GEORGE RADANOVICH:

    Question 1. In your report on the Yucca Mountain program, the GAO 
recommends that DOE defer a site recommendation until it has completed 
the work needed to submit a license application. Can you give some 
indication of the nature of the work that remains to be done in the 
view of GAO?
    Response: As discussed in our December 2001 report, DOE and NRC 
have negotiated 293 areas of study within the repository program where 
NRC's staff has determined that DOE needs to collect more scientific 
data and/or improve its technical assessment of the data before DOE 
could submit an acceptable license application. As of March 2002, 
according to NRC, DOE had satisfactorily completed work on 38 of these 
agreements. These 293 agreements generally relate to uncertainties 
about three aspects of the long-term performance of the proposed 
repository:

<bullet> The expected lifetime of engineered barriers, particularly the 
        waste containers. DOE currently expects that the waste 
        containers would isolate the wastes from the environment for 
        more than 10,000 years. Minimizing uncertainties about the 
        container materials and the predicted performance of the waste 
        containers over this long time period is especially critical 
        because DOE's estimates of the repository system's performance 
        depend heavily on the waste containers, in addition to the 
        natural features of the site, to meet NRC's licensing 
        regulations and EPA's health and safety standards.
<bullet> The physical properties of the Yucca Mountain site. 
        Uncertainties related to the physical characteristics of the 
        site center on how the combination of heat, water, and chemical 
        processes caused by the presence of nuclear waste in the 
        repository would affect the flow of water through the 
        repository.
<bullet> The supporting information for the mathematical models used to 
        evaluate the performance of the planned repository at the site. 
        The NRC staff's concerns primarily relate to presentation of 
        information that would provide confidence that the models are 
        valid for their intended use, as well as verification of the 
        information used in the models. Performance assessment is an 
        analytical method that relies on computers to operate 
        mathematical models to assess the performance of the repository 
        against EPA's health and safety standards, NRC's licensing 
        regulations, and DOE's guidelines for determining if the Yucca 
        Mountain site is suitable for a repository. DOE uses the data 
        collected during site characterization activities to model how 
        a repository's natural and engineered features would perform at 
        the site.
    The 293 agreements on work that DOE would complete before 
submitting a license application provided, from NRC's perspective, one 
of the bases for the Commission to state, in its preliminary comments 
on the sufficiency of DOE's investigation of the Yucca Mountain site, 
that the development of an acceptable license application is 
achievable.
    Question 2. The report prepared by GAO concludes that DOE cannot 
meet its longstanding goal of opening a repository in 2010. What, in 
your view, is a more realistic estimate for the opening of a 
repository?
    Response: In our view, a more realistic estimate of an achievable 
date for opening a repository at Yucca Mountain is as early as 2012 to 
as late as 2015--assuming that adequate funding is provided each year 
to make this estimate achievable. Our estimate is based on the 
following three factors

<bullet> submission by DOE of a license application to NRC in January 
        2006, as estimated by DOE's managing contractor in its 
        September 2001 detailed reassessment of the repository program;
<bullet> issuance of a construction license by NRC after the 3- to 4-
        year licensing period specified in the Nuclear Waste Policy 
        Act;
<bullet> construction of enough of the repository to open it in the 4-
        year period projected by DOE or the 5-year period estimated by 
        a DOE contractor that independently reviewed the cost and 
        schedule for the project; the potential effect on the 
        repository schedule of future annual appropriations.
    Furthermore, our estimate could be optimistic for several reasons. 
First, the repository project is the first of its kind, and thus 
subject to relatively high levels of technical, cost, and schedule 
uncertainties. Second, according to DOE's managing contractor, its 
September 2001 detailed reassessment, the proposed schedule for 
completing outstanding work and submitting a license application in 
January 2006 did not include any cost and schedule contingencies. 
Finally, if DOE does not request and obtain funds in the amounts that 
it projects will be required to complete future site investigation, 
licensing, and construction activities on its schedule. In this regard, 
DOE stated, in an August 2001 report (Alternative Means of Financing 
and Managing the Civilian Radioactive Waste Management Program, DOE/RW-
0546), that unless the program's funding is increased, the budget might 
become the ``determining factor'' in whether DOE will be able to accept 
wastes in 2010.
    More recently, DOE and its managing contractor have developed 
another preliminary reassessment of the cost, schedule, and technical 
baseline for the repository program that, if approved and followed, 
could result in submission of a license application to NRC in December 
2004, or 13 month earlier than the contractor's September 2001 
preliminary reassessment. Achievement of this timing objective could, 
all other conditions remaining the same, lead to operation of the 
repository in the 2011 to 2014 time period.
                                 ______
                                 
                       Nuclear Waste Technical Review Board
                                                       May 22, 2002
Honorable Joe Barton
Chairman
Subcommittee on Energy and Air Quality
Committee on Energy and Commerce
U.S. House of Representatives
2125 RHOB
Washington, DC 20515-6115
    Dear Mr. Barton: Thank you very much for the opportunity to present 
the views of the Nuclear Waste Technical Review Board at a hearing 
before the Subcommittee on Energy and Air Quality on April 18, 2002. 
Enclosed are responses to questions from Representatives Ed Markey and 
George Radanovich that were enclosed in your letter of April 22, 2002. 
The questions follow up on issues raised during the hearing.
    As you know, the Board is charged by Congress with conducting an 
ongoing and independent review of the technical and scientific validity 
of activities undertaken by the Secretary of Energy associated with the 
management of the country's commercial spent nuclear fuel and defense 
high-level radioactive waste. The Board provides its technical views to 
help inform the larger consideration of issues that face the Department 
of Energy and Congress related to nuclear waste disposal.
    Please do not hesitate to contact me or have your staff contact 
Bill Barnard, Board Executive Director, if you have questions related 
to the Board's responses or any other issue related to the Board's 
technical and scientific review.
            Sincerely,
                                             Jared L. Cohon
                                                           Chairman
Enclosure

                 QUESTIONS FROM CONGRESSMAN ED MARKEY:

    Question 1. In addition to the Nuclear Waste Technical Review Board 
(NWTRB), the International Atomic Energy Agency/Nuclear Energy Agency 
has reviewed the scientific and technical work of the DOE. They state 
in their review that ``In general, the level of understanding of the 
hydro-geology of the site . . . is low, unclear and insufficient to 
support an assessment of the realistic performance.'' They continue 
``Until these questions are answered, it is not possible to develop a 
realistic conceptual model of the site, or to build a probabilistic 
saturated zone local model.' Do you agree with their assessment? Is the 
DOE's model unrealistic because of lack of data and basic understanding 
of physical process?
    Answer: We agree generally with the concerns expressed by the 
International Atomic Energy Agency/Nuclear Energy Agency Peer Review 
Panel (International Panel) but would like to make several observations 
to put their comments in perspective. The International Panel comment 
cited above includes three elements: (1) an assessment of the realistic 
performance, (2) a realistic conceptual model of the site, and (3) a 
saturated zone local model. (In the context of this question, realism 
may be viewed as the set of models and assumptions that most nearly 
describes the natural and engineered repository system and produces 
neither overly pessimistic nor overly optimistic predictions of waste 
isolation.) The three elements are interlinked: A realistic performance 
assessment requires a realistic saturated zone site-scale model, and 
that requires a realistic conceptual model. Although the general 
concepts of the Yucca Mountain hydrogeologic system are understood, 
important details remain unresolved. Consequently, the performance 
estimates for the saturated zone in the Total System Performance 
Assessment for Site Recommendation (TSPA-SR) may not be realistic. The 
TSPA-SR was the sole focus of the International Panel. Since that time, 
results released by the DOE in subsequent documents indicate that some 
progress has been made in addressing questions raised by the 
International Panel and in developing a credible conceptual model of 
the site. Those results have not been incorporated in performance 
assessments, however, and substantial work remains to be done to 
develop a realistic saturated zone site-scale model on which a 
realistic assessment of performance attributable to site hydrogeology 
could be based.
    In answer to your question on the DOE's model, the Board stated in 
its January 24, 2002, letter report to Congress and the Secretary of 
Energy that it has limited confidence in current DOE performance 
estimates because of uncertainties created by gaps in data and basic 
understanding of the proposed repository system (including the 
saturated zone). The Board has recommended that, if policy-makers 
decide to approve the Yucca Mountain site, the DOE should continue a 
vigorous, well-integrated scientific investigation to increase its 
fundamental understanding of the potential behavior of the repository 
system. Increasing understanding could show that components of the 
repository system, including the saturated and unsaturated zones, 
perform better than or not as well as the DOE's performance assessment 
model now projects. In either case, making performance projections more 
realistic and characterizing the full range of uncertainty could 
improve the DOE's performance estimates.
    Question 2. The DOE is relying heavily on the ability of the 
canisters to withstand corrosion and contain the radioactive waste for 
long periods of time. The NWTRB report states that essentially no 
corrosion data exists for conditions above 275 degrees (120 deg. C), 
despite the fact the repository could reach temperatures as high as 350 
degrees (165 deg. C). In your opinion, can the DOE make any real 
assessment of the engineered barriers above 275 degrees? What are some 
of the effects that elevated temperatures could have on the canisters?
    Answer: To answer your second, more general, question first: The 
severity of corrosion tends to increase with increasing temperatures. 
In fact, some forms of corrosion are not even observed unless the 
temperature exceeds a certain threshold value. This applies to 
essentially all alloys and metals used as construction materials, 
including Alloy 22, the material that the DOE has chosen to provide 
corrosion resistance for its waste package. In addition, and perhaps 
more important, predicting the chemistry (composition and strength) of 
salt solutions contacting the waste packages becomes more difficult and 
more uncertain with increasing temperature. The type and severity of 
corrosion depend on the makeup of those solutions.
    Regarding your first question, data on the chemistry of salt 
solutions that may contact the waste package as well as data on 
corrosion of Alloy 22 exposed to such waste package environments are 
both essentially nonexistent for temperatures above 120 deg. C. These 
key data needed to assess the likelihood that corrosion could penetrate 
waste packages during the 10,000-year regulatory period. This absence 
of information weakens the technical basis of the DOE's performance 
estimates for its high-temperature, base-case repository design. 
Uncertainty about waste package performance decreases, however, with 
lower repository temperatures because more corrosion data and more data 
on the chemistry of salt solutions that may contact waste package 
surfaces are available. Uncertainty also is reduced with low 
temperatures because corrosion severity generally decreases as 
temperatures decrease. The Board believes, therefore, that confidence 
in waste package and repository performance potentially could increase 
if the DOE adopts a low-temperature repository design. However, a full 
and objective comparison of high- and low-temperature repository 
designs should be completed before the DOE selects a final repository 
design concept.
    Question 3. The DOE only has 2 years of corrosion data for alloy 22 
based canisters, yet they are extrapolating this data to 10,000 years. 
Is this acceptable? Is there currently any way to adequately determine 
the integrity of these canisters 10,000 years in the future?
    Answer: Alloy 22 relies on the formation of an ultrathin passive 
(i.e., nonreactive) film for its corrosion resistance. The DOE's models 
predict that corrosion will not penetrate Alloy 22 waste packages for 
at least 10,000 years, perhaps for longer than a million years. 
However, experience with Alloy 22 and comparable alloys spans only 
several decades, and experience with alloys that rely on passive films 
for corrosion resistance spans only about a century. Although a few 
natural or man-made materials have been identified that might provide 
insights into the long-term passivity of metals, none has been 
confirmed yet as a suitable analogue. Thus, this type of corrosion 
resistance over many thousands of years can be extrapolated only by 
using theories and assumptions. At this point, on the basis of the 
information developed by the DOE and others, Board members believe that 
claims of minimum waste package durability of a few thousand years to a 
few tens of thousands of years are not out of the question. Underlying 
this belief are the following suppositions: that temperatures and 
chemical conditions on the waste-package surface will be no more severe 
or uncertain than those in the DOE's preliminary analysis of the low-
temperature operating mode; that supporting research will be continued 
to fill in data gaps and to rule out unexpected modes of failure; that 
research, development, and demonstration of waste-package welding, 
fabrication, and inspection are completed successfully; and that no 
major ``surprises'' are found.
    Question 4. The Chlorine-36 ``fingerprints'' of above ground 
nuclear testing have been found in the interior of Yucca Mountain, 
suggesting that water from the surface can migrate 1000 feet to the 
repository level of the mountain within 50 years. What are the 
implications of this data for contamination of the ground water below 
the repository? What are the implications for corrosion of the 
canisters?
    Answer: The discovery of elevated amounts of chlorine-36 (a product 
of nuclear testing in the 1950's) at the depth of the proposed 
repository at Yucca Mountain would provide direct evidence of the 
existence of ``fast paths// through which rainwater could travel from 
the surface of Yucca Mountain to the repository horizon within about 50 
years. However, questions have been raised about the validity of the 
results of the original chlorine-36 study that showed evidence of such 
fast paths. In 1999, the DOE sought to validate the original tests. 
Scientists using different testing procedures have shown differing 
estimates of the amount of chlorine-36 present in the underground 
rocks. The validation study is still under way, and the DOE has not 
reached any conclusions. The DOE's current models of repository 
performance are based on the general assumption that some fast-flow 
paths do exist in Yucca Mountain.
    To answer the question on the effects of possible fast paths on 
groundwater contamination, it would be necessary to verify that they 
exist and to estimate the volume of water being transported along the 
pathways under current and future climate conditions. The chlorine-36 
validation study may resolve the question of the presence or absence of 
fast pathways for water flow. Estimation of the volumetric flux 
associated with fast pathways requires additional investigations, some 
of which are ongoing and some of which are planned.
    In terms of the effects of fast paths on waste package corrosion 
rates, if the assumption is (as the DOE's is) that corrosion proceeds 
as rapidly under high-humidity conditions as under dripping conditions 
(a reasonable assumption), whether fast paths are present or absent has 
essentially no effect on waste package corrosion rates. However, larger 
fluxes of water generally result in shorter times of radioactive waste 
isolation. Current models, based on multiple lines of evidence, do not 
allow for large volumes of water to flow through these fast pathways. 
If the current thinking is found to be incorrect, then radionuclide 
transport predictions may need to be revised.
    Question 5. Secretary Abraham said in his testimony that Yucca 
Mountain will meet the EPA radiological exposure standard. But the 
NWTRB report notes that DOE has not published updated calculations of 
radiological doses based on the recent travel time estimates. Is the 
Secretary's statement premature? Can DOE be confident that Yucca 
Mountain will meet the EPA's standard without having completed these 
calculations?
    Answer: The DOE's performance calculations should be updated to 
take into account new information on travel-time estimates. However, 
because many things, in addition to groundwater travel times, affect 
the DOE's projections of compliance, the effect of revised travel-time 
estimates on judging compliance with the EPA standard may not be large. 
For example, current DOE models show that the waste package will last 
longer than the 10,000-year compliance period.
    The Board believes that the technical basis for the DOE's current 
repository performance estimates is weak to moderate. The question of 
whether the Secretary's statement is premature depends on how much 
uncertainty one finds acceptable at this decision point. That is a 
policy question, which is outside the Board's technical and scientific 
mandate.
    Question 6. Spent fuel--uranium dioxide--will be the majority of 
the stored waste in Yucca Mountain. What will happen to the fuel rods 
as they sit in the repository? Will they rust? Has the DOE considered 
the effect of rusting in their assessment of Yucca Mountain and 
containment of the radioactive waste?
    Answer: The spent-fuel rods consist of uranium dioxide pellets 
enclosed in metallic cladding. The cladding for the vast majority of 
the rods is zircaloy, a very corrosion-resistant alloy of zirconium. 
Once the cladding is exposed to aqueous or high-humidity environments 
(e.g., after penetration of the waste package), the cladding will begin 
to corrode. Eventually, corrosion will cause the cladding to fail after 
thousands of years. The DOE has considered cladding corrosion in its 
performance assessment models. However, the Board believes that the 
DOE's current level of understanding of cladding performance is 
incomplete and should be improved.

             QUESTIONS FROM CONGRESSMAN GEORGE RADANOVICH:

    Question 1. Would you agree with the statement ``Geologic isolation 
cannot and will not play any significant role at the Yucca Mountain 
repository?''
    Answer: No, the statement is too strong. Although the DOE's current 
estimates of repository performance rely heavily on components of the 
engineered barrier system, the natural barriers do play a role. Further 
analysis and the reduction of uncertainties will permit a more 
realistic assessment of the relative significance of the contribution 
of the engineered and natural barriers in the proposed repository 
system.
    Question 2. What is the NWTRB opinion of the ability of the man-
made containers to meet the NRC and EPA standards for radioactive 
release into the environment?
    Answer: At this point, on the basis of the information developed by 
the project (and others), Board members believe that claims of minimum 
waste package durability of a few thousand years to a few tens of 
thousands of years are not out of the question under relatively mild 
and less uncertain (lower temperature) in-drift conditions. Underlying 
this belief are the following suppositions: that temperatures and 
chemical conditions on the waste-package surface will be no more severe 
or uncertain than those in the DOE's preliminary analysis of the low-
temperature operating mode; that supporting research will be continued 
to fill in data gaps and to rule out unexpected modes of failure; that 
research, development, and demonstration of waste-package welding, 
fabrication, and inspection are completed successfully; and that no 
major ``surprises'' are found.

[GRAPHIC] [TIFF OMITTED] T9469.162

[GRAPHIC] [TIFF OMITTED] T9469.163

[GRAPHIC] [TIFF OMITTED] T9469.164

[GRAPHIC] [TIFF OMITTED] T9469.165


</pre></body></html>
